<html>
<title> - THE FISCAL YEAR 2015 BUDGET FOR VETERANS' PROGRAMS</title>
<body><pre>[Senate Hearing 113-599]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 113-599

                    THE FISCAL YEAR 2015 BUDGET FOR 
                           VETERANS' PROGRAMS

=======================================================================



                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                     
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 12, 2014

                               __________

       Printed for the use of the Committee on Veterans' Affairs


         Available via the World Wide Web: http://www.fdsys.gov
         
                                __________

                     U.S. GOVERNMENT PUBLISHING OFFICE 

88-404 PDF                   WASHINGTON : 2015 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                                   
         
                     COMMITTEE ON VETERANS' AFFAIRS

                 Bernard Sanders, (I) Vermont, Chairman
John D. Rockefeller IV, West         Richard Burr, North Carolina, 
    Virginia                             Ranking Member
Patty Murray, Washington             Johnny Isakson, Georgia
Sherrod Brown, Ohio                  Mike Johanns, Nebraska
Jon Tester, Montana                  Jerry Moran, Kansas
Mark Begich, Alaska                  John Boozman, Arkansas
Richard Blumenthal, Connecticut      Dean Heller, Nevada
Mazie Hirono, Hawaii
                    Steve Robertson, Staff Director
                 Lupe Wissel, Republican Staff Director
                 
                 
                            C O N T E N T S

                              ----------                              

                             March 12, 2014
                                SENATORS

                                                                   Page
Sanders, Hon. Bernard, Chairman, U.S. Senator from Vermont.......     1
Isakson, Hon. Johnny, U.S. Senator from Georgia..................     2
Brown, Hon. Sherrod, U.S. Senator from Ohio......................     4
Johanns, Hon. Mike, U.S. Senator from Nebraska...................     5
Tester, Hon. Jon, U.S. Senator from Montana......................     6
Hirono, Hon. Mazie, U.S. Senator from Hawaii.....................     7
Murray, Hon. Patty, U.S. Senator from Washington.................   183
Blumenthal, Hon. Richard, U.S. Senator from Connecticut..........   190
Boozman, Hon. John, U.S. Senator from Arkansas...................   194
Moran, Hon. Jerry, U.S. Senator from Kansas......................   199

                               WITNESSES

Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans 
  Affairs; accompanied by Hon. Robert A. Petzel, M.D., Under 
  Secretary for Health; Hon. Allison A. Hickey, Under Secretary 
  for Benefits; Hon. Steve L. Muro, Under Secretary for Memorial 
  Affairs; Stephen W. Warren, Executive in Charge for Information 
  and Technology; and Helen Tierney, Executive in Charge for the 
  Office of Management and Acting Chief Financial Officer........     8
    Prepared statement...........................................    10
    Response to posthearing questions submitted by:
      Hon. Bernard Sanders.......................................    20
      Hon. Richard Burr..........................................    63
      Hon. Jerry Moran...........................................   159
      Hon. John Boozman..........................................   166
      Hon. Dean Heller...........................................   167
    Response to request arising during the hearing by:
      Hon. Johnny Isakson........................................   182
      Hon. Patty Murray..........................................   184
      Hon. Jon Tester............................................   189

                                APPENDIX

Zumatto, Diane, National Legislative Director, AMVETS; prepared 
  statement......................................................   207
Varela, Paul R., Assistant National Legislative Director, 
  Disabled American Veterans; prepared statement.................   209
Paralyzed Veterans of America (PVA); prepared statement..........   216

 
                    THE FISCAL YEAR 2015 BUDGET FOR 
                           VETERANS' PROGRAMS

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                                       U.S. Senate,
                            Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:02 p.m., in 
room 418, Russell Senate Office Building, Hon. Bernard Sanders, 
Chairman of the Committee, presiding.
    Present: Senators Sanders, Murray, Brown, Tester, 
Blumenthal, Hirono, Isakson, Johanns, Moran, and Boozman.

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
              CHAIRMAN, U.S. SENATOR FROM VERMONT

    Chairman Sanders. OK, let's get to work.
    I want to thank all of our guests from VA for being with us 
today to discuss the budget.
    Let me begin by thanking General Shinseki and others for 
tackling some enormously difficult problems in this enormously 
difficult period facing our veterans. I think if there is 
anything that I have learned in the year and 3 months that I 
have been Chairman of this Committee it is that the cost of war 
is much, much greater, I think, than most Americans perceive.
    We are dealing now with hundreds of thousands of men and 
women who have come home from Iraq and Afghanistan, dealing 
with traumatic brain injury and post traumatic stress disorder. 
Those are tough illnesses to deal with, and the magnitude, the 
numbers, are extraordinary. That is an issue I think we will 
focus on today--the magnitude of that problem--hundreds of 
thousands of men and women dealing with TBI and PTSD is a huge 
issue.
    We have seen 2,300 individuals suffer wounds in war that 
make it impossible for them to have kids. How do we respond to 
that?
    We have seen a situation within the VA and throughout our 
country there is a feeling that too many patients are being 
overmedicated. What kind of alternatives are out there?
    And I think VA, by the way, is doing some cutting-edge work 
in trying to respond to pain and other problems through 
complementary and alternative medicine. How do we address that?
    We are dealing with an issue that several years ago the 
U.S. Congress passed a very, very important piece of 
legislation, making sure that people who served in Iraq and 
Afghanistan have the ability to go to college. That has worked, 
by and large, very, very well. Problems remain. How do we 
address that?
    Going back to the issues of mental health, we are all 
distressed and saddened by the number of suicides that we face, 
a very difficult issue inside the military, inside the VA, 
inside the United States of America, our general population. 
How do we deal with that?
    We are dealing with the issue that the VA, in the last 
several years, has transformed their claims system--going from 
paper to digital. We think we are making some progress. We want 
to continue that progress. How do we make sure that we continue 
that progress so that every veteran in this country gets their 
claim adjudicated in a timely manner?
    The VA has, in my view, over the years done a good job in 
terms of reaching out in primary health care through CBOCs. How 
do we make sure that the proper number of CBOCs continue to be 
built and maintained?
    So, we have a whole lot of issues facing us. These are 
tough times for the veterans' community, coming out of two 
wars, dealing with older veterans from World War II, Korea, 
Vietnam, and we are not going to turn our backs on those 
veterans.
    I, again, want to thank the VA. It is very easy to beat up 
on the VA because they are big, they are bureaucratic, and they 
are public, so that every problem they have, which is many when 
you run 151 medical centers--I am sure that there is a problem 
at every one every day, and often they get on the front pages. 
But sometimes we forget that many millions of veterans are 
accessing them and are very proud and happy with the care that 
they are getting.
    So, our job is to keep the VA moving forward, address the 
serious problems they have, give them the support they need, 
and that is what this budget hearing is about.
    Senator Isakson.

               STATEMENT OF HON. JOHNNY ISAKSON, 
                   U.S. SENATOR FROM GEORGIA

    Senator Isakson. Well, thank you, Mr. Chairman.
    I appreciate Secretary Shinseki, Dr. Petzel and the rest of 
you for being here today. I appreciate the job that you do.
    Chairman Sanders made a very obvious statement; you all are 
very easy to pick on, but you probably have the hardest job in 
Washington, DC, and the biggest responsibility in the years to 
come. We are grateful for your service and grateful for what 
you do.
    As I understand it, your request calls for $10 billion in 
an increase in VA's overall budget and $2 billion in 
discretionary spending.
    You know, our responsibilities in Washington are to 
appropriate and to legislate, but we also have another 
responsibility in our committees, and that is oversight.
    Some issues came up this morning that I think I want to 
address in my opening statement so that Secretary Shinseki can 
possibly address them in his responses later in the hearing.
    As we heard from the Wounded Warrior Project this morning, 
one area that needs oversight is the caregiver program. What we 
know about this program so far included inconsistent decisions 
regarding eligibility, no quality assurance to monitor the 
quality, consistency, and timeliness of decisions, and no 
formal process to appeal the decision or eligibility for 
caregiver assistance.
    I know many, including Chairman Sanders, believe this 
program should be expanded and included to all veterans. Yet, 
we need to ensure its proper implementation before we expand 
this program. We should do this for any program and provide the 
oversight necessary to do it right.
    Since the beginning of 2013, the Veterans Health 
Administration has been plagued by a series of quality 
management issues that have resulted not only in patient harm 
but also patient death. These issue range from the misuse of a 
single patient multi-use insulin pen to an outbreak of 
Legionella to delays in mental health care and GI consults.
    You all know what we have experienced in the Atlanta VA, at 
the medical center in Atlanta, with regard to mental health and 
suicide.
    The inspector general has released over 40 health care 
inspections during the Congress. That is roughly three per 
month.
    Veterans have sacrificed so much already and deserve world-
class health care, yet our Nation's veterans are facing long 
delays in scheduling appointments and assessing needed 
services.
    Another area the veterans face is the longtime backlog in 
claims, which I know you are making progress on. I know by 
2015--we have goals that are terrific, but we have got to make 
sure we deal not just with statistics but with the actual 
effect on the lives of these veterans and their families.
    So, this work on reducing the claim times and the waste is 
going to be critically important. 1.2 million veterans still 
wait today for a determination. That is a huge number; there 
are way too many.
    On the issue of suicide, I want to thank Robert Petzel 
immensely for three things--one, his willingness to come to 
Atlanta in the field hearing that we conducted in August 
including 2-\1/2\ hours of emotional, and I am sure painful to 
a certain extent, information about the tragedies we had in the 
Atlanta VA with three suicide deaths and one drug overdose.
    Mr. Secretary, I want to commend you on the replacement of 
the director at the hospital. The new director, Ms. Wiggins, is 
doing an outstanding job.
    Unfortunately, we had another incident about 2 weeks ago. 
She was on the phone to me first when it happened, took 
immediate action in terms of that incident, and accepted 
responsibility where responsibility was needed to be accepted.
    That is a great indication of the emphasis you, the 
Secretary, have put--and Robert Petzel has put--on this issue 
of suicide, which we must get our arms around. It is one area 
where I think oversight is going to be critical for us to move 
the paradigm and get best practices in every VA medical center 
in the country.
    Soft tissue injuries are the toughest to deal with. TBI and 
PTSD are the legacy of the contemporary wars we have been 
fighting. And suicide is the nasty byproduct of a drug overdose 
and misuse of drugs in terms of treating people and not having 
the right mental health follow-up with those patients.
    I am going to personally dedicate a lot of my time--I know 
John Boozman on our Committee is going to do the same--to delve 
into the issues of suicide, find out where those tragedies are 
taking place, and see if we can find common threads where we 
can implement best practices in the Veterans Administration so 
we do not lose so many soldiers by taking their own lives.
    Right now, we are losing an average of 22 a day, which is 
8,000 a year, and that is far too many. And it is not just 
combat veterans from Afghanistan and Iraq. In fact, in Atlanta, 
three of the four victims were veterans of the Vietnam-era war.
    It is a pervasive issue in the VA. It is actually a 
pervasive issue in the United States. We owe it to our veterans 
and to our country to see to it that we find every best 
practice possible and implement them.
    One of the things I am going to do, Mr. Chairman, is I am 
going to, as a one-man band or vigilante of one, is have field 
hearings--or, as a Committee representative, have field 
hearings--and do the oversight around the country necessary to 
bring the best practices to light, to try to do what Robert 
Petzel is doing right now, which is meeting with these 
veterans, getting the right answers, and trying to correct the 
paradigm, which I am grateful for you to do.
    I yield back the balance of my time.
    Chairman Sanders. Thank you.
    Senator Brown.

               STATEMENT OF HON. SHERROD BROWN, 
                     U.S. SENATOR FROM OHIO

    Senator Brown. Thank you, Mr. Chairman. I appreciate your 
leadership.
    Thank you, Mr. Secretary and all of you who are serving our 
veterans and serving our country so ably and so selflessly. 
Thank you for that.
    I reiterate the Chairman's comments about the cost of war.
    I think that Senator Isakson's aptly pointing out the 
terrible affliction--and Senator Tester has talked to me about 
this, too--of suicide in the military attests to that, as do 
unemployment rates, as do mental health problems, as do drug 
addiction, all of those costs of war that we should think about 
in this body more than we do.
    A couple of things I wanted to mention--one is VRAP and the 
significant contribution the Veterans Retraining Assistance 
Program has made to our veterans, to our communities.
    I have one brief story. Everett Chambers in Cleveland used 
VRAP funds to get retrained as an electrical engineering 
technician at Cuyahoga County Community College. He is one of a 
number of people I have met in Youngstown, Cincinnati, and all 
of over my State, who have benefited from VRAP. It is a program 
that works. We should do all we can to make sure that more 
people have that opportunity.
    Obviously, you cannot come in front of us without 
discussing the disability claims backlog and disability 
ratings--the unevenness of the ratings from a bum knee in San 
Diego being rating differently in terms of dollars than a bum 
knee in Columbus or Cleveland. The fixing of both the backlog 
and the disability ratings together makes sense.
    The last issue I would like to mention is I remain 
concerned with the Department's outsourcing more and more work. 
First, I believe the quality of outsourced work is often 
subpar. Second, many contractors lack the dedication of career 
civil servants, especially when you realize that places like 
the VA in Chillicothe, how assiduous they have been about 
hiring veterans, and I know that VA centers and CBOCs all over 
the country strive for that.
    We should not be outsourcing these jobs. Civil servants who 
decide to pursue a career assisting veterans lead to better 
services compared to services provided by those that are 
motivated by profit. I think we have seen that in example after 
example after example.
    It does not save taxpayer dollars. It may help politicians, 
but it does not save taxpayer dollars. We saw this at the very 
basic level in places like the Dayton VA medical center where 
laundry was outsourced and now workers say the clothes come 
back not as clean as they were.
    If the VA continues to outsource more and more activities, 
at some point, we are going to reach a point where the VA is a 
health insurance provider and not a health care provider. That 
does not serve veterans. It does not serve taxpayers. It does 
not serve the public.
    So, again, I thank you for your service, all of you.
    Chairman Sanders. Thank you, Senator Brown.
    Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Mr. Chairman, thank you.
    And to the team that is here today on behalf of the 
Veterans Administration, let me just say, welcome; we are glad 
to have you here.
    Mr. Secretary, thank you. You stopped by a couple weeks 
ago, and that is always appreciated. So, I want to thank you 
publicly for making that effort.
    In the past years, as we all know, Congress has made the VA 
a priority, and I believe appropriately so. The budget has been 
provided and there have been personnel increases. In some 
departments in the Federal Government, that is unheard of, but 
I think it indicates this Committee's commitment to our 
veterans and the commitment of the Congress to our veterans.
    Quite honestly, I doubt that this year will be any 
different. I think, again, veterans will be a priority, and we 
will make sure that that happens.
    Now, having said that--because I think that is on the good 
news piece of the equation--there are still challenges that we 
face. I do not think anybody in this hearing today is going to 
make the case that we are doing a great job in terms of the 
list to get disability ratings and get people an answer, which 
is really what we are trying to do, get people information.
    I keep hoping that we find that we are making progress. I 
hope your testimony will deal with that issue, but the claims 
backlog is a concern to all of us. It is not a partisan issue. 
It is a very, very bipartisan concern.
    The other thing that I am hoping there will be some 
discussion about is capital improvements. I scratch my head 
about this. And, Mr. Secretary, no reflection on you, but we 
have a project in Omaha, probably like other places around the 
United States, that is waiting for good news that we are moving 
up the list. Every time I meet with you, we slip further down.
    So, I am not saying there is a correlation. I am just 
saying, gosh, it is frustrating for us. So, I am hoping to hear 
your thoughts on that.
    I just think we are going to have to be creative in this 
area. I think you get near the bottom of the list, and these 
are still 1940s-50s facilities that are outdated. We have great 
employees trying to do the best they can under the 
circumstances, but at the end of the day, some of the folks 
near the bottom are going to be waiting a long time.
    I may not live long enough to see this, but I would like to 
see something creative to try to deal with that backlog.
    Again, thank you for being here. I know you come here with 
hearts that are pure. You want to help the veterans just like 
we do, and maybe we can have a good dialog on how best to do 
that in some of these areas.
    Mr. Chairman, thank you.
    Chairman Sanders. Thank you.
    Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    I want to welcome everybody from the Veterans 
Administration here today, too.
    I do not have my reading glasses, so all the beautiful 
notes that my staff wrote for me to tell you guys won't be 
read. [Laughter.]
    So, you are going to hear what I have to say. OK?
    I think the backlog issue is always a big issue. You know, 
we helped create that in Congress by doing the right thing a 
few years back with the Vietnam Vets.
    General Shinseki, having visited with you several times, I 
know it is a high priority for you. We will keep working on it; 
and this Committee is committed to help you get that backlog 
down.
    Staffing. I talked with Under Secretary Petzel a day or two 
ago about this issue. It is critically important in rural 
America. We are deficient. I think you guys are on top of it. 
We just need to make sure we get some things done in that area.
    I want to say a special thanks to Steve Muro. Thank you 
very much, Steve, for your work on cemeteries. It is a very, 
very important issue across the country, and I think you have 
done some great work.
    Mental health. It may be the biggest issue this country 
faces, whether you are in the military or you are out, but it 
is absolutely a critical issue in the military, and we need to 
figure out how we can handle it.
    It is very expensive, but we need to do everything we can 
do, whether it is best practices or whether it is just plain, 
old experts in the field, to be able to develop partnerships, 
to be able to make sure that we give our veterans--as you guys 
have heard from me before, particularly in rural America, that 
those veterans need help. They are isolated anyway. It is a big 
issue, and we need to work together to get that done.
    Construction. I would just say that I understand, and I 
think that you guys have done a great job on the CBOCs and the 
Vet Centers and those things around the country. I think that 
there is opportunity for some advancement there. But I think 
you are dealing with operations and maintenance issues right 
now in many of your buildings, getting them up to snuff so that 
the potential for things like the veterans' home in Butte, MT, 
does not hit the list.
    I appreciate that prioritization, but I certainly would 
look forward to working together with you guys and through the 
Appropriations Committee to figure out some way in which we can 
address some of these senior veterans who served this country 
so very well in the military and in the private sector that 
need and deserve a place to live their later years.
    Next, I say thank you to the VSOs that are in the room--
thank you guys very, very much for your input to us regarding 
the VA. They are not perfect. There are things that they have 
to do, but I think it is through the leadership of the VSOs 
that we are able to advocate on the issues that you think are 
important.
    And the one other issue I am going to talk about is 
advanced appropriations. I think that is a big win for the VA, 
and it would not have had happened without the veterans service 
organizations all being on the same page.
    Thank you, Mr. Chairman.
    Chairman Sanders. You did very well without your staff 
notes.
    Senator Hirono.

                STATEMENT OF HON. MAZIE HIRONO, 
                    U.S. SENATOR FROM HAWAII

    Senator Hirono. Thank you, Mr. Chairman.
    I want to add my thanks to that of the Members of this 
Committee. All of us are very much in support of the 
priorities, Mr. Secretary, that you have articulated.
    Certainly, increasing access to VA benefits, cutting or 
eliminating the backlog to claims, ending homelessness, the 
mental health issues, the suicide rates--these are all areas 
that we have bipartisan support on the Committee.
    Of course, Hawaiian veterans face many of the same 
challenges that veterans across the country face, and add to 
that the fact that our veterans are--the distance is water, not 
just land, as they live on all of our major islands.
    I think it is really important to focus on the issue of 
veteran homelessness. I recently visited the VET house in 
Kalihi. I think it is an area of our community that, Mr. 
Secretary, you know.
    But, on the issue of homelessness, the support that we give 
to programs such as the Veterans Engaged in Transition, VET, 
houses, I think really hold promise.
    So, this VET house that I visited is an eight-bedroom home 
in a community in Kalihi. What very much impressed me was that 
this was a situation where the veterans that were homeless are 
in transitional housing. They have places to go after they 
spend their 90 days in a stable environment because a lot of 
the homeless veterans do not have that stability in their 
lives. So, just to have a calm, supportive place for a period 
of time to enable them to get on with their lives is what I saw 
in this VET house.
    This particular house was created by a non-profit entity in 
partnership with money from a grant from the VA of $233,000. 
They worked with the Institute of Human Services, which is a 
non-profit organization in Hawaii that works to provide shelter 
for the homeless. So, they are in the community.
    The Lions, the Elks Club, other individuals and entities, 
including Home Depot, by the way, which as a company has made a 
huge commitment, as I am sure you know, to support veterans' 
programs, but to supply beds and all of that, and then the 
bedrooms were adopted by these community organizations.
    It was a terrific combination of people coming together, 
but it also would not have happened without the money from the 
VA grant.
    So, these are the kinds of programs that I very much 
support as hands-on. And, yes, it is aid to veterans, but I 
figure--you know what? Each one that we help to get on in a 
positive way with their lives, that is worth doing.
    So, I just wanted to let you know that every time I go 
home, as I am sure my colleagues do, we visit with veterans, 
which I did when I was home a couple weeks ago.
    Thank you very much for your service.
    Of course, I look forward to working with my colleagues to 
make sure that we provide the kind of support that will enable 
us to meet the challenges of our veterans.
    Chairman Sanders. Thank you very much, Senator Hirono.
    We may have some votes soon. So, we are going to have to 
juggle things, and people will be leaving and coming.
    So, let me begin and request short answers from the 
panelists.
    Oh, testimony. I knew I forgot something. You probably 
wanted to say something, right?
    Secretary Shinseki. I will try to be short in light of 
the----
    Chairman Sanders. Take your time. I am sorry.
    Secretary Shinseki [continuing]. Very supportive comments 
made by all the Members here today.

STATEMENT OF HON. ERIC K. SHINSEKI, SECRETARY, U.S. DEPARTMENT 
  OF VETERANS AFFAIRS; ACCOMPANIED BY HON. ROBERT A. PETZEL, 
M.D., UNDER SECRETARY FOR HEALTH; HON. ALLISON A. HICKEY, UNDER 
SECRETARY FOR BENEFITS; HON. STEVE L. MURO, UNDER SECRETARY FOR 
 MEMORIAL AFFAIRS; STEPHEN W. WARREN, EXECUTIVE IN CHARGE FOR 
  INFORMATION AND TECHNOLOGY; AND HELEN TIERNEY, EXECUTIVE IN 
CHARGE FOR THE OFFICE OF MANAGEMENT AND ACTING CHIEF FINANCIAL 
                            OFFICER

    Secretary Shinseki. Chairman Sanders, Senator Isakson, and 
other Members of the Committee, thanks for this opportunity 
once again to present the President's 2015 budget and 2016 
advance appropriations requests for the Department of Veterans 
Affairs.
    I am working my sixth budget cycle. I find that almost 
incredible to understand, but it is the sixth budget cycle for 
me.
    Together all of us here have accomplished a lot, and I 
deeply appreciate--all of us appreciate--your unwavering 
support of our Nation's veterans. It does not just occur in 
testimony. It occurs day to day as we engage with you.
    Let me also acknowledge, as others have, the 
representatives of our veterans service organizations who are 
here today. Their insights and support make us better at our 
mission, caring for veterans and families and survivors.
    Mr. Chairman, I am going to take a few seconds just to 
introduce the members of my panel here. To my extreme left is 
Stephen Warren, the Executive in Charge for Information and 
Technology. Next to him is Helen Tierney, VA's Executive in 
Charge of the Office of Management, and she is also our Acting 
Chief Financial Officer. To my right, Dr. Robert Petzel, Under 
Secretary for Health, and then Allison Hickey, Under Secretary 
for Benefits, and to her right, Steve Muro, Under Secretary for 
Memorial Affairs.
    Mr. Chairman, I do have a written statement. I ask that it 
be included in the record.
    Chairman Sanders. Without objection.
    Secretary Shinseki. Thank you, Mr. Chairman.
    The fiscal year 2015 budget and fiscal year 2016 advance 
appropriations requests demonstrate once again President 
Obama's steadfast commitment to our Nation's veterans. His 
leadership, the support of the Congress, especially this 
Committee, have allowed us for 5 years now to answer President 
Lincoln's charge from 149 years ago, ``To care for him who 
shall have borne the battle and for his widow and his orphan.''
    I thank the Members for your commitment to veterans and 
seek once again your support of these budget requests.
    The President's vision reflected in these requests is about 
empowering veterans to help lead the rebuilding of the middle 
class in this country, much as they did after World War II, 
through access to quality health care, through benefits, 
through education and training, the original GI Bill, and then 
employment that enabled achieving the American dream.
    The VA's 2015 budget request seeks $163.9 billion--$68.4 
billion of that amount is in discretionary funding, including 
medical care collections, an increase of 3 percent above our 
2014 enacted funding level, this year's budget.
    It also $95.6 billion in mandatory funding.
    This budget also requests $58.7 billion for the fiscal year 
2016 advance appropriations for medical care, an increase of 
$2.7 billion, or 4.7 percent, above the fiscal year 2015 
request that I am also submitting today.
    It is another strong budget, and your support of it is 
critical to providing veterans the care and benefits they have 
earned through their service and sacrifice.
    It enables VA to further the significant progress our 
Department has already made on the top three priorities we 
outlined years ago and have been working at during this 
intervening time. One is to expand veterans' access to benefits 
and services; second, eliminate the disability claims backlog 
in 2015, as has been mentioned by a number of members; and 
then, third, end the rescue of homeless veterans in 2015.
    Since 2009, we focused the resources you provided to 
address these three key priorities, among other requirements, 
but these three priorities, to best serve veterans.
    I would say, in terms of access, here is what we have 
accomplished:

          More than two million additional veterans have been 
        enrolled in VA health care.
          We opened our 151st hospital, the first in 17 years, 
        and we have increased our community-based outpatient 
        clinics by 55, bringing our total to 820 community-
        based outpatient clinics today.
          More than a million veteran family members and 
        students have received VA educational assistance and 
        vocational training.
          Nearly 90 percent of all veterans today have a burial 
        option within 75 miles of where they live, thanks to 
        Steve Muro's great work. We expect that that will 
        increase out through 2017. We have plans to do that, at 
        which point we will be at the 96th percent mark.
          In terms of disability claims, the backlog has 
        declined 40 percent in the past 12 months. We are 
        transitioning from paper to digital processing, and we 
        are on track to end the backlog in 2015.
          In terms of veterans' homelessness, the estimated 
        number of homeless veterans fell by 24 percent between 
        2010 and 2013, and we expect another reduction when 
        this year's point-in-time count is finally tallied up.

    These are some of our key accomplishments.
    I would also report to the Committee that our momentum is 
up, we are making good progress across the board, and, as I 
have in each of my appearances here, assure you that we will 
continue to leverage every resource of the budget--money, time, 
people--to do what is right for veterans.
    As I have for 5 years now, I will assure you that we will 
use these resources that the Congress provides effectively, 
efficiently, and accountably to best care for veterans.
    Again, thank you for this opportunity to appear here today 
and for your continued support of veterans. I look forward to 
your questions.
    Thanks, Mr. Chairman.
    [The prepared statement of Secretary Shinseki follows:]
        Prepared Statement of Hon. Eric K. Shinseki, Secretary, 
                  U.S. Department of Veterans Affairs
    Chairman Sanders, Ranking Member Burr, Distinguished Members of the 
Senate Committee on Veterans' Affairs: Thank you for the opportunity to 
present the President's 2015 Budget and 2016 advance appropriations 
requests for the Department of Veterans Affairs (VA). This budget 
continues the President's historic initiatives and strong budgetary 
support for Veterans, their families, and survivors. We value the 
sustained support that Congress has demonstrated in providing the 
resources and legislative authorities needed to honor our Nation's 
promises to these unique and special citizens. Let me acknowledge our 
partners here today--the Veterans Service Organizations--whose insight 
and support make us better at fulfilling our mission.
    After more than a decade of war, many Servicemembers are returning 
home and making the transition to Veteran status. As the war in 
Afghanistan enters its final chapter, our work is more urgent than 
ever. The current generation of Veterans will help to grow our middle 
class and provide a significant return on the Nation's investments in 
them. The President fully supports Veterans and their families, and by 
providing them the care and benefits they have earned, we pay tribute 
to the sacrifices that Veterans have made for this Nation.
    The 2015 Budget for VA requests $163.9 billion--$68.4 billion in 
discretionary funds, including medical care collections, and $95.6 
billion in mandatory funds for Veterans benefits programs. The 
discretionary request reflects an increase of $2.0 billion (3.0 
percent) above the 2014 Budget level. The Budget also requests a 2016 
advance appropriation for Medical Care of $58.7 billion, an increase of 
$2.7 billion (4.7 percent) above the 2015 Budget. The President's 2015 
Budget will allow VA to operate the largest integrated healthcare 
system in the country, including nearly 1,750 VA points of healthcare 
and approximately 9.3 million Veterans enrolled to receive healthcare; 
the ninth largest life insurance provider, covering both active duty 
Servicemembers and enrolled Veterans; an education assistance program 
serving nearly 1.1 million students; a home mortgage program with a 
portfolio of over 2 million active loans, guaranteed by the agency; and 
the largest national cemetery system that leads the Nation as a high-
performing organization, with projections to inter 128,100 Veterans and 
family members in 2015.
              growing demand for va services and benefits
    Long after conflicts end, VA requirements continue to grow, due to 
the substantial needs of Veterans. VA's budgetary requirements arise 
from our Nation's national security engagements, which are not within 
our control. As the President said on Veterans Day last November, 
``when we talk about fulfilling our promises to our Veterans, we don't 
just mean for a few years; we mean now, tomorrow, and forever.'' Over 
the next decade, the Department of Defense (DOD) predicts that military 
separations will approach three million. This growing population is 
demanding more services from VA than ever before. Currently, 11 million 
of the approximately 22 million Veterans in this country are 
registered, enrolled, or use at least one VA benefit or service, and 
this number will undoubtedly continue to grow.
                      meeting va's top three goals
    In 2015, our challenges are clear and significant. VA must deliver 
on the ambitious goals we established 5 years ago, which are to:

    <bullet> Increase Veterans' access to VA benefits and services;
    <bullet> Eliminate the disability claims backlog in 2015; and
    <bullet> End Veterans' homelessness in 2015.

    The 2015 Budget is critical to VA meeting these goals. Without the 
proper level of funding to meet the growing demand for benefits and 
services, investing in our physical and Information Technology (IT) 
infrastructure to assure reliable access, eliminating the disability 
claims backlog, and completing the rescue phase of ending Veterans' 
homelessness become even more difficult. VA remains committed to 
meeting these challenges and appreciates the continued support of the 
Congress.
                        stewardship of resources
    At VA, we are committed to responsible stewardship, using resources 
effectively and efficiently and aggressively identifying budget 
savings. Over the past three years, we have averaged $1.6 billion 
annually in efficiencies and budget savings, and in 2015, that 
commitment to budget efficiencies and savings is more than $2 billion. 
We are attentive to areas in which we need to improve our operations, 
and are committed to taking swift corrective action to eliminate any 
practices that do not deliver value for Veterans. For 15 consecutive 
years, VA delivered clean financial audits, during which time material 
weaknesses were reduced from four to one, and in 2013, for the first 
time, we had no significant deficiencies, having eliminated 16 prior 
significant financial deficiencies. This is an area of major 
accomplishment in our internal controls and fiscal integrity.
                         information technology
    To serve Veterans as well as they have served us, we are working to 
deliver a 21st century VA that provides medical care, benefits, and 
services through a secure digital infrastructure. IT affects every 
aspect of what we do at VA. It has a direct impact on the quality of 
healthcare we provide Veterans; our ability to process claims 
efficiently; and our ability to provide Veterans' benefits and 
services. In 2013, VA IT systems supported nearly 1,750 VA points of 
healthcare: 151 medical centers, 135 community living centers, 103 
domiciliary rehabilitation treatment programs, 820 community-based 
outpatient clinics, 300 Vet Centers, and 70 mobile Vet Centers. The 
corresponding increase we have seen in the medical care spending for 
these facilities directly translates to new and increased services 
provided to Veterans. To provide Veterans access and benefits, we must 
make the necessary investments in IT innovations and deployments.
    Our 2015 Budget requests $3.9 billion for IT, consisting of $531 
million for development; $2.3 billion for sustainment; and $1 billion 
for more than 7,400 staff, most of whom serve in VA hospitals and 
regional offices. The request will sustain our infrastructure while 
making necessary investments in critical business processes, such as 
modernizing healthcare scheduling, streamlining benefits processing, 
enhancing and modernizing VA's electronic health record, enhancing data 
security, and achieving health data interoperability with DOD.
    Information security is a top priority at VA. The 2015 Budget 
requests $156 million for information protection and cyber security, an 
increase of $33 million (27 percent) over 2014. VA is constantly 
strengthening information security and improving technology and 
processes to ensure Veteran data and VA's network are secure. Like any 
organization, public or private, we must continue to adapt. Our 
security posture is based on a ``defense--in-depth'' approach, which 
includes our partners at the Department of Homeland Security who 
maintain an over watch on our exterior perimeter. Working inward from 
our firewalls, VA has additional layers and protections that are 
constantly monitoring potential threats.
    Technology is also a critical component for achieving our goal to 
eliminate the disability claims backlog in 2015. The 2015 Budget 
requests $137 million in IT funding for the Veterans Benefits 
Management System (VBMS), including $44.5 million for development and 
$92.5 million for sustainment. The 2015 development funds will allow VA 
to electronically process disability compensation claims in VBMS, from 
establishment to award. Planned enhancements and increased automation 
will allow end-users to focus on more difficult disability compensation 
claims by reducing the time required to process less complex claims. 
Sustainment funds will support the infrastructure behind VBMS as well 
as the deployment of additional new functionality features.
    The 2015 Budget continues our progress toward evolving VA's VistA 
electronic health record (EHR) and achieving seamless integration of 
health data with the DOD by 2017. The budget requests $269 million to 
help achieve our shared goal of providing the best possible support for 
Servicemembers and Veterans. In the near term, we are working to create 
seamless integration of DOD, VA, and private provider health data. In 
the mid-term, we are working to modernize the software supporting DOD 
and VA clinicians. Together, these two goals will help to create an 
environment in which clinicians and patients from both Departments are 
able to share current and future healthcare information for continuity 
of care and improved treatment. As we strive to build on our successful 
history of health data sharing and collaboration, we understand our EHR 
modernization efforts are complicated, dynamic, and multi-faceted.
        improving and expanding access to benefits and services
    The number of Veterans receiving VA benefits and services has grown 
steadily and will continue to rise as overseas conflicts end and more 
Servicemembers transition to Veteran status. In 2015, the number of 
patients treated within VA's healthcare system is projected to reach 
6.7 million, an increase of nearly one million patients (17.4 percent) 
since 2009. Within VBA, the number of Veterans and survivors receiving 
Compensation and Pension benefits will approach 5 million in 2015, 
while the number of Education and Vocational Rehabilitation 
beneficiaries will exceed 1.1 million.
    We continue to improve access to VA services by opening new, and 
improving current, facilities closer to where Veterans live. Since 
January 2009, we have added approximately 55 community-based outpatient 
clinics (CBOCs), for a total of 820 CBOCs, and the number of mobile 
outpatient clinics and Mobile Vet Centers, serving rural Veterans, has 
increased by 21, to the current level of 78. In addition, while opening 
new and improved facilities is essential for VA to provide world-class 
healthcare to Veterans, so too is enhancing the use of ground breaking 
new technologies to reach countless other Veterans. We continue to 
invest in ``taking the facility to the Veteran''--through expanded 
access to telehealth, sending Mobile Vet Centers to reach Veterans in 
rural areas where certain services are limited or difficult to reach, 
and by deploying social media to connect with Veterans to share 
information on the VA benefits they have earned.
    The Affordable Care Act (ACA) expands access to coverage, provides 
new ways to bring down healthcare costs, improves the Nation's 
healthcare delivery system, and has important implications for VA. VA 
is ensuring a coordinated and collaborative approach to ACA 
implementation. We estimate that there are approximately 1.3 million 
uninsured Veterans, of which 1 million may be eligible for, but not 
enrolled in VA healthcare. We will continue our education and outreach 
efforts so Veterans know the healthcare law does not affect their VA 
health benefits or out-of-pocket costs, and that Veterans enrolled in 
VA healthcare do not need to take additional steps to meet ACA's new 
coverage standards. We will also encourage Veterans' family members not 
enrolled in a VA healthcare program to obtain coverage through the 
Health Insurance Marketplaces.
    A large part of our Veteran population hails from the small towns 
of rural America. Some 3.1 million Veterans enrolled in VA's healthcare 
system live in rural or highly rural areas, about 36 percent of all 
enrolled Veterans. In total, more than $17.36 billion were obligated in 
2013 for the health care needs of rural Veterans. As technology 
advances and broadband access expands across rural America, we have 
been able to extend the availability of VA healthcare through 
telemedicine, web-based networking tools, and the use of mobile 
devices--all of which help improve access to care and support economic 
development for people in rural areas. Telehealth is a transformative 
breakthrough in healthcare delivery in 21st century medicine, allowing 
care to reach Veterans who otherwise may not have access, especially 
those who live in rural and extremely remote areas. The 2015 Budget 
requests $72 million for Rural Health telehealth.
    Changing demographics are driving transformation at VA. Women now 
comprise nearly 15 and 18 percent of today's active duty military 
forces and Reserve component, respectively. Women are the fastest 
growing segment of our Veteran population. Since 2009, the number of 
women Veterans enrolled in VA healthcare increased by almost 29 
percent, to 629,683. The 2015 Budget includes $403 million for gender-
specific healthcare services for women Veterans. Today, nearly 49 
percent of our facilities have comprehensive women's clinics, and every 
VA healthcare system has designated women's health primary care 
providers and a women Veterans' program manager on staff.
    The Caregivers and Veterans Omnibus Health Services Act (Caregivers 
Act) marked a major step forward in America's commitment to those who 
provide daily care for wounded warriors, who have borne the battle for 
us all. The sustainment phase of the Caregivers program began in 2013, 
and includes application processing; stipends; travel and healthcare 
coverage; education, training, and competency; and IT support. The 2015 
Budget includes $306 million for the Caregivers program, including $235 
million for caregiver stipends.
    Since VA began implementation of the Honoring America's Veterans 
and Caring for Camp Lejeune Families Act in August 2012, more than 
10,100 Veterans have contacted VA concerning Camp Lejeune-related 
treatment, as of February 27, 2014. Of these, roughly 8,300 were 
already enrolled in VA healthcare. Veterans who are eligible for care 
under the Camp Lejeune authority, regardless of current enrollment 
status with VA, will not be charged a co-payment for healthcare related 
to the 15 illnesses or conditions recognized, nor will a third-party 
insurance company be billed for these services. VA continues a robust 
outreach campaign to these Veterans and family members while we press 
forward with implementing this law. The 2015 Budget includes $51 
million to provide healthcare for Veterans and family members who were 
potentially exposed to contaminated drinking water at Camp Lejeune.
    The 2015 Budget requests $99.6 million in IT funding for the 
Veterans Relationship Management (VRM) initiative, which is 
transforming Veterans' access to VA benefits and services by empowering 
Veterans with new self-service tools. In addition, VRM is essential to 
achieving our access goals. We are transforming VA's national call 
centers into service centers by delivering enhanced, integrated, 
system-wide telephone capabilities. VBA is also implementing the Client 
Relationship Management Unified Desktop that provides Veterans or 
beneficiary contact history and a consolidated view of benefit programs 
for our employees to enhance the customer's experience and provide 
responsive and complete information.
    As part of this experience, VBA aggressively promoted eBenefits and 
improved Veterans ability to enroll in and access VA benefits and 
services. The joint VA/DOD eBenefits Web portal is a personalized 
central location for Veterans, Servicemembers, and their families to 
research, access, and manage their benefits and personal information. 
More than 3.2 million Servicemembers and Veterans are enrolled in 
eBenefits, and our goal is to expand enrollment to 5 million users in 
2015. Over 50 self-service features, including online filing of claims, 
online uploading of evidence, and claim status tracking are now 
available in eBenefits; VA and DOD continue to expand functionality 
with each quarterly release.
    VA also continues to increase access to burial services for 
Veterans and their families through the largest expansion of its 
national cemetery system since the Civil War. At present, approximately 
90 percent of the Veteran population--about 20 million Veterans--has 
access to a burial option in a national, state, or tribal Veterans 
cemetery within 75 miles of their homes. In 2004, only 75 percent of 
Veterans had such access. This dramatic increase is the result of a 
comprehensive strategic planning process that efficiently uses 
resources to serve the greatest number of Veterans.
               improving access to mental health services
    We have been a Nation at war for more than a decade, and the state 
of Servicemembers' and Veterans' mental health is a National priority. 
At VA, meeting the individual mental health needs of Veterans is more 
than a system of comprehensive treatments and services; it is a 
philosophy of ensuring that Veterans receive the best mental healthcare 
possible, while focusing on the overall mental well-being of each 
Veteran. VA remains committed to doing all we can to meet this 
challenge.
    Through the strong leadership of the President and the support of 
Congress, Veterans' access to mental healthcare has significantly 
improved. Some of the stigma associated with seeking help has 
diminished. We proactively screen all Veterans for PTSD, depression, 
TBI, problem drinking, substance abuse, and military sexual trauma 
(MST) to identify issues early and provide treatments and intervention 
opportunities. We know that when we diagnose and treat people, they get 
better. Rates of suicide among those who use VHA services have not 
shown increases similar to those observed in all Veterans and the 
general U.S. population. Since 2006, the number of Veterans receiving 
specialized mental health treatment has risen each year from 927,000 to 
more than 1.3 million in 2013. In addition, Outpatient visits and 
encounters will increase to 12.8 million in 2015, from 12.1 million in 
2013. Vet Centers are another avenue for mental healthcare access, 
providing services to 195,913 Veterans and their families in 2013.
    While we made significant progress in serving the growing number of 
Veterans seeking mental healthcare, our work is not done. The 2015 
Budget includes $7.2 billion for mental healthcare, an increase of $309 
million (4.5 percent). VA efforts are crucial to dispel the lingering 
stigma surrounding treatment, and help Veterans regain their dignity 
and the ability to hold meaningful employment and maintain a home, 
which helps, in turn, strengthen our Nation's economy.
    In response to the growing demand for mental health services, VA 
enhanced capacity and improved the system of care so that services are 
more readily accessible. In 2012, VA completed a comprehensive 
assessment of the mental health program at every VA medical center and 
is using the results of that assessment to improve programs and share 
best practices across VISNs and facilities. VA also held mental health 
summits at each of our 151 medical centers, broadening the community 
dialog between clinicians and stakeholders.
    We are developing new measures to gauge mental healthcare 
performance, including timeliness, patient satisfaction, capacity, and 
availability of evidence-based therapies. Evidence-based staffing 
guidelines are being written for specialty and general mental health. 
In addition, VA is working with the National Academy of Sciences to 
develop and implement measures and corresponding guidelines to improve 
the quality of mental healthcare. To help VA clinicians better manage 
Veteran patients' mental health needs, VA is developing innovative 
electronic tools. For example, Clinical Reminders give clinicians 
timely information about patient health maintenance schedules, and the 
High-Risk Mental Health National Reminder and Flag system allows VA 
clinicians to flag patients who are at-risk for suicide. When an at-
risk patient does not keep an appointment, Clinical Reminders prompt 
the clinician to follow up with the Veteran.
    Since its inception in 2007, the VA's Veterans' Crisis Line in 
Canandaigua, New York, answered nearly 1,000,000 and responded to more 
than 143,000 texts and chat sessions from Veterans in need. The 
Veterans' Crisis line provides 24/7 crisis intervention services and 
personalized contact between VA staff, peers, and at-risk Veterans, 
which may be the difference between life and death. In the most serious 
calls, approximately 35,000 men and women have been rescued from a 
suicide in progress because of our intervention--the rough equivalent 
of two Army divisions.
                     eliminating the claims backlog
    VA has no greater responsibility than ensuring Veterans and their 
survivors receive timely, accurate decisions on their disability 
compensation and pension claims. Too many Veterans have waited too long 
to receive their benefits--and this has never been acceptable to VA, 
including the employees of VBA, over half of whom are Veterans. To 
attack this longstanding problem, we launched a historic plan to 
transform our people, processes, and technology. Our strategy advances 
VBA's tools, streamlines claims processes, trains its workforce, 
improves workload management, and meaningfully enhances interaction 
with Veterans and stakeholders to deliver more timely and accurate 
benefit decisions and services to Veterans and their families. Despite 
an escalating workload brought about by the correct decisions for 
Veterans on Agent Orange, Gulf War, and combat PTSD presumptions--and 
successful outreach to Veterans informing them of their benefits--we 
are making steady progress toward our goal of eliminating the 
disability claims backlog in 2015.
    The 2015 Budget requests $2.5 billion for VBA, an increase of $28.8 
million from 2014. VBA projects a beneficiary caseload of 5.1 million 
in 2015, with more than $78.7 billion in disability compensation and 
pension benefits obligations. We expect to process 1.5 million 
compensation and pension claims in 2015, up from 1.25 million claims in 
2014, an increase of nearly 17 percent over 2014.
    Through our claims transformation initiatives, the use of mandatory 
overtime, and other innovative strategies, we are making real progress 
in reducing the disability claims backlog. As of March 8, 2014, the 
backlog stood at 368,829 claims, down 242,244 (40 percent) from its 
highest point on March 25th, 2013. Additionally, under its Oldest 
Claims Initiative that began in April 2013, VA provided decisions to 
over 500,000 Veterans whose claims had been pending the longest. VA 
continues to work closely with DOD, the Internal Revenue Service, the 
Social Security Administration, and our other Federal partners to 
identify electronic data-sharing opportunities and process reforms to 
streamline workflows and limit paper claims filing.
    VBMS is key to VBA's transformation and success in meeting our 2015 
goal. In June 2013, VBA completed national deployment of VBMS--six 
months ahead of schedule--providing access to over 25,000 end-users. 
Approximately 80 percent of VA's pending disability claims are in a 
digital format for electronic processing in VBMS. Moving to a digital 
environment is critical. VA anticipates there will be approximately 
250,000 new Servicemembers transitioning to Veteran status each of the 
next 4 years, for a total of one million new Veterans added during the 
next four years. As a result of our increased efforts to enable more 
Veterans to access the benefits they have earned and deserved, many of 
these Veterans are likely to file a claim with VBA within the first 
year of separation.
    The 2015 Budget includes $138.7 million for continued investment in 
the Veterans Claims Intake Program (VCIP), which converts paper claims 
into an electronic format and enables electronic transfer of medical 
and personnel records. This electronic transfer is critical to creating 
the necessary digital environment for populating the eFolders and 
supporting end-to-end electronic claims processing for each stage of 
the claims lifecycle. Although VA continues to accept paper claims from 
Veterans who are not familiar with or cannot access computer 
technology, VBA is working with stakeholders to increase the number of 
claims submitted electronically. VBA now converts paper claims to 
electronic format as we receive them, saving time and effort and 
improving accuracy. As of December 2013, over 25,000 VBMS users could 
access 424 million electronic images converted from paper.
    The 2015 Budget includes $94.3 million for the Board of Veterans' 
Appeals (the Board), which we are requesting as a new appropriation 
separate from the General Administration appropriation. The Board 
provides direct service to Veterans and their families by conducting 
hearings and issuing final appeals decisions. VA is actively pursuing 
initiatives to improve the appeals process and reduce wait times for 
Veterans, including a Board-led initiative that pre-screens appeals to 
ensure that the record is fully developed and ready for adjudication. 
The Board is also streamlining decision writing to increase output and 
efficiency. Expanded use of VBMS and the eventual incorporation of 
appeals functionality in VBMS will save resources currently spent 
handling, accessing, storing, and transporting paper claims files 
between the Board and VBA Regional Offices. The Board completed major 
technological upgrades to its video teleconference (VTC) equipment and 
the Board now conducts slightly over half of their hearings by video 
teleconference, a significant increase from 29 percent in 2009. We 
project appeals will increase to 72,786 cases in 2015, an increase of 
12 percent from 2014's 64,941 cases.
                      ending veteran homelessness
    Every Veteran who has served America ought to have a home in 
America. We made great progress toward achieving our goal to end 
Veteran homelessness in 2015. VA will use knowledge gained over the 
past four years to ensure robust prevention programs are in place for 
future years. The 2015 Budget request is essential for VA to 
successfully achieve an end-to-the-rescue phase, and prevent future 
homelessness among Veterans at-risk in the years to come.
    Since 2009, VA, together with our Federal, state, and local 
partners, has reduced the estimated number of homeless Veterans by 24 
percent. We have conducted over six million clinical visits with over 
600,000 Veterans who were homeless, at-risk of homelessness (including 
formerly homeless). In 2013 alone, VA served more than 240,000 Veterans 
who were homeless or at-risk of becoming homeless--21 percent more than 
the year before. Over the past four years, the Point-in-Time (PIT) 
count of homeless Veterans declined steadily, despite challenging 
economic times. The PIT count estimate of the number of homeless 
Veterans dropped from 75,609 in January 2009, to 57,849 in 
January 2013, a 24 percent decrease.
    VA's programs constitute the largest integrated network of programs 
with components of homeless assistance in the Nation. They provide 
homeless Veterans with nearly 80,000 beds or units, including permanent 
supportive housing through the Department of Housing and Urban 
Development-VA Supportive Housing (HUD-VASH) program; link Veterans 
with needed mental health and other medical care; and provide 
supportive services and opportunities to reintegrate Veterans back into 
the community and workforce. VA's cost-effective, evidence-based 
homeless programs produce large savings and cost avoidance in 
budgetary, social, and economic terms. Using a Housing First strategy, 
VA relies on research that shows that placing homeless Veterans into 
Housing First reduces emergency room visits, other forms of intensive 
hospitalization, and substance overdose. Medical care costs are roughly 
three times as expensive for homeless compared to Veterans who are not 
homeless.
    Despite significant progress and important accomplishments, much 
work remains. We estimate that between 2013 and 2015, approximately 
200,000 Veterans will experience homelessness at some point in time. To 
reach our goal of ending Veteran homelessness in 2015, the Budget 
requests $1.6 billion for VA homeless-related programs, including case 
management support for the HUD-VASH voucher program, the Grant and Per 
Diem Program, the Supportive Services for Veteran Families (SSVF) 
program, and VA justice programs. This represents an increase of $248 
million (17.8 percent) over the 2014 Budget level. This budget supports 
VA's long-range plan to end Veteran homelessness by emphasizing rescue 
for those who are homeless today, and prevention for those at risk of 
homelessness.
    HUD-VASH provides permanent supportive housing to the most 
vulnerable of our homeless Veterans. The 2015 Budget requests $374 
million for HUD-VASH, an increase of $47 million (14 percent) over the 
2014 Budget level. This funding will support nearly 3,500 case managers 
to provide intensive wraparound services to nearly 80,000 Veterans. 
These case managers provide an average number of 12 clinical visits per 
year to these Veterans to ensure that they remain in housing and do not 
become homelessness again. Veterans in HUD-VASH are vulnerable; the 
majority meets criteria for chronic homelessness, and suffers from 
serious mental illness, substance use disorders, and chronic medical 
conditions. This partnership remains the most responsive housing option 
available to VA and is a critical component of our strategy to move 
homeless Veterans from the streets to a safe and stable home.
    The Grant and Per Diem Program helps fund community agencies 
providing services to homeless Veterans with the goal of helping them 
achieve residential stability, increase their skill levels and/or 
income, obtain greater self-determination, independent living, and 
employment as soon as possible. The 2015 Budget requests $253 million 
for the Grant and Per Diem Program, an increase of $3 million (1.1 
percent) over the 2014 Budget level. In 2015, the program will provide 
over 15,500 transitional housing beds to Veterans through partnerships 
with more than 650 projects.
    VA's SSVF is a critical aspect of our strategy to prevent and end 
Veteran homelessness. This program provides both prevention and rapid 
rehousing services to Veterans and family members. In 2013, SSVF 
successfully prevented over 60,000 at-risk Veterans and family members 
from falling into homelessness, and successfully placed over 84 percent 
of homeless Veterans and family members into permanent housing. In the 
last three years, VA awarded grants totaling $459.6 million to 324 
community agencies in all 50 states, the District of Columbia, Puerto 
Rico, and the Virgin Islands. SSVF grants to private non-profit 
organizations and consumer cooperatives provide a range of supportive 
services to include outreach, case management, assistance in obtaining 
VA benefits, and assistance in obtaining and coordinating other public 
benefits. In 2015, VA will deploy SSVF grants strategically to target 
resources to communities with concentrations of homeless Veterans.
    In addition, VA's Justice Programs, which facilitate access to 
needed VA treatment for Veterans in criminal justice settings such as 
Veterans Treatment Courts, are an important prevention effort for 
homeless and at-risk Veterans. The goal of these Courts is to divert 
those with mental health issues and homelessness risk from the 
traditional justice system and give them treatment and tools for 
rehabilitation and readjustment. The first Veterans court was 
established in 2008 in Buffalo, N.Y. By the end of 2013, there were 257 
courts nationwide, positively affecting the lives of 7,724 Veterans; VA 
serves Veterans in each of these courts. Many of the participating 
Veterans have avoided incarceration and the cycle of homelessness, that 
often follows incarceration. The 2015 Budget requests $35 million for 
Veterans Justice Programs, an increase of $1.5 million (4 percent) over 
the 2014 Budget level.
    To increase homeless Veterans' access to benefits, care, and 
services, VA established the National Call Center for Homeless Veterans 
(NCCHV). The NCCHV provides homeless Veterans and Veterans at-risk for 
homelessness free, 24/7 access to trained counselors. The call center 
is intended to assist homeless Veterans and their families; VA medical 
centers; Federal, state, and local partners; community agencies; 
service providers; and others in the community. In 2013, the National 
Call Center for Homeless Veterans received 111,096 calls (38 percent 
increase over 2012) and made 78,622 referrals to VA medical centers (55 
percent increase over 2012). The 2015 Budget requests $5.6 million for 
NCCHV, an increase of $1.7 million (45 percent) over the 2014 Budget 
level. VA has established 28 Community Resource and Referral Centers 
(CRRC) to provide rapid assistance to homeless Veterans.
                   multi-year budget for medical care
    Due to Congress's foresight, under the Veterans Health Care Budget 
Reform and Transparency Act of 2009, VA includes a request for an 
advance appropriation for its medical care budget. The legislation 
requires VA to plan its medical care budget using a multi-year 
approach, which ensures that VA requirements are reviewed and updated 
based on the most recent data available and actual program experience. 
The 2015 medical care budget of $59.1 billion, including collections, 
will fund treatment to over 6.7 million unique patients, an increase of 
4 percent over the 2013 estimate. Of those unique patients, 4.7 million 
Veterans are in Priority Groups 1-6, an increase of more than 204,836 
(4.5 percent). Additionally, VA anticipates treating over 757,600 
Veterans from the conflicts in Iraq and Afghanistan, an increase of 
over 141,100 patients (23 percent) over the 2013 level. VA also 
provides medical care to non-Veterans through programs such as the 
Civilian Health and Medical Program of the Department of Veterans 
Affairs (CHAMPVA) and the Spina Bifida Health Care Program; we expect 
this population to increase by over 42,600 patients (6.3 percent), 
during the same period.
    Based on updated 2015 estimates largely derived from the Enrollee 
Health Care Projection Model, the 2015 Budget will allow VA to increase 
funding for programs to end Veteran homelessness; continue 
implementation of the Caregivers and Veterans Omnibus Health Services 
Act; fulfill multiple responsibilities under the ACA; provide for 
activation requirements for new or replacement medical facilities; and 
invest in strategic initiatives to improve the quality and 
accessibility of VA healthcare programs. The 2015 appropriations 
request includes an additional $368 million above the enacted 2015 
advance appropriations level. Our multi-year budget plan assumes that 
VHA will carry over a small percentage of unobligated balances from 
2014 into 2015 to ensure that funds are available at the beginning of 
the fiscal year to cover any unforeseen costs.
    The 2016 medical care budget of $61.9 billion, including 
collections, provides for healthcare services to treat over 6.8 million 
unique patients, an increase of 1.5 percent over the 2015 estimate. The 
2016 request for medical care advance appropriations is an increase of 
$2.9 billion, or 4.9 percent, over the 2015 budget request. Medical 
care funding levels for 2016, including funding for activations, non-
recurring maintenance, and initiatives, will be revisited during the 
2016 budget process, and could be revised to reflect updated 
information on known funding requirements and unobligated balances.
                    medical and prosthetic research
    VA supports the President's national action plan to guide mental 
health research across government, industry and academia, and develop 
more effective ways to prevent, diagnose, and treat mental health 
conditions like TBI and PTSD. VA's medical research programs 
demonstrate the creativity and ingenuity of our Nation's greatest minds 
to help save Veterans' lives, limit their incapacitation, and build a 
better world for their families. Projects funded in 2015 will focus on 
identifying or developing new treatments for Gulf War Veterans, 
improving social reintegration following Traumatic Brain Injury, 
reducing suicide, evaluating the effectiveness of complementary and 
alternative medicine, developing blood tests to assist in the diagnosis 
of PTSD and mild Traumatic Brain Injury, and advancing genomic 
medicine.
    In 2015, Medical Research will be supported through a $589 million 
direct appropriation, and an additional $1.3 billion from VA's medical 
care program, Federal grants, and non-Federal grants. Including Medical 
Care support, other Federal resources, and private resources, total 
funding for Medical and Prosthetic Research will be nearly $1.9 billion 
in 2015. VA's research program benefits Veterans, their families, and 
the Nation.
            increasing employment opportunities for veterans
    Under the President's leadership, VA, the Department of Labor, DOD, 
and the entire Federal Government made Veterans' employment one of 
their highest priorities. At VA, we led by example. We made great 
strides during the last five years and remain committed to meeting our 
goal of 40 percent of VA employees being Veterans, compared to 32.4 
percent currently. During 2013, 33.8 percent of all new hires at VA 
were Veterans, including an impressive 78.5 percent of all new 
employees in our National Cemetery Administration (NCA).
    We continue to work to ensure that all of America's Veterans have 
the support they need and deserve when they leave the military, look 
for a job, and enter the civilian workforce. The interagency Employment 
Initiative Task Force, co-led by VA and DOD, developed a new training 
and services delivery model to help strengthen the transition of our 
Veteran Servicemembers from military to civilian life. Accordingly, the 
2015 Budget includes $106 million to meet VA's responsibilities under 
the President's Veterans Employment Initiative and the VOW to Hire 
Heroes Act. In addition, the 2015 Budget includes $1 billion in 
mandatory funding over 5 years to develop a Veterans Job Corps 
conservation program that will put up to 20,000 Veterans back to work 
over the next 5 years protecting and rebuilding America. Jobs will 
include park maintenance projects, patrolling public lands, 
rehabilitating natural and recreational areas, and law enforcement-
related activities. Additionally, Veterans will help make a significant 
dent in the deferred maintenance of our Federal, state, local, and 
tribal lands, including jobs that will repair and rehabilitate trails, 
roads, levees, recreation facilities, and other assets. The program 
will serve all Veterans, but have a particular focus on post-9/11 
Veterans.
    Since 2009, VA provided over $31.8 billion in Post-9/11 GI Bill 
benefits in the form of tuition and other education-related payments to 
cover the education and training of more than 1 million Servicemembers, 
Veterans, family members, and survivors. As part of this effort VBA 
launched an online GI Bill Comparison Tool to make it easier for 
Veterans, Servicemembers, and dependents to calculate their Post-9/11 
GI Bill benefits and learn more about VA's approved colleges, 
universities, and other education and training programs across the 
country. The GI Bill Comparison Tool provides key information about 
college affordability and brings together information from more than 17 
online sources and 3 Federal agencies, including the number of students 
receiving VA education benefits at each school.
    VA is also now working with Student Veterans of America to track 
graduation and training completion rates, and we expect a draft report 
by the end of 2014 to quantify program outcomes. The Post-9/11 GI Bill 
continues to be a focus of VBA transformation, as it implements the 
automated Long-Term Solution (LTS), VA's end-to-end claims processing 
solution that utilizes rules-based, industry-standard technologies for 
the delivery of education benefits. At the end of January 2014, we had 
68,215 education claims pending, 21 percent lower than the total claims 
pending the same time last year. The average days to process Post-9/11 
GI Bill supplemental claims decreased by 9.1 days, from 16.1 days in 
September 2012 to 7 days in January 2014. The average time to process 
initial Post-9/11 GI Bill original education benefit decreased by 15.3 
days in the same period, from 32.5 days to 17.2 days.
                         capital infrastructure
    The 2015 Budget requests $1.06 billion for VA's major and minor 
construction programs, the same as the 2014 Budget level. The capital 
asset budget demonstrates VA's commitment to address critical major 
construction projects that directly impact patient safety and seismic 
issues and reflects VA's ongoing promise to provide safe, secure, 
sustainable, and accessible facilities for Veterans. The request also 
reflects the current fiscal climate and the great challenges VA faces 
in order to close the gaps identified in our Strategic Capital 
Investment Planning (SCIP) process.
Major Construction
    The major construction request in 2015 is $561.8 million. The 
request provides funding for four on-going major medical facility 
projects. They include: (1) seismic corrections to renovate building 
205 for homeless programs at the West Los Angeles, CA VA Medical 
Center; (2) seismic corrections and construction of a new mental health 
facility and parking structure at the Long Beach Healthcare System; (3) 
construction of a new community living center (CLC), domiciliary and 
outpatient facility in Canandaigua, NY; and (4) construction of a new 
spinal cord injury/CLC facility, hospice nursing unit, and upgrades to 
a high-risk seismic building in San Diego, CA. These projects represent 
VA's most critical major construction projects and correct critical 
safety and seismic deficiencies that are currently putting Veterans, VA 
staff, and the public at risk. Once the projects are completed, 
Veterans seeking care will be served in more modern and safer 
facilities.
    The 2015 Budget also includes $2.5 million for NCA for advance 
planning activities and $7.5 million for land acquisition to support 
the establishment of 5 additional national cemeteries in Cape Canaveral 
and Tallahassee Florida; Omaha, Nebraska; southern Colorado; and 
western New York to meet the burial access policies included in the 
2011 budget.
Minor Construction
    The 2015 Budget includes a minor construction request of $495.2 
million. The requested amount would provide funding for ongoing and 
newly identified projects that renovate, expand, and improve VA 
facilities. This year's focus is a balance between continuing to fund 
minor construction projects that we can implement quickly to maintain 
and repair our aging infrastructure, while using major construction 
funding to address life-threatening safety and seismic issues that 
currently exist at multiple VA medical facilities.
Opportunity, Growth and Security Initiative
    The Budget also includes a separate $56 billion Opportunity, 
Growth, and Security Initiative to spur economic progress, promote 
opportunity, and strengthen national security. This Initiative would 
increase employment, while achieving important economic outcomes in 
areas from education to research to manufacturing and public health and 
safety. Moreover, the Opportunity, Growth, and Security Initiative is 
fully paid for with a balanced package of spending cuts and tax 
loophole closers.
    At the Department of Veterans Affairs (VA), the Opportunity, 
Growth, and Security Initiative will support capital investments 
essential to expanding and protecting Veterans' access to quality care 
and benefits. By providing an additional $400 million for the VA 
capital program, enactment of the Initiative will allow additional 
progress in addressing the Department's highest priority capital needs, 
including a major construction project to replace a seismically 
deficient research facility in San Francisco, California.
                    national cemetery administration
    The NCA has the solemn duty to honor Veterans and their families 
with final resting places in national shrines and with lasting tributes 
that commemorate their service and sacrifice to our Nation. We honor 
those individuals' service through our 133 national cemeteries, which 
includes two national cemeteries scheduled to open in 2015, 33 
Soldiers' lots and monuments, the Presidential Memorial Certificate 
program, and through the markers and medallions that we place on the 
graves of Veterans around the world. The 2015 Budget includes $256.8 
million for operations and maintenance to uphold NCA's responsibility 
for this mission, including funds to open two new national cemeteries 
and to begin preparations for opening two National Veterans Burial 
Grounds.
    NCA projects its workload will continue to increase. For 2015, we 
anticipate conducting approximately 128,100 interments of Veterans or 
their family members, and maintaining and providing perpetual care for 
approximately 3.5 million gravesites. NCA will also maintain 8,882 
developed acres and process approximately 362,900 headstone and marker 
applications.
    NCA maintains a strong commitment to hiring Veterans. Currently, 
Veterans comprise over 74 percent of its workforce. Since 2009, NCA 
hired over 450 returning Iraq and Afghanistan Veterans. In addition, 
NCA awarded 66.5 percent of contract awards in 2013 to Veteran-owned 
and service-disabled, Veteran-owned small businesses. NCA's committed, 
Veteran-centric workforce is the main reason it is able to provide a 
world-class level of customer service. NCA participated for the 5th 
time in the American Customer Satisfaction Index (ACSI), sponsored by 
the Federal Consulting Group and Claes Fornell International (CFI) 
Group. In the 2013 review, NCA received a score of 96 out of a possible 
100, the highest score to date for any organization in the public or 
private sector.
    NCA continues to leverage its partnerships to increase service for 
Veterans and their families. As a complement to the national cemetery 
system, NCA administers the Veterans Cemetery Grant Service (VCGS), 
which provides grants to establish, expand, or improve state and tribal 
Veterans' cemeteries. There are currently 90 operational state and 
tribal cemeteries in 45 states, Guam, and Saipan, with five more under 
construction. Since 1980, VCGS awarded grants totaling more than $566 
million to establish, expand, or improve these Veterans' cemeteries. In 
2013, these cemeteries conducted over 32,000 burials for Veterans and 
family members.
                              legislation
    In addition to presenting VA's resource requirements, the 2015 
President's Budget also proposes legislative action that will benefit 
Veterans. These proposals build on VA's legislative agenda transmitted 
in the First Session of the 113th Congress, as part of the 2014 
President's Budget. Let me highlight a few provisions: VA proposes a 
measure that will allow better coordination of care when a Veteran also 
receives other care at a non-VA hospital, by streamlining the exchange 
of patient information. Additionally, we propose allowing the CHAMPVA 
to cover children up to age 26, to make that program consistent with 
benefits conferred under the ACA. We also are submitting a proposal 
that would modernize our domiciliary care program by removing income-
based eligibility restrictions.
    To continue our priority to end Veteran homelessness, VA proposes 
increased flexibility in the Grant and Per Diem program to focus on the 
transition to permanent housing. Also among our proposals is a measure 
that would allow VA to speed payment of Dependency and Indemnity 
Compensation and other benefits to surviving spouses by eliminating the 
need for a formal claim when there already is sufficient evidence for 
VA to act. We greatly appreciate consideration of these and other 
legislative proposals included in the 2015 Budget and look forward to 
working with Congress to enact them.
                                summary
    Since the founding of our great Nation, Veterans helped our country 
meet all challenges; this remains true today as Veterans help rebuild 
the American middle class. At VA, we continue to implement the 
President's vision and transform VA into a 21st century leader of 
efficiency, effectiveness, and innovation within the Federal 
Government. Our 2015 Budget supports Presidential priorities to always 
add value to the Nation, boost economic growth, strengthen the middle 
class, and work side-by-side with Federal partners to eliminate 
unnecessary overlaps or redundancies.
    Given today's challenging fiscal environment, this Budget focuses 
VA resources, policies, and strategies on the most urgent issues facing 
Veterans and provides the resources critical to expand access, 
eliminate the disability claims backlog in 2015, and end Veteran 
homelessness in 2015. There is no greater mission than serving 
Veterans. Again, thank you for the opportunity to appear before you 
today and for your unwavering support of Veterans.

    [VA responses to posthearing questions follows:]

Response to Posthearing Questions Submitted by Hon. Bernard Sanders to 
 Hon. Eric K. Shinseki, Secretary, U.S. Department of Veterans Affairs
                           benefits programs
    Question 1. Provide the current performance standards for employees 
involved with the processing of claims.
    Response. Attached are the performance standards for the Veterans 
Service Representative (VSR) and Rating Veterans Service Representative 
(RVSR) positions.

Attachment 1
                       NATIONAL PERFORMANCE PLAN
             RATING VETERANS SERVICE REPRESENTATIVE (RVSR)
                     (Excludes PMC and IDES RVSRs)

ELEMENT 1--QUALITY (Critical)

    The RVSR must consistently and conscientiously exercise sound, 
equitable judgment in applying stated laws, regulations, policies and 
procedures to ensure accurate information is disseminated to veterans 
and accurate decisions are provided on all benefit claims administered 
by the Department of Veterans Affairs.

Fully Successful (Issue Based)

    Experience level defined by time in position:

 
6-12 months:                       The accuracy rate during the
                                    evaluation period equals or exceeds
                                    80% (cumulative)
13-18 months:                      The accuracy rate during the
                                    evaluation period equals or exceeds
                                    85% (cumulative)
19-24 months:                      The accuracy rate during the
                                    evaluation period equals or exceeds
                                    90% (cumulative)
Over 24 months:                    The accuracy rate during the
                                    evaluation period equals or exceeds
                                    92% (cumulative)
 

Indicator
    A random selection will be made of an average of 5 end products per 
month regardless of number of issues decided. This includes completed 
cases and partial ratings to determine the accuracy of the originator. 
The selection of actions, while random, must reflect an appropriate mix 
of work performed by the employee throughout the month (i.e. not from a 
single day or single week).
    If a routine review of a RVSR's work demonstrates the need for 
quality improvement, an expanded sample of 10 total end products per 
month will be reviewed for quality purposes.
    Once an error is found and recorded concerning a specific issue 
associated with the claim (ex: effective date), no additional errors 
related to that issue should be recorded (consistent with M21-4 under 
the Quality Review Structure for cascading effect).

ELEMENT 2--TIMELINESS (Critical)

    Timely processing of veterans claims is of paramount importance as 
it highly correlates with customer satisfaction. The RVSR will operate 
in an efficient manner to accurately finalize claims using all 
appropriate workload management tools and processes.
    RVSRs are responsible for the types of work respective to their 
assigned duties. Extenuating circumstances and notification to the 
employee's supervisor will be considered.

Timeliness of Workload Management (includes rating, non-rating and 
                    appeals)

Fully Successful
    RVSRs must manage their workload in accordance with locally 
established workload management plans.
    There will be no more than 3 instances of RVSR specific duties not 
being completed within locally established timeframes, or failure of 
employee to notify their supervisor when cases cannot be worked within 
established timeframes and reasons thereof during the evaluation 
period. An incident will not be called until after the first 
notification of non-compliance of the above standard.
Indicators
        1  VETSNET Operations Reports (VOR)
        2  Local Tracking Reports
        3  Supervisory Assignments and Observation
        4  Folder Aging Reports
        5  VACOLS Reports

ELEMENT 3--OUTPUT (Critical)

    Processes a minimum cumulative average number of weighted actions 
on rating related end products and the following: EP 930 series, 
statements of the case, supplemental statements of the case, claims 
certified to BVA, hearing decisions, EP 290, 600, 095, 070, 172, 165.
    Weighted action credit will be given based on number of issues 
completed per the following:

        1-2 issues completed: .5 weighted action
        3-4 issues completed: 1 weighted action
        5-9 issues completed: 1.5 weighted actions

    Each additional 5 issues completed will be given .5 weight actions 
(i.e. 10-14 issues completed: 2 weighted actions; 15-19 issues 
completed: 2.5 weighted actions; 20-24 issues completed: 3 weighted 
actions; et cetera)
Fully Successful
    Experience level defined by time in position:

        6-12 months: 1.5 weighted actions
        13-18 months: 2 weighted actions
        19-24 months: 2.5 weighted actions
        Over 24 months: 3 weighted actions

    * RVSRs on the Special Operations team will have an additional .25 
weighted actions added to their output for each claim worked meeting 
special operations criteria to account for the complexity of these 
cases.
Indicators
    VOR
    ASPEN
    VACOLS Reports

    * Duplicate credit will not be allowed for self-correction of an 
RVSR's error.
    ** Leave, union time, and special projects or assignments pre-
approved at the discretion of the supervisor are considered deductible 
time. Unmeasured time, such as informal training, was considered in 
developing the successful level and is not reportable deductible time.

ELEMENT 4--TRAINING (Critical)

    RVSR will stay abreast of current laws and regulations, work 
processes, policies and procedures and computer applications in order 
to provide optimum service to our veteran population.
    RVSRs are encouraged to actively participate in developmental 
activities of self and others. For example, this may include 
volunteering to conduct needed training, mentoring and second signature 
reviews.
    The RVSR will complete mandatory Core Technical Training 
Requirements (CTTR) as outlined on a published training schedule and 
within specified deadlines.
    It is the responsibility of supervisors to provide RVSRs with a 
training schedule in advance so they can complete their training 
requirements. It is the responsibility of the RVSR to complete all 
required training within established guidelines.
    Performance under this element will be mitigated when the RVSR's 
supervisor has not allotted sufficient time for RVSR to complete 
training requirements or if the RVSR is not provided a schedule of 
available training and the deadline they are to complete.

Fully Successful

    Timely completion of nationally mandated training hours to include 
core requirements and mandated local training during evaluation period. 
Completes training within assigned deadlines with no more than 1 
violation during evaluation period.
Indicators
    TMS
    Supervisory Observation

ELEMENT 5--Organizational Support (Non-critical)

    Functions as a team member to enhance resolution of claims by work 
actions. Maintains professional, positive, and helpful relationships 
with internal and external customers (to include fellow employees and 
all stakeholders) by exercising tact, diplomacy, and cooperation.
    Performance demonstrates the ability to adjust to change or work 
pressures, to handle differences of opinion in a businesslike fashion, 
and to follow instructions conscientiously. As a team member, 
contributes to the group effort by supporting fellow teammates with 
technical expertise and open communications and by identifying problems 
and offering solutions. Performance also demonstrates the ability to 
effectively communicate in a courteous manner with internal and 
external customers (to include fellow employees and all stakeholders).
    The RVSR provides information to veterans and claimants that is 
accurate, concise, complete and written in a non-adversarial, 
respectful manner that demonstrates courtesy and compassion. This 
information may be in the form of rating decisions, written 
correspondence to claimants and other verbal communication with 
claimants such as personal hearings.
    Fully Successful: No more than 3 instances of valid complaints or 
incidents.*

    * A valid complaint or incident is one where a review by the 
supervisor, after considering both sides of the issue, reveals that the 
complaint/incident should have been handled more prudently and was not 
unduly aggravated by the complainant. Disagreeing, per se, does not 
constitute ``discourtesy.'' Valid complaints or incidents will be 
determined by the supervisor and discussed with the employee.
Indicator
    Verbal and/or written feedback from internal and/or external 
customers. Observations by a supervisor with the complaint documented.
                                 ______
                                 
Attachment 2
                       NATIONAL PERFORMANCE PLAN
                 VETERANS SERVICE REPRESENTATIVE (VSR)
                      (Excludes PMC and PCT VSRs)

ELEMENT 1--QUALITY (Critical)

    The VSR must consistently and conscientiously exercise sound, 
equitable judgment in applying stated laws, regulations, policies and 
procedures to ensure accurate information is disseminated to Veterans 
and accurate decisions are provided on all benefit claims administered 
by the Department of Veterans Affairs.

Standard

    Quality of Work
Successful Level

 
GS-7:                      The accuracy rate during the evaluation
                            period equals or exceeds 80% (cumulative)
GS-9:                      The accuracy rate during the evaluation
                            period equals or exceeds 85% (cumulative)
GS-10:                     The accuracy rate during the evaluation
                            period equals or exceeds 92% (cumulative)
GS-11:                     The accuracy rate for work produced during
                            the evaluation period equals or exceeds 93%
                            (cumulative)
 

Indicators
    A random selection will be made of an average of 5 actions per 
month regardless of number of contentions claimed. Quality of action 
taken on each contention will be evaluated. The selection of actions, 
while random, must reflect an appropriate mix of work performed by the 
employee throughout the month (i.e. not from a single day or single 
week).
    If a routine review of a VSR's work demonstrates the need for 
quality improvement, an expanded sample of an average of 10 actions per 
month will be reviewed for quality purposes.
    The ASPEN checklist to be used will mirror the STAR worksheet and 
will include a component on systems compliance, which will be 
considered a substantive error.

ELEMENT 2--TIMELINESS/WORKLOAD MANAGEMENT (Critical)

    Timely processing of Veterans claims is of paramount importance, as 
it is highly correlated with customer satisfaction. The VSR will 
operate in an efficient manner to accurately finalize claims using all 
appropriate workload management tools and processes.
    VSRs are responsible for the cycles/type of work respective to 
their assigned duties. If multiple timeliness sub-elements apply to a 
VSR (e.g. average days awaiting award, non-rating, and corrective 
actions) they must meet the fully successful level for all applicable 
sub-elements to be successful for the element.
    Extenuating circumstances and notification to the employee's 
supervisor will be considered. An incident will not be called until 
after the first notification of non-compliance of the above standard.
Timeliness

Timeliness of Rating End Products (including EP 930 series)

    Fully Successful: All grade levels must meet locally established 
timeliness requirements, which are to be derived from end of year 
station targets.
    The percentage of claims in each cycle pending over the locally 
established cycle goal must align with station goals for percentage of 
claims greater than 125 days. Management for each station sets goals.
    Cycle Times

        a. Average Days Awaiting Development
        b. Average Days Awaiting Evidence
        c. Average Days Awaiting Award
        d. Average Days Awaiting Authorization

Timeliness of Non-Rating & Control End Products (i.e. EPs 600, 
                    writeouts, 800 series)

    Fully Successful: All grade levels must meet locally established 
timeliness requirements, which should be derived from station targets.

Timeliness of Direct Services (i.e. IRIS, Congressional Inquiries, 
                    etc.)

    Fully Successful: All grade levels must meet locally established 
timeliness requirements, which should be derived from station targets. 
There will be no more than 5 instances where the VSR fails to meet 
established timeliness, or failure of employee to notify their 
supervisor when cases cannot be worked within established timeframes 
and reasons thereof.

Timeliness of Special Projects & Duties (i.e. Women Veterans 
                    Coordinators, AEW Project, etc.)

    Fully Successful: There will be no more than 3 instances of tasks 
not being worked within established timeframes, or failure of employee 
to notify their supervisor when cases cannot be worked within 
established timeframes and reasons thereof.

Timeliness of Corrective Actions

    Fully Successful: There will be no more than 3 instances of failure 
to complete a returned corrective action, or failure of employee to 
notify their supervisor when cases cannot be worked, within three days 
of the case being returned to them for correction.
Workload Management
    Fully Successful: All grade levels must manage their workload in 
accordance with locally established workload management plans. There 
will be no more than 2 instances where the VSR fails to show compliance 
with established workload management procedures.
    Local management will be responsible for creating and communicating 
a workload management plan that will identify the types of work to be 
completed.
Indicators
        <bullet> VETSNET Operations Reports
        <bullet> Local Tracking Reports
        <bullet> Supervisory Observation

ELEMENT 3--OUTPUT (Critical)

    Fully Successful: VSRs process a minimum cumulative average number 
of outputs per day. Outputs will be counted as follows:

    <bullet> Development (Initial Development, Subsequent Development, 
and Ready for Decision including rating Eps, EP 930s, administrative 
decisions, appeals, non-rating Eps, and EP 600s)--.7
    <bullet> 1-2 contention claim development (Initial Development, 
Subsequent Development, and Ready for Decision including rating Eps, EP 
930s, administrative decisions, appeals, non-rating Eps, and EP 
600s)--.5
    <bullet> Telephone development--.1
    <bullet> Process award/decision (generate award, clear end 
product)--.7
    <bullet> Authorize award--.33

    Note 1: Subsequent development includes any actionable item, which 
moves the claim forward and is subject to quality review.
    Note 2: Telephone development requires contact with claimant, 
representative, or medical facility to further the development of the 
claim. Credit for telephone development may be taken in addition to 
development credit.
    Note 3: VSRs performing Post-Determination authorization duties 
will receive an additional .5 weighted action for more complex cases 
involving out of system payments or retroactive effective dates 
preceding 1982 (earliest generate line in VETSNET).
Successful Level
        GS-7: 4
        GS-9: 5
        GS-10: 5.5
        GS-11: 6
Indicators
        <bullet> VOR
        <bullet> ASPEN

    There will be no output element expectation for 90 days following 
the completion of challenge training regardless of entry grade.
    Duplicate credit will not be allowed for self-correction of a VSR's 
error.
    Leave, union time, and special projects or assignments pre-approved 
at the discretion of the supervisor are considered deductible time. 
Unmeasured time, such as informal training, was considered in 
developing the successful level and is not reportable deductible time.

ELEMENT 4--TRAINING (Critical)

    VSR will stay abreast of current laws and regulations, work 
processes, policies and procedures and computer applications in order 
to provide optimum service to our Veteran population.
    Employees are encouraged to actively participate in self-
developmental activities.
    Performance for this standard will be mitigated when the VSR's 
supervisor has not allotted sufficient time for VSR to complete 
training requirements or if the VSR is not provided a schedule of 
available training and the deadline they are to complete.
    It is the responsibility of supervisors to provide VSRs with a 
training schedule in advance so they can complete their training 
requirements.
Successful Level
    GS-7/9/10/11: Timely completion of nationally mandated training 
hours to include core requirements and mandated local training during 
evaluation period. Completes mandatory training within assigned 
deadlines with no more than 1 violation during evaluation period.
Indicators
        <bullet> TMS
        <bullet> Supervisory Observation

ELEMENT 5--Organizational Support (Non-critical)

    Functions as a team member to enhance resolution of claims and 
customer service contacts by work actions. Maintains professional, 
positive, and helpful relationships with customers by exercising tact, 
diplomacy, and cooperation.
    Performance demonstrates the ability to adjust to change or work 
pressures, to handle differences of opinion in a businesslike fashion, 
and to follow instructions conscientiously. As a team member, 
contributes to the group effort by supporting fellow teammates with 
technical expertise and open communications and by identifying problems 
and offering solutions. Performance also demonstrates the ability to 
effectively communicate in a courteous manner with customers during the 
personal or telephone interview process.
Successful Level

GS-7/9/10/11:                   No more than 3 instances of valid
                                 complaints or incidents.*
 
* A valid complaint or incident is one where a review by the supervisor,
  after considering both sides of the issue, reveals that the complaint/
  incident should have been handled more prudently and was not unduly
  aggravated by the complainant. Disagreeing, per se, does not
  constitute ``discourtesy.'' Valid complaints or incidents will be
  determined by the supervisor and discussed with the employee.

Indicators
        <bullet> Verbal and/or written feedback from internal and/or 
        external customers
        <bullet> Observations by a supervisor with the complaint 
        documented

    Question 2. Provide the number of FTE at each VA regional office, 
separated by job title and grade as of March 12, 2014.
    Response. The attached spreadsheet provides full-time equivalent 
(FTE) employees by regional office (RO), grade, and position.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 3. Provide the methodology utilized to allocate personnel 
and resources to the regional offices and specifically address any 
refinements made to this methodology in the past fiscal year.
    Response. The Veterans Benefits Administration's (VBA) Resource 
Allocation Model (RAM) is a systematic approach to distributing field 
resources each fiscal year. The RAM utilizes a weighted model to assign 
compensation and pension (C&P) FTE resources based on RO workload, 
including rating inventory and rating, non-rating, and appeal receipts. 
Starting in fiscal year (FY) 2014, the RAM includes additional 
variables to more closely align with VBA's transformation to a 
paperless, electronic environment, where receipts can be assigned and 
managed at the national level. These variables include station 
efficiency, quality, and RO capacity. VBA leaders use the model as a 
guide, making adjustments for special circumstances or missions 
performed by individual ROs. Special missions include Day-One Brokering 
Centers, Integrated Disability Evaluation System (IDES) processing 
sites, Benefits Delivery at Discharge sites, Quick Start processing 
locations, and National Call Centers (NCC). Non-payroll and travel 
resources are allocated to each RO based on business need, including 
the number of FTE, benefit programs administered, and other unique 
factors such as geographic location and jurisdiction.

    Question 4. In 2009, VA began an effort to update the VA Schedule 
for Rating Disabilities.
    a. Provide an itemized list of funding expended in FY 2013 on the 
rating schedule modernization.
    Response. In FY 2013, VBA spent approximately $981,000 to support 
updates to the VA Schedule of Rating Disabilities (VASRD), including 
$902,000 for personal services, $30,000 for travel, and $49,000 for 
rent, supplies, and other services.
    b. Provide an itemized list of funding expended in FY 2014 on the 
rating schedule modernization.
    Response. In FY 2014, VBA will spend approximately $996,000 to 
support updates to VASRD, including $947,000 for personal services, 
$3,000 for travel, and $46,000 for rent, supplies, and other services.
    c. Provide an itemized list of the requested funding in FY 2015 for 
the rating schedule modernization. Also, include the number of FTE 
assigned to or supporting this modernization effort.
    Response. In FY 2015, VBA requested $3.0 million to update the 
VASRD, including $952,000 for personal services, $30,000 for travel, 
and $2.0 million for rent, supplies, and other services. The increase 
in funding in FY 2015 is primarily due to a contracted earnings loss 
studies. Five employees are currently assigned to support the VASRD 
update project.
    d. Provide the Project Management Plan, the VASRD Update Operating 
Plan and project schedule for the rating schedule modernization.
    Response. The Project Management Plan for the VASRD Update Project, 
which contains the operating plan and project schedule, is attached.
    e. Does the FY 2015 request include any funding to support updates 
that will need to be made to IT solutions, including VBMS, disability 
benefit questionnaires, rules-based calculators, or other initiatives 
based on the current VASRD? How much funding does VA anticipate these 
updates will require upon publication of final rules for the various 
body systems?
    Response. The FY 2015 budget request does not include funding to 
change information technology (IT) systems related to the VASRD 
modernization project, as VBA does not plan to publish the proposed 
regulations until the fall of 2015. Consequently, any changes 
necessitated by the new regulations will not be required until FY 2016.

    Question 5. Provide the number of FTE assigned to or supporting 
VA's accreditation program. Also, provide the following information for 
calendar years 2012 and 2013.
    a. The number of individuals per year who have sought recognition 
to represent individuals before VA broken down by representatives of 
service organizations, attorneys or agents.
    Response. As of April 2014, the Office of General Counsel has 
approximately 4 full-time equivalent employees (FTE) dedicated to the 
accreditation program:

    <bullet> 3 FTEs for 3 legal assistants
    <bullet> Approximately 0.1 FTE for an Assistant General Counsel
    <bullet> Approximately 0.4 FTE for a Deputy Assistant General 
Counsel
    <bullet> Approximately 0.5 FTE total for 10 staff attorneys

    From fiscal years 2009 to 2013, Department of Veterans Affairs has 
annually received applications from approximately 2,400 individuals 
seeking accreditation as Veterans Service Organization (VSO) 
representatives; 2,430 individuals seeking accreditation as attorneys; 
and 355 individuals seeking accreditation as claims agents. The 
estimate for VSO representatives includes requests for cross-
accreditation, which occur when an individual seeks accreditation 
through other organizations by virtue of his or her membership of and 
accreditation through another organization. (Please note that the data 
provided in the responses to Question 5 are approximations due to 
database limitations.)
    b. Of those requests for recognition, how many were granted and how 
many were denied?
    Response. From fiscal years (FY) 2009-2013, Department of Veterans 
Affairs (VA) has annually granted accreditation to approximately 2,390 
Veterans Service Organization (VSO) representatives; 2,410 attorneys; 
and 65 claims agents. Because many VSO representatives seek cross-
accreditation with other organizations, the estimate for VSO 
representatives does not reflect the total number of individual VSO 
representatives granted accreditation.
    From FYs 2009- 2013, VA has annually denied accreditation to 
roughly 10 VSO representatives, 20 attorneys, and 290 claims agents. 
Many claims agent applicants are not granted accreditation because they 
do not take or pass the VA accreditation examination or otherwise fail 
to pursue their application. Also, applicants may have been denied 
because they were Federal employees, who are generally prohibited from 
representing individuals before a Federal agency.
    c. On average, how long does it take VA to process a request for 
recognition?
    Response. As of April 2014, applications for accreditation of 
Veterans Service Organization representatives are processed in about 
60-90 days; attorney applications in about 90-120 days; and claims 
agent applications in about one year. Claims agent applications take 
considerably longer because claims agent applicants need to take and 
pass a Department of Veterans Affairs accreditation examination, submit 
character references, and undergo a background check.
    d. How many individuals had their recognition suspended or 
canceled?
    Response. From fiscal years (FY) 2008-2013, Department of Veterans 
Affairs (VA) suspended accreditation for cause for 3 Veterans Service 
Organization (VSO) representatives, 0 attorneys, and 0 claims agents.
    From FYs 2008-2013, VA canceled accreditation for cause for 18 VSO 
representatives, 1 attorney, and 1 claims agent.
    Other accredited VSO representatives may have had their 
accreditation canceled by their organizations for various reasons, such 
as termination of employment, retirement, or failure to comply with the 
organizations' training requirements. Other accredited attorneys and 
claims agents may have had their accreditation suspended in 2011 for 
failure to comply with VA's training requirements.
    e. How many complaints were filed against individuals who are 
recognized to represent claimants before VA, how many were found to 
have merit, and how many were referred to the Inspector General, a law 
enforcement agency, or other similar enforcement entity and how many of 
the referred cases resulted in further enforcement, disciplinary or 
legal action?
    Response. Since January 2012 (Department of Veterans Affairs (VA) 
does not have complete numbers prior to 2012 because the database did 
not track complaints before 2012), VA received approximately 60 
complaints--8 complaints regarding accredited Veterans Service 
Organization (VSO) representatives, 19 complaints regarding accredited 
attorneys, 10 complaints regarding accredited claims agents, and 23 
complaints regarding non-accredited individuals or organizations. In 
about 20 of these complaints, Office of General Counsel (OGC) found the 
matter not to have merit, or OGC did not receive the necessary 
disclosure authorizations to follow up on the complaints. VA followed 
up on approximately 40 of the 60 complaints. Currently, there are 
approximately 30 complaints that are in pending or monitoring status.
    In two instances, VA initiated cancellation proceedings against two 
accredited attorneys for unlawful practices. These two matters are 
currently awaiting a VA administrative hearing. In two other instances, 
accredited attorneys refunded to Veterans fees that were allegedly 
charged unlawfully. In five instances, accredited individuals changed 
their business policies or practices.
    Since 2009, VA has referred approximately 7 accreditation matters 
to State Attorney General Offices. In one instance, a State Attorney 
General's Office prosecuted a non-accredited individual engaged in 
unlawful activities involving VA benefit claims for violation of State 
consumer protection laws. This matter is currently pending with a State 
administrative hearing judge.
                          va/dod collaboration
    Question 6. According to the FY 2015 budget request, the Integrated 
Disability Evaluation System (IDES) operates at 139 military treatment 
facilities worldwide and is available to all servicemembers who are 
referred to medical evaluation boards for fitness determinations. The 
FY 2015 budget request noted 31,764 new referrals in 2013.
    a. Has DOD provided VA with information on the anticipated number 
of referrals that VA can expect the program to receive in FY 2015 or 
future fiscal years?
    Response. Projections were provided by the Department of Defense 
(DOD). The total of 93,868 follows:

    <bullet> FY 2015:  27,213
    <bullet> FY 2016:  24,194
    <bullet> FY 2017:  21,195
    <bullet> FY 2018:  21,266

    b. How many referrals has the program received in FY 2014 and how 
many are anticipated in FY15?
    Response. The Department of Veterans Affairs (VA) total for FYs 
2014 and 2015 were 57,803, and below is the breakdown.

    <bullet> Projected referrals for FY 2014: 30,590 (Actual referrals 
through March 2014: 14,475)
    <bullet> Anticipated referrals for FY 2015: 27,213

    c. How many contract disability examinations were used to support 
IDES in FY 2013 and to date in FY14?
    Response. VA's total for FYs 2013 and 2014 were 24,717 and below is 
the breakdown:

    <bullet> Veterans Health Administration (VHA)--VHA provided 2,123 
exams in FY 2013 and 474 in FY 2014.
    <bullet> Veterans Benefits Administration (VBA)--In FY 2013, 15,142 
VBA contract examinations were completed in support of Integrated 
Disability Evaluation System (IDES).
    <bullet> FY 2014 through March 2014: 6,978 VBA contract 
examinations were completed in support of IDES.

    d. What specific actions have been taken to improve intra-agency 
information exchange processes to ensure VBA meets the benefit 
notification goal of 30 days?
    Response. VA is taking the following actions to help meet the 
benefit notification goal of 30 days for IDES claims:

    <bullet> VA must obtain verified service information before 
finalizing IDES awards. DOD's Defense Manpower Data Center sends this 
information to VA via the VA/DOD Identity Repository (VADIR), and VA 
views the information using the Veterans Tracking Application. In 
March 2014, separation, severance, and retired pay information from 
VADIR was made available on the Veterans Information Solution, an 
intranet-based application designed to provide a consolidated view of 
information about Veterans and Servicemembers.
    <bullet> In coordination with the Providence Disability Rating 
Activity Site (DRAS), the Navy has begun electronically submitting DD 
Form 214s for IDES participants for final processing. This ensures the 
electronic form is available to VA shortly after discharge and 
eliminates delays associated with untimely submission of DD Form 214.
    <bullet> The Physical Evaluation Boards have agreed to include an 
indication of the current duty status of members of the National Guard 
and Reserve along with the request for preliminary IDES ratings. This 
information allows the DRAS to immediately finalize and deliver 
benefits to IDES participants who are not in active-duty status.
    <bullet> In April 2013, VA reviewed disability compensation 
payments based on disability discharges and disability retired pay. 
Based on this review, VA issued standard operating procedures for IDES 
cases in August 2013 that allow disability compensation payments to 
start without waiting for disability retirement payments to begin and 
that do not result in the creation of an overpayment when retired pay 
does begin. In addition, the Defense Finance and Accounting Service's 
Retired Casualty Pay Subsystem completed a programming change in 
February 2014 that allows VA to more timely process an additional set 
of claims without incorrectly affecting retired pay.

    e. Provide the amount of funding spent in FY 2013 and how many VA 
employees were dedicated to the IDES process.
    Response. VA's total for FY 2013 was $93,364,281 and below is the 
breakdown:

    <bullet> Office of Policy and Planning (OPP)--During FY 2013, OPP 
spent approximately $1,164,281, which is comprised of $570,630 for a 
program management support contract, $568,651 in salary for 5 FTE, and 
$25,000 in travel costs.
    <bullet> VHA--The FY 2013 IDES Supplemental Budget distributed to 
the operational field sites supporting the IDES Program was $21.5 
million. These funds were distributed to VAMCs with a direct IDES 
mission to assist and defray costs associated with the deployment and 
implementation of the IDES program. Staff located at VA medical centers 
(VAMCs) are not solely dedicated to the IDES process.
    <bullet> VBA--During FY 2013, VBA spent approximately $70.7 million 
for salaries and other general operating expenses for 643 FTE dedicated 
to disability claims processing in the IDES process. Compensation staff 
and Vocational Rehabilitation and Employment counselors are included in 
this count. Veterans filing claims through the IDES sites are captured 
in the nationwide Veteran caseload count and total compensation benefit 
obligations; therefore, mandatory funding cannot be separated for this 
program.

    f. Provide the amount of funding spent in FY 2014 and how many VA 
employees were dedicated to the IDES process.
    Response. VA's total for FY 2014 was $73,092,082 and below is the 
breakdown.

    <bullet> OPP--During FY 2014, OPP estimates it will spend 
$1,192,082, which is comprised of $581,144 for a program management 
support contract, $585,938 in salary for 5 FTEs, and $25,000 in travel 
costs.
    <bullet> VHA--In FY 2014, supplemental funding for IDES was will no 
longer provided to operational sites. IDES Supplemental funding was a 
VHA initiative inacted to assist facilities having an IDES mission, to 
assist them defray costs associated with the deployment and 
implementation of the IDES Program. Once the IDES program matured and 
was fully implemented, funding to assist with IDES operational costs 
were included in VHA's Veterans Equitable Resource Allocation (VERA) 
model. Staff located at VAMCs are not solely dedicated to the IDES 
process.
    <bullet> VBA--During FY 2014, VBA estimates it will spend 
approximately $71.9 million for salaries and other General Operating 
Expenses (GOE) to support 648 FTE dedicated to disability claims 
processing in the IDES process.

    g. Provide the amount of funding requested in FY 2015 and how many 
VA employees will be dedicated to the IDES process.
    Response. VA total for FY 2015 was $75,297,179 and below is the 
breakdown.

    <bullet> OPP--During FY 2015, OPP estimates it will spend 
$1,197,179 which is comprised of $586,241 for a program management 
support contract, $585,938 in salary for 5 FTEs, and $25,000 in travel 
costs.
    <bullet> VHA--Starting in FY 2014, supplemental funding for IDES 
was no longer provided to operational sites. IDES Supplemental funding 
was a VHA initiative inacted to assist facilities having an IDES 
mission, to assist them defray costs associated with the deployment and 
implementation of the IDES Program. Once the IDES program matured and 
was fully implemented, funding to assist with IDES operational costs 
were included in VHA's VERA funding as described earlier.Staff located 
at VAMCs are not solely dedicated to the IDES process.
    <bullet> VBA--During FY 2015, VBA estimates it will spend 
approximately $74.1 million for salaries and other GOE to support 648 
FTE dedicated to disability claims processing in the IDES process.

    Question 7. VA's Office of Interagency Collaboration and 
Integration is responsible for ``coordinating the implementation of the 
Integrated Disability Evaluation System (IDES) and streamlining the 
disability evaluation process through continual process improvements.''
    a. What process improvements were made in FY 2014 to streamline the 
process?
    Response.

                                       IDES Process Improvements (FY 2014)
----------------------------------------------------------------------------------------------------------------
        Improvement Initiatives                             Impact                          Current Status
----------------------------------------------------------------------------------------------------------------
Disability Benefit Questionnaires (DBQ)  Decrease rates of inadequate medical exams   DBQs implemented at all
 in IDES.                                 and allow digitalization of IDES med exam    IDES sites Oct. 1, 2013
                                          information for input into Veterans
                                          Benefits Management System (VBMS).
----------------------------------------------------------------------------------------------------------------
VHA providers were placed at the         <bullet> Reduce time and insufficient        Providers are currently
 Regional Offices and Disability Rating   reports                                      located at the Seattle
 Activity Sites.                         <bullet> Clarify questions raised regarding   and Providence sites.
                                          the disability exam [extra words to cause
                                          a runover line]
                                         <bullet> Allow for training points
----------------------------------------------------------------------------------------------------------------
VA Pays First..........................  VA will be able to pay separating            Phase I and II have been
                                          Servicemembers without waiting 20-25 days    implemented and
                                          for the Defense Finance and Accounting       Servicemembers are no
                                          Service to complete accounting processes     longer waiting to receive
                                          for Retired Pay cases with a skeleton        pay.
                                          record in the Recovery Care Program
                                          Support System.
----------------------------------------------------------------------------------------------------------------

    b. What is the current status of electronic case file transfer 
capabilities within IDES?
    Response. Electronic case file transfer is currently pending the 
establishment of a bi-directional interface between VA's Data Access 
Service to VBMS. As an interim solution, VA and DOD are exploring 
alternative methods of sending an electronic case file to VA's scanning 
vendor for upload into VBMS.

    Question 8. The problem of overmedication and medication management 
is a national problem, one that both public and private health care 
systems must address. VA has reported the Opioid Safety Initiative 
(OSI) conducted at eight sites in Minnesota was a success.
    a. Provide the Committee with the results of the OSI conducted at 
the eight sites in Minnesota.
    Response. At the American Academy of Pain Medicine's annual meeting 
on March 7, 2014, Peter Marshall, M.D., from the Minneapolis VA Health 
Care System presented a summary of methods and outcomes of the 
Minneapolis VA OSI to the Veterans Health Administration (VHA) and DOD 
pain management leaders. The Minneapolis OSI team is submitting a 
manuscript for publication in Pain Medicine describing OSI methods and 
outcomes. These results include:

    <bullet> The number of patients prescribed high-dose (>200 Morphine 
Equivalent Dose or MED) opioids for chronic, non-cancer pain has been 
reduced by 70 percent.
    <bullet> The number of patients prescribed >400MED opioids for 
chronic, non-cancer pain has been reduced by 86 percent.
    <bullet> With reduced numbers of patients receiving high-dose 
opioids, the total amounts of opioids supplied to the Minneapolis 
patient population (in MED) has fallen by 50 percent.
    <bullet> There has been a 13 percent reduction in total number of 
unique patients who received at least one opioid prescription in the 
past 30 days, while the total number of unique patients went up by 10 
percent. This may reflect a change in ``treatment culture'' to use 
alternatives to opioids for treating chronic, non-cancer pain.
    <bullet> Annual urine drug screening (UDS) in patients on opioids 
for chronic non-cancer pain has increased from 21 percent to 55 percent 
of patients. For patients on high-dose (>200MED), annual UDS has 
increased from 30 percent to 64 percent of patients.
    <bullet> All other Veterans Service Integrated Network (VISN) 23 
Health Care Systems are adapting this model and are at various stages 
of implementation. Clinical pharmacists and Patient Aligned Care Teams 
(PACT) are highly engaged in using team-based approaches to support 
safe and effective care to their patients.

    b. Provide a detailed description of the opioid safety program in 
which all medical centers are now participating.
    Response. OSI is a comprehensive monitoring program to provide safe 
and effective pain care. Currently, all 21 VISNs and all VA medical 
centers (VAMC) are able to access provider-specific opioid prescribing 
data through a unique business intelligence tool named the Opioid 
Safety Dashboard (OSD). OSD enables VISN and VAMC subject matter 
experts trained in the safe use of opioids to assist providers in 
maintaining safe prescribing practices. OSD identifies patients on 
potential unsafe combinations of medications (such as opioids and 
benzodiazepines) and those who would benefit from closer monitoring of 
drug treatment through urine screening. This information is available 
for use by subject matter experts and providers. OSD is updated 
quarterly to reflect new prescriptions and monitor current prescribing. 
Monitors include: the number of patients monitored using urine drug 
screening, the number of patients on opioids and benzodiazepines, and 
the total number of patients receiving opioids. This data is made 
available for review by subject matter experts, providers, and VISN and 
VAMC leadership. VHA Central Office also develops trending reports that 
are reviewed by field-based pharmacy and clinical leadership.
    Additionally, as part of the OSI, VHA Central Office has provided 
field-based staff training materials that encourage the use of non-
opioid medications and alternatives, which reinforce the use of 
complementary and alternative medicine as a vital tool to provide safe 
pain care.
    c. Provide a detailed description of the reasons for having all 
medical centers participate in an opioid safety program and what plans 
and procedures VA has to measure the success of the program.
    Response. One of the primary goals of VHA is to ensure that the 
care provided to Veterans is safe, high-quality and evidence-based. VHA 
is implementing OSI system-wide to ensure that Veterans across the 
Nation have appropriate access to safe prescribing of opioids, as this 
is a treatment modality that is broadly used across VHA's health care 
system. VHA is utilizing OSD to monitor utilization of urine drug 
screening, provider-specific prescribing of opioids and 
benzodiazepines, and the total number of opioids prescribed. The intent 
of these monitors is to verify that Veterans experiencing chronic pain 
receive safe, effective care. OSD serves as a tool to assist providers 
and subject matter experts in their clinical practice as they treat 
Veterans experiencing chronic pain.
    d. Similar concerns regarding overmedication and medication 
management have been raised about DOD's approach to the treatment of 
wounded warriors. Based on the success VA has reported from the OSI 
conducted at eight sites in Minnesota, are there lessons learned that 
could be shared with DOD?
    Response. The Minneapolis VA OSI team has shared information about 
the methods and results with the Department of Defense (DOD) and the 
private sector. At the American Academy of Pain Medicine's annual 
meeting on March 7, 2014, Peter Marshall, M.D., from the Minneapolis VA 
Health Care System presented a summary of methods and outcomes of the 
Minneapolis VA OSI to the Veterans Health Administration (VHA) and DOD 
pain management leaders. Dr. Marshall also communicated with 
Christopher Spevak, M.D., pain specialist at Walter Reed National 
Military Medical Center, and shared Minneapolis OSI data and other OSI 
and Minneapolis Pain Center program documents. The Minneapolis VA OSI 
team is also available to provide other information and support if 
requested by DOD. In addition, the Minneapolis OSI team is submitting a 
manuscript for publication in Pain Medicine describing OSI methods and 
outcomes.
    e. What efforts are VA undertaking to make sure DOD is aware of 
VA's work on this issue as DOD continues to address similar issues 
among its wounded warrior population?
    Response. VHA regularly presents progress on its various pain 
management initiatives to the DOD/VA Health Executive Committee's (HEC) 
Pain Management Work Group (PMWG), where discussion and planning of 
joint programs in pain management take place. PMWG discusses issues 
related to opioid safety including standardizing urine drug testing and 
the implementation and use of the DOD/VA Chronic Opioid Therapy 
Guidelines. OSI and its pilot results will be presented to the HEC PMWG 
for a discussion of its general implementation in VHA and DOD more 
widely. It is anticipated that the pilot results will be presented at a 
full HEC meeting later in 2014.

    Question 9. Provide a detailed description of how VA intends to 
ensure the projected amount of money is collected through the Medical 
Care Collections Fund in FY15.
    a. Specifically, what plans does VA have for increasing the 
collection of accurate third-party reimbursement information from both 
existing and new patients?
    Response. To ensure that VA collects the amount projected in fiscal 
year (FY) 2015, VA has deployed seven industry best practice 
Consolidated Patient Account Centers (CPAC) to manage back office 
collection activities such as billing and accounts receivable follow 
up. CPACs were deployed in FY 2012, which is 1 year earlier than 
mandated under Public Law 110-387. CPACs focus on standardized 
processes and intensive employee training has proven to be successful 
as evidenced by both achievement of expected collection results and 
performance in key industry performance metrics.
    VA also has focused on identifying opportunities to improve front-
end revenue cycle processes related to collection of accurate insurance 
information. Toward that end, VHA is deploying an Integrated Resources 
Center (IRC) that provides resources to staff to increase their 
knowledge of approved methods for obtaining and recording demographic 
and health insurance information. The IRC library will include links to 
intake training modules; current policies, procedures and directives; 
scripts; a best practice registry; intake performance tracking; and 
online training videos made in cooperation with VHA's Employee 
Education Service.
    b. How does VA plan to make up for any shortfall if the budget 
projection of $3 billion is not met?
    Response. VA does not expect to have a shortfall in the Medical 
Care Collections Fund in 2015. All funding requirements and sources of 
funds are reviewed periodically throughout the fiscal year. As of 
May 2014 our aged 3rd Party receivables, which are defined as payments 
from insurers that haven't been received by 90 days after billing, 
amounted to $114 million.

    Question 10. In its response to my post-hearing questions regarding 
the FY 2014 budget request, VA noted it had developed and implemented 
staffing guidance for general outpatient mental health programs.
    a. Has VA developed a staffing model for determining the target 
number of mental health staff for a whole facility? If no, please 
explain any progress toward development of a staffing model and when 
VA's expects to complete development and implementation.
    Response. VA's guidance for outpatient staffing levels is developed 
in the context of: (1) data on Veteran access to timely, full-spectrum 
mental health services at appropriate intensity, and (2) information on 
the local facility organization (e.g., number and location of 
Community-Based Outpatient Clinics (CBOC)), the geographical area the 
facility serves, and the availability of inpatient, residential, 
telehealth, and regional specialty mental health services. It is 
expected that appropriate staffing levels will vary somewhat based on: 
local Veteran needs; whether the patient population resides in a rural 
area; facility use of contracted or telehealth-based services, 
collaborative service delivery with local residential treatment 
programs, and other factors. As there are strong relationships between 
mental health staffing levels and Veteran access to mental health 
services, indications of poor access are considered a trigger for 
review of adequacy of clinical staffing and planning for remediation of 
access concerns.
    VA has been developing staffing guidance based on patient demand to 
assist facilities in ensuring consistent staffing for mental health. 
For sites with hiring/staffing challenges, VA is expanding the use of 
contracts and the use of telemental health. Methods to estimate future 
staff needs based on mental health workload projections have been 
drafted and are being reviewed and refined. This modeling will provide 
targets for all mental health staffing needs at a facility. VHA expects 
to conduct internal validation of this modeling over the next 2 fiscal 
years to determine whether facility adherence to the model is 
associated with maintenance of Veteran access to mental health services 
as the mental health patient population grows, and adjust within that 
time as necessary.
    b. In the absence of such a model, describe the methodology VA uses 
to accurately budget for mental health care.
    Response. Please see the response to Question 10a.

    Question 11. What percentage of dental care is provided at VA 
facilities and what percentage is provided through non-VA care?
    Response. For FY 2013, 86 percent of dental workload (measured in 
Relative Value Units) was completed on-site at VA facilities and 14 
percent was completed through non-VA Care. There were 462,254 total 
patients, 442,688 received care within VA on-site and 54,929 received 
care in the private sector. Some patients received care in both venues.

    Question 12. Has VA experienced difficulties in recruiting 
qualified individuals to fill open dental vacancies? If so, explain 
what VA has done to address this issue.
    Response. VA receives sufficient applications to recruit qualified 
individuals to fill open dentist occupational vacancies with the 
exception of certain scarce specialties such as oral surgeons. As of 
July 15, 2014, there are 20 dentist vacancies and 2 dental hygienist 
vacancies listed on the USAJobs Web site. The average speed of hire 
(SOH) timeframe to hire these dental occupations is 41.99 days, which 
is less than VA's SOH goal of 60 days. This data accounts for all hires 
of the previously mentioned occupations from October 1, 2013, through 
February 28, 2014.
    Additionally, the following initiatives have been launched to 
enhance the recruitment of dental hygenists and lab technicians:

    <bullet> Hygienists: The qualification standard for dental 
hygienists is being updated to create a career ladder potential for 
advancement for dental hygienists in VA that mirrors the private 
sector.
    <bullet> Laboratory Technicians: The Central Dental Laboratories 
maintain a skills development program to advance technicians skills and 
abilities internally. Outsourced laboratory services are also used to 
fill the gap.

    Question 13. In the medical patient caseload portion of the FY 2015 
budget request, VA estimates between FY 2014 and FY 2015, an additional 
112,519 Priority Groups 1-6 veterans will access VA health care. Yet, 
it estimates a decrease of 2,021 veterans in Priority Groups 7 and 8 
for the same period of time and a further decrease of 9,249 veterans 
from 2015 to 2016. Given the Affordable Care Act (ACA) requires 
Americans to obtain health care coverage before March 31, 2014, many 
uninsured veterans will turn to VA for their health care needs. VA 
estimates it will see an increase of 63,000 veterans in 2015 as a 
result of ACA implementation.
    a. Why does VA estimate a decrease in Priority Groups 7 and 8 
veterans in the FY 2015 budget?
    Response. VA's FY 2015 Medical Care budget request does not project 
a decrease in Priority Group 7 and 8 enrolled Veterans, VA projects an 
increase of 27,987 enrollees (see page 32 of the second volume of the 
FY 2015 Budget). The 2,021 Veteran decline reflects the projected 
decrease in the number of Priority Group 7 and 8 patients. The VA 
Enrollee Health Care Projection Model (EHCPM) projects enrollee health 
care services over a 20-year planning period. For each year, the EHCPM 
projects the number of Veterans expected to be enrolled, their 
priority, age, gender, special conflict status, and geographic 
location. The patient projections model estimates the probability of 
enrollees becoming patients each fiscal year. Patients are projected as 
a function of enrollee type, priority, age, gender, special conflict 
status, and assumed morbidity and reliance levels. While projections 
for Priority Group 7 and 8 enrollees, as reflected in the FY 2015 
budget submission, suggest a slight increase in enrollment for this 
population, since many of these enrollees have some other form of 
public/private health insurance coverage, they tend to be less reliant 
upon VA for care, and therefore do not generate a corresponding 
increase in patients, as noted by the projected decline of 2,021 
Veterans in the chart on page 7 of the second volume of the FY 2015 
Budget. Historical data also shows a decline in Priority Group 7 and 8 
patients.

    b. Provide the following information regarding priority groups:

          i. The number of such veterans moving from Priority Groups 7 
        and 8 to Priority Groups 1-6 between FY 2014 and FY 2015; and
          Response. The net number of enrollees that are projected to 
        move from Priorities 7 and 8 into Priorities 1-6 between FY 
        2014 and FY 2015 is 15,566. (**Note: This is the net number of 
        enrollees moving into Priorities 1-6. This means that enrollees 
        moving from Priority Groups 7-8 into Priority Groups 1-6 are 
        offset by enrollees moving from Priority Groups 1-6 into 
        Priority Groups 7-8. There are significant movements in both 
        directions, and the net movement is close to zero. Movements 
        from Priorities 4-8 into Priorities 1-3 are estimated to be 
        132,325 during the same time period (FY 2014 to FY 2015)).
          ii. The number of veterans currently enrolled in the VA 
        health care system that VA expects will become ineligible, in 
        2015 and 2016, for VA health care due to its geographic means 
        test.
          Response. Veterans currently enrolled do not become 
        ineligible based on a geographic means test, if they are 
        already enrolled.

    Question 14. In the performance measure section of the President's 
FY 2015 budget request, VA reports an increase of 38 percent, from 2012 
to 2013, of targeted OEF/OIF veterans with a primary diagnosis of PTSD 
who receive a minimum of eight psychotherapy sessions within a 14-week 
period. Provide the Committee with the criteria utilized in FY 2012 and 
FY 2013 individually to identify these targeted OEF/OIF veterans.
    Response. VA did not report a 38-percent increase in the percentage 
of Operation Enduring Freedom/Operation Iraqi Freedom/Operation New 
Dawn (OEF/OIF/OND) Veterans receiving 8 psychotherapy visits in 14 
weeks. We believe that this number may have been incorrectly surmised 
as it looks to be the difference between the measure in existence in FY 
2012 and the measure in existence for FY 2013. However, these two 
metrics are not comparable. Below is a description of each measure, and 
a summary of the changes in utilization of psychotherapy across the 2 
years.
    In FY 2012, the measure (OEF 4) was a percentage defined by the 
following numerator and denominator. The denominator (see FY 2012 
Presidential Budget Submission, Volume II, page 1G-23) included 
Veterans who were deployed in OEF/OIF/OND and had two primary diagnoses 
of Post Traumatic Stress Disorder (PTSD) in two outpatient encounters 
that occur within 90 days of each other. Patients are entered into the 
denominator once they received a second encounter with a primary 
diagnosis of PTSD. A number of visit types such as telephone contacts 
and vocational services were excluded when looking for qualifying 
encounters. In addition, any Veteran who had already received at least 
8 visits in 14 weeks in the previous 5 years was excluded from the 
denominator. The numerator consisted of Veterans who are included in 
the denominator and have encounters with PTSD as the primary or 
secondary diagnosis for 8 psychotherapy sessions within a 14-week time 
period after the qualifying encounters. The measure in FY 2012 was 
reported as a straight percentage. At the end of the fiscal year, there 
were cumulatively 8,155 Veterans in the numerator and 56,103 Veterans 
in the denominator, for a percentage of 14.54 percent.
    In FY 2013, the measure reported (OEF 41) was changed (see FY 2013 
Presidential Budget Submission Volume II, page 1H-6). Conceptually, the 
numerator and denominator remain the same as OEF 4, although some 
additional exclusions were placed on the denominator such as an 
expanded set of clinic types that would not count toward qualifying 
encounters and the removal of Veterans who passed away after being 
qualified for the denominator. Most importantly, however, the measure 
was redefined to reflect the fact that not all Veterans will want or be 
ready for this particular type of treatment. Previous VA research had 
indicated that about 30 percent of Veterans offered these interventions 
will actually begin the therapies. Therefore, the new measure is 
calculated as the numerator divided by the denominator and then divided 
by 30 percent. In FY 2013, the numerator was 8,530, the denominator was 
53,297. The ratio to be used to compare to FY 2012 was 16.0 percent, 
and the final measure (16 percent/30 percent) is 53.33 percent of all 
OEF/OIF/OND Veterans who could benefit from the treatment and who will 
want and be ready for the treatment.
    It appears that whomever reported the 38-percent change mistakenly 
subtracted the FY 2012 number from the FY 2013 number (a difference of 
38.79), not being aware that the measures were not comparable. Since 
the numerator and denominator are roughly comparable, we can say that 
there was a 1.5 percent increase in the proportion of OEF/OIF/OND 
Veterans receiving 8 visits in 14 weeks.

    Question 15. What is the population size of the targeted 
population? Has the population size changed since 2012?
    Response. The ``targeted population'' is Veterans defined by the 
denominators described in the response to question 14. In FY 2012, it 
was 56,103 Veterans, while in FY 2013 it was 53,297. This number is 
separate from the number of OEF/OIF/OND Veterans with PTSD served by 
VA.

    Question 16. In the performance measure section of the President's 
FY 2015 budget request, VA reports that 73 percent of veterans answered 
``yes'' to the shared decisionmaking question in the Inpatient Surveys 
of the Health Experience of Patients (SHEP). VA also notes this 
question will be deleted after Fiscal Year 2014 and replaced with 
``alternative satisfaction measures.''
    a. Provide the Committee with the ``alternative satisfaction 
measures'' that will be used.
    Response. The Self-Management Support measure, found in the Patient 
Centered Medical Home (PCMH) Consumer Assessment of Health Providers 
and Systems (CAHPS) that forms the basis of VHA's Outpatient SHEP will 
replace the Inpatient Shared Decision Making measure. This new measure 
has undergone extensive testing for validity and expands the concept of 
shared decisionmaking into VA's PACTs, which forms the foundation of 
our Veteran-centered health care efforts. This new measure is 
calculated as the average of the weighted percentage of patients who 
responded ``Yes'' to questions 35 and 36, ``in the last 12 months, did 
anyone in this provider's office talk with you about specific goals for 
your health,'' and ``in the last 12 months, did anyone in this 
provider's office ask you if there are things that make it hard for you 
to take care of your health,'' respectively, in the SHEP survey.
    b. What measures or initiatives is VA currently implementing to 
increase the percentage of veterans involved in making decisions 
regarding their health care, including mental health?
    Response. VHA has developed and piloted the Personal Health 
Inventory as a tool for Veterans and teams. This tool allows Veterans 
and providers to discuss life goals and preferences in a personalized 
plan of care. A number of VHA facilities have deployed an interactive 
bedside system, which allows the Veteran more direct access to their 
care team. These systems allow the Veteran to provide input on their 
care while at the facility and also provide an opportunity for staff to 
respond timely to issues identified during the stay. Additionally, VHA 
has developed and deployed staff training classes in order to educate 
staff about involving Veterans in making decisions regarding their 
health care.

    Question 17. What measures and initiatives has VA utilized to 
achieve a decrease in the amount it spends per patient for OEF/OIF/OND 
veterans of $212 per veteran, from 2012 to 2013, while increasing the 
spending by $45 per patient for all VA patients, during the same time 
period?
    Response. The decrease in cost per patient of $212 per Veteran from 
2012 to 2013 was an error and the result of a miscalculation in 
overhead costs. The correct 2012 actual is reflected in the table 
below. On average, the OEF/OIF/OND Veterans population's medical care 
is increasing in complexity which translates into an increased cost for 
medical treatment. OEF/OIF/OND is a subset of the total obligations per 
unique patient. This error had no impact on the total budget request, 
as the correct actual data was included in the estimates generated by 
the VA EHCPM.

 
----------------------------------------------------------------------------------------------------------------
                                                           2012 Actual       2013 Actual
                      Description                                                                 Difference
----------------------------------------------------------------------------------------------------------------
OEF/OIF/OND
  Obligations ($000).................................      $2,745,534        $3,208,682             $463,143
  Unique Patients....................................         544,088           616,487               72,399
  Cost per Patient...................................          $5,046            $5,205                 $159
 
Obligations per Unique Patient
  Obligations ($000).................................     $53,868,410       $55,453,211           $1,584,801
  Unique Patients....................................       6,333,091         6,484,664              151,573
  Cost per Patient...................................          $8,506            $8,551                  $45
----------------------------------------------------------------------------------------------------------------


    Question 18. The FY 2015 budget request states that in 2013, the 
HUD-VASH program funded 562 additional positions in various 
disciplines, including peer support positions, employment specialists, 
psychiatrists, nurses, and housing specialists.
    a. How many additional positions in each discipline will be funded 
with the $46.8 million increase for FY15?
    Response. VA medical centers (VAMCs) receive funding for additional 
positions to support the HUD-VASH Program after each VAMC's specific 
allocation of new vouchers is determined. Until the FY 2015 specific 
allocations occur, VA is only able to estimate the total number of 
additional FTE expected to be funded based on previous years' 
allocations; accordingly an estimated 500 additional FTE will be funded 
in FY 2015.
    b. Describe the service impact of the $138.5 million anticipated 
reduction in the FY 2016 advanced appropriation request for this 
program.
    Response. The FY 2015 request of $321 million provides the funding 
level needed to sustain current service levels in the Department of 
Housing and Urban Development-VA Supportive Housing (HUD-VASH) vouchers 
as well as support 20,000 additional HUD-VASH vouchers issued in FY 
2014 and FY 2015. A decrement of $200 million in FY 2015 (as reflected 
in the FY 2015 Advanced Appropriation) or $138.5 million in the FY 2016 
Advanced Appropriation will require significant reductions in the level 
of case management support that can be provided to Veterans. The final 
2016 funding level will be determined during the 2016 budget process 
when updated data and metrics are available; however, if these 
reductions occur in either year, the impact on HUD-VASH operations and 
on the Veterans served by the program will be quite significant. Also, 
service impacts could include significant reductions in level of case 
mangagment support. Caseloads will increase considerably and process 
times for moving Veterans from the streets to housing will also 
increase significantly. VHA also anticipates an increase in negative 
discharges from the program, including evictions and unit abandonment, 
and we can expect additional negative outcomes due to the reduction in 
frequency and intensity of case management support.

    Question 19. The FY 2015 budget submission details that funding for 
contract residential services (CRS) available through the health care 
for homeless veterans program has recently ``been prioritized to ensure 
that every VAMC has the capacity to offer ``bridge housing,'' services 
that are targeted to and prioritized for homeless Veterans who are 
transitioning from literal street homelessness.''
    a. As of March 12, 2014, which VAMCs currently lack the capacity to 
offer these services?
    Response. VAMCs may request funding from VA Central Office to 
establish Health Care for Homeless Veterans (HCHV) Contract Residential 
Services (CRS) contracts. It is important to note that VAMCs only 
request funding for HCHV CRS when the need for these services is not 
being met by local community resources or by neighboring VA facilities. 
VA uses HCHV CRS contracts to fill gaps in local continuums of homeless 
services.
    b. Describe the Department's efforts to ensure that bridge housing 
is available to veterans, without regard to their gender in each 
location.
    Response. Each local VAMC that receives VA Central Office funding 
to establish new or expand existing HCHV CRS contracts is expected to 
include explicit contract language to ensure that housing services be 
available to both male and female homeless Veterans. As of March 2014, 
female Veterans make up 5 percent of the total population of homeless 
Veterans admitted to HCHV CRS programs, representing an increase from 3 
percent in FY 2012.

    Question 20. The President's budget request indicates a transition 
in the HVSEP program, with the provision of funding to hire 160 
community employment coordinators.
    a. Are these coordinators intended to supplement, or to replace, 
the over 400 homeless or formerly homeless veterans currently staffing 
this program as Vocational Rehabilitation Specialists?
    Response. The Homeless Veteran Supported Employment Program (HVSEP) 
hired formerly homeless or at-risk-of-homelessness Veterans as 
Vocational Rehabilitation Specialists on term positions for a 4-year 
period. Funding for these positions will end on September 30, 2014.
    As a result of the HVSEP Initiative, 70 percent of HVSEP Vocational 
Rehabilitation Specialists successfully transitioned into alternative 
permanent employment, 358 within VA and 36 with other Federal agencies 
or in the community.
    In order to continue to provide a full-range of employment 
services, the new Community Employment Coordinators will augment and 
coordinate the competitive employment services that are currently 
available for homeless and chronically homeless Veterans both at VAMCs 
and in the community. The Community Employment Coordinators will 
oversee the provision of training and guidance to all VA homeless 
programs and staff on resources that result in competitive employment 
outcomes for homeless Veterans. The Community Employment Coordinators 
will also provide direct assistance in connecting Veterans to the most 
appropriate and least restrictive VA and community-based employment 
services leading to competitive employment with appropriate supports.
    b. How will these coordinators interact with other employment 
programs this population may be eligible for, such as VBA's Vocational 
Rehabilitation program or the Department of Labor's Homeless Veterans 
Reintegration Program Grantees?
    Response. Partnerships with Federal, state, and community agencies 
are critical in addressing unemployment among homeless Veterans. The 
Community Employment Coordinators will serve as liaisons and referral 
sources to VA and non-VA programs that provide community-based 
employment opportunities and support services to homeless and 
chronically homeless Veterans including but not limited to: Compensated 
Work Therapy Programs; HCHV and HUD-VASH Employment Specialists; 
Supportive Services for Veteran Families (SSVF) and Grant and Per Diem 
(GPD) grantees that target employment; Veterans Benefits 
Administration/Vocational Rehabilitation and Employment; Department of 
Labor grantees such as the Homeless Veteran Reintegration Program; and, 
state, local, community, and faith-based organizations.
                construction and long range capital plan
    Question 21. Provide a list of priority weights for the major 
criteria and sub criteria used to inform the FY 2015 Strategic Capital 
Investment Plan decision plan.
    Response. The diagram below shows the major criteria and sub-
criteria priority weights that were used to inform the fiscal year (FY) 
2015 Strategic Capital Investment Planning (SCIP) process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 22. The FY 2015 budget request includes a number of 
funding requests to renovate and realign VA Regional Offices. Of these, 
which are due to decreased space requirements as a result of the 
transition to a paperless claims processing system?
    Response. The RO renovation and realignment projects were approved 
for the following sites in FY 2015: Boston, Detroit, and New York. 
These offices will be renovated to meet current size and safety 
standards and realigned to optimize efficient space utilization, taking 
into account that many paper claims received are being converted into 
an electronic format. Renovation and realignment projects typically 
take 2 to 3 years to complete. The FY 2015 budget request is dedicated 
to developing the space design and determining the resulting space 
savings. Funding for construction and realignment of the space would 
then be included in the FY 2016 and 2017 budget requests.
    a. Provide a list of any location where VBA has leased space for 
the sole purpose of storing paper claims files. For each, also provide 
an estimated date the lease will no longer be needed and the estimated 
annual savings that would result from not leasing this space.
    Response. The chart below shows the locations where separate file 
storage is leased through General Services Administration, contracted 
through Iron Mountain (or another storage vendor), or located on a 
Veterans Health Administration campus. The ROs listed on the 
spreadsheet have a project submission for renovation and realignment 
over the next 10 years in VBA's long-range Strategic Capital Investment 
Plan submission; however, projects beyond FY 2015 are notional and not 
yet funded. VA will work to find solutions for removal of files from 
these separately leased facilities ahead of the renovation schedule of 
their respective RO, should funding become available.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 23. The FY 2015 budget submission details the department's 
efforts to conduct onsite surveys of waste streams at 140 facilities in 
order to assist meeting waste diversion goals and save disposal costs.
    a. Share how these 140 facilities were chosen.
    Response. Given the travel time and cost associated with reaching 
several of our facilities, VHA included 140 facilities in the review 
process. These 140 facilities were chosen because they encompass a 
cross-section of every VISN and complexity level of facility in the 
system. This allows the lessons learned from these reviews to be shared 
with those facilities not included in the review.
    b. Share the results of these surveys.
    Response. VHA continues to work with the vendor to resolve several 
issues with the draft of the waste and recycling assessment summary 
report. Until these issues are addressed, VA will not accept the report 
as final. Once the report has been accepted, VA will provide the 
Committee with a complete copy of the individual reports requested.
    c. Share any outcomes that resulted from an analysis of this data.
    Response. Based on the initial review of the survey report data, 
there are areas of opportunity to increase recycling activities 
throughout VHA, particularly in the operating rooms, management of food 
waste, and composting. The survey also reinforced the need and benefits 
of the new web-based waste and recycling system, which has been 
implemented throughout VHA for tracking diversion rates in accordance 
with Executive Order (EO) 13514, Federal Leadership in Environmental, 
Energy, and Economic Performance. EO 13514 challenges government 
agencies with diverting up to 50 percent of municipal solid non-
hazardous waste from landfills by the end of FY 2015. This is generally 
accomplished through recycling, reuse and composting programs.

    Question 24. Describe planned improvements in FY 2015 to the 
functionality of VA's national utility metering data collection and 
analysis system.
    Response. In FY 2015, VA will expand the analysis and reporting 
capabilities of its metering data collection and analysis system. These 
new functionalities will build on the progress made in FY 2014 that 
implemented services for integrating electric and non-electric (e.g., 
gas, water, steam, chilled water) meter data into the system. As 
metering data is added to the system, these new capabilities will allow 
energy managers to access data more easily and in different ways. These 
expanded capabilities will accommodate data from all future as well as 
existing electric and non-electric meters. VA also plans to conduct 
training for personnel on the use of the database system's analyses and 
reporting capabilities.
                    information technology programs
    Question 25. The FY 2015 budget request indicates that a portion of 
the cybersecurity funding requested ``will be used to maintain 
information protection directives and handbooks so VA is compliant with 
all applicable Federal requirements and standards'' such as FISMA, 
HIPAA, the E-government Act, FIA, Privacy Act, and other requirements. 
Provide a list of each directive and handbook that is not in 
compliance, as of March 12, 2014.
    Response. All Department of Veterans Affairs' (VA) security-related 
directives and handbooks are in compliance with Federal regulations and 
guidelines. VA has drafted a new version of VA Handbook 6500 that 
includes all the changes from National Institutes of Standards and 
Technology (NIST) 800-53, Revision 4, which was published in May 2013. 
Federal agencies have one year from the date of publication to come 
into compliance with NIST guidelines. VA expects to publish this 
version of VA Handbook 6500 by the end of fiscal year 2014. In the 
interim, while the VA Handbook 6500 is going through VA's internal 
concurrence process, VA is implementing the draft guidelines to secure 
VA information technology systems, and will make any adjustments 
necessary that are needed to reflect the final guidelines.

    Question 26. How many additional FTE will be required in FY 2015 to 
fully staff the reorganized Network Operations Center and Security 
Operations Center? Of these, how many will be VA employees and how many 
will be contract employees?
    Response. The Department of Veterans Affairs takes the protection 
of our Veterans' and employees' data seriously. VA has in place strong, 
multi-layered defense to combat evolving cyber security threats. 
Defenses include monitoring outside our network by external partners; 
active scanning of Web applications and source code; and protection of 
servers, workstations, networks, and gateways, among other security 
efforts.
    The Department will be reviewing all details of the proposed 
reorganization of the VA Network Security Operations Center to ensure 
that the continued high level of service is maintained should a 
separate Network Operations Center (NOC) and a separate Security 
Operations Center (SOC) be put in place. The current organizational 
structure includes network and security staffs at two different 
locations with varying skill sets and the intent of this re-alignment 
is to improve efficiencies in responding to network and security 
operational requirements. The ongoing review will include the 
development and update of a strategy and concept of operations (CONOPS) 
for the NOC and the SOC, which will be completed in FY 2015. The 
results of the work to develop the strategy and CONOPS for the SOC and 
the NOC will re-validate the government FTE and contractor current 
staffing estimates and requirements and help guide the reorganization 
efforts. VA will develop a phased approach to establish a recruitment 
and retention strategy to support the proposed number of personnel for 
each organization, to ensure that we maintain the highly technical 
skills and expertise required to support security and network 
operations.

    Question 27. Of the additional funding requested for VBMS in FY 
2015, how much does VA anticipate dedicating to making workload 
management improvements to improve the ability of veterans service 
organizations and other accredited representatives to assist veterans 
in managing their claim?
    Response. Veterans Service Organizations (VSO) currently have the 
ability to perform a number of functions in Veterans Benefits 
Management System (VBMS), including:

    <bullet> Conducting searches
    <bullet> Viewing assigned items in the VSO work queue
    <bullet> Viewing the Veteran eFolder and annotations
    <bullet> Viewing the Veteran Profile and service information
    <bullet> Viewing claim contentions and claim detail
    <bullet> Viewing rated issues and review ratings decisions

    VBMS is being developed and implemented in a phased approach 
consisting of incremental software releases. As the system evolves, new 
functionality is delivered to the field and builds upon the 
foundational architecture available in the latest system release. The 
scope of each release is prioritized based on business needs as 
determined by leadership direction, resources, business-line inputs, 
field enhancement requests, and defect reports. Improvements to VBMS 
workload management is one of the main goals for software releases in 
fiscal year 2015.
    Department of Veterans Affairs (VA) is currently determining the 
specific capabilities to be delivered in each release. Once the 
specific capabilities are finalized, funding can be allocated. Because 
workload management capabilities for VSOs are not fully defined or 
scoped, VA is not yet able to provide an estimate of resources 
(personnel or money) required in 2015. VBMS generally deploys a new 
software release at the end of each fiscal quarter, and the scope of 
each release is finalized approximately 4 to 6 months before the 
release date. VA would be happy to brief the Committee on this issue as 
soon as the capabilities for VSOs in VBMS become fully defined and 
scoped.

    Question 28. The FY 2015 budget request includes $20 million to 
rapidly replace obsolete telephony equipment and $92 million to provide 
Voice as a Service solutions in order move away from private branch 
exchanges and into a unified communication strategy. Are these amounts 
sufficient for an enterprise-wide replacement? If not, provide a 
deployment plan for this initiative, including a list of locations 
where telephony equipment will be switched out in FY15.
    Response. The Voice as a Service initiative will replace over 1,300 
voice systems across the Department of Veterans Affairs (VA) 
enterprise, including the voice systems at VA medical centers and 
Regional Offices, over a period of approximately 10 years. The number 
of systems migrated in a given year will be determined primarily by 
funding availability.
    The President's 2015 budget request of $92 million includes the 
replacement of the first wave of over 200 voice systems and many 
mandatory dependencies such as detailed site surveys, local area 
network upgrades, wide area network augmentation, and recurring 
operation and maintenance costs.
    Please see the attached sheet showing the list of facilities 
planned for fiscal year (FY) 2015 migration upon completion of the 
current pilot project. Procurements supporting site preparation for the 
locations listed in the attached sheet are funded and planned for 
execution in FY 2014.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 29. Provide a list of the additional 36 VA Health 
Information Exchange partners planned for 2014 and the partners VA 
plans to add in 2015.
    Response.

 
----------------------------------------------------------------------------------------------------------------
          Partner Name                   City                State              Status           FY 2014/2015
----------------------------------------------------------------------------------------------------------------
HealtheConnections NY...........  Syracuse..........  NY................  In Production.....  FY 2014
Hawaii Pacific Health...........  Honolulu..........  HI................  In Production.....  FY 2014
University of California Davis..  Sacramento........  CA................  In Production.....  FY 2014
Allina Health...................  Minneapolis.......  MN................  On-Boarding.......  FY 2014
Mt Sinai Medical Center Miami...  Miami Beach.......  FL................  On-Boarding.......  FY 2014
Sentara Health care.............  Norfolk...........  VA................  On-Boarding.......  FY 2014
Dignity Health..................  San Francisco.....  CA................  On-Boarding.......  FY 2014
East Tennessee HIN..............  Knoxville.........  TN................  On-Boarding.......  FY 2014
HIETexas........................  Austin............  TX................  On-Boarding.......  FY 2014
Lancaster General Health........  Lancaster.........  PA................  On-Boarding.......  FY 2014
Maine HealthInfoNet.............  Portland..........  ME................  On-Boarding.......  FY 2014
Medical University of South       Charleston........  SC................  On-Boarding.......  FY 2014
 Carolina.
MetroHealth System..............  Cleveland.........  OH................  On-Boarding.......  FY 2014
Michigan HIN....................  East Lansing......  MI................  On-Boarding.......  FY 2014
Oregon Community Health.........  Portland..........  OR................  On-Boarding.......  FY 2014
Redwood MedNet HIE..............  Ukiah.............  CA................  On-Boarding.......  FY 2014
Yale New Haven Health System....  New Haven.........  CT................  On-Boarding.......  FY 2014
Alaska eHealth Network..........  Anchorage.........  AK................  Potential.........  FY 2014
Cleveland Clinic................  Cleveland.........  OH................  Potential.........  FY 2015
CVS MinuteClinic................  Woonsocket........  RI................  Potential.........  FY 2015
Geisinger Health Systems........  Danville..........  PA................  Potential.........  FY 2015
Georgia HIN.....................  Atlanta...........  GA................  Potential.........  FY 2015
Greater Dayton Area Health......  Dayton............  OH................  Potential.........  FY 2015
HealtHIE Nevada.................  Las Vegas.........  NV................  Potential.........  FY 2015
Kansas HIN (KHIN)...............  Topeka............  KS................  Potential.........  FY 2015
Social Security Administration..  Baltimore.........  MD................  Potential.........  FY 2015
University of Pittsburgh Medical  Pittsburgh........  PA................  Potential.........  FY 2015
 Center (UPMC).
Wisconsin Statewide HIN (WISHIN)  Madison...........  WI................  Potential.........  FY 2015
Alabama One Health Record.......  Montgomery........  AL................  Potential.........  FY 2015
Bronx RHIO......................  Bronx.............  NY................  Potential.........  FY 2015
Carle Foundation Hospital.......  Urbana............  IL................  Potential.........  FY 2015
Central Florida RHIO............  Orlando...........  FL................  Potential.........  FY 2015
ConnectVirginia.................  Glen Allen........  VA................  Potential.........  FY 2015
EHR Doctors.....................  Pompano Beach.....  FL................  Potential.........  FY 2015
Hawaii HIE......................  Honolulu..........  HI................  Potential.........  FY 2015
Health Access San Antonio.......  San Antonio.......  TX................  Potential.........  FY 2015
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Richard Burr to 
                  U.S. Department of Veterans Affairs
                                general
    Question 30. At the end of fiscal year 2011, the Department of 
Veterans Affairs (VA) reported $1.2 billion in outstanding delinquent 
debt owed to VA, of which $732 million was created in connection with 
VA benefit payments. In response to questions about VA's fiscal year 
2014 budget request, VA indicated that, at the end of fiscal year 2012, 
there was $3.7 billion in outstanding delinquent debt owed to VA, of 
which $1.6 billion was created in connection with VA benefit payments. 
VA also indicated that, during fiscal year 2012, VA wrote off or waived 
$201 million of debts to VA.
    A. Please explain what factors led to an increase from $1.2 billion 
to $3.7 billion in outstanding delinquent debt between the end of 
fiscal year 2011 and 2012.
    Response. According to the Treasury Report on Receivables (TROR), 
the $3.7 billion amount referenced in this question relates to total 
Department of Veterans Affairs debt outstanding at the end of fiscal 
year (FY) 2012. This amount includes debt that is ``delinquent'' 
(greater than 30 days); debt that is less than 30 days old; and debt 
that is part of an established loan or repayment agreement paid in 
installments. Delinquent debt at the end of FY 2011 and FY 2012 
remained stable at approximately $1.2 billion.
    B. Please explain what factors led to an increase from $732 million 
to $1.6 billion in outstanding benefit debt between the end of fiscal 
year 2011 and 2012.
    Response. Department of Veterans Affairs (VA) Treasury Report on 
Receivables (TROR) records indicate that outstanding benefit debt 
decreased slightly from $2.4 billion to $2.2 billion between the end of 
fiscal years (FY) 2011 and 2012. VA TROR records indicate that 
outstanding delinquent benefit debt decreased slightly from $770 
million to $730 million between the end of FYs 2011 and 2012.
    C. What was the total amount of outstanding delinquent debt at the 
end of fiscal year 2013?
    Response.  $1,169,280,757.
    D. What portion of that amount was debt created in connection with 
VA benefit payments?
    Response.  $693,453,840
    E. What portion of the delinquent debt was created in connection 
with the Veterans Health Administration (VHA)?
    Response.  $474,551,351
    F. What is the total value of debts for which VA waived recoupment 
during fiscal year 2013 and what is the total value of debts that were 
written off during fiscal year 2013?
    Response. Fiscal year 2013 Waived and Written Off Debt:  
$339,324,218
    G. During fiscal year 2014, how much new debt does VA project will 
be established?
    Response. Based on current trends, Department of Veterans Affairs 
estimates that it will establish $823,300 new Veterans Benefits 
Administration debts and $379,597 new Veterans Health Administration 
debts in fiscal year 2014.
    H. During fiscal year 2015, how much new debt does VA project will 
be established?
    Response. Based on current trends, Department of Veterans Affairs 
estimates that it will establish $880,900 new Veterans Benefits 
Administration debts and $386,435 new Veterans Health Administration 
debts in fiscal year 2015.

    Question 31. In response to questions regarding VA's fiscal year 
2014 budget request, VA indicated that approximately $285 million in 
mandatory funding would be used to pay for non-direct benefits, 
including the salaries for 98 full-time equivalent (FTE) employees.
    A. For fiscal year 2015, please identify how much in mandatory 
funding will be spent on non-direct benefits and how those funds would 
be spent.
    Response. In FY 2015, VBA expects to spend $296.7 million in 
mandatory funding on non-direct benefits. The $296.7 million in 
mandatory funding used to pay for non-direct benefits includes funding 
for: Equal Access to Justice Act payments, Medical Examinations 
payments, and Income Verification Matching (38 United States Code 
(U.S.C.) section 5317) from the C&P account. This also includes: 
Reporting Fees, State Approving Agencies (SAA), reimbursements to the 
GOE account as authorized under Public Laws (P.L.) 101-237 and 105-368, 
and reimbursement to the Office of Information and Technology (OIT) 
account as authorized under Public Law 106-419, 108-454, and 112-56 
from the Readjustment Benefits (RB) account.
    Additionally, under section 3674 of title 38 U.S.C., VBA is 
authorized to reimburse SAAs up to $19 million from the RB account. 
This funding is authorized for the reasonable and necessary personal 
services, travel, and administrative expenses incurred by the employees 
of SAAs in carrying out contracts for agreements entered into with VBA 
for the purposes of ascertaining the qualifications of educational 
institutions for furnishing courses of education to eligible persons or 
Veterans.
    VBA is also authorized under section 3684 of title 38 U.S.C., to 
pay any educational institution, or the sponsor of a program of 
apprenticeship furnishing education or training under Chapter 31, 33, 
34, 35, or 36, a reporting fee which will be in lieu of any other 
compensation or reimbursement for reports or certifications which such 
educational institution or joint apprenticeship training committee is 
required to submit to the Secretary by law or regulation.
    Below is a detailed breakdown of the requested funding:

 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
                               C&P ($000s)
 
Medical Exams................................................   $237,587
Equal Access to Justice Act..................................    $10,554
Income Verification Matching.................................    $15,430
                                                              ----------
  C&P Total..................................................   $263,571
                                                              ----------
                               RB ($000s)
 
SAAs.........................................................    $19,000
Reporting Fees...............................................    $13,574
Reimbursement to GOE (Outreach)..............................       $591
                                                              ----------
RB Total.....................................................    $33,165
                                                              ----------
  Total......................................................   $296,736
------------------------------------------------------------------------

    B. For fiscal year 2015, are mandatory funds expected to be used to 
pay the salary of any VA employees? If so, please specify the amount(s) 
and purpose(s).
    Response. Section 5317 of title 38 U.S.C., directs VBA to pay the 
expenses of administering certain income verification matching 
activities with funds from the mandatory C&P appropriation. 
Accordingly, the C&P appropriation reimburses the GOE account and OIT 
account for administrative costs associated with verification of 
eligibility for the C&P programs through income verification matching. 
The FY 2015 reimbursement to the GOE account is estimated to be $14.7 
million to support 165 FTE. In FY 2015, the reimbursement to the OIT 
account is estimated to be $112,200 in support of one FTE.
    P.L. 104-275 directs VA to make payments for contracts for the 
pilot program for disability examinations from the C&P appropriation. 
Accordingly, the C&P appropriation has reimbursed the GOE account for 
the purposes of this pilot program. The FY 2015 reimbursement amount is 
estimated to be $2.7 million to support 25 FTE.

    Question 32. This budget would cut VA central office (VACO) funding 
by $4 million or 1.2 percent; however, the offices that comprise VACO 
would realize an increase of 38 FTE if this budget were adopted. During 
last year's budget rollout on April 10, 2013, VA responded to a 
question about the contradiction of an increase in FTE and a funding 
decrease by stating that the additional staff is paid for out of the 
Supply Fund and Franchise Fund. Additionally, throughout the budget 
request for the General Administration account, many offices within 
VACO indicate budget allocations and staffing under the heading 
``reimbursement.''
    A. Of the 2,832 staff requested in the fiscal year 2015 budget 
request, how many are funded through the Supply Fund and Franchise 
Fund? Please breakout this number by individual VACO offices (for 
example, Office of the Secretary, Office of General Counsel, Office of 
Policy and Planning, etc.).
    Response. The budget reduction of $4 million in the General 
Administration account is a result of the transfer of rent funds to the 
Board of Veterans' Appeals' new appropriation account and is unrelated 
to pay of personnel or full-time equivalent employees (FTE). In fiscal 
year (FY) 2015, 74 FTE in the General Administration account (76 FTE in 
FY 2014) are supported through reimbursements from the Supply Fund (60 
within the Office of General Counsel, 7 within the Office of 
Acquisition, Logistics and Construction, and 7 within the Office of 
Management). No General Administration FTEs are supported by 
reimbursements from the Franchise Fund.
    B. For reimbursable FTE, please provide the Committee with 
information regarding the office, department, or agency that is being 
reimbursed, a description of the program or service for which they are 
being reimbursed, and the number of staff associated with the 
reimbursement. Please break this out by individual VACO offices (for 
example, Office of the Secretary, Office of General Counsel, Office of 
Policy and Planning, etc.).
    Response. In fiscal year 2015, a total 1,096 full-time equivalent 
employees (FTE) in the General Administration account are supported 
through reimbursements. The table below shows the number of FTE for 
each Staff Office and a brief description of the associated program or 
activity.

 
------------------------------------------------------------------------
  General Administration Staff     Reimb.
             Office                  FTE        Description/Activity
------------------------------------------------------------------------
Office of the Secretary.........      24    Office of Employee
                                             Discrimination Complaint
                                             Adjud.
------------------------------------------------------------------------
Office of General Counsel.......      41    Credit Reform Administration
                                      63    Medical Care Recovery Act
                                      60    Contract Law Support (Supply
                                             Fund)
                                       1    Specialized Legal Support
------------------------------------------------------------------------
Office of Management............      10    Energy/Greening (OAEM)
                                      24    Business Oversight (A123 &
                                             others)
                                       7    Oversight Reviews of Supply
                                             Fund
------------------------------------------------------------------------
Office of Human Resources Admin.     267    Office of Resolution
                                             Management
                                     321    Human Capital Investment
                                             Plan
                                      20    VACO Campus Administration
------------------------------------------------------------------------
Office of Policy and Planning...      27    Customer Data Integration
------------------------------------------------------------------------
Office of Operations, Security        30    Identity Credentials and
 and Prep..                                  Access Mgt. (HSPD-12)
------------------------------------------------------------------------
Office of Public and Intergov.         4    Homeless Veterans Outreach
 Affairs.
------------------------------------------------------------------------
Office of Acquisition, Logistics     140    Resident Engineers Support
 and Const..                                 for Const. Projects
                                      48    Leasing (Medical Facilities)
                                       7    Supply Fund Management
                                       2    Support to NCA
------------------------------------------------------------------------
  Total.........................   1,096
------------------------------------------------------------------------


    Question 33. The fiscal year 2015 budget request for VA proposes 
the creation of a $1 billion Veterans Job Corps. This is the third year 
the proposal has been included in the Department's budget request. 
However, even though the Committee has previously asked VA to provide 
more detailed information on the Veterans Job Corps proposal, the 
Committee has not been provided with additional detail.
    A. Historically, employment programs have not been a core mission 
of the Department. Why has VA been tasked with undertaking the program 
and not the Department of Labor, which focuses almost entirely on 
employment?
    Response. VA carries out a robust set of activities related to 
Veterans' employment. A few examples include hosting job fairs for 
Veterans; providing on-the-job training and apprenticeship 
opportunities through the Post-9/11 G.I. Bill program; delivering 
career counseling to Veterans in the VetSuccess on Campus program; 
administering the Veterans' Vocational Rehabilitation and Employment 
program; and partnering with the Departments of Defense and Labor in 
Transition GPS, a program that helps separating Servicemembers 
transition to the civilian workforce.
    B. Will veterans who participate in this temporary program receive 
any occupational licenses, certificates, or degrees that can be used in 
the civilian labor market?
    Response. The goal of the Veterans Job Corps is to enable Veterans 
to leverage the skills developed in the military into jobs on the 
country's public lands and in its communities, ranging from 
conservation and infrastructure projects to law enforcement and first 
responder jobs, such as park rangers, police officers, and 
firefighters. VA would like to work with the Congress to pass 
legislation to authorize the Veterans Job Corps and address details 
such as credentialing and the program's linkages to VA's certificate, 
licensing, and degree-granting programs, such as the Post-9/11 G.I. 
Bill.
    C. Will there be any guarantee of permanent employment for the 
veterans who participate in this program?
    Response. VA would like to work with the Congress to pass 
legislation to authorize the Veterans Job Corps and address details 
such as post-program employment opportunities for Veterans who 
participate in the program.
                         readjustment benefits
    Question 34. One item that VA pays for using mandatory funding is 
reporting fees provided to educational institutions. For fiscal year 
2013, please provide the number of institutions that received reporting 
fees, the 10 largest payments made to an institution, and the number of 
institutions that received total payments of $15 or less.
    Response. In FY 2013, VBA paid $10.4 million in reporting fees to 
10,578 institutions. Incorporating recoveries from these institutions, 
net payments were $10.2 million, as shown in the FY 2015 Department of 
Veterans Affairs' Budget Submission (Volume 3, pg. VBA-32). The chart 
below shows the ten largest payments made to an institution in FY 2013. 
Additionally, in FY 2013, 1,664 institutions received total payments of 
$15 or less in reporting fees.

 
------------------------------------------------------------------------
                                                                 Total
                         School Name                              Paid
------------------------------------------------------------------------
University of Phoenix (Online)...............................   $339,132
American Public University System (American Military            $169,596
 University).................................................
Ashford University (Online)..................................   $143,835
University of Maryland University College....................    $91,740
Liberty University...........................................    $79,119
Grantham University..........................................    $75,600
Kaplan University............................................    $72,060
Columbia Southern University.................................    $59,076
Central Texas College........................................    $55,752
University of Phoenix (San Diego)............................    $51,372
------------------------------------------------------------------------


    Question 35. The authorization for certain work-study activities 
expired in June 2013. Those work-study activities include outreach 
programs with State approving agencies, working in State homes, and 
administration of a national cemetery or state veterans' cemetery. 
During fiscal year 2013, how many individuals participated in each of 
those work-study activities?
    Response. The table below provides FY 2013 data related to the 
number of individuals performing work-study activities at SAAs, state 
homes, and administration of a national cemetery or state Veterans 
cemetery.

                                           FY 2013 Work-Study Activities
----------------------------------------------------------------------------------------------------------------
                                                                                                         # of
                                         Activity/location                                           individuals
----------------------------------------------------------------------------------------------------------------
SAAs...............................................................................................          36
State homes........................................................................................          75
Administration of a national cemetery..............................................................          84
State Veterans cemetery............................................................................          19
----------------------------------------------------------------------------------------------------------------


    Question 36. On March 5, 2014, both the House and Senate Committees 
on Veterans' Affairs were informed by VA that the Veterans Retraining 
Assistance Program (VRAP) would be extended to make payments past the 
statutory sunset date to participating veterans whose training program 
will not be completed by March 31, 2014. Subsection (a)(2) of section 
211 of Public Law112-56, the VOW to Hire Heroes Act of 2011, which 
established VRAP, explicitly sets the number of veterans who could 
participate and limits participation to on or before March 31, 2014.
    A. Subsections (a)(2) and (k) establish March 31, 2014, as the 
sunset date of the program. What statutory authority exists in section 
211 to allow for the extension?
    Response. In February 2014, it became apparent that as many as 
22,000 Veterans might be unable to complete their current term of 
enrollment in Veterans Retraining Assistance Program (VRAP) courses of 
study before the authority to issue VRAP payments expired on March 31, 
2014. Many Veterans receiving retraining assistance were enrolled in 
community colleges or other programs on a typical academic calendar, 
and while enrollment periods vary from school to school, spring 
semesters and quarters are generally completed by the end of June. 
Without the assistance provided by VRAP, Department of Veterans Affairs 
(VA) was concerned that many of these Veterans would be forced to 
withdraw from their retraining programs in the middle of the academic 
term. That would be both terribly disruptive and inconsistent with the 
purpose of ensuring Veterans gain the skills they need. In some cases, 
it might also mean that a Veteran would not obtain the degree or 
certificate they would otherwise receive if allowed to finish their 
current enrollment period.
    Accordingly, VA's Office of General Counsel examined the relevant 
statutes to determine whether it would be possible to make payments 
prior to March 31, to assist those Veterans in finishing their term and 
thereby maximize the benefits provided through this valuable program. 
OGC's review concluded that there was no statutory bar to issuing 
payments prior to the March 31, 2014 deadline to cover multiple months. 
OGC further concluded that a policy decision to exercise VA's 
discretion and make one-time payments to enable completion of ongoing 
training would further Congress' intent with regard to the program, 
namely to ensure that Veterans are retrained so that they can begin new 
careers. OGC's analysis focused on the text of the relevant statute, 
section 211, which does not set a date on which the program must end, 
nor does subsection (a)(2) prohibit participation by veterans after 
March 31, 2014. Instead, subsection (k) of the statute provides that 
``[t]he authority to make payments under this section shall terminate 
on March 31, 2014, and subsection (a)(2), which is entitled ``Number of 
Eligible Veterans,'' simply places a cap on the number of Veterans 
eligible for the program.
    VA's action is consistent with the statute because no payments to 
Veterans will be made after March 31, 2014. And read closely, section 
211(a)(2)(B) does not prohibit participation after March 31, but rather 
provides that the number of participants may not exceed 54,000. 
Similarly, section 211(c), entitled ``Monthly Certification,'' requires 
certification to the Secretary of enrollment ``for each month'' by 
Veterans while participating in the program, but does not specify that 
those certifications be made monthly, nor does it address frequency of 
payments.
    B. In order to receive a payment from VA for participating in VRAP, 
a veteran has to certify monthly that he or she is a full-time student 
in an approved course of study. The VA Office of Inspector General has 
previously found VA had difficulties verifying the attendance status of 
participating veterans, leading to VA making millions in erroneous 
payments. Given the proposed payment of lump sum payments under the 
extension, how will VA ensure that millions more will not be wasted?
    Response. In order to be approved for the Veterans Retraining 
Assistance Program (VRAP), a program must be approved for GI Bill 
benefits under Chapter 36 of title 38 U.S.C. Consequently, the schools 
are required to report changes in enrollment (or failure to meet the 
school's standards of attendance, or conduct, as applicable) to VBA 
``without delay.'' ``Without delay'' is defined by regulation as within 
30 days. All approved programs are subject to periodic compliance 
reviews, which include reviewing records for VRAP participants in order 
to ensure that the schools (and students) are meeting the applicable 
requirements. In addition, recipients of VRAP one-time payments are 
specifically required, and instructed, to notify VBA immediately of 
changes in enrollment status. This requirement also applies to 
recipients of one-time payments issued under the various GI Bill 
programs as well.
                    veterans benefits administration
Disability Compensation
    Question 37. The Winston-Salem regional office helps with national 
missions, such as the Benefits Delivery at Discharge program and the 
Quick Start program, in addition to handling claims from North 
Carolinians. That office currently has over 30,000 pending claims. For 
that workload, how many employees would be appropriate and how many are 
there currently?
    Response. VBA's RAM is a systematic approach to distributing field 
resources each fiscal year. The RAM utilizes a weighted model to assign 
C&P FTE resources based on RO workload, including rating inventory and 
rating, non-rating, and appeal receipts. Starting in FY 2014, the RAM 
includes additional variables to more closely align with VBA's 
transformation to a paperless, electronic environment, where receipts 
can be assigned and managed at the national level. These variables 
include station efficiency, quality, and RO capacity. Based on the FY 
2014 RAM, the Winston-Salem RO FTE allocation for disability 
compensation claims processing was 614 FTE. Nine additional FTE were 
approved in March 2014 due to increased workload. As of March 30, 2014, 
the number of FTE on board was 615.

    Question 38. The fiscal year 2015 budget request does not include 
projections for how long it will take to complete compensation and 
pension claims in fiscal years 2014 and 2015. In fact, the budget books 
reflect that this performance measure has been deleted.
    A. What are VA's projections for how long it will take to complete 
disability claims in those years?
    Response. In FY 2013, the average days to complete (ADC) rating-
related claims was 348 days, a reflection of VBA's emphasis on 
completing the oldest claims in the backlog during the second half of 
FY 2013. That emphasis continued through the first quarter of FY 2014, 
which ended with an ADC of 277 days for the quarter. ADC through the 
end of the first half of FY 2014 further declined to 253 days. We 
expect this trend to continue through the remainder of FY 2014 and into 
FY 2015. By the second quarter of FY 2015, we expect the downward trend 
in the monthly ADC to begin accelerating, leveling out to approximately 
100 days for the last quarter of FY 2015.
    B. Why is this metric being deleted from the budget request?
    Response. VBA's Agency Priority Goal is to eliminate the backlog 
and process all claims within 125 days in 2015. Both metrics, ADC and 
Average Days Pending (ADP), remain important metrics to track. As we 
drive toward our goal, VBA implemented an initiative in April 2013, to 
process oldest claims first, which results in the ADC increasing in the 
short-term, even as we make great progress in eliminating the backlog 
for Veterans who have waited the longest for a decision. ADP is a 
leading indicator that provides the best measure of the current state 
of the claims inventory, and is the most meaningful way for Veterans to 
understand how long their claim may take to process. The average number 
of days rating claims are pending has been reduced from a peak of 282 
days in March 2013, to 161 days as of April 5, 2014, which represents a 
43-percent reduction. The number of claims in the backlog has been 
reduced from a peak of 611,000 to 337,000 as of April 5, 2014, a 45-
percent reduction.

    Question 39. The number of dependency adjustments waiting for VA 
action increased from less than 50,000 in 2010 to nearly 240,000 in 
March 2014. As of March 2014, 75 percent of the dependency adjustments 
have been pending for longer than 125 days.
    A. When does VA consider a dependency adjustment to be 
``backlogged?''
    Response. There is no defined parameter for a ``backlogged'' 
dependency adjustment; however, we do track them against the 125-day 
goal for all disability claims.
    B. What performance metrics does VA have in place with respect to 
dependency adjustments and how quickly they should be acted on? With 
on-going efforts to increase the automation for processing these work 
items, will those performance metrics change?
    Response. Each RO has a target for reducing the inventory of 
pending dependency adjustments. VBA is working on several initiatives 
that streamline the processing of dependency claims. Current and 
upcoming initiatives that will help improve the speed and accuracy of 
dependency claims processing are provided below.

    <bullet> Veterans can now request to add dependents using the 
eBenefits portal. VBA's rules-based processing system (RBPS) 
automatically processes over 50 percent of the dependency requests 
submitted through eBenefits and automatically adjusts compensation 
payments based upon the change in dependent status. This new automated 
system reduces processing time to one day for many of these requests 
and allows VBA to devote more resources to processing other, more 
complex claims.
    <bullet> In the past year, VBA's Compensation Service (CS) released 
several dependency-related procedural changes that simplify the 
decision process and relax evidentiary standards. These include:

         - Liberalizing evidentiary requirements for stepchildren, 
        under which VBA will accept a Veteran's lay statement as 
        sufficient proof to establish a stepchild as a dependent, 
        provided that the statement includes basic information about 
        the dependency change. VBA will request additional evidence to 
        support the claim only when it has a reason to question the 
        validity of the statement.
         - Streamlining procedures when the beneficiary does not 
        provide VBA information sufficient to determine entitlement 
        dates. VBA will attempt to contact the Veteran by phone to 
        obtain the date of the dependency change and process the change 
        based upon information provided during the call.

    <bullet> CS is working to further relax evidentiary requirements 
and streamline the procedures for processing dependency claims. This 
initiative includes issuing additional procedural guidance to the ROs 
and evaluating current regulations for the purpose of initiating 
appropriate rulemaking to remove unnecessary processes.
    <bullet> New functionality is being developed for VBA's Customer 
Relations Management Unified Desktop, which is utilized by VBA's agents 
in its National Call Centers (NCC), which will allow the system to send 
dependency claims that the NCC agents receive over the phone to RBPS 
for automated processing.
    <bullet> As automation of dependency claims continues to improve, 
more of these claims will be processed with greater efficiency and 
improved timeliness. VA will set FY 2015 performance metric goals that 
take into consideration inventory levels and the level of automation at 
that time.

    C. Has VA set any timelines, milestones, or goals for when this 
inventory of dependency adjustments will be reduced to an acceptable 
level?
    Response. With VBA's record-breaking production of claims decisions 
in recent years, dependency claims are also rising. To address the rise 
in claims, VBA built a RBPS to automate processing and payment of 
dependency claims for Veterans who file online. Over 50 percent of 
dependency claims that are filed online are now being completed without 
human intervention. The remaining 50 percent are immediately triaged to 
make it easier for the claims processor to target the needed evidence 
for resolution. This new IT capability will enable future claims filed 
online to be completed quickly and accurately, and as a result, our 
Veterans will receive their payments much faster. On April 4, 2014, VBA 
awarded a contract to provide ``surge'' support to complete paper-based 
dependency claims. Contract personnel will enter data from paper claims 
into RBPS, which will allow a significant portion of these claims to be 
electronically processed and adjudicated--just as if the Veteran had 
input the data. VA also recently trained its call center agents to 
resolve dependency claims issues over the phone to expedite those 
claims already in the system.
    ADC for a dependency claim in March 2014 was 207 days, down 75 days 
from the first quarter of FY 2014.

    Question 40. According to the authors of the fiscal year 2015 
Independent Budget, ``the most significant change that has helped 
reduce the backlog over the past year has been [the Veterans Benefits 
Administration's] heavy reliance on mandatory overtime.''
    A. Of the 1.17 million claims completed during fiscal year 2013, 
what portion was completed as a result of overtime?
    Response. VBA spent $71 million on overtime for direct C&P-related 
claims processing, resulting in a conservatively estimated 91,000-
129,000 additional claims completed.
    B. So far during fiscal year 2014, how many claims have been 
completed in total and what portion was completed as a result of 
overtime?
    Response. Through the first two quarters of FY 2014, 631,000 
rating-related claims have been completed. VBA estimates 65,000-70,000 
of the claims completed to be attributed to overtime.
    C. What portion of any increase in productivity during fiscal years 
2013 and 2014 has resulted from other initiatives, such as the Veterans 
Benefits Management System or segmented lanes? At this point, is VA 
seeing a reasonable return on investment for those other initiatives?
    Response. VBMS is projected to increase productivity in FY 2014; 
however, it is difficult to extract the impact of each transformation 
initiative from the combined people, process, and technology model that 
are being concurrently implemented to determine individual initiative's 
contribution to productivity outcomes.
    VBA has seen improvements in performance as a result of its 
transformation initiatives. As of May 22, 2014, VA has completed 
833,000 claims in FY 2014, a 26-percent increase over the same time 
last year and a 32-percent increase over two years ago. VBA has also 
significantly reduced its inventory and backlog. As of May 22, 2014, 
there were 574,000 claims pending in VBA's inventory, which represents 
a 34-percent reduction from July 2012 when the inventory peaked at 
884,000 claims. Similar improvements can be seen in the claims acklog 
(i.e., pending over 125 days). As of May 22, 2014, 293 claims were in 
the backlog--a 52-percent reduction since the backlog peaked in 
March 2013.
    D. What specific initiatives are expected to allow VA to handle 
more claims in fiscal year 2015 than this year and what statistics or 
information suggests that a 17 percent increase in productivity is 
realistic?
    Response. VA is focused on providing a long-term solution to a 
decades-old problem. VBA is retraining, reorganizing, streamlining 
business processes, and building and implementing technology solutions 
based on the newly redesigned processes to improve benefits delivery. 
Several transformation initiatives, as described below, are focused on 
increasing the number of ratings completed per FTE. VBA is also 
completing a thorough evaluation of its ability to meet the processing 
demands of incoming workload, through ``demand'' and ``capacity'' 
analyses, which are currently in progress.
    VBA's new organizational model, which incorporates a case-
management approach to claims processing, has been implemented at all 
56 ROs. VBA projects that the segmented lanes initiative, part of this 
new organizational model, will accelerate simpler claims, predictably 
taking less time through the ``express'' lane, with the remainder of 
claims flowing through either a ``special operations'' lane (claims 
requiring special handling) or ``core'' lane. This segmented, case-
management approach to claims processing is creating efficiencies 
within the workforce.
    VBMS, VBA's Web-based electronic claims processing system, was 
deployed to all 56 ROs 6 months ahead of schedule in June 2013. VBA has 
also successfully deployed VBMS to the Appeals Management Center (AMC), 
the Records Management Center, the Board of Veterans' Appeals (Board), 
all NCCs, and all VA medical centers. VBA is confident in its 
Transformation Plan. Even during the ``year of change,'' VBA was able 
to increase production by 12 percent in FY 2013 over
    FY 2012. This is a clear indication that success will continue 
during FY 2014 and culminate in the people, process, and technology 
improvements that allow for our 17 percent forecasted increase in FY 
2015.
    Throughout 2014 and 2015, VBMS will focus on continuing to improve 
electronic claims processing by providing increased system 
functionality and more complex automation capabilities for all VBMS 
end-users. VBMS enhancements will reduce dependency on legacy systems 
for claims establishment, development, and rating. VBMS now has the 
capability to accept electronic Veterans' Service Treatment Records 
(STR) from DOD. Additionally, VBMS end-users (to include VA Medical 
Center personnel and VSOs) will be able to leverage enhanced system 
functionality to perform their work more efficiently and accurately. 
Development of functionality will provide end-users with the ability to 
process claims electronically from receipt to payment. The addition of 
functionality and stabilization of system capabilities, in conjunction 
with business process improvements, will increase production and 
quality of claim decisions.
    VBA's partnership with VSOs is crucial to our transformation. VBA 
is greatly expanding education and collaboration efforts with VSOs that 
result in the submission of more fully developed claims (FDC)--claims 
that come to VBA ready for final review and decision (http://
www.benefits.va.gov/fdc/).
    VBA is also completing the integration with other Federal agencies 
that enables inter-departmental data review and exchange to support 
pension and disability claims processing. This includes Social Security 
Administration (SSA) and Internal Revenue Service (IRS) (income 
verification), and DOD (military personnel and medical records).

    Question 41. According to information provided in connection with 
the fiscal year 2014 budget request, the Veterans Benefits 
Administration (VBA) planned to expend $40 million in fiscal year 2014 
to pay for claims processing staff to work overtime.
    A. During fiscal year 2013, how much in total was actually expended 
to pay for overtime work by claims processing staff?
    Response. In FY 2013, VBA expended a total of $71 million on 
overtime for C&P rating claims processing.
    B. During fiscal year 2014, how much is now expected to be spent on 
overtime by claims processing staff and what outcomes are expected to 
be achieved as a result of those overtime hours?
    Response. VBA anticipates using approximately $100 million to fund 
overtime for C&P rating claims processing in FY 2014, and estimates 
completing approximately 168,000 claims associated with overtime 
funding.
    C. For fiscal year 2015, what level of funding is requested to pay 
for overtime hours worked by claims processing staff and what outcomes 
are expected to be achieved as a result of those overtime hours?
    Response. VBA anticipates using approximately $60 million to fund 
overtime for C&P rating claims processing in FY 2015, and estimates 
completing approximately 101,000 claims associated with overtime 
funding.

    Question 42. VA is now projecting that it will complete about 1.25 
million disability claims this year. That is about 72,000 less 
completed claims than VA projected in the budget request last year and 
370,000 less than projected in VA's 2013 backlog reduction plan. What 
led to these decreases in the expected productivity for fiscal year 
2014? Are there initiatives that are not having the expected impact on 
productivity yet?
    Response. The projections of received and completed claims in VBA's 
2014 budget and VA's Strategic Plan to Eliminate the Compensation 
Claims Backlog were based on assumptions made earlier in the budget 
cycle that included a higher level of claims receipts and FTE. 
Projections are periodically updated based on recent experience, the 
impact of the transformation initiatives, and enhanced forecasting 
capabilities.

    Question 43. VA has a number of initiatives underway to reach its 
goal of a 98 percent accuracy rate.
    A. In total, how much did VA spend in fiscal year 2013 to carry out 
all of those quality initiatives?
    Response. VBA's transformation plan is based on over 40 high-impact 
initiatives across people, process, and technology through a systematic 
and repeatable gap analysis process. It is difficult to separate each 
initiative's precise impact on quality and productivity; however, the 
FY 2013 funding for four of the initiatives with the greatest impact on 
quality is provided below:

    <bullet> VBMS: $51.1 million (VBA GOE program non-pay, non-IT 
funding for paperless initiative)
    <bullet> Challenge training: $8.2 million
    <bullet> Quality Review Teams (QRT): $52 million
    <bullet> Station Enhancement Training (SET): $582,000

    B. In total, how much is VA expecting to spend in fiscal year 2014 
to carry out all of those quality initiatives, including the quality 
review teams at each regional office?
    Response. As previously noted, several initiatives impact quality. 
A summary of FY 2014 funding for the primary initiatives focused on 
improving quality is provided below:

    <bullet> VBMS: $159.9 million (VBA GOE program non-pay, non-IT 
funding for paperless initiative)
    <bullet> Challenge training: $13.6 million
    <bullet> QRTs: $53 million
    <bullet> Training for underperforming claims processors: $10 
million

    C. In total, how much is VA requesting for fiscal year 2015 to 
carry out all of those quality initiatives, including the quality 
review teams at each regional office?
    Response. For FY 2015, VBA has requested the following funding for 
these initiatives:

    <bullet> VBMS: $162.5 million (VBA GOE program non-pay, non-IT 
funding for paperless initiative)
    <bullet> Challenge training: $15.5 million
    <bullet> QRTs: $57 million

    D. Nation-wide, how many full-time equivalents are currently 
assigned to these quality review teams?
    Response. In April 2014, approximately 650 Quality Review 
Specialists were assigned to the QRTs nationwide.
    E. If the fiscal year 2015 budget request is adopted, how many 
individuals Nation-wide would be assigned to these teams?
    Response. During the development and piloting of the QRTs, analysis 
showed an appropriate staffing ratio of one Quality Review Specialist 
to every 15 claims processors. VBA anticipates continuing to utilize 
this staffing ratio for QRT positions during FY 2014 and FY 2015; 
resulting in consistent staffing levels for both years.

    Question 44. VA's ``appeals resolution time'' in fiscal year 2013 
was 923 days, an increase of 267 days since fiscal year 2010. Also, the 
number of pending appeals has increased by more than 30 percent over 
the past few years. Although VA recently sent the Committee a plan to 
improve the appeal process, it does not have details about when this 
inventory of appeals will be reduced.
    A. How much in total is expected to be expended by VBA to process 
appeals during fiscal year 2014?
    Response. In FY 2014, VBA estimates that funding for claims 
processors to process appeals will total $86.6 million. This includes 
funding for the approximately 900 claims processors at the ROs and the 
AMC.
    B. What level of funding is requested in total for fiscal year 2015 
for purposes of processing appeals by VBA?
    Response. In FY 2015, VBA estimates that funding for claims 
processors to process appeals will total $89.3 million.
    C. When does VA expect the inventory of appeals to start to decline 
and when will it reach a level that VA considers acceptable? Please 
provide any goals, timelines, or milestones that VA has set with regard 
to the reduction in pending appeals.
    Response. The rate of appeals (approximately 11 percent) has 
remained steady over last 20 years, regardless of quality or 
production. As more claims are completed, more appeals are received. 
VA's large inventory of pending appeals is due in part to the record 
number of claims VBA has completed over the past four years. VA expects 
to complete well over a million claims again in FY 2014.
    As noted in VA's Strategic Plan to Transform the Appeal Process, 
which was provided to the Senate Committee on Veterans' Affairs on 
February 26, 2014, the current process provides appellants with 
multiple reviews in VBA and one or more reviews at the Board, depending 
upon the submission of new evidence or whether the Board determines 
that it is necessary to remand the matter to VBA. Although VA has 
allocated significant resources to the appeals workload, the multi-
step, open-record appeal process set out in current law precludes the 
efficient delivery of benefits to all Veterans. The longer an appeal 
takes, the more likely it is that a claimed disability will change, 
resulting in the need for additional medical and other evidence. VA is 
implementing a series of initiatives to improve the appeal process and 
continues to work with Congress and other stakeholders to explore long-
term solutions that would provide Veterans the timely appeals process 
they deserve.
    VBA has established the following strategic targets for appeals:

        Veterans Appeals Control Time--7 days
        Veterans Appeals Pending (across all ROs)--174,945
        Veterans Appeals ADP--182 days
        VA Form 9 ADP--320 days

    Question 45. In the fiscal year 2015 budget request, the 
discretionary request for the disability compensation program includes 
$557 million for Other Services. Please provide a detailed itemized 
list of how that funding would be utilized during fiscal year 2015. To 
the extent any of the funds will be spent on contracts, please explain 
the nature of the contract and the expected outcomes.
    Response. The discretionary request for $557 million contains 
funding of $440.4 million for contracts that directly impact or support 
the delivery of disability compensation claims:

    <bullet> Contract Medical Examinations ($250.8 million)
    <bullet> Veterans Claims Intake Program (scanning) ($134.4 million)
    <bullet> Program management and systems engineering support 
services for the VBMS ($32.8 million)
    <bullet> Development of instructional methodologies and systems 
that support the training and skills development of the disability 
compensation workforce ($8.3 million)
    <bullet> Development of the Centralized Mail Processing System 
($7.8 million)
    <bullet> Program management, scientific, technical, and engineering 
support for Compensation Service and the VBA Operations Center ($6.3 
million).

    The request also includes $32.4 million for studies and analyses 
that support strategic planning ($16.7 million) and innovation ($15.7 
million).
    The remaining $83.8 million is for administrative and management 
support costs associated with VBA-internal support agreements, such as 
Franchise Fund fees for Debt Management Center, Financial Services 
Center, Computer Data Center Operations services, and for support 
attained via interagency agreements with the Department of Homeland 
Security, the Department of the Treasury, and the National Archives and 
Records Administration.

    Question 46. According to the fiscal year 2015 budget request, the 
disability compensation program expects to spend $33 million on travel 
during fiscal year 2014, which is $15.8 million higher than the amount 
spent during fiscal year 2013 and $10 million higher than the amount 
originally requested for fiscal year 2014. What factors led to this 
increase in expected travel expenditures?
    Response. The primary factor that led to this increase is the $10 
million appropriated for targeted training for claims processors to 
increase production and help eliminate the claims backlog. 
Additionally, Challenge Training classes were sourced at a planned 
throughput of 220 seats per class.

    Question 47. In response to questions about the fiscal year 2014 
budget request, VA indicated that VA completed approximately 81 claims 
per direct full-time equivalent in fiscal year 2013 and expected to 
complete at least 90 claims per full-time equivalent in fiscal year 
2014 and at least 100 claims per full-time employee in 2015. To date in 
fiscal year 2014, how many claims have been completed per compensation 
and pension direct labor full-time equivalent?
    Response. FY 2014 through the end of March, C&P direct FTE 
completed an average of 47.4 claims per FTE. VBA is on target to reach 
90 claims per FTE by the end of the fiscal year.

    Question 48. In response to questions about the fiscal year 2014 
budget request, VA indicated that VA expected to receive more than 
200,000 fully-developed claims in fiscal year 2014 and expected it to 
take on average 100 days to process those claims.
    A. How many fully-developed claims are now expected to be filed 
during fiscal year 2014 and during fiscal year 2015?
    Response. VBA expects to receive more than 380,000 FDCs in FY 2014 
and more than 485,000 FDCs in FY 2015.
    B. To date in fiscal year 2014, how many days on average is it 
taking to complete fully-developed claims?
    Response. Through March of FY 2014, FDCs have been completed in an 
average of 144 days.
    C. For fiscal year 2015, how long is it projected to take to 
complete fully-developed claims?
    Response. VA projects to complete FDCs in 125 days or less in 2015, 
with a September 2015 monthly target of 90 days to complete FDCs.
    D. For fiscal year 2014, how much is expected to be spent on 
marketing materials for the fully-developed claims program and related 
training?
    Response. VBA expects to spend $1.4 million on materials that 
promote the FDC program. This dollar amount is comprised of 
expenditures on contracts for:

        Promotional materials
        VBA translation services
        FDC and training support
        FDC eBenefits campaign

    E. For fiscal year 2015, what level of funding is requested for 
purposes of promoting the fully-developed claims program?
    Response. VBA requested approximately $941,000 in the FY 2015 
budget submission.

    Question 49. In response to questions about the fiscal year 2014 
budget request, VA indicated that it was requesting $10 million in 
order to contract with private entities to retrieve medical records 
from private medical providers.
    A. In total, how much was spent on that initiative during fiscal 
year 2013 and what was the average time it took the contractors to 
obtain private medical records (or otherwise close out the development 
action)?
    Response. In FY 2013, VBA obligated $2.1 million to continue the 
Private Medical Records (PMR) initiative. The contractor resolved PMR 
requests, either by obtaining PMRs or otherwise completing development 
action, in an average of 12 days.
    B. How much is now expected to be spent on this initiative during 
fiscal year 2014 and how long on average is it currently taking the 
contractors to obtain private medical records (or otherwise close out 
the development action)?
    Response. In FY 2014, VA plans to spend $9.3 million on the PMR 
initiative. In FY 2014 through April 3, 2014, the contractor resolved 
over 114,000 PMR requests in an average of 12 days.
    C. Is any funding requested with respect to this initiative for 
fiscal year 2015? If so, please specify the amount.
    Response. For FY 2015, VA is requesting $15.7 million to support 
the ongoing costs of the nationally implemented PMR program.

    Question 50. In response to questions about the fiscal year 2014 
budget request, VA indicated that it expended $366,139 in fiscal year 
2012 for purposes of updating the disability rating schedule. The 
fiscal year 2015 budget request reflects that ``VBA projects that it 
will complete its review of the 15 body systems in the rating schedule 
by December 2016.''
    A. During fiscal year 2013, how much was spent with respect to 
efforts to update the disability rating schedule?
    Response. In FY 2013, VBA spent approximately $981,000 to support 
updates to the VA Schedule of Rating Disabilities (VASRD), including 
$902,000 for personal services, $30,000 for travel, and $49,000 for 
rent, supplies, and other services.
    B. During fiscal years 2014 and 2015, how much is expected to be 
spent with respect to efforts to update the disability rating schedule?
    Response. In FY 2014, VBA will spend approximately $996,000 to 
support updates to VASRD, including $947,000 for personal services, 
$3,000 for travel, and $46,000 for rent, supplies, and other services. 
In FY 2015, VBA requested $3.0 million to update the VASRD, including 
$952,000 for personal services, $30,000 for travel, and $2.0 million 
for other services. The increased in funding in FY 2015 is primarily 
due to a contracted earnings loss study.
    C. Of those 15 body systems, how many will be addressed by 
regulations published during the remainder of fiscal year 2014 and how 
many will be addressed by regulations published during fiscal year 
2015?
    Response. Under the Project Management Plan, none of the VASRD body 
systems will be addressed by regulations published during FY 2014. VA 
will address each of the 15 body systems with a notice of proposed 
rulemaking published in the Federal Register by fall 2015, allowing 60 
days for public comments. Subsequently, VA will review public comments 
and revise the proposed rules as appropriate before publishing them as 
final.

    Question 51. In response to questions about the fiscal year 2014 
budget request, VA estimated that about $663,000 had been spent on 
earnings loss studies needed to complete revisions of the disability 
rating schedule but that the contract had been terminated before the 
final report had been provided. VA indicated that, through this 
spending, it ``learned that due to statutory limitations, 
individualized earnings data cannot be obtained from the Internal 
Revenue Service.''
    A. Please explain what, if any, information was obtained as a 
result of that $663,000 in expenditures that could be used to complete 
the revisions to the rating schedule?
    Response. VA received six of the nine contract line item numbers 
outlined in the contract with George Washington University for an 
earnings loss study. VA does not expect any more deliverables to be 
provided under this contract. The six deliverables provided to VA are 
as follows:

          1. Obtained Security Clearance: The contractor completed all 
        paperwork, provided all background information, and completed 
        all training courses necessary to secure security clearance and 
        authorization to use VA databases and perform tasks on VA 
        property.
          2. Lessons Learned Report: The contractor reviewed VASRD and 
        prior earnings loss studies. The contractor prepared and 
        delivered a written report identifying important lessons 
        learned through previous earnings loss studies and developed a 
        strategy for providing an improved earnings loss study.
          3. Comprehensive Draft Project Management Plan (PMP), Final 
        PMP, and Leadership Briefing: The contractor provided VA with a 
        copy of a PMP detailing a plan for accomplishing the tasks and 
        subtasks.
          4. Data base of Service-Connected Disabled Veterans: The 
        contractor provided a database set, based on a compilation of 
        data gathered from VA, including a sample of service-connected 
        disabled Veterans, rating information, and other data points 
        such as Social Security numbers, dates of birth, names, and 
        disabilities. The contractor coordinated sampling methodology 
        across the various data sets to ensure consistency, 
        representativeness, and confidentiality.
          5. Approach Plan and Briefing: The contractor briefed VA 
        leadership on a plan to address each aspect of the contract 
        deliverables, identifying an obstacle in receiving required 
        data. IRS and SSA provided the contractor with data encrypted 
        into groups, and the contractor was unable to assess the impact 
        of earnings losses based on individual service-connected 
        disabilities compared to the control group.
          6. Earnings Loss Model: VA requested a systematic analysis of 
        compensation payments for disabilities associated with body 
        system profiles and rating criteria identified in VASRD. The 
        contractor delivered a formula with variables to evaluate all 
        earnings loss databased on individual service-connected 
        disabilities. However, due to the lack of individually 
        identified data from the IRS and SSA, the contractor was unable 
        to insert the data into the formula. Without the necessary 
        data, the formula did not provide VA with the requested 
        information.

    B. Was VA's Office of General Counsel consulted about possible 
statutory limitations before VA entered into a contract for these 
earnings loss studies?
    Response. Yes, VA's Office of General Counsel (OGC) was consulted 
prior to the execution of the contract for the earnings loss study. The 
contract was tailored to meet the specific needs of the earnings loss 
study and ultimately approved by OGC. Upon encountering the statutory 
limitations regarding the release of individual income data, VA 
contacted IRS' OGC. IRS informed VA that the release of individual data 
for the purpose of the study was specifically prohibited by statute. 
After IRS confirmed the statutory prohibition, the period of 
performance for the initial contract expired. A revised statement of 
work was prepared, stating that George Washington University was only 
authorized to complete the terms of the contract using aggregate data 
and could not condition the completion of the contract upon receipt of 
individual data.
    C. Does the fiscal year 2015 budget request include any funding for 
earnings loss studies? If so, please specify the amount and the 
expected deliverables from any such studies.
    Response. The FY 2015 budget request includes $2.5 million for 
external earnings loss studies in support of ongoing and future VASRD 
revisions. Formulation of any such studies has not begun; therefore, VA 
cannot state with any degree of certainty what deliverables will be 
derived from such studies.

    Question 52. VA and the Department of Defense (DOD) have rolled out 
worldwide an Integrated Disability Evaluation System (IDES), through 
which an injured or ill servicemember, before being medically 
discharged from the military, completes both the DOD disability rating 
system and the VA disability rating process.
    A. During fiscal year 2013, how much in total did VA expend with 
respect to the Integrated Disability Evaluation System and how many VA 
employees were dedicated to the IDES process?
    Response. During FY 2013, VBA spent approximately $70.7 million for 
salaries and other GOE for 643 FTE dedicated to disability claims 
processing in the IDES process. Compensation staff and VR&E counselors 
are included in this count. Veterans filing claims through the IDES 
sites are captured in the nationwide Veteran caseload count and total 
compensation benefit obligations; therefore, mandatory funding cannot 
be separated for this program.
    B. During fiscal year 2014, how much in total does VA expect to 
expend with respect to the Integrated Disability Evaluation System and 
how many VA employees will be dedicated to the IDES process?
    Response. During FY 2014, VBA estimates it will spend approximately 
$71.9 million for salaries and other GOE to support 648 FTE dedicated 
to disability claims processing in the IDES process.
    C. During fiscal year 2015, how much in total is VA requesting with 
respect to the Integrated Disability Evaluation System and how many VA 
employees would that level of funding support?
    Response. During FY 2015, VBA estimates it will spend approximately 
$74.1 million for salaries and other GOE to support 648 FTE dedicated 
to disability claims processing in the IDES process.
Pension and Fiduciary Service
    Question 53. According to the Monday Morning Workload report for 
March 8, 2014, the Pension Management Center in Philadelphia, PA, had 
over 21,000 pending claims and 52 percent had been pending for longer 
than 125 days. By comparison, the Pension Management Center in St. Paul 
had 9,600 pending claims and less than 20 percent had been pending for 
longer than 125 days.
    A. How many full-time equivalent employees are currently assigned 
to each Pension Management Center and how many are expected to be 
assigned to each Pension Management Center during fiscal year 2015?
    Response. For FY 2014, the Pension Management Centers (PMC) have a 
combined allocation of 1,145 FTE. The Philadelphia PMC is allocated 430 
FTE; Milwaukee PMC is allocated 340 FTE; and the St. Paul PMC is 
allocated 375 FTE. Staffing levels are expected to remain the same in 
FY 2015. The allocations are based on VBA's RAM. The RAM utilizes a 
weighted model to assign C&P FTE resources based on workload.
    B. How many claims are expected to be received by each Pension 
Management Center during fiscal year 2014 and during fiscal year 2015?
    Response. VBA estimates that the three PMCs will receive 
approximately 140,000-150,000 claims in the rating-related category 
during FY 2014 and 150,000-160,000 in FY 2015.
    C. How many claims are expected to be completed by each Pension 
Management Center during fiscal year 2014 and fiscal year 2015?
    Response. Expected production from the three PMCs in FY 2014 is 
160,000-170,000 claims, with a similar amount in FY 2015.
    D. For each Pension Management Center, how many veterans died in 
fiscal year 2013 and to date in fiscal year 2014 after a decision on 
their claim had been rendered but before they received a retroactive 
award of pension benefits? In how many of those cases were the 
retroactive benefits paid out as accrued benefits?
    Response. During FY 2013, VA PMCs released retroactive benefit 
payments to 354 Veterans who had died on or before the date of an award 
of benefits was processed. As of April 9, 2014, VA has paid these 
retroactive payments as accrued benefits in 41 cases. For FY 2014 
through April 9, 2014, the PMCs released retroactive payments to 183 
Veterans who had died on or before the date of an award of benefits was 
processed. As of April 9, 2014, VA has paid retroactive payments as 
accrued benefits in 47 cases. A breakdown of this data by pension 
management center is provided below:

 
----------------------------------------------------------------------------------------------------------------
                                                                Number of cases where    Number of cases VA paid
                                                               the  Veteran died prior   retroactive payment as
                                                                 to receiving their          accrued benefit
                                                                 retroactive payment   -------------------------
                  Pension Management Center                  --------------------------
                                                                          FY 2014 thru              FY 2014 thru
                                                                FY 2013     April 9,      FY 2013     April 9,
                                                                              2014                      2014
----------------------------------------------------------------------------------------------------------------
Milwaukee, WI...............................................     135           60           28           10
Philadelphia, PA............................................     116           58            8           11
St. Paul, MN................................................     103           65            5           26
                                                             ---------------------------------------------------
  TOTAL.....................................................     354          183           41           47
----------------------------------------------------------------------------------------------------------------


    E. For each Pension Management Center, how many veterans were 
declared incompetent during fiscal year 2013 and to date in fiscal year 
2014; how long on average did it take for a fiduciary to be assigned to 
those veterans; and how frequently did the veterans die before the 
assignment of a fiduciary had been completed?
    Response. From October 1, 2012, through March 31, 2014, VA PMCs 
declared 42,436 beneficiaries (Veterans and Survivors) incapable of 
managing their funds. The chart below provides the data for each PMC by 
fiscal year.

 
------------------------------------------------------------------------
                                                           Incompetency
                                           Incompetency      Decisions
        Pension Management Center            Decisions      FY2014 thru
                                              FY2013       March31, 2014
 
------------------------------------------------------------------------
Philadelphia, PA........................       9,913           2,121
Milwaukee, WI...........................      12,115           4,258
St. Paul, MN............................      10,963           3,066
                                         -------------------------------
    Total...............................      32,991           9,445
------------------------------------------------------------------------


    Nationally, the fiduciary hubs averaged 83 days to complete the 
appointment of a fiduciary for a beneficiary who was rated incompetent 
in FY 2013. For FY 2014 through March 31, 2014, it took an average of 
51 days to complete a fiduciary appointment. This timeliness data 
includes all incompetent C&P beneficiaries, both Veterans and 
Survivors. VA systems cannot further categorize this timeliness 
information for pension only or by PMC.
    Regarding Veterans who died before an initial fiduciary appointment 
was completed during FY 2013 through March 31, 2014, VA systems cannot 
categorize this information by the PMC that issued the incompetency 
decision. However, for all C&P incompetency decisions issued nationally 
for both Veterans and Survivors, whether issued by a PMC or a RO 
Veterans Service Center, 376 beneficiaries passed away before an 
initial fiduciary appointment was completed.

    Question 54. In the fiscal year 2015 budget request, the 
discretionary request for the pension, dependency and indemnity 
compensation, burial, and fiduciary programs includes $17.8 million for 
Other Services for fiscal year 2015. Please provide a detailed itemized 
list of how that funding would be utilized during fiscal year 2015. To 
the extent any of the funds will be spent on contracts, please explain 
the nature of the contract and the expected outcomes.
    Response. The discretionary request for $17.8 million contains 
funding of $11.8 million for contracts that directly impact or support 
the delivery of pension claims:

    <bullet> Contract Medical Examinations ($2.3 million)
    <bullet> Program management, scientific, technical, and engineering 
support for Pension and Fiduciary Service ($1.2 million)
    <bullet> Development of instructional methodologies and systems 
that support the training and skills development of the Pension and 
Fiduciary workforce ($8.3 million)

    The remaining $6.0 million is for administrative and management 
support costs associated with VBA-internal support agreements, such as 
Franchise Fund fees for Debt Management Center, Financial Services 
Center, Computer Data Center Operations services, and for support 
attained via interagency agreements with the Department of Homeland 
Security, the Department of the Treasury, and the National Archives and 
Records Administration.

    Question 55. According to VA's fiscal year 2013 Performance and 
Accountability Report, the average days it took to complete a pension 
claim increased from 113 days in 2012 to 140 days in 2013.
    A. During fiscal years 2012 and 2013, how many claims processing 
personnel were dedicated to working on pension claims?
    Response. In FY 2012, an average of 906 employees were dedicated to 
processing claims at the PMCs. In FY 2013, there was an average of 905 
employees. In addition to pension claims, these employees also 
processed dependency and indemnity compensation (DIC), parents DIC, 
accrued, and monetary burial benefit claims, as well as all related 
benefit adjustments.
    B. For fiscal years 2014 and 2015, how many claims processing 
personnel are expected to be dedicated to working on pension claims?
    Response. As of February 28, 2014, PMCs had 910 employees dedicated 
to claims processing. VA expects this number to increase through FY 
2014, as the PMCs bring on an additional 35 employees to meet the PMCs' 
FY 2014 allocation. VA does not anticipate a change in the PMCs' total 
staffing allocation in FY 2015.
Appeals Management Center
    Question 56. Since 2003, certain cases remanded by the Board of 
Veterans' Appeals (BVA or Board) have been handled at a centralized 
entity called the Appeals Management Center.
    A. During fiscal year 2013, how much was spent on the Appeals 
Management Center and what level of staffing did that funding support?
    Response. In FY 2013, $21.1 million was spent by the AMC for 
payroll, non-payroll, and travel. This supported staffing of 
approximately 228 FTE.
    B. During fiscal year 2014, how much is now expected to be spent on 
the Appeals Management Center and what level of staffing will that 
funding support?
    Response. In FY 2014, approximately $20.6 million is expected to be 
spent by the AMC for payroll, non-payroll, and travel. This is expected 
to support staffing of approximately 221 FTE.
    C. In total, how much funding is requested for fiscal year 2015 for 
the Appeals Management Center and what level of staffing would that 
funding support?
    Response. VBA anticipates that the FY 2015 staffing levels will be 
consistent with FY 2014 levels and therefore funding will also be 
consistent with FY 2014.
    D. For fiscal year 2014, what are the key performance targets for 
the Appeals Management Center?
    Response. The FY 2014 AMC key performance targets consist of the 
following metrics and corresponding targets:

    <bullet> ADP for remands from homeless Veterans--70 days
    <bullet> Remand inventory--7,500
    <bullet> ADP for remands--75 days
    <bullet> ADC remands--140 days
    <bullet> Remand production--27,900
    <bullet> Accuracy of remand decision--90 percent (3-months rolling)
Education
    Question 57. According to the fiscal year 2015 budget request, the 
discretionary request for Education programs includes $16 million for 
Other Services. Please provide a detailed itemized list of how those 
funds would be utilized during fiscal year 2015. To the extent any of 
the funds will be spent on contracts, please explain the nature of the 
contract and the expected outcomes.
    Response. The $15.9 million request contains funding of $5.4 
million for contracts that support Education Service, including:

    <bullet> Program management and systems engineering support 
services for the Post-9/11 GI Bill ($4.4 million);
    <bullet> Development of instructional methodologies and systems to 
support the training and skills development of the Education workforce 
($608,000);
    <bullet> Publication and distribution of outreach pamphlets and 
letters to satisfy intent of Public Law 101-237 and Public Law 105-368 
($242,000);
    <bullet> National Student Clearinghouse Contract for degree 
attainment data ($81,000); and
    <bullet> SAA Contract to support the development and implementation 
of a RAM ($103,000).

    The remaining $10.5 million is for administrative and management 
support costs associated with VBA-internal support agreements, such as 
Franchise Fund fees for Debt Management Center, Financial Services 
Center, Computer Data Center Operations services, and for support 
attained via interagency agreements with the Department of Homeland 
Security, the Department of the Treasury, and the National Archives and 
Records Administration.

    Question 58. According to the fiscal year 2015 budget request, the 
discretionary request for Education programs includes $3.6 million for 
printing, compared to $522,000 requested for fiscal year 2014. The 
budget request includes this explanation: ``Printing obligations 
increase $3.1 million primarily as a result of realigned non-IT 
administrative obligations from the Office of Information and 
Technology to VBA.'' Please provide a more detailed explanation of how 
these funds will be spent, how they were previously accounted for in 
the budget, and the need for the change.
    Response. The funding will be used for the centralization and 
modernization of printing associated with Post-9/11 GI Bill claims 
processing. It will cover expenses necessary for the printing of more 
than 3.6 million letters VA anticipates mailing to Veterans and other 
eligible beneficiaries. The $3.1 million provides for the centralized 
printing performed at VA's information technology centers, and the 
$522,000 provides for printing conducted at VBA regional processing 
offices. The $3.1 million ``increase'' shown in the budget is not a new 
requirement. Instead, it is a shift in accounting for costs of the 
Post-9/11 GI Bill program. In FY 2013 and previous years, centralized 
printing and mailing of Post-9/11 GI Bill letters were provided as an 
operating expense of the information technology centers. Although 
printing and mailing functions may, at times, require information 
technology support, the functions are more operational. As such, in FY 
2014 and beyond, the centralized printing and mailing costs for Post-9/
11 GI Bill letters is being realigned more appropriately as an 
operating expense of VBA.
                       board of veterans' appeals
    Question 59. In response to questions about the fiscal year 2014 
budget request, the Board indicated that it expects to spend over $2 
million per year on ``costs (salary and benefits) of union 
representatives'' and ``costs (salary and benefits) of BVA managers who 
work on labor relations matters, labor relations counsel, and other 
labor relations support staff.''
    A. In fiscal year 2013, how much was actually expended for those 
purposes?
    Response. In fiscal year (FY) 2013, the Board of Veterans' Appeals 
(the Board) spent a total $1,925,654 for labor relations matters, 
including $1,022,024 for costs (salary and benefits) of union 
representatives, and $903,630 for costs (salary and benefits) of Board 
managers, labor relations counsel, and other labor relations support 
staff who work on labor relations matters.
    B. In fiscal years 2014 and 2015, how much is now expected to be 
spent for those purposes?
    Response. Based on historical data from FY 2002 to April 2014, the 
Board expects to pay a total of approximately $2,307,582 in FY 2014 
($1,267,111 for costs (salary and benefits) of union representatives 
and $1,040,471 for costs (salary and benefits) of Board managers, labor 
relations counsel, and other labor relations support staff who work on 
labor relations matters); and $2,380,610 in FY 2015 ($1,303,631 for 
costs (salary and benefits) of union representatives and $1,076,979 for 
costs (salary and benefits) of Board managers, labor relations counsel, 
and other labor relations support staff who work on labor relations 
matters).
    C. During fiscal years 2014 and 2015, how many hours of ``official 
time'' (or union time) are expected to be paid for by the Board with 
Federal funding?
    Response. Based on a historical data from FY 2002 to April 2014, 
the Board estimates paying for a total of approximately 17,077 hours of 
official union time (official time) in FY 2014, and 17,261 hours of 
official time in FY 2015.

    Question 60. According to the fiscal year 2015 budget request, the 
Board is requesting $3 million for Other Services for fiscal year 2015. 
Please provide an itemized list of how these funds are expected to be 
spent during fiscal year 2015.
    Response. The $2,975,200 for Other Services in fiscal year 2015 
will be allocated in the following manner:

 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Xerox...................................................     $575,000.00
Transcription Services (2 Vendors)......................      560,000.00
Promisel and Korn, Inc. Electronic Research Materials         405,000.00
 Service and Maintenance Contract.......................
JD Power and Associates Contract for customer                 332,000.00
 satisfaction analysis for hearing and non-hearing
 processes..............................................
West Group Contract-On-line Access to Westlaw Legal           320,000.00
 Database for legal research by the Board's judges and
 attorneys..............................................
Department of Homeland Security.........................      140,000.00
Financial Service Center................................      140,000.00
Board's Share of VA Central Office's (VACO) Human             135,000.00
 Capital Investment Plan................................
Office of Personnel Management..........................      105,000.00
United Parcel Services Appellant Records Shipment              80,000.00
 Contract...............................................
Defense Finance and Accounting Services.................       64,000.00
Security and Investigations Center......................       42,000.00
Office of Resolution Management.........................       40,000.00
NextCut Document Shredding Contract for disposition of         27,000.00
 sensitive materials....................................
VACO Services Cost......................................       10,000.00
VA Record Center and Vault..............................          200.00
                                                         ---------------
    Total Other Services................................   $2,975,200.00
------------------------------------------------------------------------

                         general administration
Office of the Secretary
    Question 61. According to the fiscal year 2015 budget request, 88 
FTE are requested for the Office of the Secretary. Please provide a 
list of the positions that would be filled with that funding and the 
pay-grades for those positions.
    Response. A list of 95 positions in the Office of the Secretary is 
provided below.

 
------------------------------------------------------------------------
                     Grade                         Number of Positions
------------------------------------------------------------------------
Senior Executive Service......................                       13
15............................................                       15
14............................................                       31
13............................................                       16
12............................................                        6
11............................................                        4
9.............................................                        5
8.............................................                        1
7.............................................                        2
6.............................................                        2
------------------------------------------------------------------------


    Question 62. In 2010, the VA Center for Innovation was established 
as part of the Secretary's strategy to modernize the Department of 
Veterans Affairs and move the agency into the 21st Century. Over the 
last several years, this office has focused on piloting innovative 
ideas to support the Secretary's initiative.
    A. Please provide the Committee with the amount of funding utilized 
for grants during fiscal year 2013 through Industry Competitions, 
Employee Competitions, Special Projects, and Prize Contests.
    Response. Department of Veterans Affairs Center for Innovation 
(VACI) funding is provided by Veterans Health Administration, Veterans 
Benefits Administration, and Office of Information and Technology. VACI 
utilized funding as follows across the categories mentioned above:

 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Industry Competition......................................   $17,783,605
Employee Competition......................................   $15,475,594
Special Projects..........................................   $10,303,064
Prize Competitions........................................            $0
                                                           -------------
    Total.................................................   $43,562,263
------------------------------------------------------------------------


    B. Please provide the Committee with the amount of funding that 
would be available for grants during fiscal year 2015 through Industry 
Competitions, Employee Competitions, Special Projects, and Prize 
Contests.
    Response. Department of Veterans Affairs Center for Innovation 
(VACI) expects funding in the amount of $56 million in fiscal year 
2015. Exact disposition of these funds across the Industry Competition, 
the Employee Competition, Special Projects, and Prize Contests has yet 
to be determined. Please note that VACI typically utilizes the 
acquisition process rather than grant mechanisms when working with 
external entities. Funding mechanism to support internal activities is 
dependent upon the specifics of the project.
Office of General Counsel
    Question 63. The Office of General Counsel is requesting $2 million 
for Other Services for fiscal year 2015. Please provide an itemized 
list of how these funds would be spent during fiscal year 2015.
    Response.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Question 64. Within the Office of General Counsel, Professional 
Staff Group VII represents VA before the U.S. Court of Appeals for 
Veterans Claims.
    A. Currently, how many employees are assigned to Professional Staff 
Group VII and what is the average number of active cases per attorney?
    Response. Professional Staff Group (PSG) VII has 104 full-time 
equivalent employees onboard and 5 approved vacancies that are in the 
process of being filled. The average number of active cases per 
attorney is 44. An ``active case'' is one in which the Secretary has 
yet to file his dispositive pleading.
    B. For fiscal year 2015, what level of funding is requested to 
support Professional Staff Group VII and how many employees would that 
level of funding support?
    Response.

 
------------------------------------------------------------------------
                                                    FTE        Funding
------------------------------------------------------------------------
PSG VII.......................................        109    $15,818,532
------------------------------------------------------------------------


    C. With the requested funding level, what would be the expected 
average number of active cases per attorney during fiscal year 2015?
    Response. The average number of active cases per attorney will be 
maintained in the range between 45 and 50.
    D. How many motions for extension of time did Professional Group 
VII file during fiscal year 2013?
    Response. Professional Staff Group VII filed a total of 1,864 
extension motions in fiscal year 2013.
    E. How many motions for extension of time has Professional Staff 
Group VII filed to date during fiscal year 2014?
    Response. During the period between October 1, 2013, and March 31, 
2014, Professional Staff Group VII filed approximately 1,296 extension 
motions.

    Question 65. In response to questions about the fiscal year 2013 
budget request, VA indicated that ``implementation budget planning will 
occur in 2013'' for the Regulation Rewrite Project. Then, on 
November 26, 2013, VA made this announcement:

        After many years of collaborative work between VA and Veterans 
        Service Organizations (VSOs), the VA Compensation and Pension 
        Regulation Rewrite Proposed Rule combines all previous 
        iterations of the proposed rule and will be posted on the 
        Federal Register (www.regulations.gov) starting November 27, 
        2013 for 120 days of public comment and review. However, VA 
        does not intend to publish a final rulemaking anytime soon * * 
        *.

    A. When was the determination made to indefinitely delay the final 
publication of these regulations?
    Response. The determination to delay the final publication of these 
regulations until after Department of Veterans Affairs (VA) has 
successfully eliminated the claims backlog was made in September 2011 
in order to avoid conflicts with VA's highest priority effort to 
eliminate the claims backlog in 2015. VA already had decided to honor 
the request of several Veterans Service Organizations (VSO) to provide 
the public with an additional opportunity to review and comment on the 
entire body of proposed regulations before the new 38 CFR Part 5 
regulations were published as final. Consequently, in November 2013, 
the Rewrite Project published its 21st proposed rule, which 
consolidated VA's responses to the 20 previous proposed rules and 
solicited any additional comments from the public and VSOs. In 2014, VA 
will review the comments, draft a final rule containing VA's responses, 
and draft and publish any additional proposed rules necessary to keep 
the Rewrite Project up to date until it can be implemented.
    B. Are any funds requested for fiscal year 2015 to advance this 
project?
    Response. The Secretary's delegate for the written portion of the 
Regulation Rewrite Project in the Office of the General Counsel, the 
Office of Regulation Policy and Management, does not require additional 
funding. Funding necessary for implementing the Regulation Rewrite 
Project will be determined once the claims backlog has been eliminated.

    Question 66. In a 2013 report on VA's program for accrediting 
individuals to represent claimants seeking veterans' benefits, the 
Government Accountability Office reported that ``VA has dedicated only 
a few staff to administer its accreditation program, which has resulted 
in limited monitoring efforts and workload backlogs.''
    A. Currently, how many full-time equivalent employees are dedicated 
to VA's accreditation program?
    Response. Currently we have approximately four full-time equivalent 
employees (FTE) dedicated to the accreditation program:

    <bullet> 3 FTEs for 3 legal assistants
    <bullet> Approximately 0.1 FTE for an Assistant General Counsel
    <bullet> Approximately 0.4 FTE for a Deputy Assistant General 
Counsel
    <bullet> Approximately 0.5 FTE total for 10 staff attorneys
    B. How much funding is requested for the accreditation program for 
fiscal year 2015 and what level of staffing would that funding support?
    Response. For fiscal year 2015, Office of General Counsel has 
allocated approximately $372,175.77 for the 4 FTEs dedicated to the 
accreditation program
Office of Management

    Question 67. According to the fiscal year 2015 budget request, the 
Office of Management requests $41 million for Other Services for fiscal 
year 2015. Please provide an itemized list of how those funds would be 
used.
    Response. A major portion of the $41 million in `Other Services' 
includes $37.4 million in reimbursable authority that the Office of 
Management (OM) will collect to provide services across the Department, 
including:

    <bullet> $33 million for Department-wide Defense Finance and 
Accounting Services payroll support;
    <bullet> $4 million for reviewing and testing internal controls 
over financial reporting, as required by Appendix A of Office of 
Management and Budget Circular A-123; and
    <bullet> $400,000 for operations support to the Department of 
Veterans Affairs (VA) Center for Innovation.
    The portion of the request for appropriated funding in `Other 
Services' is $3.6 million and includes:

    <bullet> $1 million for service level agreements for the Financial 
Services Center, Security Investigations Center, and other service and 
maintenance agreements for conducting normal operations;
    <bullet> $1 million for audit readiness and verification of annual 
financial reporting;
    <bullet> $320,000 for training related to the VA Learning 
University and Human Capital Investment Plan; and
The remaining balance of funds in ``Other Services'' is primarily for 
the Office of Personnel Management's user fees related to USAJobs, USA 
Staffing, e-Classification and e-OPF (Official Personnel Folder) and 
for internal legacy automation services.

    Question 68. According to the fiscal year 2015 budget request, the 
Office of Finance within the Office of Management manages the Debt 
Management Center.
    A. For fiscal year 2015, what level of resources is expected to be 
used to operate the Debt Management Center and what level of staffing 
would those resources support?
    Response. The anticipated total expenses related to the Debt 
Management Center for fiscal year 2015 is $28,632,384 supporting a 
staff of 229 full-time equivalent employees.
    B. How many telephone lines does the Debt Management Center 
currently operate and how many would be operated during fiscal year 
2015?
    Response. The Debt Management Center (DMC) currently operates 192 
incoming toll-free telephone lines with our inbound 800 service. In 
fiscal year (FY) 2014, DMC increased from 144 toll-free lines to 192 
toll-free lines, which is a 35-percent increase in phone line capacity. 
This increase provides more Veteran access to the DMC and further 
reduces blocked call situations. In FY 2015, we plan to continue to 
provide that service level unless Veteran demand increases.
    C. During fiscal year 2013, how many debts were referred to the 
Debt Management Center, what was the total value of those debts, and 
how much did the Debt Management Center recoup?
    Response. In fiscal year (FY) 2013, 769,443 Veterans Benefits 
Administration (VBA) debts were referred to the Debt Management Center 
(DMC) totaling $1,386,566,000. During FY 2013, the DMC recouped 
$1,202,023,000 in VBA debts.
    In FY 2013, 810,853 Veterans Health Administration (VHA) debts were 
referred to the DMC totaling $383,281,000. During FY 2013, the DMC 
recouped $220,267,000 in VHA debts.
    D. How many new debts are expected to be referred to the Debt 
Management Center during fiscal years 2014 and 2015?
    Response. The Debt Management Center (DMC) estimates 823,000 
Veterans Benefits Administration (VBA) debts will be referred in fiscal 
year (FY) 2014 and 880,900 VBA debts will be referred in FY 2015.
    The DMC estimates 379,597 Veterans Health Administration (VHA) 
debts will be referred in FY 2014 and 386,435 VHA debts will be 
referred in FY 2015.
Office of Human Resources and Administration
    Question 69. In response to questions about the fiscal year 2014 
budget request, VA indicated that initiatives undertaken through the 
Human Capital Investment Plan ``are expected to have immediate, 
tangible, and measureable impact on the services provided to 
veterans.''
    A. Please describe any measurable outcomes that have resulted from 
these initiatives to date.
    Response. In support of the Secretary's vision to transform VA and 
equip employees to work in alignment with that vision, VA launched the 
Human Capital Investment Plan (HCIP). HCIP programs include those that 
improve VA's ability to hire and retain high-quality employees, empower 
employees to advance their careers, improve their performance and 
skills, and increase their personal and professional development. All 
VA employees impact the services provided to Veterans. Trained and high 
performing VA employees in support roles enable physicians, nurses, 
benefits administrators, or cemetery operators to focus directly on 
serving our Veterans. Quantifiable outcomes from HCIP funding to date 
include:

    <bullet> Provided over 2.3 million instances of leadership and 
managerial training through the VA Learning University to improve 
employee performance and skills; develop and enable VA employees to 
meet the rapidly changing healthcare and benefits environment; and to 
increase personal employee development and empower employees to advance 
their careers and provide more precise and efficient service.
    <bullet> Trained over 30,000 managers and supervisors on mandatory 
Equal Employment Opportunity (EEO), diversity and inclusion, and 
conflict management training.
    <bullet> Assisted over 126,900 Veterans in skills translation and 
resume writing through the VA4Vets Web site.
    <bullet> Hired over 2,290 Veterans at VA, with ired Veterans hired 
under noncompetitive appointments achieved in under 29 calendar days on 
average.
    <bullet> Provided employment assistance to 43,929 Veterans by:

         - Conducting over 119 employment preparation presentations.
         - Participating in over 94 Veteran Career Events, reaching 
        more than 24,790 Veterans.

    <bullet> Officially partnered with 12 Federal agencies through 
resource agreements to utilize VA's services developed through HCIP 
funding to facilitate Veteran hiring across the Federal Government.
    <bullet> Provided human resource (HR) training opportunities to 
over 4,700 VA H.R. professionals, which improved support to those who 
directly serve our Veterans.
    <bullet> Delivered virtual H.R. professional training curriculum 
with 1,688 training instances to close competency gaps.
    <bullet> Provided career guidance through the <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="c588bc86a4b7a0a0b7859384">[email&#160;protected]</a> portal to 
over 200,000 VA employees.
    <bullet> Responded to 2,458 calls from VA employees through the 
Resolution Support Center and resolved 1,598 of their complaints and 
issues at the earliest opportunity, enhancing job satisfaction and 
diverting them from more costly avenues of redress.
    <bullet> Sponsored 400 student interns from diverse and minority 
serving institutions and anticipates sponsoring an additional 155 
interns in fiscal year (FY) 2014 to build a diverse qualified pipeline 
for VA employment.
    <bullet> Supported over 2,100 accommodations for employees with 
disabilities through VA's Centralized Reasonable Accommodations Fund 
since its inception, and projects funding approximately $500,000 in 
accommodations in FY 2014.
    <bullet> Funded the hiring of nearly 100 students and employees 
with disabilities under term or permanent appointments through VA's 
Centralized Workforce Recruitment Program, in support of Executive 
Orders supporting the employment of individuals with disabilities and 
disabled Veterans. As a result of this and other related initiatives, 
VA has one of the highest representations of individuals with targeted 
disabilities in all of Federal Government (over 2 percent).
    <bullet> Implemented diversity and inclusion programs that have 
resulted in the increase of VA's Workforce Diversity Index for the last 
4 years, and the decrease of per capita informal EEO complaints from 
1.39 to 1.26 percent, and formal complaints from 0.73 percent to 0.61 
percent since FY 2012.

    B. With the funding requested for fiscal year 2015, what 
measureable outcomes would be expected during that year?
    Response. In FY 2015, the measurable outcomes that would be 
expected through use of the total obligational authority provided from 
budget authority, HCIP and other reimbursables are:

    <bullet> Improved acquisition of diverse, high-performing, fully 
engaged VA employees delivering excellent service to Veterans.
    <bullet> Improved retention of diverse and high-performing 
employees.
    <bullet> Increased survey indicators of a fully engaged workforce.
    <bullet> Improved H.R. services by developing and certifying H.R. 
professionals to succeed in a dynamic environment.
    <bullet> Improved reintegration for VA's deployable Reserve 
Component Servicemember employees.
    <bullet> An increase in the number, diversity, and gender 
representation of Veteran employees at VA.
    <bullet> Improved responses to customer satisfaction survey for 
direct Veteran services.
    <bullet> An increase in the accommodation and number of disabled 
Veteran employees.
    <bullet> Strengthened management of workers' compensation claims to 
reduce costs by returning employees with work capacity back to work.
    <bullet> Improved employee perceptions of safety programs through 
Department-wide surveys and training programs.

    Question 70. According to the fiscal year 2015 budget request, the 
Office of Human Resources and Administration (HR&A) requests $198 
million for Other Services for fiscal year 2015. Please provide an 
itemized list of how those funds would be used. To the extent any of 
these funds will be spent on contracts, please explain the nature of 
the contract and the expected outcomes.
    Response. In addition to the ongoing initiatives provided 
throughHCIP, HRA requests funding in Other Services for Office of 
Resolution Management (ORM), Office of Administration, and Office of 
Human Resources Management (OHRM). The specific amounts for contracts 
aligned to these respective services are identified below.
    HCIP funding of $161 million includes initiatives such as: 
leadership and managerial training; the career portal, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7835013b190a1d1d0a382e39">[email&#160;protected]</a>; the 
skills translator and resume builder, VA for VETS; the Human Resource 
Academy; the Senior Executive Service Collaborative Web site and 
Performance Management; the National Diversity Internship Program; the 
Reasonable Accommodation Program; and Conflict Management Training. 
Continued training investment in these areas is necessary to improve 
service to our Nation's Veterans and their families through a more 
effective and engaged VA workforce.
    ORM contracts include: Alternative Dispute Resolution Mediations; 
conflict management training; development and maintenance of info tech 
equipment; and temporary services for a visually impaired employee.
    OHRM funding includes: the Child Care Subsidy Program (CCSP). CCSP 
is a nationwide program that assists lower income VA employees whose 
total family income is less than $59,999 per year with the cost of 
child care. Eligible employees receive a subsidy based on their total 
family income. Over 2,000 VA employees have applied to participate in 
the program and new applications are received daily.
    Additionally, funding is provided for the next generation human 
resource information system, HR<bullet>Smart. HR<bullet>Smart is a 
state-of-the-art human resource solution to VA's personnel management 
and pay challenges. The new HR<bullet>Smart will replace VA's 51-year-
old-legacy system and will provide the following H.R. functions:

    1) Personnel action processing, to include an entry-on-duty 
solution; 2) Benefits management; and 3) Compensation management, to 
include an interface to the Defense Finance and Accounting Service 
(DFAS) for payroll services. The new system will also interface with 
other internal and external systems, such as VA's electronic official 
personnel Folder (eOPF), VA's Time and Attendance System, and the 
Office of Personnel Management's USA Staffing System.
    A breakdown of current estimated FY 2015 contract costs of $198 
million follows:

                Current Estimated FY 2015 Contract Costs
------------------------------------------------------------------------
                                                              Cost (in
       Office                Contract Description            Millions)
------------------------------------------------------------------------
HCIP                 Training and Transformation                $161
                      Initiatives
------------------------------------------------------------------------
ORM (EEO complaint   Contracts for Investigation of EEO           $9
 processing)          complaints,
                     Court Transcription Services
------------------------------------------------------------------------
Administration       Contracts with Other Government              $7
                      Agencies for Mailroom Operations,
                      Employee Health Unit/Employee
                      Fitness Center, Transit Benefits,
                      and Records Storage/Management,
                      etc.
------------------------------------------------------------------------
OHRM                 Child Care Subsidies; HRSmart              $21
------------------------------------------------------------------------
Total                ....................................       $198
------------------------------------------------------------------------


    Question 71. According to the fiscal year 2015 budget request, the 
Office of Human Resources and Administration plans to spend $11.2 
million on travel during fiscal year 2014 and requests $10.8 million 
for travel during fiscal year 2015.
    A. In total, how many employees are expected to travel during 
fiscal year 2014, how many unique travel trips are expected to occur, 
and what is the expected average cost per expected trip?
    Response. Please see the response to question 71B.

    B. For fiscal year 2015, how many unique travel trips is the $10.8 
million expected to support?
    Response. The travel budget identified in the HRA chapter of the 
budget request is primarily for travel provided for HCIP. The current 
2014 estimates for travel have been reduced from what was submitted in 
the original budget request last year.
    HCIP allocates most of its travel funds for training programs 
conducted by the VA Learning University (VALU). VALU provides training 
on a corporate level in the areas of leadership development, competency 
improvement, and technical training. These training courses are 
provided to all VA employees, not just HRA employees. VALU, through its 
HCIP funding, covers the cost not only of the training but all travel 
costs associated with attendance at the training. Travel associated 
with HCIP-funded, VALU-sponsored training is tracked separately in the 
travel management system from all other HRA travel and therefore is 
listed separately from other HRA travel in the tables below.
    Other travel not associated with HCIP, but included in the HRA 
budget is for ORM, which handles the processing of discrimination 
allegations and conflict resolution for both field and VA Central 
Office EEO-related cases. HRA travel funds also provide reimbursements 
to other VA offices for travel incurred for attendance at training 
sessions associated with new union contracts as well as travel 
associated with normal HRA business.

 
------------------------------------------------------------------------
                                                       ($ in millions)
                 HRA Travel Costs                  ---------------------
                                                     FY 2014    FY 2015
------------------------------------------------------------------------
VALU-sponsored travel.............................      $8.5       $9.4
All other HRA travel not included in VALU totals..      $1.4       $1.4
                                                   ---------------------
  Total...........................................      $9.9      $10.8
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                  Number of Trips                    FY 2014    FY 2015
------------------------------------------------------------------------
VALU-sponsored travel.............................    5,363      5,900
All other HR&A travel not included in VALU totals.      910        918
                                                   ---------------------
  Total...........................................    6,273      6,818
------------------------------------------------------------------------


 
------------------------------------------------------------------------
                                                          (whole $)
               Average Cost of Trip                ---------------------
                                                     FY 2014    FY 2015
------------------------------------------------------------------------
VALU-sponsored travel.............................   $1,585     $1,593
All other HRA travel not included in VALU totals..   $1,540     $1,540
                                                   ---------------------
  Total...........................................   $1,578     $1,584
------------------------------------------------------------------------


    Question 72. The Corporate Senior Executive Management Office 
(CSEMO), within the Office of Human Resources and Administration, was 
created to provide a ``centralized approach to the executive life cycle 
management.'' Under its responsibilities, CSEMO has created two 
training programs--Senior Executive Leadership Development Course I 
(SLC I) and Senior Executive Leadership Development Course II (SLC II). 
According to the budget request, CSEMO is developing a third 
developmental training program referred to as SLC III.
    A. Please provide the Committee with a detailed description of the 
SLC III course, including curriculum, cost estimate (travel, facility 
rentals, course material, etc.) and when the course will be available 
to VA senior executives.
    Response. CSEMO is considering SLC III as a follow-on course for 
senior executives who have completed SLC I and II. VA is presently in 
the concept pre-design phase of future SLC courses and does not have 
such information.
    B. For each training program (SLC I, SLC II, and SLC III), please 
provide the amount VA expects to spend in fiscal year 2015.
    Response. VA projects holding 2-3 cohorts (sessions) of SLC I and 
II in 2015, based on the volume of new senior executive hires through 
the end of FY 2014 and into FY 2015. For SLC I and II, the estimated 
cost per cohort is based on the average cost of previous year cohorts 
with an added 5 percent, assuming the program content and cohort size 
remain about the same.

 
------------------------------------------------------------------------
                   Course                      # Cohorts  Estimated cost
------------------------------------------------------------------------
SLC I.......................................          2        $179,096
SLC II......................................          3        $506,066
                                             ---------------------------
    Total...................................          5        $685,162
------------------------------------------------------------------------

VA will be able to provide SLC III cost estimates after the design is 
completed.
    C. How much was spent on each training course (SLC I, SLC II, and 
SLC III) for fiscal year 2009 through fiscal year 2014? Please 
breakdown by fiscal year, by category of spending (travel, facility 
rentals, course material, etc.), and by training program.
    Response.

    <bullet> SLC I: There were two cohorts of SLC I, a training course 
for newly appointed senior executives, in late FY 2012 (SLC I was 
initiated in 2012).

 
----------------------------------------------------------------------------------------------------------------
                                                                           Program
               SLC I                               Dates                    Costs        Travel         Total
----------------------------------------------------------------------------------------------------------------
Cohort 1..........................  July 22-27, 2012..................     $58,728       $32,938       $91,666
Cohort 2..........................  Aug 25-31, 2012...................     $53,464       $25,436       $78,900
----------------------------------------------------------------------------------------------------------------
* There were no SLC I cohorts held in FY 2013.


    <bullet> SLC II: This course on strategic thinking and leading 
change began in FY 2011.

 
----------------------------------------------------------------------------------------------------------------
                                                             Program
           SLC II                      Cohorts                Costs        OPM Fee       Travel         Total
----------------------------------------------------------------------------------------------------------------
FY 2011....................  Cohorts 1 - 3..............    $528,986       $23,804       $49,777      $602,567
FY 2012....................  Cohorts 4 - 16.............  $2,535,946       $95,098      $273,391    $2,904,435
FY 2013....................  Cohorts 17 - 19............    $428,367       $16,063       $39,441      $483,871
----------------------------------------------------------------------------------------------------------------


    Question 73. The Veteran Employment Services Office (VESO) was 
established by VA HR&A to comply with Executive Order 13518. Please 
provide a detailed budget for VESO, including the number of FTE, 
requested appropriations, and the amount projected to be spent on all 
VESO initiatives including VA for Vets.
    Response. VESO is funded through reimbursements received from HCIP. 
VESO has 49 full-time equivalent employees. The detailed budget 
estimates for VESO and the VA for Vets initiative for FYs 2014 and 2015 
are included below:

 
------------------------------------------------------------------------
               Initiative Name                  2014 Cost     2015 Cost
------------------------------------------------------------------------
Subtotal Personnel Compensation.............    4,275,296      4,318,049
Subtotal Regular Benefits...................    1,206,096      1,218,157
                                             ---------------------------
  Total Pay.................................    5,481,392      5,536,206
 
VA for Vets Web Site and Helpdesk...........    8,437,625      8,690,754
                                             ---------------------------
  Total Initiative..........................    8,437,625      8,690,754
 
Travel......................................      301,000        306,117
Transportation of Things....................        3,000          3,051
Printing & Reproduction.....................       75,000         76,275
Training....................................       70,000         71,190
Other Services..............................      411,298        418,290
Supplies & Materials........................       28,000         12,250
                                             ---------------------------
  Total Non-Pay (Including Initiative)......    9,325,923      9,577,927
                                             ---------------------------
    Total Cost..............................  $14,807,315    $15,114,133
------------------------------------------------------------------------


Office of Policy and Planning
    Question 74. The fiscal year 2015 budget request includes $27 
million to be spent on Other Services by the Office of Policy and 
Planning. Please provide a specific itemized list of how these funds 
would be spent. To the extent any of these funds will be spent on 
contracts, please explain the nature of the contract and the expected 
outcomes.
    Response. Of the $27 million to be spent on other services by OPP, 
$19.3 million is from reimbursement from customer offices for servies 
provided, supplementing $7.8 million from budget authority. 
Descriptions of work and expected outcomes are as follows:

 
------------------------------------------------------------------------
 Estimated
 $ Amount
    for          Description of Work Performed        Expected Outcomes
 Contract
------------------------------------------------------------------------
$1,800,000 Support the enterprise Program         Establish an
            Management Office (ePMO) in the        integrated
            expansion and operation of the         requirements
            Program Management Center of           development
            Excellence (PMCOE) to further          framework, enabled
            develop and promulgate program         by a world-class
            management standards, doctrine, and    program management
            policy. The PMCOE addresses all        capability, which
            disciplines of program management      aligns project
            including general program              plans and outcomes
            management, requirements, cost         to Department goals
            estimation, acquisition strategy,      and objectives to
            systems engineering, enterprise        improve services to
            architecture, test and evaluation,     Veterans.
            and construction management.
            Further, the PMCOE supports the
            institutionalization of the
            Department's acquisition program
            management framework and supports
            the development of a subordinate end-
            to-end requirements gathering,
            prioritization, and approval
            process.
------------------------------------------------------------------------
$1,100,000 Provide support to ePMO's oversight    Enable performance
            of the planning and execution of key   monitoring and
            programs within VA's benefits,         support resolution
            health, and corporate portfolios to    of risks within
            ensure effective oversight,            VA's highest
            integration, and sustainment of new    priority programs
            capabilities into the routine          to increase
            operations of the Department.          opportunities for
                                                   program success to
                                                   improve services
                                                   that benefit
                                                   Veterans.
------------------------------------------------------------------------
  $500,000 Assist ePMO in executing the           Quality feedback
            Secretary's Carey Performance          reports for
            Excellence Program by training         applicants used to
            personnel to understand the Baldrige   continuously
            criteria to develop application        improve management
            packages, provide support to           systems and service
            examiners during consensus week,       to Veterans.
            provide technical editing support,
            and provide feedback reports to
            applicants for continuous
            improvement purposes.
------------------------------------------------------------------------
  $600,000 Provide the Office of Interagency      Ensure IDES meets
            Collaboration and Integration          program goals and
            project management support,            continues to
            technical support, performance         improve the
            measurement, and process               delivery of
            improvements/business process          seamless, cost-
            reengineering support for the          effective quality
            implementation and oversight of the    services to
            IDES.                                  transitioning
                                                   Veterans.
------------------------------------------------------------------------
$1,500,000 Support the Office of Corporate        Establish
            Analysis and Evaluation (CAE) in       programming
            maturing the multi-year planning,      excellence and data-
            programming, budgeting, and            driven analytical
            execution (PPBE) framework             capabilities that
            established to optimally align VA      inform effective
            services with 21st century Veterans'   strategic resource
            needs. The work will aid VA's multi-   allocation and
            year programming process and conduct   stewardship of VA
            independent analysis/review,           resources to
            corporate studies and analysis, and    effectively serve
            other PPBE activities across VA.       Veterans.
------------------------------------------------------------------------
  $500,000 Automation of CAE's requirements       Streamline and
            development system, which currently    automate
            uses spreadsheets and other "flat      programming
            files" to perform the complex tasks    capability to allow
            of annual programming including:       more efficient and
           <bullet> Automated input functions      effective
            for capability requirements            analytical
            proposals and special interest         capabilities that
            analysis;                              inform effective
           <bullet> Ability to save all input      strategic resource
            data in a relational database (RDB);   allocation and
            and                                    stewardship of VA
           <bullet> Easy data-downloads from RDB   resources.
            to standard Microsoft tools.
------------------------------------------------------------------------
  $950,000 Assist the Office of Policy in:        Enable better
           <bullet> Supporting internal business   strategic decision
            process and VA's governance process;   making among VA
           <bullet> Executing strategic studies    senior leaders
            environmental scanning and analysis    regarding services
            processes to identify long-range       to Veterans and
            issues and drive innovation and        management of the
            transformation;                        Department.
           <bullet> Executing VA's quadrennial
            strategic planning process focused
            on strategic outcomes that influence
            policies, programs and resources;
            and
           <bullet> Executing VA's policy
            analysis process that is proactive,
            externally engaged, and internally
            aligned.
------------------------------------------------------------------------
$16,091,00 Support VA in developing Customer      Provision of the
         0  Data Integration (CDI), establishing   most appropriate,
            enterprise accountability and the      effective and
            integration of processes and systems   efficient service
            to support an integrated, Veteran-     possible while
            centric authoritative view of VA's     reducing burden on
            customers and their needs.             Veterans and
                                                   improving delivery
                                                   of VA services and
                                                   benefits.
------------------------------------------------------------------------
  $380,000 Assist the Office of Data Governance   Provide an
            and Analysis (DGA) in the expansion    integrated view of
            and support of the U.S. Veteran        Veteran users and
            Eligibility Trends and Statistics      non-users of VA
            (USVETS) multidimensional database     benefits or
            and analysis system; provide           services, as well
            statistical application system (SAS)   as statistical
            programming support for the National   analysis and
            Center for Veterans Analysis and       reports on Veterans
            Statistics.                            to support VA
                                                   planning, policy
                                                   development, and
                                                   decision making.
------------------------------------------------------------------------
  $370,000 Provide DGA with global information    Enhance GIS platform
            systems (GIS) analysis to:             and integration of
           <bullet> Provide technical and          SAS and GIS
            professional GIS services to           technologies which
            supplement staff's efforts by          improve Veteran
            compiling, creating, and modifying     data dissemination
            GIS layers and related tools;          and data analysis
           <bullet> Enhance DGA's integrated Web-  by deploying new
            based mapping capability with          mapping
            analysis system datasets and fully     capabilities in the
            integrate the geospatial analysis      ArcGIS intranet and
            dashboard (GAD) and geospatial         internet portal.
            analysis tools (GAT) into the
            analysis system and intranet portal;
            and
           <bullet> Develop interactive web
            applications and display interactive
            maps presenting data on Veteran
            population and VA programs.
------------------------------------------------------------------------
  $859,000 Support the Office of the Actuary by   Provide models to
            using cutting edge analytic tools to   predict Veterans'
            develop predictive models that         demands and use of
            predict future demand, utilization,    VA products and
            and cost for various VA benefit        services, and
            programs and health care services.     identify key
                                                   metrics to support
                                                   VA policy analysis
                                                   and strategic
                                                   planning process,
                                                   enabling VA to
                                                   identify and
                                                   strategically
                                                   target its
                                                   resources to better
                                                   serve Veterans.
------------------------------------------------------------------------
  $750,000 Develop training, guidance, and other  Improve the
            materials for DGA to:                  Department's data
           <bullet> Support enterprise-wide        governance
            implementation of advanced data        maturity, improving
            governance concepts and practices;     management and
           <bullet> Further develop the concepts   governance of data
            in VA's data governance training       for quality
            program; and                           improvement.
           <bullet> Provide program support to
            the data governance activities and
            CDI efforts.
------------------------------------------------------------------------
$1,300,000 Acquire Veteran demographics and       The integrated data
            socio-economic data from commercial    will enable a more
            data sources for DGA to supplement     complete view of
            existing VA data sources.              Veteran users and
                                                   non-users of VA
                                                   benefits or
                                                   services for
                                                   enhanced
                                                   statistical
                                                   analyses, outreach,
                                                   and modeling.
------------------------------------------------------------------------
  $200,000 Provide DGA with a special supplement  Better understanding
            to the current population survey on    of Veteran
            Veterans on such topics as             employment
            demographics, VA status, VA health,    challenges to
            education, etc. This is a critical     alleviate Veteran
            survey to capture Veteran employment   unemployment.
            statistics.
------------------------------------------------------------------------
  $215,000 Policy analysis conducted on new       Robust analysis to
            legislation and emerging needs of      inform the
            Veterans.                              Department on
                                                   future Veteran
                                                   requirements.
------------------------------------------------------------------------
  $130,000 Supports Departmental franchise                 N/A
            activities, such as security
            clearances and payroll processing.
------------------------------------------------------------------------


    Question 75. For fiscal year 2015, the budget request includes over 
$25 million for the Office of Policy and Planning and would support 116 
employees. For each office within the Office of Policy and Planning, 
please identify the positions and pay-grades for employees that would 
be assigned to that office during fiscal year 2014 and fiscal year 2015 
and the number of contractors that are expected to be assigned to each 
such office.
    Response.

                                  2014
------------------------------------------------------------------------
              Title                     Series               Grade
------------------------------------------------------------------------
                   5Office of the Assistant Secretary0
Assistant Secretary.............                301                  ES
Executive Assistant to the                      301               GS 15
 Assistant Secretary............
Scheduler/Program Support to                    301               GS 11
 Assistant Secretary............
Principal Deputy Assistant                      301                 SES
 Secretary......................
Scheduler/Program Support to                    301               GS 11
 Principal Deputy Assistant
 Secretary......................
Senior Policy Advisor...........                343               GS 15
 
                               Operations
Director of Operations..........                343               GS 15
Human Capital Manager...........                301               GS 14
Administrative Officer..........                301               GS 13
Communications Specialist.......                343                GS 9
Budget Officer..................                343               GS 13
------------------------------------------------------------------------
          5Office of Interagency Collaboration and Integration0
Executive Director..............                301                 SES
Scheduler/Program Support.......                301               GS 11
 
         Integrated Disability Evaluation System Service (IDES)
Director IDES...................                301               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 11
 
  Joint Executive Council/Senior Oversight Committee Service (JEC/SOC)
Director JEC/SOC................                301               GS 15
Special Assistant...............                301               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343             GS 9/11
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 11
Management Analyst..............                343                GS 9
------------------------------------------------------------------------
               5Corporate Analysis and Evaluation Service0
Executive Director..............                343                 SES
 
                           Programming Service
Director........................                343               GS 15
Budget Analyst..................                560               GS 14
Operations Research Analyst.....               1515               GS 14
Budget Analyst..................                560               GS 14
Operations Research Analyst.....               1515               GS 14
Management Analyst..............                343               GS 14
Program Analyst.................                343            GS 13/14
Program Analyst.................                343            GS 13/14
 
                      Analysis & Evaluation Service
Director........................                343               GS 15
Operations Research Analyst.....               1515               GS 14
Operations Research Analyst.....               1515               GS 14
Operations Research Analyst.....               1515               GS 14
Management Analyst..............                343               GS 13
Operations Research Analyst.....               1515                GS14
Operations Research Analyst.....               1515               GS 14
------------------------------------------------------------------------
                           5Office of Policy0
Deputy Assistant Secretary......                343                 SES
Program Support.................                301                GS 9
 
                         Policy Analysis Service
Director........................                343               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 11
Management Analyst..............                343               GS 13
Management Analyst..............                343             GS 9/11
Management Analyst..............                399               GS 13
Management Analyst..............                301                GS 9
 
                         Strategic Studies Group
Director........................                343               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 12
Management Analyst..............                343               GS 11
 
                       Strategic Planning Service
Director........................                343               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 13
Management Analyst..............                343               GS 11
Management Analyst..............                343               GS 11
------------------------------------------------------------------------
                5Office of Data Governance and Analysis0
Deputy Assistant Secretary......                343                 SES
 
          National Center for Veterans Analysis and Statistics
Executive Director..............                301                 SES
Program Support.................                301               GS 11
 
                     Analysis and Statistics Service
Director........................               1530               GS 15
Statistician....................               1530               GS 14
Management Analyst..............                343               GS 14
Statistician....................                343               GS 13
Management Analyst..............                343               GS 14
Statistician....................               1530               GS 14
Statistician....................               1530               GS 14
Management Analyst..............                343               GS 13
Statistician....................                343               GS 13
 
                     Reports and Information Service
Director........................                343               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 12
Management Analyst..............                343                GS 9
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 12
Management Analyst..............                343               GS 12
 
                          Office of the Actuary
Chief Actuary...................               1510                  SL
Deputy Chief Actuary............               1510               GS 15
Actuary.........................               1510               GS 14
Economist.......................                110               GS 14
Actuary.........................               1510               GS 14
Actuary.........................               1510               GS 14
Actuary.........................               1510               GS 14
Management Analyst..............                343               GS 14
------------------------------------------------------------------------
                 5Enterprise Program Management Office0
Executive Director..............                301                 SES
Management Analyst..............                343               GS 11
Deputy Director.................                301               GS 15
Executive Program Manager.......                301                 SES
 
                    Program Management Policy Service
Director........................                343               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 13
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
 
                      Operational Management Review
Director........................                343               GS 15
Management Analyst..............                343               GS 11
Management Analyst..............                343               GS 13
Management Analyst..............                343               GS 14
Management Analyst..............                343                GS 9
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
 
                       Resource Management Service
Director........................                343               GS 15
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 14
Management Analyst..............                343               GS 13
------------------------------------------------------------------------


    Additionally, OPP has contracts in place with third parties that 
involve their employees working in VA facilities. However, VA does not 
control those companies' independent business decisions regarding 
staffing requirements. Thus, VA is unable to give a number of 
contractor employees assigned to OPP.

Office of Operations, Security, and Preparedness
    Question 76. For fiscal year 2015, the Office of Operations, 
Security, and Preparedness requests total resources of $31.3 million 
and 133 employees. Please provide a list of the positions that would be 
filled with that funding and the pay-grades for those positions.
    Response. The Office of Operations, Security, and Preparedness 
(OSP) request consists of $17.9 million in budget authority and $13.4 
million in reimbursable authority for a total of $31.3 million in FY 
2015 budget. The personnel services portion of that request is $17.6 
million to support 133 full-time employee equivalents.

 
----------------------------------------------------------------------------------------------------------------
    Grade                     Title                          Organization                     Position
----------------------------------------------------------------------------------------------------------------
                                                       OSP Front Office
----------------------------------------------------------------------------------------------------------------
   Honorable Assistant Secretary (A/S)            OSP                             Assistant Secretary
       GS-12 Special Assistant to A/S             OSP                             Staff Assistant
----------------------------------------------------------------------------------------------------------------
                                             Office of Resource Management (ORM)
----------------------------------------------------------------------------------------------------------------
       GS-15 Director, Resource Mngt.             Resource Management             Director, ORM
       GS-13 Staff Assistant to Director          Resource Management             Staff Assistant
       GS-12 Program Analyst                      Resource Management             Program Analyst
       GS-14 Budget Analyst                       Resource Management             Budget Officer
       GS-14 Administrative Officer               Resource Management             Admin Officer
       GS-12 Staff Assistant                      Resource Management             Admin Officer
       GS-14 Resource Manager                     Resource Management             Management Analyst
----------------------------------------------------------------------------------------------------------------
                                             Office of Emergency Management (OEM)
----------------------------------------------------------------------------------------------------------------
         SES Deputy Assistant Secretary OEM       Emergency Management            DAS OEM
       GS-14 Senior Staff Assistant               Emergency Management            Support
       GS-11 Staff Assistant                      Emergency Management            Support
    GS-12/13 Management Analyst (Public Health)   VACANT                          Support
----------------------------------------------------------------------------------------------------------------
                                 Planning, Exercise, Training, and Evaluation Service (PETE)
----------------------------------------------------------------------------------------------------------------
       GS-15 Dir--Emergency Management Spec.      OEM/PETE                         Director PETE
----------------------------------------------------------------------------------------------------------------
                                                           Planning
----------------------------------------------------------------------------------------------------------------
       GS-14 Lead Emergency Mgt. Spec.            OEM/PETE                        Planning
 GS-11/12/13 Emergency Management Spec. (Planner/ OEM/PETE                        Planning
              Liaison Officer (LNO))
       GS-13 Program Analyst--Geographic          OEM/PETE                        Planning
              Information System (GIS)
                                                  Intern                          OEM/PETE
----------------------------------------------------------------------------------------------------------------
                                                           Planning
----------------------------------------------------------------------------------------------------------------
 GS-11/12/13 Emergency Management Spec.(DHS LNO)  OEM/PETE                        Planning
  GS-9/11/12 Program Analyst--GIS                 OEM/PETE                        Planning
 GS-11/12/13 Management Analyst (Planner/LNO)     OEM/PETE                        Planning
----------------------------------------------------------------------------------------------------------------
                                              Exercise, Training, and Evaluation
----------------------------------------------------------------------------------------------------------------
       GS-14 Team Lead/Exercises                  OEM/PETE                        Planning
 GS-11/12/13 Emergency Management Spec.           OEM/PETE                        Planning
              (Exercise)
    GS-12/13 Emergency Management Spec.           OEM/PETE                        Planning
              (Continuity)
    GS-12/13 Emergency Management Spec.           OEM/PETE                        Planning
              (Training)
    GS-12/13 Emergency Management Spec.           OEM/PETE                        Planning
              (Evaluator)
----------------------------------------------------------------------------------------------------------------
                                            VA Integrated Operations Center (IOC)
----------------------------------------------------------------------------------------------------------------
       GS-15 Director/(Supv.) VA IOC (FY 12)      OEM                             IOC
       GS-14 (Supv.) Readiness Operation Spec     OEM                             IOC
       GS-13 Readiness Operation Spec. (Team      OEM                             IOC
              Lead)
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
  GS-9/11/12 Readiness Operation Spec.            OEM                             IOC
    GS-12/13 Program Analyst                      OEM                             IOC
    GS-12/13 Program Analyst                      OEM                             IOC
    GS-12/13 Program Analyst                      OEM                             IOC
    GS-12/13 Readiness Operations Specialist      OEM                             IOC
              (National Operations Center
              Liaison)
----------------------------------------------------------------------------------------------------------------
                                                Operations & National Security
----------------------------------------------------------------------------------------------------------------
       GS-15 Director (Readiness Op. Spec.)       OEM                             COOP/COG
       GS-14 Emergency Management Spec.           OEM                             National Security
----------------------------------------------------------------------------------------------------------------
                                                          Operations
----------------------------------------------------------------------------------------------------------------
       GS-14 Readiness Operation Spec. (Site B    OEM                             COOP/COG
              Director)
       GS-13 Readiness Operation Spec. (Deputy    OEM                             COOP/COG
              Director for Site B)
       GS-11 Readiness Operation Spec.            OEM                             COOP/COG
  GS-9/11/12 Readiness Operations Spec.           OEM                             COOP/COG
  GS-9/11/12 Readiness Operations Spec.           OEM                             COOP/COG
       GS-12 Readiness Operation Spec. (Director  OEM                             COOP/COG
              Site C)
----------------------------------------------------------------------------------------------------------------
                                                  National Security Service
----------------------------------------------------------------------------------------------------------------
       GS-14 Special Security Officer             OEM                             National Security
       GS-13 Special Security Representative      OEM                             National Security
       GS-13 Special Security Representative      OEM                             National Security
       GS-13 Special Security Representative      OEM                             COOP/COG
              (ROS)
----------------------------------------------------------------------------------------------------------------
                                       Personnel Security & Identity Management (PSIM)
----------------------------------------------------------------------------------------------------------------
         SES Director, Personnel Security and     PSIM                            PSIM
              Identity Management
       GS-12 Staff Assistant to Director          PSIM                            PSIM
       GS-15 Director, HSPD-12                    PSIM                            HSPD-12
       GS-14 Deputy Director, Homeland Security   PSIM                            HSPD-12
              Presidental Directive (HSPD)-12
       GS-13 Physical Security Specialist         PSIM                            HSPD-12
       GS-13 Program Analyst                      PSIM                            HSPD-12
       GS-11 Director, Personnel Identification   PSIM                            HSPD-12
              Verification (PIV) Office
   GS-343-11 Program Analyst                      PSIM                            HSPD-12
        GS-7 Program Specialist                   PSIM                            PIV Office
        GS-7 Program Specialist                   PSIM                            PIV Office
        GS-7 Program Specialist                   PSIM                            PIV Office
        GS-7 Program Specialist                   PSIM                            PIV Office
        GS-7 Program Specialist                   PSIM                            PIV Office
        GS-7 Program Specialist                   PSIM                            PIV Office
       GS-15 Director, Personnel Security and     PSIM                            PSS
              Suitability (PSS)
       GS-14 Acting Director/Deputy Director,     PSIM                            PSS
              PSS
    GS-12/13 Security Specialist                  PSIM                            PSS
    GS-12/13 Security Specialist                  PSIM                            PSS
       GS-12 Security Specialist                  PSIM                            PSS
       GS-12 Security Specialist                  PSIM                            PSS
       GS-11 Security Specialist                  PSIM                            PSS
----------------------------------------------------------------------------------------------------------------
                                     Identity, Credentials, and Access Management (ICAM)
----------------------------------------------------------------------------------------------------------------
       GS-15 Director, ICAM                       ICAM                            ICAM
       GS-11 Staff Assistant                      ICAM                            ICAM
       GS-14 Administrative Officer               ICAM                            ICAM
       GS-12 Staff Assistant                      ICAM                            ICAM
       GS-14 Program Analyst                      ICAM                            ICAM
----------------------------------------------------------------------------------------------------------------
                                             Identity Management (Identity Mgt.)
----------------------------------------------------------------------------------------------------------------
       GS-14 Director--Identity Management        Identity Mgt.                   Identity Mgt.
       GS-11 Staff Assistant                      Identity Mgt.                   Identity Mgt.
       GS-14 Program Analyst                      Identity Mgt.                   Identity Mgt.
       GS-14 Program Analyst                      Identity Mgt.                   Identity Mgt.
 GS-11/12/13 Program Analyst                      Identity Mgt.                   Identity Mgt.
 GS-11/12/13 Program Analyst                      Identity Mgt.                   Identity Mgt.
   GS-7/9/11 Program Support                      Identity Mgt.                   Identity Mgt.
   GS-7/9/11 Program Support                      Identity Mgt.                   Identity Mgt.
----------------------------------------------------------------------------------------------------------------
                                                      Access Management
----------------------------------------------------------------------------------------------------------------
       GS-14 Director--Access Management          Access Mgt.                     Access Mgt.
       GS-11 Staff Assistant                      Access Mgt.                     Access Mgt.
       GS-14 Program Analyst                      Access Mgt.                     Access Mgt.
       GS-14 Program Analyst                      Access Mgt.                     Access Mgt.
 GS-11/12/13 Program Analyst                      Access Mgt.                     Access Mgt.
 GS-11/12/13 Program Analyst                      Access Mgt.                     Access Mgt.
   GS-7/9/11 Program Support                      Access Mgt.                     Access Mgt.
   GS-7/9/11 Program Support                      Access Mgt.                     Access Mgt.
----------------------------------------------------------------------------------------------------------------
                                                  On-Board/Monitor/Off Board
----------------------------------------------------------------------------------------------------------------
       GS-14 Director-On-Board/Off-Board          On-Board/Off-Board              On-Board/Off-Board
       GS-11 Staff Assistant                      On-Board/Off-Board              On-Board/Off-Board
       GS-14 Program Analyst                      On-Board/Off-Board              On-Board/Off-Board
 GS-11/12/13 Program Analyst                      On-Board/Off-Board              On-Board/Off-Board
   GS-7/9/11 Program Support                      On-Board/Off-Board              On-Board/Off-Board
----------------------------------------------------------------------------------------------------------------
                                         Office of Security & Law Enforcement (OSLE)
----------------------------------------------------------------------------------------------------------------
         SES Director for OSLE                    OSLE                            OSLE Lead
       GS-13 Program Analyst                      OSLE                            Operations
       GS-13 Administrative Officer               OSLE                            Operations
       GS-11 Staff Assistant                      OSLE                            Operations
       GS-15 Director, Police Service             OSLE                            Police Lead
       GS-07 Program Support Assistant            OSLE                            Operations
----------------------------------------------------------------------------------------------------------------
                                                      LEO/Investigations
----------------------------------------------------------------------------------------------------------------
       GS-14 Chief                                Oversight & Investigations      Lead
       GS-13 Criminal Investigator                Oversight & Investigations      Crim Inv.
       GS-13 Criminal Investigator (Watch         Oversight & Investigations      Crim Inv.
              officer)
       GS-13 Criminal Investigator                Oversight & Investigations      Crim Inv.
       GS-13 Criminal Investigator                Oversight & Investigations      Crim Inv.
    GS-12/13 Criminal Investigator                Oversight & Investigations      Crim Inv.
----------------------------------------------------------------------------------------------------------------
                                                Intelligence & Crime Analysis
----------------------------------------------------------------------------------------------------------------
       GS-14 Chief                                Intell & Crime Analysis         Lead
    GS-12/13 Criminal Investigator (Watch         Intell & Crime Analysis         Crim Inv.
              officer)
       GS-13 Criminal Investigator (Watch         Intell & Crime Analysis         Crim Inv.
              officer)
       GS-13 Criminal Investigator (Watch         Intell & Crime Analysis         Crim Inv.
              officer)
    GS-12/13 Criminal Investigator                Intell & Crime Analysis         Crim Inv.
----------------------------------------------------------------------------------------------------------------
                                                Executive Protection (EX Pro)
----------------------------------------------------------------------------------------------------------------
       GS-14 Chief                                Executive Protection            Lead
       GS-13 Criminal Investigator                Executive Protection            EX Pro
       GS-13 Criminal Investigator                Executive Protection            EX Pro
       GS-13 Criminal Investigator                Executive Protection            EX Pro
       GS-11 Criminal Investigator                Executive Protection            EX Pro
       GS-13 Criminal Investigator                Executive Protection            EX Pro
       GS-13 Criminal Investigator                Executive Protection            EX Pro
       GS-12 Criminal Investigator                Executive Protection            Security
       GS-12 Criminal Investigator                Executive Protection            Security
       GS-12 Security Specialist                  Executive Protection            EX Pro
       GS-12 Security Specialist                  Executive Protection            EX Pro
        WL-9 Motor Vehicle Operator               Executive Protection            EX Pro
----------------------------------------------------------------------------------------------------------------
                                               Infrastructure Security & Policy
----------------------------------------------------------------------------------------------------------------
       GS-14 Chief                                Policy & Infrastructure         Lead
                                                   Protection
       GS-13 Security Specialist                  Policy & Infrastructure         Security
                                                   Protection
       GS-12 Security Specialist                  Policy & Infrastructure         Security
                                                   Protection
    GS-12/13 Criminal Investigator                Policy & Infrastructure         EX Pro
                                                   Protection
----------------------------------------------------------------------------------------------------------------


    Question 77. For fiscal year 2015, the Office of Operations, 
Security, and Preparedness requests $10.3 million for Other Services. 
Please provide a specific itemized list of how these funds would be 
spent. To the extent any of these funds will be spent on contracts, 
please explain the nature of the contract and the expected outcomes.
    Response. OSP uses contract support in the following areas: 
Department of Homeland Security/Federal Protective Service Contract 
Guards for General Service Administration leased spaces in the Capital 
Region ($3.0 million); and Program support for the HSPD-12 program 
management office ($3.0 million). The new ICAM/On-Boarding and Off-
Boarding Program uses contract Program Management support ($3.0 
million). OSP also pays for support for Continuity of Operations sites 
and Continuity of Government sites, which are located outside of the 
National Capital Region ($750,000). OSP also has internal VA Service 
Level Agreements totaling $525,000 and some small maintenance 
contracts.

Office of Public and Intergovernmental Affairs
    Question 78. For fiscal year 2015, the Office of Public and 
Intergovernmental Affairs requests total resources of $22.8 million and 
90 employees. Please provide a list of the positions that would be 
filled with that funding and the pay-grades for those positions.
    Response.

 
----------------------------------------------------------------------------------------------------------------
  GRADE     # POSITIONS
----------------------------------------------------------------------------------------------------------------
   SES/EX 6            Assistant Secretary, Office of Public and Intergovernmental Affairs; Executive
                        Director; Director Intergovernmental Affairs; Director Public Affairs; Deputy
                        Assistant Secretary Intergovernmental Affairs
----------------------------------------------------------------------------------------------------------------
       15 16           Executive Assistant; Special Assistant; Program Management; Public Affairs Specialist;
                        Program Specialist; Deputy Director Homeless Veterans Initiative Office; Director of
                        Media Relations; Speechwriter
----------------------------------------------------------------------------------------------------------------
       14 27           Public Affairs Specialist; Program Specialist; Staff Assistant; Program Analyst;
                        Management Analyst
----------------------------------------------------------------------------------------------------------------
       13 15           Budget Analyst; Program Specialist; Public Affairs Specialist; Program Specialist
----------------------------------------------------------------------------------------------------------------
       12 5            Staff Assistant; Special Assistant; Program Analyst; Program Specialist
----------------------------------------------------------------------------------------------------------------
       11 12           Public Affairs Specialist; Staff Assistant
----------------------------------------------------------------------------------------------------------------
       10 2            Program Support Assistant
----------------------------------------------------------------------------------------------------------------
        9 5            Program Specialist; Program Support Assistant; Public Affairs Specialist; Student
                        Trainee
----------------------------------------------------------------------------------------------------------------
        8 0
----------------------------------------------------------------------------------------------------------------
        7 2            Program Support Assistant
----------------------------------------------------------------------------------------------------------------


    Question 79. In response to questions about the fiscal year 2014 
budget request, VA indicated that the Office of Public and 
Intergovernmental Affairs employs at least four speechwriters, paid at 
the GS-15 level.
    A. In total, how much funding is requested for fiscal year 2015 for 
speechwriters for this office?
    Response. For fiscal year (FY) 2015, the Office of Public and 
Intergovernmental Affairs (OPIA) requests $555,370 for three 
speechwriters.
    B. On average, how many speeches do these individuals write per 
year and for which VA officials are they drafting speeches?
    Response. Currently, there are three OPIA speechwriters, though 
there are four billets--the fourth position was added in 2008 in 
anticipation of expected retirements, to ensure continuity in senior 
leaders' communications; there are currently no plans to fill the 
fourth position. The three speechwriters directly support the 
Secretary, Deputy Secretary, and Chief of Staff of the Department of 
Veterans Affairs. As required, they may also provide expertise, 
editing, fact checking, and review of products written for 
Undersecretaries, Assistant Secretaries, and other VA executives.
    Duties of the three speechwriters in support of the three 
principals extend well beyond writing speeches and include composing, 
refining, and revising Congressional testimony; composing select 
correspondence; conducting current and historical research for a 
variety of written products, drafting articles on behalf of senior 
leaders for various publications; writing Department messages on behalf 
of senior leaders; composing scripts for senior leaders' videotaped 
remarks; editing products pertinent to the Office of the Secretary 
composed by other offices; reviewing and providing input for White 
House and other government agencies' documents involving Veterans; and 
occasional travel to support the Secretary at major speaking events.
    Each of the three speechwriters works on estimated 225-250 products 
annually.

    Question 80. Responses to questions about the fiscal year 2014 
budget request indicate that public affairs personnel from the Office 
of Public and Intergovernmental Affairs are located in New York, 
Atlanta, Chicago, Denver, Los Angeles, and Dallas.
    A. Please identify the locations of the offices for public affairs 
personnel located outside of Washington, DC. For example, are they co-
located with VA medical centers or regional offices?
    Response.

        New York-- Located with the New York Veterans Benefits 
        Administration (VBA) Regional Office
        Washington, DC--Located in VBA Business Office
        Atlanta--Located in Atlanta VBA building
        Chicago--Located in Chicago VBA Regional Office
        Denver--Located in Denver VBA Regional Office
        Los Angeles--Located on Greater Los Angeles Medical Center 
        campus
        Dallas--Located with Veterans Integrated Service Network (VISN) 
        17 offices

    B. Please provide a description of the responsibilities and 
performance metrics for personnel located at these public affairs 
regional offices.
    Response.
Responsibilities:
    <bullet> Manage Office of Public Affairs (OPA) regional office in 
accordance with Department policy. Efficiently organize staff workload, 
establish deadlines, and ensure achievement of quality standards. 
Recommend appropriate training and career-development activities, 
submit nominations for performance awards.
    <bullet> Maintain appropriate liaison with Administrations, VISNs, 
and facility staffs. Monitor professional development of public affairs 
officers at the regional and facility levels, assist by informal 
coaching and formal training.
    <bullet> Respond to queries from the news media in a timely manner. 
Make referrals in accordance with OPA and department policy.
    <bullet> Initiate contacts with the news media and generates news 
media interest in VA programs, officials and events.
    <bullet> Advise facilities, regional leadership and senior 
departmental leadership on the media relations aspect of issues. Stay 
informed of topics of Department-wide interest in addition to local and 
regional issues.
    <bullet> Develop timely, accurate event memos, briefing papers, 
read-ahead files and other information to prepare senior Department 
leaders during visits to the region.
    <bullet> Accompany senior Department leaders during visits to the 
region or help in arranging appropriate assistance from other 
personnel. Maintain the flexibility to assist senior leaders with 
little or no advance warning.
    <bullet> Assist in the preparation of news releases, fact sheets, 
media advisories, and letters to the editor, op-eds, and media pitches, 
in accordance with the highest professional standards.
    <bullet> Inform in a timely manner facility and regional directors 
and public affairs officers of Departmental policy affecting various 
issues.
    <bullet> Maintain regular contact with all facilities and 
appropriate regional offices within the region, assist regional and 
facility public affairs offices on the preparation of public affairs 
products, promote and participate in regional public affairs councils.
    <bullet> Alert the Director of Media Relations, the Deputy 
Assistant Secretary for Public Affairs and the Assistant Secretary for 
Public and Intergovernmental Affairs, the press secretaries, other 
staff members and the chain-of-command of situations involving the news 
media that may require their attention.
    <bullet> Monitor activities of the news media and advise the press 
secretaries and Office of Media Relations director on appropriate VA 
response.
    <bullet> Make recommendations on media relations plans, crisis 
communications strategies and promotional campaigns based upon the 
highest professional standards and a practical understanding of issues 
and the workings of the media.
Performance Metrics:
    Number of personnel trained; media queries fielded; feedback from 
senior leaders on trip support; results of media pitches; assessment of 
relationships with senior leaders and associated public affairs 
officers in their region.
    C. For fiscal year 2015, what level of funding is requested to 
maintain public affairs personnel in locations outside of Washington, 
DC?
    Response. OPA would need the same infrastructure funding as that of 
FY 2014, for 22 full-time employees, associated travel and automation 
needs.

    Question 81. For fiscal year 2015, the Office of Public and 
Intergovernmental Affairs requests $9.5 million for purposes of an 
adaptive sporting program for veterans with disabilities. Please 
provide a breakdown of how those funds are expected to be expended.
    Response. For FY 2015, OPIA requests $9.5 million for purposes of 
the adaptive sports grant program and the monthly assistance allowance 
for disabled Veterans training in Paralympic sports (Paralympic 
allowance). During FY 2015, the adaptive sports grant program is 
expected to expend $7.5 million through the adaptive sports grant. With 
the passage of P.L.113-59 in December 2013, VA is transitioning to a 
competitive grant program as opposed to awarding grants only to the 
United States Olympic Committee as authorized under previous 
legislation. Since the transition is still in progress, specific 
details of FY 2015 fund expenditures cannot be projected at this time. 
However, VA fully expects eligible entities to apply for grants up to 
$7.5 million to provide adaptive sporting opportunities for disabled 
Veterans and disabled members of the Armed Forces. As for the 
Paralympic allowance, $2.0 million is projected to be expended in 
Paralympic allowance payments and authorized expenses.

    Question 82. In response to questions about the fiscal year 2014 
budget request, the Office of Public and Intergovernmental Affairs 
indicated that it planned to spend $300,000 in fiscal year 2013 to 
``establish an agency-wide VA History Office'' and ``develop history 
outreach programs.''
    A. In total, how much has been expended on these initiatives and 
how much is requested for these purposes for fiscal year 2015?
    Response. The expended (contract) amount is $209,073 for FY 2014. 
Currently, there are no FY 2015 funds programmed for a continuation of 
this effort.
    B. What measurable outcomes does VA expect to achieve as a result 
of these initiatives?
    Response. The ongoing and short-duration FY 2014 effort is intended 
to assess the Department's current history and archival programs, and 
offer recommendations on what can be done to improve and enhance those 
existing programs.

    Question 83. In the fiscal year 2015 budget request, the Office of 
Public and Intergovernmental Affairs seeks $495,000 for Other Services. 
Please provide a breakdown of how those funds would be expended. To the 
extent any of these funds will be spent on contracts, please explain 
the nature of the contract and the expected outcomes.
    Response.

 
----------------------------------------------------------------------------------------------------------------
        Object Class 24          Amount (Est)                              Description
----------------------------------------------------------------------------------------------------------------
Printing Services.............     $100,000     Printing of the Veterans' benefits handbook; Translation
                                                 services.
                               -----------------
    Total.....................     $100,000
----------------------------------------------------------------------------------------------------------------



 
----------------------------------------------------------------------------------------------------------------
        Contracts/Name           Amount (Est.)                             Description
----------------------------------------------------------------------------------------------------------------
Barbaricum LLC................     $234,400     To establish, maintain, and distribute a customized executive
                                                 daily news summary.
Gov-Delivery..................      $25,000     Gov. delivery provides an enterprise (Department-wide)
                                                 customized email service for users who subscribe/opt in to
                                                 updates from VA.
Misc. Contracts...............     $135,600     Rent, Transit Subsidy, UPS Service, Service Level Agreements,
                                                 Copier Maintenances.
                               -----------------
    Total.....................     $395,000
----------------------------------------------------------------------------------------------------------------


    Question 84. According to the fiscal year 2015 budget request, the 
Office of Public and Intergovernmental Affairs requests $344,000 for 
travel for fiscal year 2015. How many trips is that level of funding 
expected to support and what is the average expected cost per trip?
    Response. OPIA's request of $344,000 for travel in FY 2015 is 
expected to support an estimated 189 trips with an average estimated 
cost of $1,811. These trips support the OPIA mission including tribal 
affairs, State Veterans Affairs offices, the Adaptive Sports Program 
and employee training.

    Question 85. Please provide the Committee data on how much VA spent 
on outreach activities in fiscal year 2014 and is projected to be spent 
during fiscal year 2015. The information should include, but is not 
limited to: 1) the amount in aggregate VA spent enterprise-wide on 
advertising outreach, 2) a breakdown by administration of the amount 
spent on outreach, and 3) the categories of spending VA believes 
encompass all forms of outreach undertaken and the funding breakdowns.
    Response.

                                    FY 2014 Advertising and Outreach Spending
----------------------------------------------------------------------------------------------------------------
                                                                        Social/
                                Television   Radio Ads    Print Ads     Digital        Outreach         Total
                                   Ads                                   Media
----------------------------------------------------------------------------------------------------------------
VHA..........................  See **       See **       See **       See **       **VHA does not    $21,726,574
                                below        below        below        below        centrally track
                                                                                    costs
                                                                                    associated with
                                                                                    outreach events
----------------------------------------------------------------------------------------------------------------
VBA..........................  See * below  See * below                            $878,068             $878,068
----------------------------------------------------------------------------------------------------------------
NCA..........................                                                      $74,325               $74,325
                                                                                     attendance at
                                                                                        outreach
                                                                                      conventions/
                                                                                      conferences
----------------------------------------------------------------------------------------------------------------
Center for Faith Based and                                                         $15,576               $15,576
 Neighborhood Partnerships.                                                         Travel/Per Diem
                                                                                       to attend
                                                                                        outreach
                                                                                       activities
----------------------------------------------------------------------------------------------------------------
Center for Minority Veterans.                                                      $50,837               $50,837
                                                                                   Travel/Per Diem/
                                                                                     Booth Rentals,
                                                                                     participating
                                                                                      in outreach
                                                                                       activities
----------------------------------------------------------------------------------------------------------------
Center for Women Veterans....                                                      $3,000                 $3,000
----------------------------------------------------------------------------------------------------------------
National Veterans Outreach...  $2,241,822   $322,402                  $1,216,064   $2,000,000         $5,780,288
                                                                                      Ad council
----------------------------------------------------------------------------------------------------------------
*VBA has a FY 2014/2015 contract that includes Public Service Announcement (PSA) development. Airing of radio
  and TV PSAs are through donated air time.
**VHA does not centrally track costs associated with outreach events.
**The total VHA advertising dollars spent by program offices, VISNs, and VAMCs (as of 3d qtr) is $21,726,574.


                               Projected FY 2015 Advertising and Outreach Spending
----------------------------------------------------------------------------------------------------------------
                                                                        Social/
                                Television   Radio Ads    Print Ads     Digital        Outreach         Total
                                   Ads                                   Media
----------------------------------------------------------------------------------------------------------------
VHA..........................                                                                        $27,647,865
----------------------------------------------------------------------------------------------------------------
VBA..........................  See **       See **                                 $912,500             $912,500
                                below        below
----------------------------------------------------------------------------------------------------------------
NCA..........................                                                      $80,875               $80,875
                                                                                     attendance at
                                                                                        outreach
                                                                                      conventions/
                                                                                      conferences
----------------------------------------------------------------------------------------------------------------
Center for Faith Based and                                                         $8,004                 $8,004
 Neighborhood Partnerships.                                                         Travel/Per Diem
                                                                                       to attend
                                                                                        outreach
                                                                                       activities
----------------------------------------------------------------------------------------------------------------
Center for Minority Veterans.                                                      $65,000               $65,000
                                                                                   Travel/Per Diem/
                                                                                     Booth Rentals,
                                                                                     participating
                                                                                      in outreach
                                                                                       activities
----------------------------------------------------------------------------------------------------------------
Center for Women Veterans....                                                      $3,000                 $3,000
                                                                                   participating in
                                                                                        outreach
                                                                                       activities
----------------------------------------------------------------------------------------------------------------
National Veterans Outreach...  See ***      See ***      See ***      See ***      See *** Below              $0
                                Below        Below        Below        Below
----------------------------------------------------------------------------------------------------------------
*VBA has a FY 2014/2015 contract that includes Public Service Announcement (PSA) development. Airing of radio
  and TV PSA's are through donated air time.
**VHA does not centrally track costs associated with outreach events.
**The total VHA advertising dollars spent by program offices, VISNs, and VAMCs for FY 2015 is $27,647,865.
***All FY 2015 National Veterans Outreach Advertising and outreach activities were pre-paid with FY 2013 and FY
  2014 dollars.


    The National Veterans Outreach (NVO) office, in collaboration with 
respective VA administration and OSVA special assistant staff outreach 
leads, comply with the premise that outreach is undertaken by VA to 
increase awareness of VA benefits and services and how to access them. 
The information provided in the preceding outreach responses entail the 
major categories in which outreach is planned and executed: 
advertising, event participation and through on-line engagement. Where 
appropriate, funding for those outreach programs is reported. 
Increasingly, VA is expanding outreach to better engage through public 
private partnerships. VA is presently developing policy to help guide 
public private partnerships while VHA, in particular, is developing 
best practices and procedures as part of their community engagement 
mission. There is no funding line identified at this time for 
establishing public private partnerships across VA. VA will report all 
outreach activities conducted in accordance with title 38U.S.C, Chapter 
63, for the submission of the biennial report.

    Question 86. Please provide a detailed budget for the National 
Veterans Outreach Office (NVO), including the number of FTE, a 
leadership chart, requested appropriations and budget projections, and 
current outreach initiatives and projects underway.
    Response.  Number of FTE: 4


                                              FY 2015 Budget Forecast
----------------------------------------------------------------------------------------------------------------
                                                   Object Class                                         Amount
----------------------------------------------------------------------------------------------------------------
   (Printing & Reproduction)                                                                           $45,000
   (Contracts: Advertising, Outreach)                                                               $4,080,000
   (Supplies & Materials)                                                                               $3,600
                                                                                                   -------------
     Total                                                                                          $4,128,000
----------------------------------------------------------------------------------------------------------------

      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

Current Outreach Initiatives:
    <bullet> Contract management and execution of the media buy and Web 
development contract for the VA Explore Web site.
    <bullet> Management and preparation of the Congressionally-mandated 
Biennial Outreach Report.
    <bullet> Planning, coordination, and execution of the National 
Veterans Day Observance at Arlington National Cemetery.
    <bullet> Planning for an outreach training program as part of the 
2014 OPIA National Training Academy.
    <bullet> Quarterly updates with VSO/NGO communications leads on VA 
Outreach Initiatives and teaming opportunities.

    Question 87. In response to questions about the fiscal year 2014 
budget request regarding what metrics NVO uses to determine whether a 
program is duplicative, VA stated: ``NVO leadership and team members 
confer regularly with other VA Staff Offices and with all three VA 
Administrations to review the status of current programs and review 
proposals for new projects. Through this detailed process, potential 
for duplicity is identified and plans developed to ensure programs that 
may be duplicative in nature are not executed by NVO.''
    A. During fiscal year 2014, which outreach programs or projects 
were identified as duplicative? Please list all programs and projects 
that were identified.
    Response. VA purchased digital keyword advertising with Google and 
Bing for the VA Explore outreach campaign. The Veterans Health 
Administration (VHA), at the VISN level, submitted some of the same 
keywords for use in a local campaign. VA and VHA compared the lists of 
search terms for the campaigns and the zip codes of the areas targeted. 
The two groups negotiated which terms each campaign would purchase and 
determined the best way to optimize both campaigns while avoiding 
conflicts.
    B. Which programs were not implemented because of this 
determination?
    Response. No advertising campaign was terminated.
Office of Congressional and Legislative Affairs
    Question 88. For fiscal year 2015, the Office of Congressional and 
Legislative Affairs requests $6 million and 45 employees. Please 
provide a list of the positions that would be filled with that funding 
and the pay-grades for those positions.
    Response. The 45 positions and their corresponding pay-grades are 
as follows:

 
------------------------------------------------------------------------
 
------------------------------------------------------------------------
Assistant Secretary..........................  EX
Director Congressional Affairs...............  SES
Associate Deputy Assistant Secretary.........  SES
Director of Operations.......................  GS-15
Director, Benefits Legislative Service.......  GS-15
Director, Health Legislative Service.........  GS-15
Director, Legislative Service................  GS-15
Director, Corporate Enterprise Legislative     GS-15
 Service.
Director, Congressional Reports and            GS-15
 Correspondence.
2--Special Assistants........................  GS-15
2--Administrative Officers...................  GS-14
Executive Correspondence Analyst.............  GS-14
13--Congressional Relations Officers.........  GS-12/13/14
Government Accountability Office (GAO)         GS-14
 Liaison Officer.
6--Program Analysts..........................  GS-9/11
Assistant Director, Congressional Liaison      GS-14
 Service.
Senior Congressional Liaison Representative..  GS-13
Congressional Liaison Officer................  GS-13
3--Congressional Liaison Representatives.....  GS-12
Staff Assistant..............................  GS-11
3--Congressional Liaison Assistant...........  GS-7/8/9
Program Assistant............................  GS-8
------------------------------------------------------------------------


    Question 89. In response to questions regarding the fiscal year 
2014 budget request, the Office of Congressional and Legislative 
Affairs indicated that, during fiscal year 2013, only 13 percent of 
questions for the record had been submitted on time; 75 percent of 
testimony had been submitted on time; and only 24 percent of reports 
had been submitted on time. By comparison, during fiscal year 2012, 75 
percent of questions for the record had been submitted on time; 88 
percent of testimony had been submitted on time; and 68 percent of 
reports had been submitted on time. Please explain the root causes for 
the increased delays during fiscal year 2013 in providing this 
information to Congress and the deterioration in timeliness since 2012.
    Response. During fiscal year (FY) 2013, the Office of Congressional 
and Legislative Affairs (OCLA) experienced a decrease in specific 
performance metrics while experiencing a dramatic increase in workload 
requirements. In FY 2013, the Department conducted 999 briefings, both 
as a result of Congressional requests and Departmental initiatives. 
This was a 45-percent increase over FY 2012. During
    FY 2013, OCLA responded to 3,544 requests for information; a 29-
percent increase over the number responded to in FY 2012.
    In 2013, OCLA developed a Workload Dashboard that identifies all of 
the congressional action items the office is currently working. As of 
March 20, 2014, the OCLA Dashboard listed the following outstanding 
items:

    <bullet> 8 Hearings
    <bullet> 158 Congressional Requests for Information
    <bullet> 101 Executive Congressional Correspondence items addressed 
to the Secretary
    <bullet> 86 Questions for the Record
    <bullet> 11 Hearing Deliverables
    <bullet> Additionally, OCLA is also working:

         - 688 Congressional Constituent Casework Inquires
         - 21 GAO actions
         - 18 Requests for Technical Assistance on Legislation
         - 52 Briefings within the next 30 days

    The total volume of work constitutes over 1,000 concurrent action 
items. Given this extensive volume of work, OCLA reviews and 
prioritizes its efforts to support both the Department and Congress. 
Unfortunately, with such a large workload, there will be items that 
will take longer to complete than we would like. In FY 2014 through the 
end of May 2014, the Department has responded to 94 percent of the 
questions for the record on-time and has submitted 97 percent of its 
testimony on-time.

    Question 90. In response to questions regarding the fiscal year 
2014 budget request, the Office of Congressional and Legislative 
Affairs indicated that, during fiscal year 2014, its goal was to submit 
90 percent of questions for the record on time; to submit 90 percent of 
testimony on time; and to submit 85 percent of reports on time.
    A. To date, are those goals being met? If not, please identify the 
percent of questions for the record, testimony, and reports that have 
been submitted on time during fiscal year 2014.
    Response. In FY 2014 through May, 2014, OCLA had achieved the 
following results:

    <bullet> Percent of Questions for the Record submitted on time: 
Goal 85 percent/Actual 94 percent
    <bullet> Percent of Testimony submitted on time: Goal 90 percent/
Actual 97 percent
    <bullet> Percent of Congressionally Mandated Reports submitted on 
time: Goal 85 percent/Actual 18 percent

    B. Are there any personnel consequences for any VA employees (such 
as in performance reviews or receipt of bonuses) caused by failure to 
meet those goals? If so, please specify which employees and the 
potential consequences.
    Response. OCLA employee performance plans include provisions 
regarding meeting performance measures and metrics which directly 
affect the employee's overall performance rating. The overall 
performance rating determines whether an employee will be recommended 
for a potential performance award.

    Question 91. For fiscal year 2015, please identify the goals set by 
the Office of Congressional and Legislative Affairs for submitting 
questions for the record, testimony, and reports on time.
    Response. For FY 2015, OCLA's target goals are as follows:

  <bullet> Percent of Questions for the Record submitted on 
    time:
                                                              85 percent
  <bullet> Percent of Testimony submitted on time:
                                                              90 percent
  <bullet> Percent of Congressionally Mandated Reports 
    submitted on time:
                                                              85 percent

    Question 92. According to information in the fiscal year 2015 
budget request, the Office of Congressional and Legislative Affairs 
(OCLA) stated: ``In 2013, OCLA supported 62 hearings and conducted over 
999 congressional briefings, including educational seminars. OCLA 
responded to 3,544 requests for information in addition to 477 
questions for the record.''
    A. How many briefings, requests for information, and questions for 
the record submitted in 2013 were not answered or fulfilled by 
December 31, 2013?
    Response. At the end of calendar year 2013, OCLA had the following 
workload:

    <bullet> Briefings: 41 (includes Congressionally requested and 
Departmental proposed briefings within 30 days)
    <bullet> Requests for Information: 119
    <bullet> Questions for the Record: 625
    B. How long, on average, did it take OCLA to respond to requests 
from the Hill?
    Response. VA strives to provide Congress with accurate and quality 
information in a timely manner. As indicated in FY 2013, OCLA 
facilitated over 999 congressional briefings (45-percent increase over 
FY 2012), including educational seminars, responded to 3,544 requests 
for information (29-percent increase over FY 2012), and provided 
responses to 477 questions for the record. OCLA also supported 311 
requests for technical assistance on proposed legislation. OCLA 
facilitated 51 GAO Entrance Conferences, 36 Exit Conferences, and 
responded to 31 Draft Reports and 35 Final Reports. Given the 
complexity, and competing priorities of many requests, not every 
request for information receives a response within requested timeline. 
OCLA is working to improve its communications with Congress regarding 
priorities to ensure needed information is received on time. OCLA does 
not maintain an average time to completion statistic for responding to 
Congressional requests.
Office of Acquisition, Logistics, and Construction
    Question 93. For fiscal year 2015, the Office of Acquisition, 
Logistics, and Construction requests $9.5 million for Other Services. 
Please provide a specific itemized list of how these funds would be 
spent. To the extent any of these funds will be spent on contracts, 
please explain the nature of the contract and the expected outcomes.
    Response. The $9.5 million in the fiscal year (FY) 2015 Office of 
Acquisition, Logistics, and Construction (OALC) budget request includes 
the expenditure categories shown in the chart below.

 
------------------------------------------------------------------------
                       Obligation Type                          Amount
------------------------------------------------------------------------
Permanent Change of Station Obligations.....................    $700,000
Repair of Furniture and Equipment, Equipment Rental.........      57,000
Department of Homeland Security Services....................     463,000
Recurring Maintenance and Repair............................      50,000
Training....................................................     362,000
Contracts...................................................   7,832,000
                                                             -----------
    Total...................................................  $9,464,000
------------------------------------------------------------------------

    The $7.8 million for contracts includes the items shown in the 
chart below.

 
------------------------------------------------------------------------
 FY 2015            Description                      Comments
------------------------------------------------------------------------
 $370,000 Financial Service Center      MOU between VA centralized
           Memorandum of Understanding   accounting and finance center
           (MOU)                         and Construction and
                                         Facilities Management (CFM)
                                         for necessary support.
------------------------------------------------------------------------
 $140,000 Interagency Agreement         Documentation of VA's most
           Historic American Buildings   significant historic
           Survey (HABS)                 properties, National Historic
                                         Landmarks, in compliance with
                                         Section 110 of the National
                                         Historic Preservation Act to
                                         document the official
                                         Historic American Building
                                         and Landscape Surveys
                                         submitted to the Library of
                                         Congress.
------------------------------------------------------------------------
 $500,000 Base Competency Scheduling    Contract to continue
                                         development of competencies
                                         which are general to
                                         Construction Management and
                                         apply to all roles and
                                         positions.
------------------------------------------------------------------------
  $30,000 Federal Facilities Council    National Academy of Sciences
           (FFC)                         contract in support of FFC
                                         activities to identify
                                         advancing technologies,
                                         processes, and management
                                         practices to improve the
                                         planning, design,
                                         construction, management,
                                         operation and evaluation of
                                         Federal facilities.
------------------------------------------------------------------------
 $293,000 US Army Corps Engineers       Engage the Army Corps of
           Interagency Agreement         Engineers to review major
                                         construction projects.
------------------------------------------------------------------------
 $262,041 Miscellaneous                 Multiple small contracts for
                                         less than $10,000 each.
------------------------------------------------------------------------
 $150,000 Human Capital Investment      Reimbursement for Human
           Plan Reimbursement            Resources and Administration
                                         services to CFM for support
                                         of recruitment, hiring and
                                         employee development training
                                         programs.
------------------------------------------------------------------------
  $35,000 LYNX Photo Management         Secure construction photo
                                         management software support
                                         annual renewal.
------------------------------------------------------------------------
 $170,000 National Institute of         The contract is for
           Building Sciences--CII        participation in a research
           Benchmarking                  project that will establish
                                         industry benchmarks for
                                         medical facilities. The 2-
                                         year study concludes with
                                         this second year of funding.
                                         VA was a cosponsor of the
                                         research project to
                                         facilitate benchmarking VA
                                         medical facility contribution
                                         to other medical facility
                                         construction projects. The
                                         outcome will allow VA to
                                         evaluate projects and
                                         processes to define future
                                         improvements.
------------------------------------------------------------------------
  $50,959 Defense Finance and           Interagency agreement to
           Accounting Service (DFAS)     process VA and CFM payroll.
------------------------------------------------------------------------
 $200,000 OALC Front Office             Mission support service
                                         contract(s).
------------------------------------------------------------------------
$2,000,00 Plans and Programs            This effort will provide
        0  Construction Review Council   support to CFM in the
           (CRC) and Program             implementation and reporting
           Management (PM) Support       of the capital program
           contracts                     improvement plan. The
                                         contract will provide support
                                         documentation and tracking of
                                         improvements in the
                                         construction process.
------------------------------------------------------------------------
$1,000,00 Construction Project          This effort continues the
        0  Management--TRIRIGA           sustainment of the TRIRIGA
                                         software for construction
                                         management. The software will
                                         provide a collaborative
                                         construction management tool
                                         for VA. The utilization of
                                         this product will improve
                                         contract administration and
                                         project oversight.
------------------------------------------------------------------------
 $750,000 Corporate and Regional        Provide post-production
           Matrixed Budget System        support on an existing
           (CRMBS) Post Production       Government-Off-The-Shelf
           Support contract              product to include bug-fixes,
                                         security updates, routine
                                         maintenance and updates to
                                         ensure compliance with US
                                         Congress Rehabilitation Act
                                         to make their electronic and
                                         information technology
                                         accessible to people with
                                         disabilities.
------------------------------------------------------------------------
$1,691,00 VA Facilities Management      MOU with the Department of
        0  School MOU                    Veterans Affairs Acquisition
                                         Academy (VAAA), to develop
                                         multi-modal delivery of
                                         comprehensive curricula of
                                         educational programs and
                                         courses relevant to VA's
                                         infrastructure and the total
                                         healthcare environment.
------------------------------------------------------------------------
 $190,000 Advisory Council Historic     Renewal of Interagency
           Preservation Liaison          Agreement to provide
                                         dedicated support to VA on
                                         complex and controversial
                                         historic preservation issues.
------------------------------------------------------------------------
$7,832,00 Total
        0
------------------------------------------------------------------------


    Question 94. The fiscal year 2015 budget request for Construction, 
Major Projects, includes a request of $75.5 million for the Advanced 
Planning Fund. This appropriated fund is comprised of ``no year money'' 
and is used to develop the early stages of construction projects for 
VHA, the National Cemetery Administration, the Veterans Benefits 
Administration, and VA central office staff offices.
    A. To date, what is the unobligated balance of the Advanced 
Planning Fund?
    Response. As of March 31, 2014, the unobligated balance is $180 
million.
    B. For fiscal year 2015, please provide a detailed description and 
amount for each project expected to be funded through the Advanced 
Planning Fund.
    Response. VA plans to obligate $107.8 million for the remainder of 
FY 2014. The table below reflects the anticipated use of the Advanced 
Planning Fund in FY 2015:

 
------------------------------------------------------------------------
                                                               Planned
                          Project                            Obligations
                                                                2015
------------------------------------------------------------------------
Bronx, New York--Spinal Cord Injury (SCI).................    $2,000,000
Perry Point, Maryland--Replace Community Living Center          $300,000
 (CLC)....................................................
Livermore, California--Realignment and Closure Palo Alto      $2,000,000
 (Design).................................................
Long Beach, California--Seismic Correction Building 7 and       $200,000
 126; Demolition Building 7...............................
Long Beach, California--Mental Health and CLC.............      $300,000
Palo Alto, California--Ambulatory Care/Polytrauma Rehab...    $3,000,000
Portland, Oregon--Retrofit and Renovation.................   $17,000,000
San Francisco, California--Seismic Retrofit B 1,6 and 8/        $200,000
 Replace B12..............................................
American Lake, Washington--Building 81 Seismic Replacement    $7,000,000
West Los Angeles--New Tower and Building 500 Seismic         $25,000,000
 Correction...............................................
West Los Angeles--12 Buildings Seismic Upgrade............    $3,200,000
National Cemetery Administration Projects.................   $11,000,000
Staff Offices.............................................    $4,000,000
Veterans Benefits Administration Projects.................    $1,000,000
Historic Preservation, Environmental, and Cost Estimating     $7,400,000
 Services.................................................
Facilities Standards and Criteria.........................   $20,000,000
Integrated Strategic Master Plans.........................   $30,000,000
                                                           -------------
                                                            $133,600,000
------------------------------------------------------------------------


    C. Please describe in detail the metrics used to determine the size 
of the budget request for the Advanced Planning Fund?
    Response. VA's request for this line item is based on the estimated 
need to support project and other requirements funded through this 
fund. VA's Advanced Planning Fund line item provides funding for 
schematic design, design development, and construction document phases 
up to 100 percent of design for Major Construction projects. This will 
allow VA to complete at least 35 percent of total design prior to 
requesting construction funds. It can be used to prepare facility 
master plans, historic preservation plans, conduct environmental 
assessments and impact studies, energy studies or audits, and design 
and construction-related research studies including post-occupancy 
evaluations. The funds are also utilized to maintain construction 
standards, such as: design guides, design standards, specifications, 
and space criteria.

    Question 95. VA has a large inventory of buildings across the 
Nation to carry out its mission. According to a response to questions 
about the fiscal year 2014 budget request, VA expected to have 
approximately 941 unused or underutilized buildings.
    A. In fiscal year 2013, how much, if any, cost avoidance or savings 
did VA realize by selling vacant or underutilized buildings and how 
many vacant or underutilized buildings did VA have at the end of fiscal 
year 2013?
    Response. At the end of FY 2013, VA had approximately 922 vacant or 
underutilized buildings, of which 427 (46 percent) were historic 
buildings. Of the 922, 242 were vacant and 680 were underutilized.
    The 922 buildings account for approximately 9.9 million square feet 
(SF) of space in vacant or underutilized buildings. Of that total, 4.2 
million SF is located in vacant buildings and 5.6 million SF is located 
in underutilized buildings.
    VA does not track actual costs at the building level; however, the 
Department does use a proration methodology to report building level 
costs to the Federal Real Property Profile annually. For FY 2013, VA 
estimates it spent approximately $20.2 million on the 922 vacant and 
underutilized assets in its portfolio. A further breakdown of those 
costs is an estimated $4.6 million on the 242 vacant buildings and 
$15.6 million on the 680 underutilized assets.
    Compared to FY 2012, when the estimated cost to operate vacant and 
underutilized buildings was $23.4 million annually, the FY 2013 
estimated cost ($20.2 million) represents a cost avoidance of 
approximately $3.2 million. The reduction in operating costs for these 
buildings is the result of reuse and disposal of vacant and 
underutilized buildings; it is not the result of revenue gained from 
selling any properties. VA did not sell any vacant or underutilized 
properties in FY 2013.
    B. In fiscal year 2014, how much, if any, cost avoidance or savings 
does VA expect to realize by selling vacant or underutilized buildings 
and how many vacant or underutilized buildings does VA expect have at 
the end of fiscal year 2014?
    Response. VA projects it will dispose or reuse 50-60 vacant or 
underutilized buildings in FY 2014, resulting in an estimated 867 
vacant or underutilized buildings at the end of FY 2014. Of that 867, 
approximately 197 are projected to be vacant and 670 underutilized.
    Based on the planned disposal or reuse of 50-60 buildings, the 
overall cost to operate vacant and underutilized buildings is projected 
to drop to $19.7 million annually in FY 2014, a reduction of 
approximately $0.5 million from the FY 2013 amount ($20.2 million). The 
projected reduction in operating costs for these buildings is the 
result of reuse and disposal of vacant and underutilized buildings; it 
is not the result of revenue gained from selling any properties.
    VA continues to pursue disposing or reusing un-needed assets; 
however, there are challenges in further reducing VA inventory in this 
area. Of the projected 867 vacant or underutilized assets, 391 (45 
percent) are considered historic buildings, limiting VA's ability to 
dispose or reuse these assets in many cases.
    Competing stakeholder interests in some of these vacant or 
underutilized assets also has hampered disposal or reuse efforts. VA is 
looking at further opportunities to reduce our vacant and underutilized 
footprint, as mentioned earlier. Having tools in place, such as the 
expansion of VA's Enhanced-Use Lease (EUL) authority, currently in 
proposed legislation under consideration by Congress, would help 
overcome some of these challenges and allow VA to more effectively 
reduce its inventory of vacant and underutilized assets.

    Question 96. The Office of Small and Disadvantaged Business 
Utilization (OSDBU) is an office within the Office of the Secretary, 
although the budget for the office is paid for by the Office of 
Acquisition and Logistics Supply Fund.
    A. Please provide a detailed budget for OSDBU, including FTE and 
requested budget for fiscal year 2015.
    Response. Because the Office of Small and Disadvantaged Business 
Utilization (OSDBU) is funded by the Supply Fund, the OSDBU budgeting 
cycle is not the same as the Presidential budget request. The OSDBU 
2015 budget request is due to the Supply Fund Board in August 2014 and 
is currently under development. The following budget history is 
provided:

                                               OSDBU Total Budget
                                                ($ in thousands)
----------------------------------------------------------------------------------------------------------------
                                                          2012 Actual         2013 Actual        2014 Estimate
                                                     -----------------------------------------------------------
                                                        Budget      FTE     Budget      FTE     Budget      FTE
----------------------------------------------------------------------------------------------------------------
VA Veteran-Owned Small Business Verification........   $11,892      19     $16,818      19     $18,545      16
Strategic Outreach..................................    $7,050       8      $1,645       7      $4,814       7
Acquisition Support.................................      $761       6      $1,087       7      $1,892       8
Operations..........................................      $878       9     $10,866       9      $5,112      10
                                                     -----------------------------------------------------------
    Total Expenditures..............................   $20,581      42     $30,416      42     $30,363      41
----------------------------------------------------------------------------------------------------------------


    B. Please provide a detailed budget for the Center for Verification 
and Evaluation (CVE) within OSDBU, including FTE, requested budget for 
fiscal year 2015, and metrics used by CVE to measure effectiveness.
    Response. Because the Center for Verification and Evaluation (CVE) 
is within the Office of Small and Disadvantaged Business Utilization 
(OSDBU), which is funded by the Supply Fund, the CVE budgeting cycle is 
not the same as the Presidential budget request. The OSDBU 2015 budget 
request is due to the Supply Fund Board in August 2014 and is currently 
under development. The following budget history is provided:

                               CVE Budget
                            ($ in thousands)
------------------------------------------------------------------------
                                              2012      2013      2014
                                             Actual    Actual   Estimate
------------------------------------------------------------------------
FTE.......................................        19        19        16
Obligations:
  FTE.....................................   $ 1,874    $2,166    $1,778
  Professional Services...................        $0    $6,630    $7,537
  Travel..................................        $7       $37       $30
  Training................................        $0      $669        $8
  Printing and reproduction...............        $0        $0        $0
  Contract Support........................    $9,912    $7,246    $8,912
  Supplies and materials..................       $97       $29       $13
  Equipment...............................        $2       $41        $7
  Rents...................................        $0        $0      $240
  Security................................        $0        $0       $20
                                           -----------------------------
    Total obligations.....................   $11,892   $16,818   $18,545
------------------------------------------------------------------------


    Department of Veterans Affairs (VA) has invested heavily in 
building a robust and effective system for verifying Veteran-Owned 
Small Business eligibility for the VA Veterans First Program. In fiscal 
year (FY) 2013 we spent $6.9 million to build verification capacity and 
in FY 2014 we are spending $12.3 million in non-recurring investments 
to ensure that the system is efficient and cost-effective. As a result 
we expect the verification program costs to be approximately $14.7 
million in FY 2015 to handle 6,000 applications.
    Metrics used by CVE to determine effectiveness:

    <bullet> Total applications processed
    <bullet> Number of initial applications processed
    <bullet> Number of requests for reconsideration processed
                      office of inspector general
    Question 97. For fiscal year 2015, the Office of Inspector General 
requests $11.8 million for Other Services. Please provide an itemized 
list of how those funds would be utilized.
    VA OIG Response: The fiscal year (FY) 2015 request for Other 
Services includes the following contractual services, interagency 
agreements, employee training, VA cross-cutting services, and other 
procured services:

    <bullet> Consolidated Financial Statement Audit contract for FY 
2015
    <bullet> Human Resources/Payroll Processing Services--Departments 
of Treasury and Agriculture
    <bullet> Federal Information Security Management Act Review 
contract
    <bullet> Employee Training
    <bullet> VA Franchise Fund Services--Information Technology 
processing, financial services, employee relocation services, 
background investigations, and records storage
    <bullet> Council of the Inspectors General for Integrity and 
Efficiency
    <bullet> Building security services--Department of Homeland 
Security and VA
    <bullet> Investigative Services--credit/database access, forensic 
examinations, transcription services, fingerprinting, communications 
agreements

    Other miscellaneous administrative/support services provided by VA 
and other sources.

    Question 98. With the requested level of resources for fiscal year 
2015, how many benefits inspections would the Office of Inspector 
General plan to conduct?
    VA OIG Response: The Office of Inspector General plans to conduct 
20 inspections of VA Regional Office operations in FY 2015. Our 
independent inspections provide recurring oversight focused on 
disability compensation claims processing and the performance of 
Veterans Service Center operations.
                     veterans health administration
    Question 99. According to the budget request, VA will spend $534 
million to activate medical facilities in fiscal year 2015. And, the 
estimate for activations for fiscal year 2015 increased $404 million 
over the amount included in advanced appropriations.
    A. Please break out the $534 million by appropriations account.
    Response. Please refer to the table below:

 
------------------------------------------------------------------------
                        Appropriation                            ($000)
------------------------------------------------------------------------
Medical Services.............................................   $395,416
Medical Support & Compliance.................................    $42,800
Medical Facilities...........................................    $96,200
                                                              ----------
    Activations, 2015 Estimate...............................   $534,416
------------------------------------------------------------------------

    B. How much, in total, does VA intend to spend in fiscal year 2016 
for medical facility activations? Please break this figure out by 
appropriations account.
    Response. Please refer to the table below:

 
------------------------------------------------------------------------
                        Appropriation                            ($000)
------------------------------------------------------------------------
Medical Services.............................................    $96,200
Medical Support & Compliance.................................    $10,400
Medical Facilities...........................................    $23,400
                                                              ----------
    Activations, 2016 Estimate...............................   $130,000
------------------------------------------------------------------------

    C. Please provide a full list of the facilities that will be 
activated with these funds, with the amount of funding estimated for 
each facility broken down into non-recurring and recurring costs.
    Response. Please see attached.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    D. Please provide a detailed explanation for the $404 million 
increase above the advanced appropriations amount for medical facility 
activations for fiscal year 2015.
    Response. Please refer to above attachment.

    Question 100. In an effort to ensure veterans are getting the 
mental health care they need, VA recently ended an initiative to hire 
1,600 new mental health providers and more than 900 Peer Specialists. 
This effort also included filling the open positions that already 
existed within the mental health program.
    A. To date, what is the number of mental health positions currently 
unfilled?
    Response. As of June 2014, the current number of unfilled positions 
for mental health is 2,762.83, which is a vacancy rate of 10.15 
percent. For peer specialists the vacancy rate is 7.7 percent.
    B. Have all mental health providers hired under this initiative 
been trained in evidence-based therapies? If not, when will the 
providers be trained?
    Response. No. All mental health providers hired have not been 
trained in evidence-based psychotherapies. Determination of the need 
for training in evidence-based psychotherapies is based on clinical 
role, provider credentials, and program assigned. For example, while 
some of the staff hired included registered nurses, their role is to 
provide case management services and not evidenced-based psychotherapy. 
Since May 2012, VA has trained 3,446 unique VHA staff and trainees (not 
including Vet Center) in one or more of the 15 evidence-based 
psychotherapies that have centralized training. The tracking database 
cannot distinguish between staff hired as a result of the initiative 
and those hired before the initiative. Training in evidenced-based 
therapies is an ongoing process based on expansion of these therapies 
as well as staff turnover.
    C. Have all the Peer Specialists been trained and are they 
currently providing care to veterans? If not, when will they be 
trained? Please provide the Committee with a list of facilities that 
received Peer Specialists positions and the number of Peer Specialists 
at each facility.
    Response. VHA currently has 952 peer support staff hired or 
converted to support the hiring initiative, delivering services to 
Veterans at every medical center and at every very large CBOC. (Please 
note, as of April 2014, very large is defined as a CBOC that has more 
than 10,000 Veterans enrolled.) VHA hired 420 Peer Specialists who were 
already trained and certified and have been providing counselor 
services upon being hired. VHA has trained and certified 564 Peer 
Support Apprentices; 202 Peer Support Apprentices have since been 
promoted to Peer Specialists and the remaining 362 Peer Support 
Apprentices are waiting their 12-month time limited appointment 
requirement before eligibility for promotion to Peer Specialist. VHA 
has 22 Peer Support Apprentices scheduled for training and an 
additional 24 Peer Support Apprentices awaiting confirmation on 
scheduled training. Attached below is a complete facility listing and 
the number of peer-to-peer counselors per facility.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question 101. According to the budget request, VA estimates a ``net 
increase in enrollment will be 56,000 in 2014 and 63,000 in 2015'' due 
to the mandate that all Americans have health care under the Affordable 
Care Act. How many veterans does VA estimate would leave the system for 
other health care in 2014 and 2015?
    Response. VA has been closely monitoring Veteran enrollment in 
response to ACA, but it is likely still too early to assess changes in 
enrollment and to attribute them directly to the ACA. VA can report 
that of the Veterans to whom VA sent ACA outreach letters, almost 7,150 
enrolled in VA health care after receiving such a letter (through 
February 2014). From July 2013 through January 2014, VA also received 
252 requests from Veterans to disenroll from VA health care. Although 
Veterans are not required to provide a reason for enrolling or 
disenrolling, and other factors may also influence Veterans' decisions 
to enroll in or disenroll from VA health care, only 49 Veterans 
requested to disenroll during the same 6-month timeframe in the 
previous year (July 2012 through January 2013). The experience to date 
in 2014, based on this data, for both enrollment and disenrollment, is 
lower than originally projected in the budget request. VA will continue 
to monitor the impact of ACA on the VA health care system and make 
necessary changes to future budget estimates.
    As background, the analysis to estimate the impact of ACA on VA 
health care was based on data from three sources--the 2010 Public Use 
Microdata Sample files from the American Community Survey (ACS), The 
Lewin Group's Health Benefit Simulation Model (HBSM), and VA's EHCPM. 
The HBSM predicts how Veterans' health care choices might change as a 
result of ACA. This model was used to estimate the change in VA 
enrollment (both those enrolling and those leaving VA for other 
coverage) in response to the ACA. For an individual with a given 
primary health coverage status before ACA, the HBSM predicts the 
individual's likelihood of remaining in the same primary coverage 
status or transitioning to another status after implementation of ACA. 
These likelihoods are based on individual-level factors that are also 
modeled, such as the individual's Federal poverty level, whether the 
individual is employed, employer type, and employer size. The results 
of the analysis suggested that most Veterans who have employer-provided 
insurance as their primary insurance will not have a change of status 
as a result of ACA, nor will Veterans who have coverage provided by 
Medicaid, Medicare, TRICARE, or the Indian Health Service. According to 
The Lewin Group's initial assessment, the vast majority of Veterans 
will not choose to change their source of health care coverage as a 
result of the ACA.
    Veterans who are most likely to newly enroll in VA health care to 
obtain minimum essential coverage are Veterans who currently have no 
health coverage. The 2010 ACS data indicate that about 1.4 million 
Veterans have no form of health coverage. About 1 million of these 
Veterans may be eligible to enroll in VA by meeting VA's income-
eligibility requirements. However, because many of these Veterans may 
also be eligible for Medicaid or for tax credits if they buy insurance 
in the health insurance marketplaces, not all of them are likely to 
enroll in VA health care.
    Veterans who are likely to obtain non-VA coverage in response to 
the ACA are those who rely very little on VA for their health care. 
There are about 924,000 Veterans in this category. Some of them are 
expected to disenroll from VA in order to avail themselves of premium 
tax credits (if otherwise eligible) to purchase qualifying coverage in 
the health insurance marketplace. Another portion of this group would 
enroll in Medicaid if their state expands Medicaid coverage and some 
would take up employer-provided insurance in response to the ACA. 
Veterans who obtain coverage through Medicaid or employer-provided 
insurance are not expected to disenroll from VA (and instead maintain 
dual enrollment), but their reliance on VA is likely to decline.

    Question 102. VA provides dental care to veterans who are 100 
percent service-connected disabled, for dental conditions that are 
service-connected, or care that is medically necessary. In addition, VA 
provides access for veterans to dental insurance through the VA Dental 
Insurance Program.
    A. Please describe in detail the metrics VA uses to measure access 
to VA's dental clinics.
    Response. VA uses access measures to quantify how many patients 
waited and how many are currently waiting for care. Dental clinics use 
the same access metrics that are used for all VA medical appointments. 
The VHA Support Service Center Wait Time Pending report was designed to 
help reduce the number of future appointments with long waits. The 
report shows the number of patients and appointments in the queue but 
gives greater detail for those patients who have already waited more 
than 14 days from the recorded create date for an upcoming visit.
    B. What is the current wait time for an appointment in a VA dental 
clinic? Please break this information out by facility.
    Response. As of June 30, 2014, 5.50 percent of all pending dental 
appointments for new patients were greater than 14 days of the create 
date. The facility specific access list report is attached.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Embedded in the above spreadsheet, five pages:

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    C. How many open positions does VA currently have for dental 
providers and on average how long does it take to hire a dental 
clinician?
    Response. As of July 15, 2014, there are 20 dentist vacancies and 2 
dental hygienist vacancies listed on the USAJobs Web site. As of 
April 2014, the average SOH timeframe to hire dental clinicians is 
41.99 days, which exceeds the VA SOH goal of 60 days. The SOH metric 
begins with the date request received through the date of tentative 
offer.
    D. Please submit to the Committee the Dental Patient Satisfaction 
Survey.
    Response. Please see attached eight pages.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Question 103. In a response to a question about the fiscal year 
2014 budget request on consolidating VHA Fee Programs processing 
system, VHA indicated they had not consolidated in the same manner as 
the Consolidated Patient Account Centers (CPAC) but had begun ``work on 
a centralized claims processing system, known as * * * Health Claims 
Processing'' (HCP). Please provide the Committee a detailed update on 
the implementation of HCP.
    Response. HCP was chartered by VA to demonstrate the use of VA's 
Financial Service Center (FSC) to process health care claims for Non-VA 
Medical Care (previously known as FEE). The project is managed by the 
VHA Chief Business Office (CBO) in a partnership with the FSC. The FSC 
supports CBO with claims processing support for several VISNs 
experiencing high claim volume/ backlogs. For claims processed by FSC, 
VAMCs continue to be responsible for the Non-VA Care Coordination 
component, which includes eligibility determination and authorization 
for Purchased Care.
    In addition, FSC has supported CBO in developing two HCP modules 
which support and introduce improvements to the upfront processes of 
Non VA Care including eligibility determinations as well as the 
authorization of inpatient care in the community (known as Hospital 
Notification). The Eligibility module is in production use at 3 VAMCs 
and is in the process of being integrated with the existing Fee Basis 
Claims System (FBCS). The national release of this functionality is 
currently scheduled to begin in March 2015. The module for Hospital 
Notification is scheduled for a January 2015 deployment to a second 
VAMC for testing and will be integrated with FBCS in the second half of 
2015.

    Question 104. Because information on VISN headquarters funding was 
left out of last year's request, Ranking Member Burr submitted a 
question for the record asking ``[h]ow much does VA expect to spend in 
fiscal years 2014 and 2015 for VISN headquarters functions?'' While VA 
never answered the question, this year's budget request provided the 
answer.
    A. What accounts for the $115 million increase between fiscal year 
2013 and 2014 at a time when VA was reducing the size the VISN staff?
    Response. There was a $105 million increase in obligations from 
2013 actuals to 2014 estimate. The 2013 actual of $186.8 million 
reflects actual obligations at the end of the fiscal year for the VISN 
headquarters only. The 2014 estimate of $291.6 million reflects 
projections for VISN headquarters and includes consolidated VISN 
functions, such as laundry, laboratory, and human resources. In 2013, 
these funds were initially sent to the VISN headquarters and then 
disseminated to the VAMCs. FY 2014 reflects a transition year for how 
these funds are initially disseminated to the field.
    B. VISN Directors were given a deadline of December 31, 2013, to 
reduce their staff to no more than 65 FTEs; why did VISN 23 miss this 
target date? Please describe what remedies are being put in place to 
help VISN 23 reach the target.
    Response. VISN 23 was compliant with the required staffing levels, 
with the exception of Bio-Medical Engineering and Health Care 
Technology which they requested to function as a consolidated service. 
The VISN Staffing Workgroup is conducting a review of all requests for 
consolidated service to validate those occupational functions which are 
best suited for consolidation.
    If VISN 23's Bio-Medical Engineering/Health Care Technology 
proposal is approved, the staff are either moved to a consolidated 
service account or dispersed back to the local medical facilities. The 
VISN would then be 8 full-time equivalent employees (FTEE) under their 
currently approved ceiling of 59 FTEE.
    C. In a meeting with Ranking Member Burr in 2012, senior VHA 
officials indicated they planned to reduce the number of VISN staff 
first, and then explore the overall number of VISNs needed. Has the 
second phase started? If not, when does VA expect to begin this phase 
of the VISN reorganization?
    Response. The former Under Secretary for Health convened a 
workgroup in 2013 to review the composition of VISNs relative to 
Veteran population, health care service complexity levels, geography, 
budget, and other factors that are unique to each VISN. The workgroup 
developed the criteria and methodology that would be used to review the 
size and composition of the VISNs. The workgroup presented its findings 
and recommendations to VHA leadership in late 2013. VHA leadership 
instructed the review team to reevaluate certain criteria and revise 
recommendations for consideration. These recommendations were to 
provide for a tiered or staggered approach to any reorganization effort 
that would allow for a phased implementation of any changes.

    Question 105. The Honoring America's Veterans and Caring for Camp 
Lejeune Families Act was signed into law 18 months ago. VA started 
treating Camp Lejeune Veterans in August 2012 when the President signed 
the law; however, family members are still waiting. When will VA start 
processing claims for Camp Lejeune families?
    Response. VA can begin reimbursing eligible Camp Lejeune family 
members now that the interim final rule has been published and is 
effective. The interim final rule was published in the Federal Register 
on September 24, 2014 and became effective on October 24, 2014. Now 
that the Camp Lejeune family member rule is effective, VA will 
reimburse family members, as the last payer, for health care costs that 
are related to the 15 conditions in the law and were incurred from 
March 26, 2013, the day the Congressional appropriations were made, 
onward.

    Question 106. In response to a question by Chairman Sanders in the 
Committee hearing on the budget about what debt forgiveness programs 
are available to attract primary care physicians to work for VA, Dr. 
Petzel stated the $60,000 cap of the Education Debt Reduction Program 
(EDRP) ``could be higher.'' In fact, the Caregivers and Veterans 
Omnibus Health Services Act authorizes the Secretary to waive the 
$60,000 cap. In addition, the budget request states ``EDRP was not 
utilized to the extent expected for the Mental Health Hiring Initiative 
(MHHI).''
    A. How many times has the Secretary waived the $60,000 cap? Please 
provide a list by provider type and the amount of debt eventually paid.
    Response. No Education Debt Reduction Program (EDRP) applicants 
have requested a waiver above the $60,000 cap; therefore, no waiver 
requests have required Secretary action/approval.
    B. How did VA expect to utilize EDRP for MHHI? Please provide a 
detailed explanation of why it was not utilized as envisioned.
    Response. In May 2012, VHA dedicated funding for 1,000 EDRP awards 
specifically for title 38 and hybrid title 38 permanent hires for the 
Mental Health Hiring Initiative (MHHI). All VISNs and facilities were 
notified of the availability of these funds to enhance their 
recruitment and retention efforts. Each facility is responsible for 
determining which positions are hard to recruit and include the EDRP 
incentive in the vacancy announcement accordingly. Over 4,000 clinical 
mental health professionals have been hired as part of the MHHI; 634 
vacancy announcements for MHHI positions included the offer of the EDRP 
incentive. Of the employees hired from those vacancy announcements, 109 
new employees have applied and been approved for EDRP in the amount of 
$5,243,001. As of April 1, 2014, there are 27 MHHI Psychology hires 
that have been offered EDRP but cannot apply until they have been 
licensed and converted to an excepted appointment. While VHA 
anticipated more EDRP usage for this important hiring initiative, there 
are a number of reasons it may not have been used to the extent 
expected. In particular, not all newly hired mental health 
professionals have qualifying education loan debt, and facilities may 
have determined that many of the positions hired were not hard to 
recruit. For example, pay for social workers in VHA is considered quite 
competitive with private sector, and nearly one-fourth of the clinical 
professionals hired as part of the MHHI were social workers. A survey 
of EDRP Coordinators is being conducted to identify barriers to using 
the program; that may prove beneficial to understanding the program's 
usage.
Homelessness
    Question 107. Since the beginning of the Administration's 
initiative to eliminate veterans homelessness by 2015, VA's programs to 
assist homeless veterans have received a 67 percent increase in funding 
since fiscal year 2010. In 2013, there were 57,849 homeless veterans on 
any given night in January; however, this only represents a 24 percent 
decrease in the number of homeless veterans since 2010.
    A. As we move into the end of rescue phase, how will the 
Administration define success?
    Response. VA's goal is a systematic end to Veteran homelessness, 
which means there are no Veterans sleeping on our streets. Should 
Veterans become homeless, or be at-risk of becoming homeless, VA will 
have the capacity to quickly connect them to the help they need to 
achieve housing stability. The ultimate goal is that all Veterans have 
permanent, sustainable housing with access to high-quality health care 
and other supportive services that improve their quality of life.
    B. What process will VA use to determine whether the rescue phase 
will need to be extended beyond 2015?
    Response. VA recognizes there will always be a rescue component to 
homelessness. An end to homelessness among Veterans does not mean that 
a Veteran will never experience a housing crisis again. Changing 
economic realities and the unpredictability of life may create 
situations where a Veteran could experience or fall back into 
homelessness, or be at-risk of homelessness. We can prevent the number 
of homeless Veterans by identifying those who are most at-risk and 
quickly connecting them to programs that provide temporary financial 
assistance and access to housing, health care, employment assistance 
and other supportive services that help them obtain and sustain 
housing. Through coordination with other Federal and local partners, 
each community will have coordinated entry systems that can rapidly 
connect the Veteran to housing, health care and other supportive 
services that not only ends the episode of homelessness but promotes 
full reintegration back into the community. VA must also continue to 
utilize identified data to monitor its progress in ending homelessness 
and, when necessary, make local adjustments based on need.
    C. What steps has the Administration taken to ensure that, as the 
troop drawdowns begin and continue over the next couple of years, these 
newly separated servicemembers do not fall into homelessness?
    Response. VA has put into place a robust integrated system of care 
that focuses on both homeless prevention and rapid re-housing. Through 
its partnerships at the Federal and local levels, VA is using data-
driven solutions that are evidenced-based and research-informed to 
quickly connect homeless Veterans to services and to prevent those at 
highest risk for becoming homeless to maintain housing. VA has 
coordinated with DOD to retool the Transition Assistance Program, which 
asks questions related to housing and vocational instability. This 
partnership promotes VA's capacity to more rapidly identify those most 
at risk for housing instability and connect them to preventative 
services, like the GI Bill, SSVF, benefits and other health care 
supports to mitigate risk and promote greater community readjustment 
and improved quality of life.

    Question 108. The fiscal year 2016 advanced appropriation request 
currently has a significant decrease in funding for current homeless 
programs. If VA does not meet its goal for fiscal year 2015, will there 
be an increase in funding for homeless programs for fiscal year 2016 
and will this be an increase above fiscal year 2015 funding?
    Response. VA must sustain the progress that has been made thus far 
by maintaining the level of resources that have been allocated to date. 
VA's FY 2015 budget request calls for critical investments toward 
ending homelessness among Veterans while strengthening our systems of 
care for all individuals and families who experience homelessness. 
Although the Point-in-Time (PIT) estimate is an important data point 
for measuring progress, it is not the sole or primary data source VA 
uses to draft its budget. In preparation for the FY 2015 Budget 
Submission, VA used its own program evaluation data, poverty data, 
census data, and other health care data sources. VA will use all of 
these data sources to evaluate the effectiveness of VA's homeless 
programs and the PIT data to help adjust investments to priority 
communities where progress needs to accelerate to achieve the goal of 
ending Veteran homelessness.
    Progress to date demonstrates that when new resources are invested 
in proven solutions and existing programs adopt best practices, it will 
be possible to end Veteran homelessness. To achieve the promise of 
ending Veteran homelessness, VA needs both investments in known, 
effective programs and a continued transformation of our existing 
systems to help Veterans swiftly achieve and maintain permanent 
housing. VA will need continued support from Congress for targeted 
programs like HUD-VASH, SSVF, Continuums of Care-funded Permanent 
Supportive Housing, Emergency Solutions Grants for Rapid Re-Housing and 
other programs that increase access to safe, affordable, permanent 
housing.

    Question 109. The fiscal year 2015 budget request includes an 
additional 10,000 Housing and Urban Development Veterans Affairs 
Supportive Housing (HUD-VASH) vouchers, which would bring the total 
number of vouchers to roughly 68,155.
    A. The fiscal year 2015 advance appropriation request submitted 
with the fiscal year 2014 budget request did not include an additional 
10,000 vouchers for fiscal year 2015. What metrics were used to 
determine the need for additional vouchers for fiscal year 2015?
    Response. The most recent data available from the 2013 PIT Count, 
suggests that there are still over 58,000 homeless Veterans on any 
given night. HUD-VASH vouchers are a critical component of our system 
and its ability to house these Veterans. With so many Veterans still 
homeless, it is clear that additional vouchers would be needed to end 
Veteran homelessness.
    B. What is the total number of vouchers needed to meet the 
Administration's goal of ending veterans homelessness by 2015?
    Response. At this point in time, it is not possible to definitively 
state the total number of vouchers needed to end Veteran homelessness. 
The total number of vouchers needed is dependent upon future data 
points, which HUD and VA can only estimate. The future data points 
include the future inflow of Veterans into homelessness, future 
placement rates accomplished with existing resources, and future 
placements rates accomplished with any new resources.

    Question 110. The fiscal year 2015 budget request includes a $200 
million increase for the Supportive Services for Veteran Families 
(SSVF) program. Since the beginning of SSVF, this program has seen a 
significant increase in funding each fiscal year. What type of analysis 
was conducted to determine the need for an additional $200 million in 
funding for fiscal year 2015?
    Response. In determining the need for additional funding for the 
SSVF Program, VA used a stock and flow analytic tool that included data 
from the national PIT Count of homeless persons, VA's program 
utilization data, and national poverty data to model future 
homelessness trends. Based on these results, VA was able to project the 
number of homeless and at-risk Veteran families that would need access 
to SSVF rapid re-housing and prevention services. This model showed a 
gap in services that could impact VA's ability to end Veteran 
homelessness by the end of 2015. As a result, VA requested an 
additional $200 million for SSVF. It is important to note that SSVF 
emphasizes short-term crisis interventions that focus on the Veterans 
needing time-limited support to help them stabilize in permanent 
housing. Once VA meets its goal of ending Veteran homelessness, SSVF 
will be able to shift resources in order to prevent episodes of Veteran 
homelessness.

    Question 111. Recently, VA changed the eligibility requirements for 
several programs, which has caused concern among the provider 
community.
    A. How will the changes in eligibility requirements impact veterans 
seeking services through VA's homeless programs?
    Response. No changes to VA homeless program eligibility 
requirements are in effect at this time. VA is currently reviewing the 
implications that changes in eligibility would have on Veterans and the 
homeless program provider community.
    B. How many veterans currently seeking services will no longer be 
eligible for services through VA's homeless programs?
    Response. No changes to VA homeless program eligibility 
requirements are in effect at this time. VA is currently reviewing the 
implications that changes in eligibility would have on Veterans and the 
homeless program provider community.
    C. What steps is VA taking to ensure that veterans who are 
currently receiving services but will no longer be eligible for these 
programs are transitioned to other community resources?
    Response. No changes to VA homeless program eligibility 
requirements are in effect at this time. VA is currently reviewing the 
implications that changes in eligibility would have on Veterans and the 
homeless program provider community.

    Question 112. In December 2011, VA signed 38 leases creating a 
public-private partnership to develop housing units for homeless 
veterans. Through the Building Utilization Review and Repurposing 
initiative, VA identified unused or underutilized property, which would 
create an additional 4,100 housing units. How many additional units of 
housing were available through this program in fiscal year 2013 and how 
many will be available by the end of fiscal year 2014?
    Response. VA currently has approximately 1,674 units of housing 
available through its EUL program. Of that number, 222 units are the 
direct result of EUL leases that are part of the Building Utilization 
Review and Repurposing (BURR) initiative. In FY 2013, 74 units were 
made available, and in FY 2014, an additional 148 units will be brought 
online, totaling 222 units directly related to BURR.
Rural Health
    Question 113. Project ARCH was established through Public Law 110-
387 to provide non-VA care to eligible highly rural enrolled veterans 
in five VISNs. This pilot program is set to expire at the end of 2014.
    A. Please provide the Committee with the total number of veterans 
who participated in this pilot and the total costs at each pilot site.
    Response.

 
------------------------------------------------------------------------
                                                          Cost (Invoiced
                     VISN                        Unique   as of February
                                                Veterans       2014)
------------------------------------------------------------------------
1............................................   1,051      $3,914,105
6............................................     336        $386,607
15...........................................     400        $345,233
18...........................................   1,745     $12,261,291
19...........................................   1,690     $19,544,700
                                              --------------------------
    Total....................................   5,222     $36,451,936
------------------------------------------------------------------------


    B. When does the Department plan to determine whether to extend 
and/or expand this program?
    Response. Section 104 of Public Law 113-146, the Veterans Access, 
Choice, and Accountability Act of 2014, extended Project ARCH for an 
additional two years, specifically until August 7, 2016. Section 104 
specifies that the pilot program be carried out in Veterans Integrated 
Service Networks (VISNs) 1, 6, 15, 18, and 19 (and such other locations 
as the Secretary considers appropriate), and amends the eligibility 
criteria under the pilot to include Veterans enrolled in VA's system of 
patient enrollment as of August 1, 2014. The legislation sets standards 
for timely scheduling and occurrence of medical appointments under the 
pilot, requires outreach about the pilot program, and requires VA to 
make use of existing contracts or, in lieu of extending current 
contracts, enter into new contracts to carry out the pilot program.
    In carrying out Project ARCH, VA conducted competitive acquisitions 
and awarded contracts with performance periods established commensurate 
with the law. All current contracts for Project ARCH were set to expire 
on September 30, 2014, but a six month extension to those contracts was 
executed. On September 26, 2014 the President signed H.R. 5404 ``The 
Department of Veterans Affairs Expiring Authorities Act of 2014.'' 
Section 409 provides contracting requirement relief, permitting 
sustainment of the existing contractors under Project ARCH. VA 
appreciates Congress's support of Project ARCH, and is actively working 
contracting activities to continue the pilot as required by Section 
104.
    Additionally, VA is working diligently to ensure Veteran access to 
care is not interrupted when Project ARCH concludes. VHA's Patient-
Centered Community Care (PC3) program will be available to rural 
Veterans to help bridge this gap.
    Under PC3, VHA has contracted with Health Net Federal Services and 
TriWest Healthcare Alliance to develop a network of providers to 
deliver covered care. This will provide eligible Veterans coordinated, 
timely access to specialty care through a comprehensive network of non-
VA providers who meet VA quality standards when VA cannot readily 
provide the specialty care in-house due to geographic inaccessibility, 
lack of available specialists, and other factors. PC3 contracts have 
been awarded in six regions.
    VA envisions the integration of PC3 will perpetuate increased 
access for Veterans in distance-challenged areas, provide quality 
health specialty care within all applicable VISN locations, and 
systematically reduce cost over time to ensure Veterans have accessible 
health care closer to their homes.

    Question 114. In fiscal year 2014, the Office of Rural Health 
funded approximately 114 Rural Veteran Transportation Programs. Please 
provide the Committee with a list of where these projects are currently 
located, how many veterans are participating, and what metrics are used 
to determine the success of these projects.
    Response. The 14 Rural Veteran Transportation Programs are being 
used in the following locations: Wilmington, Delaware; Beckley, West 
Virginia; Dayton, Ohio; Danville, Illinois (two projects); Battle 
Creek, Michigan; Indianapolis, Indiana (two projects); Iron Mountain, 
Michigan; Muskogee, Oklahoma; Harlingen, Texas; Spokane, Washington; 
Yuba City, California; Saginaw, Michigan.
    In fiscal year 2014, VHA data indicates that these transportation 
programs served 14,494 rural Veterans and saved those Veterans over 
379,000 travel miles. In addition, these projects have traveled 986,000 
miles transporting rural Veterans in nearly 34,500 separate trips and 
an overall Veteran satisfaction rating 4.8 (5.0 scale, with 5 
indicating completely satisfied).
Long-term Care
    Question 115. More than half of the veterans seeking healthcare 
through VA are over the age of 65. As the veterans population continues 
to age, the Department will be faced with challenges of chronic health 
conditions as well as increasing demand for long-term care services. 
The fiscal year 2015 budget request includes a decrease in funding for 
State Veterans Homes grants. How will the decrease in construction 
funding impact the availability of beds for veterans seeking long-term 
care through State Homes?
    Response. The decrease in the FY 2015 budget for funding State 
Veterans Home construction grant applications is projected to have a 
minimal impact. Although it is not possible at this time to predict 
with certainty how the FY 2015 budget will affect the number of new bed 
construction grant applications received, the two unfunded construction 
bed projects on the FY 2014 priority list were applications to replace 
existing beds. Therefore, these two projects would not affect bed 
availability. The current bed levels in the State Veterans Home program 
are such that occupancy rates average 85 percent. An occupancy rate 
averaging 85 percent indicates that a significant number of nursing 
home beds throughout the State Veterans Home program are consistently 
unfilled or unused.
    As VA examined budgetary needs for Long-Term Services and Supports 
(LTSS), the focus remained on anticipated shifts in LTSS utilization 
from institutional to non-institutional care. As enrollees have greater 
access to home and community-based services, it is expected there will 
be less demand for long-stay facility-based services. This not only 
applies to VA's own Community Living Centers and contracted nursing 
home programs but to State Veterans Nursing Home programs as well.
Transportation
    Question 116. VA has several transportation programs, including the 
Veterans Transportation Service (VTS), beneficiary travel, and numerous 
pilot programs that are supported through the Office of Rural Health.
    A. How does VA track all funding utilized to provide for the 
transportation of veterans to VA facilities?
    Response. Funding for transportation of Veterans comes from several 
sources depending on the program utilized. For VTS, VHA's CBO and 
Office of Rural Health partner to provide funds to the VA facilities. 
Funds are tracked by the respective programs through the dispersal 
process and also at the facilities by using specific budget object 
codes and fund control points. Funding for the Beneficiary Travel 
program is part of the individual facility budget and is also tracked 
at the local level by use of budget object codes and fund control 
points, and nationally via the VHA Support Service Center.
    B. What metrics does VA have in place to ensure that these programs 
and pilot programs are not duplicative?
    Response. VTS has a well-established collaborative partnership with 
VHA's Office of Rural Health. VTS and the Office of Rural Health meet 
on a monthly basis to discuss joint efforts and to consider all aspects 
of shared projects, including expansion/deployment of program 
functions, programs interaction and coordination of efforts. This 
process is defined in a Memorandum of Understanding between the 
programs that includes several features to guarantee non-duplication 
and enhanced collaboration at the facility level. These features 
include:

    <bullet> Joint review of all medical center and VISN submissions/
applications for participation and requests for funding to both 
programs;
    <bullet> An identified methodology for comprehensive planning, 
identifying locations for joint funding and the funding formulas;
    <bullet> Specific agreements regarding sustainment funding; and
    <bullet> Specific metric reporting elements and a metric reporting 
system.
Medical Support and Compliance
    Question 117. The Medical Support and Compliance appropriations 
account provides funding for the management, administration, and 
security of the more than 1,750 facilities throughout VHA. The VA 
medical centers and Other Field Activities subaccount is projected to 
decrease by $147 million or 3.7 percent between fiscal year 2014 and 
fiscal year 2015 and increase by $177 million or 4.7 percent between 
fiscal year 2015 and fiscal year 2016. The VA medical centers and Other 
Field Activities subaccount supported 36,977 FTE in 2013.
    A. What accounts for the $147 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $177 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. Total Medical Support and Compliance obligation estimates 
for FY 2014-2016 take into consideration anticipated changes in FTEE 
levels; travel and transportation of persons; rent, communications, and 
utilities; printing and reproduction; contractual services; supplies 
and materials, equipment; and, lands and structures based on past 
history and future requirements. Increases in FY 2015 and FY 2016 
represent for the most part inflationary increases. Once those 
obligation estimates are determined, VA maintains the same proportion 
as reflected in the latest actual available (2013 actual for purposes 
of the FY 2015 Congressional submission) (see Percent of Overall 
Medical Support and Compliance Staffing by Function Table). VHA is 
undertaking an analysis of staffing levels and overall resources 
necessary to support the delivery of medical care. This analysis 
includes both central and field activities and may result in a shift in 
funding allocations among activities. VA has already assumed a total 
reduction of 1,289 FTEEs in 2015 compared to 2014. Please refer to the 
table below.

  Percent of Overall Medical Support and Compliance Staffing by Function
------------------------------------------------------------------------
           Description              2013      2014      2015      2016
------------------------------------------------------------------------
VAMCs and Other Field Activities      65%       65%       64%       64%
VISN Headquarters...............       3%        5%        5%        5%
VHA Central Office..............      12%       10%       11%       10%
Consolidated Patient Account           5%        5%        5%        5%
 Centers........................
Office of Informatics and              4%        4%        4%        4%
 Analytics......................
Health Administration Center....       4%        4%        4%        4%
Employee Education Service             1%        1%        1%        1%
 Center.........................
VHA Service Center..............       4%        4%        4%        4%
Health Resource Center..........       1%        1%        1%        1%
Health Eligibility Center.......       1%        1%        1%        1%
Consolidated Mail Outpatient           0%        0%        0%        0%
 Pharmacies.....................
National Center for Patient            0%        0%        0%        0%
 Safety.........................
------------------------------------------------------------------------


    Question 118. The VHA Central Office subaccount is projected to 
increase by $12 million or 1.9 percent between fiscal year 2014 and 
fiscal year 2015 and increase by $13 million or 2 percent between 
fiscal year 2015 and fiscal year 2016. The VHA Central Office 
subaccount supported 1,680 FTE in 2013.
    A. What accounts for the $12 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $13 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.

    Question 119. The CPAC subaccount is projected to increase by $5.7 
million or 1.9 percent between fiscal year 2014 and fiscal year 2015 
and increase by $6.4 million or 2.1 percent between fiscal year 2015 
and fiscal year 2016. The CPAC subaccount supported 3,082 FTE in 2013.
    A. What accounts for the $5.7 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $6.4 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.

    Question 120. The Office of Informatics and Analytics (OIA) 
subaccount is projected to increase by $4.9 million or 1.9 percent 
between fiscal year 2014 and fiscal year 2015 and increase by $5.6 
million or 2.1 percent between fiscal year 2015 and fiscal year 2016. 
The OIA subaccount supported 634 FTE in 2013.
    A. What accounts for the $4.9 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $5.6 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.

    Question 121. The Health Administration Center (HAC) subaccount is 
projected to increase by $4.2 million or 1.9 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $4.7 million or 2.1 
percent between fiscal year 2015 and fiscal year 2016. The HAC 
subaccount supported 1,055 FTE in 2013.
    A. What accounts for the $4.2 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $4.7 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.

    Question 122. The Employee Education Service Center (EES) 
subaccount is projected to increase by $1.3 million or 1.9 percent 
between fiscal year 2014 and fiscal year 2015 and increase by $1.5 
million or 2.1 percent between fiscal year 2015 and fiscal year 2016. 
The EES subaccount supported 370 FTE in 2013.
    A. What accounts for the $1.3 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $1.5 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.

    Question 123. The VHA Service Center (VSC) subaccount is projected 
to increase by $4.7 million or 1.9 percent between fiscal year 2014 and 
fiscal year 2015 and increase by $5.3 million or 2.1 percent between 
fiscal year 2015 and fiscal year 2016. The VSC subaccount supported 
2,489 FTE in 2013.
    A. What accounts for the $4.7 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $5.3 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.

    Question 124. The Health Resource Center (HRC) subaccount is 
projected to increase by $0.9 million or 1.8 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $1.1 million or 2.1 
percent between fiscal year 2015 and fiscal year 2016. The HRC 
subaccount supported 729 FTE in 2013.
    A. What accounts for the $0.9 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $1.1 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.

    Question 125. The Health Eligibility Center (HEC) subaccount is 
projected to increase by $0.9 million or 1.9 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $1 million or 2.1 
percent between fiscal year 2015 and fiscal year 2016. The HEC 
subaccount supported 265 FTE in 2013.
    A. What accounts for the $0.9 million increase between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $1 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 117 also applies to questions 
118-125.
Medical Facilities
    Question 126. The Medical Facilities account provides for the 
operations and maintenance of VHA facilities. The Engineering and 
Environmental Management Services subaccount is projected to decrease 
by $23.3 million or 4.3 percent between fiscal year 2014 and fiscal 
year 2015 and increase by $19 million or 3.7 percent between fiscal 
year 2015 and fiscal year 2016. This subaccount supported 3,182 FTE in 
2013.
    A. What accounts for the $23.3 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $19 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016
    Response. Total Medical Facilities obligation estimates for FY 
2014-FY 2016 take into consideration anticipated changes in FTEE 
levels; travel and transportation of persons; rent, communications, and 
utilities; printing and reproduction; contractual services; supplies 
and materials, equipment; and lands and structures based on past 
history and future requirements. Once those obligation estimates are 
determined, VA maintains the same proportion as reflected in the latest 
actual available (2013 actual for purposes of the FY 2015 Congressional 
Submission) (see Percent of Overall Medical Facilities (Excluding Non-
Recurring Maintenance Table). FY 2015 Estimate for Non-Recurring 
Maintenance (NRM) reflects the FY 2015 Advance Appropriation level. FY 
2016 NRM estimate of $460.6 million continues the same program funding 
level as projected in FY 2015. VA has already assumed a total reduction 
of 823 FTEEs in 2014 compared to 2013. Overall FTEE level estimates for 
Medical Facilities are 22,818 in 2014-2016. FTEE levels are subject to 
change. VHA is undertaking an analysis of staffing levels necessary to 
support the delivery of medical care (estimated delivery date 
September 2014).

     Percent of Overall Medical Facilities P(Excluding Non-Recurring
                              Maintenance)
                              (Obligations)
------------------------------------------------------------------------
           Description              2013      2014      2015      2016
------------------------------------------------------------------------
Engineering & Environmental           14%       13%       12%       12%
 Management Services............
Plant Operations and Leases.....      31%       37%       42%       42%
Transportation Services.........       4%        3%        3%        3%
Grounds Maintenance & Fire             2%        2%        2%        2%
 Protection.....................
Recurring Maintenance & Repair..      14%       13%       12%       12%
Operating Equipment Maintenance       12%       11%       10%       10%
 & Repair.......................
Environmental Management Service      18%       16%       15%       15%
Other Facilities Operation             1%        1%        1%        1%
 Support........................
Textile Care Processing and            5%        4%        4%        4%
 Management.....................
------------------------------------------------------------------------


    Question 127. The Plant Operations and Leases subaccount is 
projected to increase by $233.3 million or 15 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $82.5 million or 4.6 
percent between fiscal year 2015 and fiscal year 2016. This subaccount 
supported 1,369 FTE in 2013.
    A. What accounts for the $233.3 million increase between fiscal 
year 2014 and fiscal year 2015?
    B. What accounts for the $82.5 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.

    Question 128. The Transportation Services subaccount is projected 
to decrease by $5.9 million or 4.3 percent between fiscal year 2014 and 
fiscal year 2015 and increase by $4.8 million or 3.7 percent between 
fiscal year 2015 and fiscal year 2016. This subaccount supported 1,140 
FTE in 2013.
    A. What accounts for the $5.9 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $4.8 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.

    Question 129. The Transportation Services subaccount is projected 
to decrease by $5.9 million or 4.3 percent between fiscal year 2014 and 
fiscal year 2015 and increase by $4.8 million or 3.7 percent between 
fiscal year 2015 and fiscal year 2016. This subaccount supported 1,140 
FTE in 2013.
    A. What accounts for the $5.9 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $4.8 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.

    Question 130. The Ground Maintenance and Fire Protection subaccount 
is projected to decrease by $3.6 million or 4.3 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $2.9 million or 3.7 
percent between fiscal year 2015 and fiscal year 2016. This subaccount 
supported 732 FTE in 2013.
    A. What accounts for the $3.6 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $2.9 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 130 also applies to questions 
127-135.

    Question 131. The Recurring Maintenance and Repair subaccount is 
projected to decrease by $22.5 million or 4.3 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $18.4 million or 3.7 
percent between fiscal year 2015 and fiscal year 2016. This subaccount 
supported 3,309 FTE in 2013.
    A. What accounts for the $22.5 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $18.4 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.

    Question 132. The Non-Recurring Maintenance subaccount is projected 
to decrease by $334 million or 42 percent between fiscal year 2014 and 
fiscal year 2015 and remain at $460.6 million for fiscal year 2016. 
This subaccount supported 121 FTE in 2013.
    A. What accounts for the $334 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.

    Question 133. The Operating Equipment Maintenance and Repair 
subaccount is projected to decrease by $18.9 million or 4.3 percent 
between fiscal year 2014 and fiscal year 2015 and increase by $15.4 
million or 3.7 percent between fiscal year 2015 and fiscal year 2016. 
This subaccount supported 2,012 FTE in 2013.
    A. What accounts for the $18.9 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $15.4 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.

    Question 134. The Environmental Management Service subaccount is 
projected to decrease by $28.7 million or 4.3 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $23.5 million or 3.7 
percent between fiscal year 2015 and fiscal year 2016. This subaccount 
supported 10,512 FTE in 2013.
    A. What accounts for the $28.7 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $23.5 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.

    Question 135. The Textile Care Processing and Management subaccount 
is projected to decrease by $7.6 million or 4.3 percent between fiscal 
year 2014 and fiscal year 2015 and increase by $6.2 million or 3.7 
percent between fiscal year 2015 and fiscal year 2016. This subaccount 
supported 1,264 FTE in 2013.
    A. What accounts for the $7.6 million decrease between fiscal year 
2014 and fiscal year 2015?
    B. What accounts for the $6.2 million increase between fiscal year 
2015 and fiscal year 2016?
    C. What is the estimated FTE for 2014, 2015, and 2016?
    Response. The response to question 126 also applies to questions 
127-135.
                    national cemetery administration
    Question 136. The fiscal year 2014 current estimate for Grants for 
Construction of Veterans' Cemeteries is $62.1 million; however, the 
budget estimate for fiscal year 2015 was only $44.6 million, a 
difference of $17.4 million. The fiscal year 2015 request for the grant 
program is $45 million.
    A. What led to the unobligated balance of $16.1 million that was 
left over from fiscal year 2013?
    Response. The Department of Veterans Affairs' (VA) ability to 
obligate grant funds depends in large part on a state's readiness to 
proceed. Two projects experienced issues late in the Federal fiscal 
year that could not be resolved by the proposed suspense date. One 
project could not proceed as anticipated due to Environmental 
Assessment issues, and the other could not proceed due to timing of 
conveying the underlying land to the state. By the time the two 
projects were deferred by the states, it was too late to re-allocate 
the funds to other projects. VA has committed the $16.1 million to 
other projects and plans to make awards this fiscal year.
    B. Does VA expect a similar carryover into fiscal year 2015? If so, 
please provide the amount and reasoning for the assumption.
    Response. No, Department of Veterans Affairs does not anticipate a 
similar carryover into fiscal year 2015. However, because final grant 
awards are based on a state's readiness, a small amount of carryover 
each year is not unusual.
    C. How many states have pending requests for state veteran 
cemeteries grants? Please list the grant application by state, 
location, and priority status.
    Response. The fiscal year 2014 Priority List (attached) has a total 
of 87 pending grant requests for state and tribal cemeteries. These 
grant requests are identified by priority groups 1-4:

    Priority Group 1--Projects needed to avoid disruption in burial 
service that would otherwise occur at existing veterans cemeteries 
within 4 years of the date of the preapplication. Such projects would 
include expansion projects, as well as improvement projects (such as 
construction of additional or replacement facilities) when such 
improvements are required to continue interment operations.
    Priority Group 2--Projects for the establishment of new Veterans 
cemeteries.
    Priority Group 3--Expansion projects at existing Veterans 
cemeteries when a disruption in burial service due to the exhaustion of 
existing gravesites is not expected to occur within 4 years of the date 
of the preapplication.
    Priority Group 4--Improvement projects for cemetery landscaping or 
infrastructure, such as building expansion and upgrades to roads and 
irrigation systems, that are not directly related to the development of 
new gravesites. Operation and Maintenance Projects that address 
National Cemetery Administration's national shrine standards of 
appearance are included in this group.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Question 137. The fiscal year 2015 budget requests states: 
``Internments in 2013 were 124,785 and are expected to peak at about 
130,000 in 2017. Internments will begin to decline gradually and 
expected to be about 126,000 in 2020.''
    A. Please provide the Committee with detailed information on the 
number of veterans whose families chose an inurnment (please breakdown 
between in-ground inurnment and those urns placed in a columbarium) as 
compared to the number who elected for an in-ground casket burial over 
the last five years.
    Response.

 
----------------------------------------------------------------------------------------------------------------
                                                                  2009      2010      2011      2012      2013
----------------------------------------------------------------------------------------------------------------
Full Casket...................................................    57,634    59,503    61,036    59,708    61,656
In-Ground Cremains............................................    30,023    31,547    33,155    33,327    33,588
Columbaria....................................................    18,704    20,757    23,221    25,121    29,541
                                                               -------------------------------------------------
    Total Interments..........................................   106,361   111,807   117,412   118,158   124,785
----------------------------------------------------------------------------------------------------------------

    B. What are the projections for inurnments compared to in-ground 
casket burial through 2020?
    Response.

 
----------------------------------------------------------------------------------------------------------------
                                              2014      2015      2016      2017      2018      2019      2020
----------------------------------------------------------------------------------------------------------------
Full Casket...............................    61,800    61,900    61,700    61,900    61,500    60,100    59,700
In-Ground Cremains........................    32,500    33,600    33,200    32,700    31,800    30,900    29,800
Columbaria................................    31,400    32,600    34,300    35,400    35,500    36,800    36,600
                                           ---------------------------------------------------------------------
    Total Interments......................   125,700   128,100   129,200   130,100   128,800   127,800   126,100
----------------------------------------------------------------------------------------------------------------


    C. Will an increase in the numbers of inurnments versus in-ground 
casket burial affect VA's long-term projections on the need for 
additional land acquisition and construction? If so, please provide a 
detailed explanation.
    Response. National Cemetery Administration (NCA) projects that the 
number of inurnments versus in-ground casket burials will continue to 
increase for the foreseeable future; however, it is unlikely that this 
trend will affect the need for additional land acquisition and 
construction. In fiscal year (FY) 2013, NCA conducted 60,742 in-ground 
burials in national cemeteries, which comprised 49.4 percent of total 
interments. NCA projects to conduct approximately 50,200 in-ground 
casket burials in national cemeteries, comprising 45.5 percent of total 
interments in FY 2050. These data illustrate both the continuing need 
for burial space at Department of Veterans Affairs (VA) national 
cemeteries and the demand for in-ground casket burials as an option for 
Veterans who choose interment in a national cemetery. Through the use 
and continued development of land-saving features, such as pre-placed 
crypts, columbaria, and memorial walls, NCA will maximize land use at 
national cemeteries and slow the rate at which new land may need to be 
acquired. However, the demand for new land will continue for the 
foreseeable future to ensure that VA is able to meet the burial needs 
of Veterans and their eligible family members.

    Question 138. Arlington National Cemetery (ANC) has faced a number 
of management, infrastructure, and information technology challenges in 
the last five years. The National Cemetery Administration (NCA) was 
called upon to assist the Department of the Army and ANC to fix the 
numerous issues that were discovered at the cemetery. Many of these 
challenges have been resolved through the development of new 
technology, including geospatial tools and other grave location 
applications. Has NCA incorporated any of the new technology into its 
operations? If so, please detail the technology and how it is being 
used.
    Response. National Cemetery Administration (NCA) is pursuing 
several technologies to improve cemetery operations, ensure the 
accountability of remains, and enhance the experience of visitors at 
Department of Veterans Affairs national cemeteries. NCA works 
continuously to upgrade existing information systems, such as the 
Burial Operations Support System and the Automated Monument Application 
System. NCA has implemented automation enhancements to these systems 
utilized for critical processes, including scheduling of committal 
services, establishing records of interment, and ordering and tracking 
delivery of headstones and markers.
    NCA is also conducting pilot studies to integrate geospatial 
information technology to enhance documentation associated with the 
interment process and the marking of graves. At Indiantown Gap National 
Cemetery, PA, employees are testing GPS technology to attach geographic 
coordinates to digital records of casket and urn tags, and temporary 
and permanent gravesite markers. In a separate project, NCA is 
utilizing architect engineers to survey existing gravesites at six 
cemeteries to compile GPS information along with digital photographs of 
each headstone and marker. NCA is assessing the potential for eventual 
nationwide adoption of such processes to improve the accuracy of 
gravesite layout maps and records of interment; to support caretakers 
in the field with information immediately available via mobile devices; 
and to enhance visitors' ability to locate gravesites and obtain other 
information concerning the history and features of national cemeteries. 
NCA plans to adopt geospatial information technology with all 
interments that are conducted at five new national cemeteries that are 
planned to open nationwide beginning in 2015.

    Question 139. When burial requests are initiated with the National 
Cemetery Scheduling Office, NCA personnel ask a number of questions 
regarding burial arrangements, including whether a veteran is 
ineligible pursuant to title 38, United States Code (U.S.C.), section 
2411. Please provide a list of all the questions that are asked by NCA 
to funeral homes, family members, and other individuals who have 
contacted NCA for burial.
    Response. The National Cemetery Administration employee asks a 
series of questions during the initial interview process to establish a 
record of interment and eligibility for burial. The following points 
guide the gathering of information from families or their 
representatives who call to schedule a burial in a Department of 
Veterans Affairs national cemetery.

    1. National cemetery selected.
    2. Determine if this is a first interment using the burial 
eligibility of a Veteran or a subsequent interment (Veteran or 
dependent is already interred).
    3. If subsequent interment, name of the decedent who is already 
interred.
    4. Decedent's full name, gender, SSN, date of death, date of birth, 
and relationship to Veteran.
    5. Contact information (Funeral Home, director's name, phone 
number, and email address).
    6. Next of Kin information (name, relationship to the deceased, 
SSN, phone number, and address).
    7. Determine if the decedent resided within 75 miles of the 
requested cemetery.
    8. Zip code and County of decedent at time of death.
    9. Type of burial (casket or cremation), casket size, liner size, 
urn size.
    10. Marital status of Veteran.
    11. If the spouse is a Veteran: Determine if a set-aside gravesite 
is requested.
    12. Ask if there are adult disabled dependent children who may be 
eligible for future interment.
    13. Determine military documentation to establish eligibility for 
burial.
    14. Ask whether the decedent had ever committed a capital crime.
    15. Ask whether the decedent had been convicted of a sexual offense 
for which a minimum of life imprisonment was imposed.
    16. Determine if the family has requested a service with military 
honors.
    17. Ask if the family desires an emblem of belief on the headstone 
or marker; and if so, what type.
                vocational rehabilitation and employment
    Question 140. The fiscal year 2015 budget request proposes a 
legislative change to title 38, U.S.C., section 3697 to remove the 
annual funding limitation available to provide contract vocational and 
educational counseling to individuals qualifying under section 3697(A).
    A. Please provide the Committee with the number of veterans who 
have participated in this counseling.
    Response. The current VetSuccess on Campus contract for Chapter 36 
vocational and educational counseling support runs from July 2013 to 
July 2014.

    <bullet> Utilizing FY 2013 funds to date, there were 7,418 Veterans 
who participated in contract Chapter 36 vocational and educational 
counseling, with an additional 2,218 referrals for this counseling 
currently in progress.
    Utilizing FY 2014 funds to date, there were 339 Veterans who 
participated in contract Chapter 36 vocational and educational 
counseling, with an additional 262 referrals for this counseling 
currently in progress.

    B. How many contractors have been used to provide the counseling 
under section 3697?
    Response. Utilizing FY 2013 funds to date, a total of 22 
contractors have been used to provide the counseling under section 
3697. Utilizing FY 2014 funds to date, a total of 10 contractors have 
been used to provide the counseling under section 3697.
    C. How much funding was used in fiscal years 2013 and 2014 for the 
counseling, and how much remained under the statutory funding cap each 
year?
    Response. Section 3697 of title 38 U.S.C authorizes VA to use $6 
million from the RB account to pay for educational or vocational 
counseling services obtained by VA by contract for Veterans applying 
for or receiving Education or VR&E benefits. In FY 2013, over $5.2 
million was obligated from the RB account for contract vocational and 
educational counseling, and approximately $0.8 million remained under 
the statutory funding cap. Of the $5.2 million obligated, over $2.6 
million has been paid and we expect to pay invoices from the remaining 
$2.6 million. In FY 2014, obligations to date total over $1.4 million, 
leaving a current balance of approximately $4.6 million available to 
provide contract vocational and educational counseling to individuals 
qualifying under section 3697(A).

    Question 141. It is the Committee's understanding that the 
Vocational Rehabilitation and Employment (VR&E) C-WINRS information 
technology system has faced a number of problems that have lowered its 
effectiveness.
    A. What steps is VR&E taking to mitigate these issues?
    Response. VR&E Service has identified both business process changes 
and IT system enhancements to improve data capture and reporting 
capability within CWINRS. These changes include streamlining the case 
status change movements and expanding select data points.
    B. What are the long-term plans to replace or upgrade the system?
    Response. VR&E Service has developed the business requirements for 
case-management technology to replace CWINRS, (a case-management 
software application named after the stations that collaborated to 
develop the original version:

    Waco, Indianapolis, Newark, Roanoke, and Seattle). The business 
requirements are currently being validated. The desired future system 
will better reflect the business and data reporting needs of the VR&E 
Program.

    Question 142. The VetSuccess on Campus (VSOC) program has expanded 
to at least 94 campuses over the last few years. The Committee has 
heard from academic administrators, at participating schools, that VSOC 
counselors do not have set performance standards and they often provide 
services that are outside the scope of services the program was 
originally designed for.
    A. Please provide a list of schools that currently have VSOC 
counselors on campus, and what schools VA currently plans to expand 
VSOC to during fiscal year 2015.
    Response. The VetSuccess on Campus (VSOC) program is currently at 
94 campuses nationwide, with 79 VSOC vocational rehabilitation 
counselors. VA is committed to the VSOC program, and will continue to 
evaluate schools in 2015 for potential future participation in 2016. 
Attached is the list of VSOC sites in alphabetical order and state.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    B. What performance measures are currently used to determine the 
effectiveness of VSOC counselors?
    Response. To address the specific duties of a VSOC counselor on 
campus, separate performance standards were developed and implemented 
for FY 2014.
    VBA's Office of Field Operations notified VBA ROs of the national 
performance standards for VSOC counselors. These performance standards 
highlight academic outreach activities, including those for Veterans on 
academic probation. Other performance factors include timeliness of 
Chapter 36 vocational and educational counseling, entitlement 
determinations, customer service, and accuracy. The performance 
standards include the following elements:

          Element 1: Production/outcomes identified as new student 
        contact rate, outreach activities, and academic probation.
                <bullet> New student contact rate: 80 percent of new 
                Veterans on campus contacted during the first semester 
                of attendance
                <bullet> Outreach activities and events: 12 VSOC 
                related activities per year
                <bullet> Academic probation outreach activities: 
                Outreach to 95 percent of Veterans and beneficiaries on 
                academic probation
          Element 2: Timeliness of claims processing
                <bullet> Chapter 36 timeliness: average of 30 days
                <bullet> Days to entitlement decisions: average of 40 
                days
          Element 3: Quality/accuracy of work
                <bullet> VSOC vocational rehabilitation counselor 
                accuracy (85 percent)
          Element 4: Customer service
                <bullet> VSOC counselors will maintain professional, 
                positive, and helpful relationships with internal and 
                external customers by exercising tact, diplomacy, and 
                cooperation. Performance demonstrates the ability to 
                adjust to change or work pressures, to handle 
                differences of opinion in a professional manner, and to 
                follow instructions conscientiously. As a division 
                member, the VSOC counselor will contribute to the 
                success of the VetSuccess on Campus mission by 
                supporting school certifying and campus officials, as 
                well as Veterans and dependents from neighboring 
                schools.
          Element 5: Program and data integrity
                <bullet> The VSOC counselor will complete all 
                counseling actions and documentation (both written and 
                computer entry) in compliance with VBA's program 
                directives.
          Element 6: Cooperation and organizational support
                <bullet> The VSOC counselor understands the agency 
                mission and supports efforts to improve the work unit's 
                performance through positive interaction with others.
                <bullet> Displays professionalism and treats school 
                officials, Veterans, and employers with courtesy and 
                respect.
                <bullet> Cooperates with supervisors, school officials, 
                volunteers, and work-study students to accomplish work 
                objectives and enhance efficiency.
                <bullet> Recognizes the importance of teamwork and is 
                sensitive to the contributions of others.
                <bullet> Communicates, shares ideas, and demonstrates 
                respect for differing viewpoints.
                <bullet> Participates in cross-functional teams to 
                address shared challenges, facilitate better 
                communication, and achieve agency goals.
    C. Please describe in detail the supportive services a VSOC 
counselor is allowed to provide veterans and what, if any, services are 
directly prohibited.
    Response. Vocational Rehabilitation Counselors (VRC) are uniquely 
qualified, by virtue of their ability to provide Veterans with 
information about and seamless access to VA benefits and services, to 
support those Veterans' successful integration into college and 
university campuses and support their individualized educational goals, 
so they may persist, graduate, improve their life circumstances, and 
successfully live and thrive in the career field and community of their 
choice.
    VSOC supportive services are specific in order to address the need 
of the Veteran, but encompass the following main categories:

    <bullet> Adjustment counseling to resolve problems interfering with 
completion of education programs and entrance into employment
    <bullet> Vocational testing
    <bullet> Career and academic counseling (Chapter 36)
    <bullet> Expedited VR&E services
    <bullet> Support, assistance, and services to all Veterans eligible 
for VA benefits.

    Question 143. A veteran qualifies for VR&E eligibility if they a 
have a VA service-connected disability rated at least 20 percent with 
an employment handicap, or rated 10 percent with a serious employment 
handicap.
    A. Please provide the numbers and percentages of all VR&E 
participants for each of the five tracks by disability ratings.
    Response. This data is not readily available. VBA is currently 
working to pull the data. Once the data is available, we will provide 
it to the Committee.
    B. Please provide a list of the most prevalent disabilities of 
those veterans qualifying for VR&E services who are rated 10 percent.
    Response. VR&E Service has no reporting capability that captures 
disability, gender, age, or similar demographic information for VR&E 
program participants based on their employment track or independent 
living status. VBA is working to obtain this information. We will pass 
this information to the Committee when it becomes available.
    C. Once a veteran has received an entitlement decision and the 
veteran and VR&E counselor are developing a rehabilitation plan, is the 
type of services considered based on what limitations the veteran faces 
directly associated with their disability or on what type of employment 
the veteran wants to pursue irrespective of the disability?
    Response. The mission of VR&E is to provide services to eligible 
transitioning Servicemembers and Veterans with service-connected 
disabilities and an employment handicap to help them prepare for, find, 
and maintain suitable employment. Each VR&E program applicant 
participates in a comprehensive evaluation with a professional 
Vocational Rehabilitation Counselor (VRC) to determine entitlement to 
services. The comprehensive evaluation includes an assessment of the 
Veteran's educational and employment history and current interests, 
aptitudes, and abilities, as well as the current and projected impact 
of the Veteran's service-connected disabilities and other medical 
conditions on employability, to assist in identifying the Veteran's 
rehabilitation needs.
    Once the evaluation is complete and the Veteran's rehabilitation 
needs are identified, the VRC will work with the Veteran to develop an 
individualized rehabilitation plan. The plan takes into account the 
Veteran's interests, aptitudes, and abilities, as well as disability/
medical considerations and labor-market factors likely to impact 
successful employment. As the goal of VR&E program is to assist 
Veterans to overcome the effects of service-connected condition(s), the 
selected employment goal must be suitable. Specifically, it must not 
aggravate the Veteran's disabilities, it must be stable, and it must be 
consistent with his or her pattern of abilities, aptitudes, and 
interests. While the VRC takes into account what the Veteran wants in 
terms of vocational pursuits, VR&E focuses on the needs of the 
individual and the disability impairments that may impede his or her 
success in a particular field.
    D. How does whether or not a veteran plans to seek employment after 
completing a course of rehabilitation factor into a counselor's 
decision to approve a rehabilitation plan? If a counselor believes a 
veteran does not intend to pursue employment, is there a prohibition 
against approving a rehabilitation plan?
    Response. The mission of VR&E is to provide services to eligible 
transitioning Servicemembers and Veterans with service-connected 
disabilities and an employment handicap to help them prepare for, find, 
and maintain suitable employment. The majority of rehabilitation plans 
have an end goal of employment. A rehabilitation plan is normally 
developed with the stated goal of employment, and the plan may or may 
not include training. If a vocational goal/employment is not feasible 
at that point for the Veteran, then a plan is developed to focus on 
activities of daily living with desired outcome of achieving maximum 
independence for the Veteran.
    Independent living plans may include access to community-based 
support services, use of assistive technologies and accommodations, and 
independent living skills training. When a Veteran successfully 
completes a plan of independent living services, the Veteran and the 
VRC will work together to determine if the Veteran has achieved enough 
stability to consider pursuing employment.

    Question 144. The fiscal year 2015 budget request describes the 
development of a new VR&E Staffing Model that is scheduled for 
completion in 2014.
    A. Please describe the new model and how it will assist VA in 
making staffing decisions.
    Response. The new RO staffing model for the VR&E program is based 
on factors that include actual workload, type of work done by various 
positions (VRCs, Employment Coordinators, Program Support Specialists, 
etc.), and geographic locations of ROs, out-based offices, and 
Veterans. The model will provide a more systematic way to align 
staffing needs, personnel allocations, and FTE requests as part of the 
budget cycle.
    Expansion of the staffing model includes beta-testing and 
familiarization, adding new requirements, training, and a user guide.
    B. What are the key milestones and dates for completion of this 
model?
    Response. Requirements have been developed, and a contractor is 
currently working on user-acceptance testing. The model is planned to 
be ready for deployment in FY 2015.

    Question 145. Please provide the Committee data on VR&E activities 
by regional office, including but not limited to: 1) number of 
counselors at each office, 2) number required at each office, 3) 
rehabilitation rate, 4) timeliness, 5) cases, and 6) veterans served.
    Response. The number of VRCs required is based upon the Office of 
Field Operations (OFO) RAM, which is a staffing model based on workload 
demands and performance. In addition to VRC FTE allocations, OFO also 
allocates VR&E contract counseling funds to augment counseling services 
provided by VA employees. Station allocations are made based on 
workload demands and may be adjusted throughout the fiscal year to 
ensure coverage during workload surges and unexpected workload influx, 
or to assist in transitioning while vacant positions are backfilled.

 
----------------------------------------------------------------------------------------------------------------
                                                                          Days to
                                          Number of                     notification                  Number of
                                         Vocational    Rehabilitation        of        Chapter 31     Veterans
                                       Rehabilitation       rate        entitlement   participants  served  (all
                                         Counselors                    determination                  Chapters)
                                                                        (timeliness)
----------------------------------------------------------------------------------------------------------------
USA FY 2013..........................      1,042             68.4%           42.3       135,815       140,452
Eastern Area (16 ROs)................        202               --            --          29,889        30,592
Baltimore............................         14             68.9%           32.9         2,073         2,156
Boston...............................          9             49.3%           83.5         1,415         1,426
Buffalo..............................         15             62.7%           38.3         2,125         2,595
Cleveland............................         28             71.1%           47.1         4,779         4,795
Detroit..............................         31             63.6%           51.6         4,354         4,363
Hartford.............................         11             83.3%           35.9         1,643         1,646
Indianapolis.........................         21             76.6%           45.8         3,401         3,403
Manchester...........................          5             24.0%           52.2           716           719
New York.............................         16             88.8%           46.4         2,078         2,118
Newark...............................         11             81.9%           43.1         1,823         1,834
Philadelphia.........................         13             71.1%           39.8         2,044         2,062
Pittsburgh...........................          9             46.7%           40.4           945           963
Providence...........................          7             73.7%           31.5           641           642
Togus................................          8             83.7%           35.8           956           970
White River Junction.................          2              5.0%           46.3           597           599
Wilmington...........................          2             85.1%           43.6           299           301
Southern Area (12 ROs)...............        327               --            --          40,077        41,195
Atlanta..............................         46             83.9%           41.2         5,303         5,809
Columbia.............................         30             74.7%           30.6         3,127         3,131
Huntington...........................          9             92.2%           40.0           756           759
Jackson..............................          7             77.3%           41.3         1,118         1,128
Louisville...........................         25             77.9%           39.5         2,615         2,616
Montgomery...........................         28             85.2%           35.9         3,883         3,891
Nashville............................         25             73.6%           56.9         2,760         2,814
Roanoke..............................         30             70.3%           39.7         3,295         3,572
San Juan.............................          6             88.9%           39.3           750           761
St. Petersburg.......................         64             84.4%           37.3         9,530         9,578
Washington...........................         24             84.4%           37.0         2,868         2,870
Winston-Salem........................         33             78.4%           35.5         4,072         4,266
Central Area (14 ROs)................        275               --            --          33,334        34,509
Chicago..............................         14             65.3%           38.4         2,258         2,268
Des Moines...........................          8             73.1%           38.5         1,501         1,501
Fargo................................          6             70.6%           29.1           497           497
Houston..............................         60             57.0%           39.7         7,463         7,506
Lincoln..............................          8             82.6%           38.6           774           774
Little Rock..........................         13             83.2%           24.3         1,592         1,614
Milwaukee............................         13             89.0%           28.2         1,598         1,610
Muskogee.............................         22             32.1%           46.3         2,442         2,826
New Orleans..........................         13             73.1%           34.6         1,631         1,635
Sioux Falls..........................          7             69.0%           30.4           867           870
St. Louis............................         18             89.9%           37.9         2,203         2,209
St. Paul.............................         11             80.3%           38.0         1,519         1,533
Waco.................................         71             28.5%           47.6         7,870         8,540
Wichita..............................         11             84.3%           21.3         1,119         1,126
Western Area (16 ROs)................        238               --            --          32,515        34,156
Albuquerque..........................          8             79.3%           47.1         1,312         1,337
Anchorage............................          8             93.8%           54.6           791           792
Boise/Cheyenne.......................         --               --            --              --            --
Denver...............................         25             81.5%           34.2         4,597         4,609
Fort Harrison........................          6             91.3%           39.9           900           902
Honolulu.............................         13             81.9%           66.3         1,258         1,266
Los Angeles..........................         24             72.2%           40.6         4,284         4,355
Manila...............................          2             75.0%           33.8           176           176
Oakland..............................         24             80.4%           43.7         3,660         3,711
Phoenix..............................         21             83.5%           43.3         2,741         2,749
Portland.............................         21             66.3%           57.7         2,560         2,573
Reno.................................          5             90.8%           42.2         1,005         1,034
Salt Lake City.......................         19             83.6%           41.6         1,883         1,909
San Diego............................         30             81.9%           38.6         3,296         4,661
Seattle..............................         32             71.9%           61.9         4,052         4,082
----------------------------------------------------------------------------------------------------------------

               filipino veterans equity compensation fund
    Question 146. Information in the fiscal year 2015 budget request 
discusses two ongoing lawsuits that could affect the Filipino Veterans 
Equity Compensation Fund's unobligated balance.
    A. Please describe each lawsuit, and how they could potentially 
affect the unobligated balance.
    Response. Both lawsuits challenge Department of Veterans Affairs' 
(VA) administration of the Filipino Veterans Equity Compensation (FVEC) 
fund and, in particular, the ways in which VA verifies whether a 
claimant had the service required by law.
    Recinto v. U.S. Department of Veterans Affairs was brought by 
individual Filipino Veterans alleging their claims were wrongfully 
denied because of reliance on faulty records and by individual widows 
of Filipino Veterans challenging the statute on constitutional grounds. 
The number of individual claims directly involved in this case was 
small. However, any ruling that the Government's process or the statute 
itself is legally deficient could have conceivably expanded the scope 
of the program in ways that would have been difficult to predict.
    De Fernandez v. U.S. Department of Veterans Affairs is a putative 
class action brought by three individuals and an organization seeking 
declaratory and injunctive relief. The suit principally alleges that VA 
relies on faulty records and unjustified ``loyalty challenges'' to 
wrongfully deny legitimate claims. If a class were certified and 
plaintiffs were successful, plaintiffs would likely ask the court to 
force VA to re-adjudicate all denied FVEC claims under new procedures 
crafted by the court.
    Veterans Benefits Administration projects that the end of fiscal 
year 2015 unobligated balance for the FVEC Fund will be $55.4 million.
    B. Does VA have a timeline for when the lawsuits will be resolved? 
If so, please provide it to the Committee.
    Response. Recinto has been fully resolved. The case was dismissed 
by the district court, and the dismissal was affirmed by the United 
States Court of Appeals for the Ninth Circuit. Recinto v. U.S. 
Department of Veterans Affairs, 706 F.3d 1171 (9th Cir. 2012). 
Plaintiffs petitioned the United States Supreme Court for certiorari. 
The Court denied the petition on October 7, 2013.
    The district court dismissed De Fernandez for lack of jurisdiction, 
relying on the Ninth Circuit's holding in Recinto that district courts 
lack subject-matter jurisdiction over veterans' benefits claims. The 
plaintiffs appealed this case to the Ninth Circuit, and the parties 
completed briefing in September 2013. We are currently awaiting oral 
arguments to be scheduled for this case. It is possible the appeal may 
be resolved within the next 12 months, depending on when the court 
schedules oral arguments and issues a decision.

    Question 147. The fiscal year 2015 budget request for the Filipino 
Veterans Equity Compensation Fund indicates that 333 Notices of 
Disagreement (NODs) have not been resolved. The estimate for fiscal 
year 2015 is that $55.4 million in unobligated funds will remain at the 
end of the fiscal year.
    A. When does VA believe the remaining 333 NODs will be resolved?
    Response. The 333 appeals pending were as of September 2013. 
Currently, 130 Filipino Veterans Equity Compensation (FVEC) appeals are 
pending.

    <bullet> 64 pending at the Manila RO, of which 33 are at the NOD 
and substantive appeal stages and 31 remanded by the Board of Veterans' 
Appeals (Board) for further development.
    <bullet> 56 pending at the Board.
    <bullet> 10 pending at other ROs for travel board hearings.

    The majority of the 64 appeals pending at the Manila RO are 
awaiting service verification, hearings, or a reply to the Decision 
Review Officer election letter. The Manila RO regularly provides the 
National Personnel Records Center (NPRC) a list of all pending requests 
for service verification. Follow ups are completed via email and are 
faxed to NPRC when necessary. Additionally, FVEC appeals are given 
priority in the scheduling of hearings. Some of the hearings are 
coordinated with the nearest RO where the appellant resides in the 
United States. Typically, the appeals at the Manila RO are resolved or 
certified to the Board in 30 to 60 days. This is dependent upon 
receiving documents from NPRC and can be extended if the claimant 
submits additional documents for review.
    B. Once the remaining NODs are dispensed with, when will VA close 
the account and remit the unobligated balance?
    Response. We anticipate that VA will close the FVEC Fund account 
once all activities are complete. In FY 2010, Congress provided 
authority to transfer up to $67 million in unobligated balances from 
bid savings from the Major Construction account in section 901, Public 
Law 111-212. Any remaining funds will be returned to the Major 
Construction account for obligations as authorized by law.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Jerry Moran to 
                  U.S. Department of Veterans Affairs
Rural Health and Joint Medical Facility Projects
    Question 148. Secretary Shinseki, will you please provide analysis 
or report material you have received regarding the expansion of Project 
ARCH? What are the recommendations from staff within the VA, the Office 
of Rural Health and VISN 15 on the future construct of ARCH? Do you 
intend to make a decision about the future of ARCH before the authority 
expires in September 2014?
    Response. Project ARCH's congressional authority expires August 29, 
2014. Section 402 of Public Law 110-387 allows the Secretary to make 
recommendations regarding the pilot program, including if the pilot 
program should be made permanent.
    In preparation for the expiration of the Congressional authority 
for Project ARCH, VHA's CBO and Office of Rural Health are leading an 
integrated project team to review options for providing health care for 
rural Veterans. The team is preparing recommendations for senior 
leadership's consideration.
    Additionally, VA is working diligently to ensure Veteran access to 
care is not interrupted when Project ARCH concludes. VHA's PC3 program 
will be available to rural Veterans to help bridge this gap.
    Under PC3, VHA has contracted with Health Net Federal Services and 
TriWest Healthcare Alliance to develop a network of providers to 
deliver covered care. This will provide eligible Veterans coordinated, 
timely access to specialty care through a comprehensive network of non-
VA providers who meet VA quality standards when VA cannot readily 
provide the specialty care in-house due to geographic inaccessibility, 
lack of available specialists, and other factors. PC3 contracts have 
been awarded in six regions.
    VA envisions the integration of PC3 will perpetuate increased 
access for Veterans in distance-challenged areas, provide quality 
health specialty care within all applicable VISN locations, and 
systematically reduce cost over time to ensure Veterans have accessible 
health care closer to their homes.

    Question 149. Secretary Shinseki, will you please provide metrics 
and data to ascertain how many veterans, across all VISNs, are 
receiving referrals for chiropractic care? Please describe the referral 
process, step by step and approximate wait time associated with the 
referral process.
    Response. The number of unique patients receiving chiropractic care 
on-station and through non-VA care for FYs 2012, 2013, and 2014 year-
to-date is provided in the first tab of the attached spreadsheet.
    It is VA policy that access to chiropractic care, through 
consultation from either the patient's primary care provider or another 
VA clinician providing care for the condition for which chiropractic 
care may be helpful, is consistent with the facility's policy and 
practice for all other specialty care access. Additional requirements 
or authorizations are not to be placed on referral for chiropractic 
care at a VA facility or through the outpatient non-VA care program.
    Consistent with the same process for all medical care, when a VA 
provider places a referral for chiropractic care, a designated staff 
member reviews the referral for clinical appropriateness. If additional 
information is needed or if the referral appears not suited for the 
chiropractic clinic, the referring provider is notified for additional 
follow up. If the referral request is appropriate, then a staff member 
is notified to contact the Veteran and schedule an agreed upon 
appointment. If the given facility does not have an on-station 
chiropractic clinic, a designated staff member from the business office 
reviews the referral to determine eligibility and notifies the Veteran 
of follow-up steps.
    Data on wait times for on-station chiropractic care for FYs 2012, 
2013, and 2014 year-to-date are provided in the second tab of the 
attached spreadsheet. Wait times for non-VA chiropractic care is not 
captured by VA and cannot be reported.

                                 Outpatient Cube: Unique Patients for on-station (436) and non-VA (75) CHIROPRACTIC CARE
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                        FY 2012 Actual                FY 2013 Actual         FY 2014 Year-to-Date Actual
                                                                ----------------------------------------------------------------------------------------
                                                                    On-                           On-                          On-
                                                                  station    Non-VA    Total    station    Non-VA   Total    station    Non-VA    Total
--------------------------------------------------------------------------------------------------------------------------------------------------------
All Payment Locations..........................................   23,834     9,059     32,893   25,829     10,105   35,934   16,844     7,548     24,392
V01............................................................    1,462       410      1,872    1,712        246    1,958    1,131       179      1,310
V02............................................................    2,364       182      2,546    2,499        306    2,805    1,705       274      1,979
V03............................................................      171        11        182       38         17       55       59        20         79
V04............................................................      385       244        629      304        370      674      124       332        456
V05............................................................      445        52        497      509        106      615      376        80        456
V06............................................................      569       165        734      516        155      671      310       107        417
V07............................................................      682       126        808      742         30      772      497        13        510
V08............................................................    2,128     1,222      3,350    2,410      1,323    3,733    1,486       979      2,465
V09............................................................      960       619      1,579      974        447    1,421      560       266        826
V10............................................................      813        13        826    1,032         10    1,042      603        21        624
V11............................................................      975       509      1,484    1,223        530    1,753      688       414      1,102
V12............................................................      835       188      1,023      808        322    1,130      606       247        853
V15............................................................    1,189       638      1,827    1,212        673    1,885      755       580      1,335
V16............................................................      288       348        636       87        371      458      263       281        544
V17............................................................    3,569        92      3,661    3,645         44    3,689    2,216         8      2,224
V18............................................................    1,420       115      1,535    1,350        109    1,459      991       186      1,177
V19............................................................      767       325      1,092      753        999    1,752      360       944      1,304
V20............................................................      868     1,247      2,115    1,147      1,600    2,747      887     1,092      1,979
V21............................................................    1,012       820      1,832    1,171        802    1,973      705       491      1,196
V22............................................................    2,407       591      2,998    3,149        248    3,397    2,154       132      2,286
V23............................................................      554     1,150      1,704      564      1,404    1,968      375       905      1,280
--------------------------------------------------------------------------------------------------------------------------------------------------------


                        Consult Cube: Number of Consults, Unique Patients, Average Days to Completed Consult, Percent of Consults Completed, Average Days to First Action
                                                                                     (436) CHIROPRACTIC CARE
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Number of Consults          Unique Patients            Average Days to          Percent of Consults       Average Days to First
                                                          ------------------------------------------------------     Completed Consult              Completed                    Action
                                                                                                                --------------------------------------------------------------------------------
                                                           FY 2012  FY 2013  FY 2014  FY 2012  FY 2013  FY 2014                                         FY
                                                                                                                 FY 2012  FY 2013  FY 2014   FY 2012   2013   FY 2014  FY 2012  FY 2013  FY 2014
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
All Facility.............................................   36,399   41,643   22,526   26,539   31,231   19,776    50.6     49.0     35.2     99.6%   95.2%     66.1%    59.3     57.1     30.5
V01......................................................    1,983    1,972    1,049    1,478    1,570      985    61.1     37.9     39.3     98.9%   96.1%     73.2%    61.9     36.9     30.5
V02......................................................    2,707    2,641    1,089    2,028    2,004    1,034    31.1     29.6     27.4    100.0%   96.2%     84.1%    46.6     34.1     24.3
V03......................................................       64      174       96       60      139       88    29.3     50.1     50.6    100.0%   95.4%     54.2%    41.1     52.9     41.1
V04......................................................      593      765      635      431      552      543    33.1     39.8     28.4    100.0%   98.6%     64.6%    41.1     71.1     38.1
V05......................................................      592      892      436      423      637      355    65.5     59.3     30.9    100.0%   96.5%     58.5%    67.5     67.6     23.1
V06......................................................      648      725      392      512      610      377    36.4     56.4     44.8    100.0%   95.2%     58.7%    36.5     55.2     42.0
V07......................................................      611      651      351      581      613      341    61.2     57.7     28.1     99.7%   94.0%     76.6%    62.1     54.9     22.5
V08......................................................    3,737    5,655    2,817    2,326    4,005    2,677    55.2     67.2     40.1     99.5%   94.7%     54.2%    56.5     81.9     39.4
V09......................................................    1,086    1,198      639      778      942      580    33.0     37.7     28.7     99.4%   97.4%     69.0%    37.4     47.1     26.1
V10......................................................    1,445    1,819      962    1,154    1,389      856    32.7     24.6     26.3     99.7%   96.0%     70.2%    37.3     29.3     23.6
V11......................................................    1,926    1,582      533    1,168      984      480    28.3     25.1     26.7     99.8%   95.8%     85.0%    28.0     23.9     20.0
V12......................................................      946    1,125      512      719      852      493    40.0     30.6     29.7     99.3%   94.6%     82.4%    41.2     28.6     22.1
V15......................................................    3,208    3,205    1,476    2,558    2,638    1,357   106.7     73.7     38.9     99.0%   94.3%     44.2%   130.0     97.3     27.8
V16......................................................      257      287      685      213      247      657    58.0     77.6     38.8     96.5%   90.6%     44.1%    64.9     86.4     26.8
V17......................................................    5,379    5,100    2,441    3,957    3,892    2,287    33.4     32.6     33.3     99.6%   96.2%     69.7%    35.8     32.5     23.8
V18......................................................    3,498    3,494    2,256    1,897    1,918    1,370    62.3     49.1     24.0     99.9%   95.7%     81.5%    71.1     56.6     22.0
V19......................................................      765      682      195      698      626      194    32.9     33.6     19.5     99.9%   93.0%     89.2%    42.4     33.0     14.0
V20......................................................    1,110    2,581    2,662      924    2,044    1,948    35.1     74.0     48.2     99.9%   93.2%     65.6%    41.1     79.5     40.2
V21......................................................    1,830    2,227    1,347    1,339    1,778    1,283    49.3     43.8     36.2     99.9%   92.9%     60.2%    61.3     58.2     29.6
V22......................................................    2,977    3,775    1,533    2,456    2,884    1,491    66.8     62.8     58.3     99.7%   94.6%     60.2%    89.5     68.5     43.9
V23......................................................    1,037    1,093      420      841      907      380    24.8     30.9     14.6     99.5%   97.2%     78.6%    49.0     50.2     21.5
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


    Question 150. Secretary Shinseki, what intentions, if any, do you 
have to make certain chiropractic care referrals are streamlined for 
our veteran population? What specifically has been done to increase 
veterans' access to a broader range of chiropractic services?
    Response. VA has undertaken several steps to ensure appropriate 
access to chiropractic services for Veterans. Considering the rates of 
chiropractic services use at VA chiropractic clinics and the U.S. 
population at large, VA has developed a population-based use model 
targeting 1.2 percent of a facility's core unique patients. The 
chiropractic national program office continues to provide guidance and 
support to assist local VA facilities with the processes of 
implementing new chiropractic clinics. To help improve the efficiency 
of non-VA chiropractic services, a multidisciplinary workgroup 
developed a Clinical Patient Record System template for non-VA 
chiropractic consults that has been deployed and is now in use. VHA's 
Office of Academic Affiliations has also established a pilot 
chiropractic residency training program aimed at preparing graduates to 
better serve VA and the Nation.

    Question 151. Secretary Shinseki, what steps are being taken or 
what plan has been developed to address physician recruitment in rural 
areas and the consequent extensive periods without physician care? Does 
the VA have a recruitment policy or framework for rural areas? Is this 
something the Office of Rural Health is given the opportunity to 
develop and the budget to carry it out?
    Response. VHA markets directly to physicians for rural locations 
through its partnership with National Rural Recruitment and Retention 
Network (3RNet), a national network of non-profit organizations devoted 
to health care recruitment for underserved and rural locations. Through 
this partnership, VHA has access to a robust database of candidates 
especially interested in, and leveraged against, rural vacancies. 
National recruiters routinely post VHA practice opportunities on 
3RNet's career page. In addition, 3RNet annually dedicates the month of 
November to Veteran health care awareness by making VHA its featured 
employer for the month. In FY 2013, national recruiters increased 
recruitment of Veteran physicians by 43 percent of which 24 percent 
were for rural or highly rural facilities.
    Additionally, VHA's Office of Rural Health's goal is to develop 
innovative methods to identify, recruit and retain health care 
professionals in rural and highly rural communities. The Office of 
Rural Health has made significant investments to strengthen the rural 
VA provider workforce and continuously seeks to understand current and 
future rural provider workforce needs. Research shows that exposing 
students to rural health care during medical or health professions 
school is an effective way to recruit providers to rural areas.
    In FY 2013 and so far FY 2014, VA invested more than $15 million to 
support rural provider training and continuing education initiatives to 
include:

    Rural Health Training Initiative (RHTI)--This pilot program between 
the Office of Rural Health and the Office of Academic Affiliations 
increases rural health care workforce recruitment by providing 
opportunities for medical students and other health professions 
trainees to receive clinical training at rural health care sites. 
Launched in the fall of 2012, RHTI funds 7 projects where more than 260 
clinicians have trained at 22 VHA rural sites of care.
    VA Geriatric Scholars Program--The Office of Rural Health supports 
a successful program to train clinicians at rural VA facilities in the 
most current practices in geriatric care. In FY 2013, this program 
served all 21 VISNs, including 185 facilities and 1,356 staff.
    Specialty Care Access Network--Extension for Community Healthcare 
Outcomes--In FY 2013, the Office of Rural Health provided funds to 
expand this already successful program that uses telehealth technology 
to provide specialty care consultation, clinical training, and clinical 
support from urban-based specialty care teams to over 100 rural VA 
providers at 40 rural facilities so that they can manage patients with 
chronic conditions closer to home. Providers trained included primary 
care physicians, nurse practitioners, and social workers. The Office of 
Rural Health is expanding this program in FY 2014 to up to 19 
additional sites.
    Women's Health Provider Training--The Office of Rural Health has 
provided funding to support the training of rural primary care 
providers in women's health care topics.
    Rural Provider and Staff Training Initiative (RPSTI)--New in FY 
2014, RPSTI funds 21 VHA clinical sites serving rural Veterans to 
implement locally based, innovative training and educational programs 
for health care providers and clinic staff on topics ranging from 
palliative care and dementia to polypharmacy and substance use 
disorders.

    Question 152. Secretary Shinseki, the VA FY 2015 Budget Request 
referred to the Dole VA and McConnell AFB Joint Facility in the context 
of: ``Several major construction projects that were included on the 
2014 SCIP priority list were not scored in FY 2015 as they did not pass 
SCIP 2015 validation process, or were pulled from consideration in 
2015.'' Was the Dole VA project pulled from consideration? If not, 
please provide the steps, measures and relevant detail associated with 
the aforementioned validation process, to include analysis and data 
that substantiates the submission by the Dole VA did not pass the SCIP 
validation process.
    Response. The SCIP validation process is a multi-step effort to 
ensure projects are fully conceived and based on the most rigorous 
application of data possible. Validation is done at both the action 
plan and business case level; action plan validation review begins in 
early spring each year.
    The FY 2015 SCIP validation process found that the Wichita 
project's business case did not address critical validation concerns 
and, therefore, the project was not scored or considered for FY 2015 
funding. The scope of the project submitted was not well-defined and 
lacked clarity concerning the Department of Defense's (DOD) involvement 
in the project. The Wichita project was removed from consideration and 
was not scored in FY 2015 because the final business case included:

    1. A cost estimate with more than a 25 percent variance from the 
established VA cost-estimating guidance;
    2. Cost data for only one valid alternative was provided (major 
construction), when a minimum of three of the five additional 
alternatives (major lease, contract out, acquire an existing facility, 
VA/DOD collaboration, and renovation) are required; and
    3. Cost estimates that conflicted with other supporting materials.

VA capital planning staff will work closely with the facility, DOD, and 
all stakeholders to improve the project's business case for 
consideration in the FY 2016 process.

    Question 153. According to the VA FY 2015 Budget Request, ``DOD CPC 
members participate actively in VA's SCIP evaluation process and assist 
in identifying possible locations that would support increased 
collaboration.'' Please explain the participation of DOD CPC members. 
How does the SCIP ``evaluation'' process differ from the SCIP 
``validation'' process? Did DOD CPC members have the opportunity to 
assess and evaluate the Dole VA and McConnell AFB Joint Project in SCIP 
FY 2015, to include the numerous MOU's currently shared between Dole 
and McConnell? If not, why not? If so, what was their assessment and 
did it include a review of current MOU's?
    Response. DOD Construction Planning Committee (CPC) members do 
actively participate in VA's SCIP process. DOD CPC and VA members share 
data each year on facility space (excess space or need space), 
workload, population, and proximity. This information is provided to 
all SCIP users before the start of the annual SCIP process to complete 
their action plans. Key contacts lists by location for VA and DOD 
planners are also provided so that they can easily reach out to each 
other and work together in collaboration where potential opportunities 
exist.
    One of the key components of each Veterans Integrated Service 
Network's (VISN) action plan review is the Subject Matter Expert Teams 
(SMET) reviews. One SMET focuses on DOD/VA collaboration, and each VISN 
is reviewed to ensure joint opportunities are fully explored and 
included in the VA long-range plan. In addition, DOD CPC members attend 
the VISN action plan presentations to the SCIP Board and can ask VISNs 
questions concerning DOD/VA joint opportunities.
    The validation, scoring, and prioritization of business cases is 
accomplished by the Department-wide SCIP Panel, which consists of 
senior staff from nine VA Administrations and Staff Offices. A project 
that increases sharing between DOD and VA would receive prioritization 
credit in DOD's collaboration sub-criteria. A project that lowers or 
does not increase sharing would not receive prioritization credit. 
Additional information on Departmental criteria is found in response to 
question 154.

    Question 154. According to the VA FY 2015 Budget Request, ``DOD 
collaboration is one of the national criteria elements VA uses to 
evaluate, score, and rank its capital projects.'' How does the VA 
numerically value ``DOD collaboration'' in the overall SCIP process and 
criteria? Currently, this element is one of four ``Departmental 
Initiatives'' and treated separately from ``major and supporting 
initiatives.'' Why? If overlap occurs with major and/or supporting 
initiatives, how does that impact the score? Please explain ``DOD 
collaboration'' linkages, overlap, and duplication to separate criteria 
elements, particularly ``best value solution'' and ``maximize 
efficiencies.'' For the Dole VA and McConnell AFB Joint Project, what 
was the numerical score for the ``land transfer'' by McConnell AFB as 
criteria for cost savings, best value solution and maximizing 
efficiencies? For major initiatives, how are educational institution 
partnerships numerically scored and ranked in comparison to other major 
initiatives?
    Response. The FY 2015 SCIP Decision Criteria with priority weights 
are provided below.

                 FY 2015 SCIP Decision Criteria Weights
                       (sorted by Major Criterion)
------------------------------------------------------------------------
                     Priority                          Priority  Overall
  Major Criterion     Weight        Sub-Criterion       Weight    Weight
------------------------------------------------------------------------
Improve Safety and     0.324   Seismic...............    0.437    0.142
 Security
                               Safety/Compliance         0.345    0.112
                                (excludes Seismic).
                               Physical and Building     0.218
                                Security/Emergency
                                Preparedness.
------------------------------------------------------------------------
Departmental           0.216   Major Initiatives.....    0.543    0.117
 Initiatives
                               Supporting Initiatives    0.289    0.062
                               DoD Collaboration.....    0.094    0.020
                               Energy Standards......    0.074    0.016
------------------------------------------------------------------------
Fixing What We Have    0.200   Reduce Facility           0.770    0.154
                                Condition Assessment
                                Deficiencies.
                               Other Gaps (self-         0.230    0.046
                                defined).
------------------------------------------------------------------------
Increasing Access      0.155   Utilization/Workload..    0.327    0.051
                               Veteran Access to         0.213    0.033
                                Services.
                               Internal Access to        0.052    0.008
                                Services.
                               Wait Times............    0.222    0.034
                               Support Structures        0.186    0.029
                                (parking).
------------------------------------------------------------------------
Right-Sizing           0.057   Space--New                0.560    0.032
 Inventory                      Construction/
                                Renovation/Lease.
                               Space--Collocation....    0.229    0.013
                               Space--Disposal/Reuse.    0.118    0.007
                               Space--Telework.......    0.093    0.005
------------------------------------------------------------------------
Ensure Value of        0.048   Best Value Solution...    0.657    0.032
 Investment
                               Cost Saving Strategies    0.343    0.016
------------------------------------------------------------------------


    The DOD collaboration sub-criterion of the 2015 SCIP decision model 
has an overall priority value of .020. This sub-criterion is separated 
from the Major Initiatives (MI) and Supporting Initiatives criterion to 
emphasize the importance of these projects, as it effectively results 
in those types of projects earning ``extra'' points that non-VA/DOD 
projects cannot earn. If two decision sub-criteria were so similar as 
to overlap, then a project's score would include a ``double-counted'' 
score. Depending on how thoroughly the ``overlapping'' decision 
criteria questions were answered, the impact could range from no impact 
to significant because each sub-criterion is scored as a separate 
element. Duplication in the decision model is avoided where possible.
    DOD collaboration is one of 20 sub-criteria in the decision model, 
which are grouped by their relationship to the major criteria. 
Addressing one sub-criterion does not automatically result in points 
given to another sub-criterion. A project is evaluated on how well each 
sub-criterion is addressed. For example, the project may receive a high 
score for the DOD collaboration question based on the written answer 
and supporting documentation demonstrating VA's and DOD's mutual 
interest in the project, and then score very low on the safety/
compliance question because the narrative answer does not demonstrate 
that the project will mitigate a known safety violation or bring the 
medical center into compliance for a sited deficiency.
    This type of project could earn points for the cost saving 
strategies question by demonstrating how this project saves money by 
allowing VA to acquire land at no cost. The effect of a no-cost land 
transfer would be factored into the Best Value Solution question as 
part of the Net Present Value (NPV) calculation of that alternative. 
For example, if the cost of the new construction option and the VA/DOD 
Collaboration option were equal except for the cost of land 
acquisition, the NPV for the VA/DOD Collaboration project would be 
better than the new construction option. The highest score in the Best 
Value Solution question can only be given to projects where the chosen 
option has the best NPV.
    Because the Wichita VA/DOD major construction project did not pass 
the business case validation process, the project was not scored for 
the FY 2015 budget and planning cycle. There are no numerical ratings 
for this project.
    The Major Initiatives for the FY 2015 budget and planning cycle 
are:

    (1) Eliminate Veteran Homelessness;
    (2) Improve Veterans' Mental Health;
    (3) Perform Research and Development to Enhance the Long-term 
Health and Well-Being of Veterans;
    (4) Enable 21st Century Benefits Delivery and Services;
    (5) Automate GI Bill Benefits;
    (6) Build Veterans Relationship Management Capability to Enable 
Convenient, Seamless Interactions;
    (7) Enhance the Veteran Experience and Access to Health Care;
    (8) Establish Strong VA Management Infrastructure and Integrated 
Operating Model;
    (9) Transform Human Capital Management (telework); and
    (10) Transform health care delivery through health informatics.

Educational institution partnerships are not ranked in relationship to 
the MIs.

    Question 155. According to the VA FY 2015 Budget Request, ``The 
VISN future year potential list includes several potential future 
collaborative efforts,'' listing the Dole VA and McConnell AFB Joint 
Project as one of six future collaborative efforts. Will you please 
explain why the VA FY 2015 Budget Request promotes and identifies this 
joint project as a specific example of VA/DOD collaboration but does 
not score or rank it in the same FY 2015 budget document? What is the 
rationale behind the decision to list a Wichita, KS joint project in VA 
collaboration with DOD but remove it from consideration to attain 
resources to develop this joint project?
    Response. Though the Dole VA and McConnell AFB Joint Facility was 
not scored in the FY 2015 SCIP, it is listed in the SCIP long-range 
plan as a potential out-year major construction project. There is still 
an opportunity for future collaboration between VA and DOD at the 
Wichita location. VA is working with local facility planning to staff 
to assist in developing their business case to be considered for 
funding during the FY 2016 SCIP process.

    Question 156. How will VA's proposed changes to ``allow transfers 
to/from VA capital accounts in support of joint Federal facilities'' 
lead to more joint projects, such as the Dole VA and McConnell AFB 
Joint Project? Has the VA identified existing, potential and planned 
projects that would utilize this new authority? Please provide a list 
of those projects. Please describe the differences in VA's FY 2015 
proposal on ``transfer of funds'' from Sections 223, 224 and 8098 of 
the FY 2014 Omnibus Appropriations Act that provides for additional 
``transfer of funds'' authority to the Joint Department of Defense- 
Department of Veterans Affairs Medical Facility Demonstration Fund. Are 
major and minor construction projects currently considered in the Joint 
Department of Defense--Department of Veterans Affairs Medical Facility 
Demonstration Fund? If not, please recommend a legislative alternative 
that would give the Medical Facility Demonstration Fund the authority 
to expend funds on minor and major construction projects.
    Response. VA has proposed changes to its authorization to allow the 
Department to plan, design, construct, or lease shared medical 
facilities with the goal of improving access to, and quality and cost 
effectiveness of, the health care provided by the Department and other 
Federal agencies (e.g., DOD) to their beneficiaries. The proposal would 
allow the Department to transfer and/or receive funds (major and minor 
construction) to/from another Federal agency for use in the planning, 
design, and/or construction of a shared medical facility. Currently, VA 
cannot build space to accommodate non-VA workload. It also cannot build 
on non-VA owned land without specific authorization.
    The VA proposal would also allow the transfer (from the Medical 
Facilities appropriation) or receiving of funds to/from other Federal 
agencies for the purpose of leasing space for a shared medical 
facility, after section 8104 authorization requirements have been met. 
In order to foster collaboration, VA also requested to amend the 
definition of ``medical facility'' to include any facility or part 
thereof which is, or will be, under the jurisdiction of the Secretary, 
or as otherwise authorized by law, for the provision of health care 
services.
    The potential VA/DOD collaboration locations provided in Volume 4 
of the 2015 budget submission are the locations that would most likely 
have the highest potential for using this new authority. These include 
Wichita, Kansas, El Paso, Texas, Fort Knox, Kentucky, Beaufort, South 
Carolina, San Antonio, Texas and Oakland, California.
    In contrast to VA's FY 2015 proposal on ``transfer of funds,'' 
Sections 223, 224 and 8098 of the FY 2014 Omnibus Appropriations Act, 
which provide for additional ``transfer of funds'' authority to the 
Joint Department of Defense--Department of Veterans Affairs Medical 
Facility Demonstration Fund, only allow for minor construction funds to 
be transferred to the Demonstration Fund to support operations at the 
Captain James A. Lovell Federal Health Care Center at North Chicago. 
Implementing VA's proposed authorization changes would provide VA and 
DOD the greatest potential for increase joint collaborative projects.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. John Boozman to 
                  U.S. Department of Veterans Affairs
    Question 157. What process is the VA Office of Acquisition and 
Logistics (OA&L) using to mitigate procurement risk associated with 
companies who are debarred, meaningfully related to debarred entities, 
have criminal activity, are financially stressed, and have other high 
risk characteristics?
    Response. As part of the Office of Management and Budget Circular 
A-123 Acquisition Assessment, OALC conducts extensive file reviews, one 
of the goals of which is to assess the extent of compliance with the 
requirement to award only to responsible parties. File reviews include 
determining compliance with specific VA policies established by OALC, 
such as:

    <bullet> VA Procurement Policy Memo (PPM) 2013-05, Determining 
Contractor Responsibility, dated August 12, 2013. This policy requires 
contracting officers to check the exclusions in the System for Award 
Management before any transaction (award or modification) is made with 
a contractor. The policy provides implementing guidance in determining 
contractor responsibility. File reviews assess whether the required 
contractor responsibility determination was made properly.
    <bullet> VA Information Letter (IL 001AL-09-02), Integrated 
Oversight Process (IOP), dated June 19, 2009. The IOP policy requires 
procurement reviews of specific contract actions at various dollar 
thresholds, and the reviews are performed by contracting organizations 
of each Head of Contracting Activity (HCA) within VA. OALC's A-123 
assessments and file reviews evaluate whether the IOP policy was 
followed and to what extent.

    Question 158. Is there anything you are doing to prevent fraud or 
improper payments post-award? (This question is relevant because the 
Senator has a history of working on improper payment issues)
    Response. To prevent fraud or improper payments, Department of 
Veterans Affairs continues to take the following actions:

    <bullet> Partners with Treasury to leverage the Do Not Pay (DNP) 
solution, which matches payments monthly against the Public Death 
Master File (DMF) and the Excluded Parties List System (EPLS)/System 
for Award Management (SAM);
    <bullet> Matches benefits payments against the Social Security 
Administration's Private Death Master File before they are submitted to 
Treasury;
    <bullet> Compares vendors on our financial management system to the 
EPLS/SAM on a daily basis; and
    <bullet> Performs recapture and recovery audits for our programs, 
which result in corrective actions to improve business processes and 
ensure compliance.

    Question 159. Does the VA have a post award process that tracks 
contractor performance? If so, are there any metrics around the value 
of government data vs. commercial data sources for this purpose?
    Response. VA's Policy for Past Performance reinforces the Federal 
Acquisition Regulation requirements and requires use of the Contractor 
Performance Assessment Reporting System (CPARS), managed by the General 
Services Administration, that generates status reports for their 
respective HCA. These include: Contract Status Reports, Ratings Metrics 
Report, and Processing Times Reports. These reports provide a record, 
both positive and negative, on a given contractor during a specific 
period of time. These reports are supported by program and contract 
management data, such as cost performance reports, customer comments, 
quality reviews, technical interchange meetings, financial solvency 
assessments, construction/production management reviews, contractor 
operations reviews, and performance evaluations. These reports are used 
as a resource to ensure VA is awarding best value contracts and orders 
to contractors that consistently provide quality, and on-time products 
and services that conform to contractual requirements. To our 
knowledge, there are no commercially available metrics which compare 
government data to commercial data.
                                 ______
                                 
  Response to Posthearing Questions Submitted by Hon. Dean Heller to 
                  U.S. Department of Veterans Affairs
    Question 160.  When does the VA expect to fully deploy all 
components and sub-components in VBMS across all VA Regional Offices so 
that all 56 will qualify as electronic Regional Offices (eRO)?
    Response. Veterans Benefits Management System (VBMS) utilizes an 
agile development approach that allows the Veterans Benefits 
Administration (VBA) to continually build functionality to support 
claims processing in 12-week sprints. With continuous development, VBMS 
will allow the electronic distribution of workload on a national level 
and assist in automating portions of the claims process. As of 
June 2013, VBMS was fully deployed to all 56 regional offices (RO).
    The Newark RO was chosen as the electronic Regional Office (eRO) 
pilot station to simulate the future operating model of a paperless RO. 
This allows VBA to understand the operational differences that a paper 
versus electronic environment poses. This also provides an opportunity 
for VBA to test additional initiatives to continue to understand the 
future state and impact of those initiatives in an electronic 
environment. Although VBA does not have the resources to remove all 
active paper claims folders from all ROs, the remaining ROs are 
naturally moving into a paperless state and adopting lessons learned 
through the distribution of the electronic Standard Operation 
Procedures and the realignment of responsibilities of clerical staff. 
As of April 9, 2014, almost 90 percent of VBA's rating inventory is 
electronic. VBA has not established a timeline for full transition to 
eROs.

    Question 161.  What percentage of claims being submitted at the 
Reno VA Regional Office are fully developed claims?
    Response. In FY 2013, 25.4 percent of claims received by the Reno 
RO were fully developed claims (FDC). In FY 2014 through March, this 
increased to 39.5 percent.

    Question 162.  How has VA partnered with the Veteran Service 
Organizations (VSOs) to encourage and assist veterans with filing fully 
developed claims?
    Response. VBA's Benefits Assistance Service (BAS) has partnered 
with VSOs on several programs in support of assisting Veterans with 
FDCs. VA ROs conducted workshops for their local Veterans Service 
Organizations (VSO) partners on the FDC program. Each RO has a very 
active partnership with their local VSO community and has 
representatives attend local VSO trainings and meetings to provide 
information on filing electronic FDCs. BAS also has ongoing bi-weekly 
meetings with VSOs and monthly meetings with VSO executive leadership, 
at which FDC filing and assistance are regularly discussed. An FDC 
Forum was held during the VSO bi-weekly meeting on February 6, 2014. 
This forum allowed national, state, and county VSOs to ask clarifying 
questions about the FDC program and inform VBA where additional 
training in the field may be needed. Additionally, BAS provides monthly 
FDC reporting to the ``Big 6'' VSOs. These reports provide the total 
number of FDC claims submitted to each RO and the number that have been 
removed from the FDC program. Based on these reports, VSOs are able to 
ascertain which of their offices require more training on FDC 
submissions. FDC claims subm4ission is addressed and encouraged during 
all VSO eBenefits training sessions. Finally, VBA also began a new 
partnership with VSOs and other stakeholders known as the Community of 
Practice (COP). The COP seeks to reduce the compensation claims backlog 
for Veterans by increasing the number of FDCs filed by Veterans and 
their advocates. The Disabled American Veterans and The American Legion 
are founding members, and The National Association of State Directors 
of Veterans Affairs is a member. In August 2013, VA also welcomed 
William & Mary Law School's Lewis B. Puller, Jr., Veterans Benefits 
Clinic to the FDC COP. The Puller Clinic was the first law school 
clinic in the Nation to join the FDC COP. VA consults with members of 
the COP throughout the development and implementation of VA's plan to 
end the backlog in 2015 to ensure best practices and their unique 
insights are incorporated.

    Question 163.  Does the DOD and VA's current agreement regarding 
the electronic transfer of service treatment records also apply to 
service treatment records for members of the reserve components of the 
U.S. Armed Forces?
    Response. On January 1, 2014, the Department of Defense (DOD) 
ceased sending VA paper Service Treatment Records (STR). An interface 
was implemented to automatically transmit STRs between DOD's Healthcare 
Artifact and Image Management System and VA's VBMS in an electronic 
format. If a member of the Reserves or National Guard did not serve on 
active duty on or after January 1, 2014, an automated request for 
electronic STRs is not generated. VA continues to manually request 
these STRs from DOD, and DOD sends the STRs back electronically. VA and 
DOD are reviewing options to close this gap.

    Question 164.  Between January 1, 2013 and December 31, 2013, 
dependency claims, which are not included in the VA's rating bundle for 
backlog, rose from 170,000 to 230,000. What is the VA's plan to ensure 
that non-rating related claims are completed in as timely a manner as 
rating-related claims?
    Response. VBA holds employees at all levels of the organization 
accountable for performance. Objective measures and performance 
standards are used to determine if our managers and employees are 
meeting or exceeding their job requirements. Performance of Veterans 
Service Representatives (VSR), Ratings Veterans Service Representatives 
(RVSR), and Decision Review Officers (DRO) is tracked in a national 
work credit system that is aligned with individual performance 
standards (attached). Employees are evaluated based on quality of work, 
production, customer service, workload management, cooperation, and 
organizational support.
    VBA sets the standards for work to be completed based on the 
position and experience level of the employee. VBA performance 
standards are consistent for all claims processors across the Nation. 
Performance credit for VSRs is weighted based on the complexity of the 
action completed. For example, completing an initial letter in response 
to a Veteran's claim for benefits is weighted higher than a follow-up 
contact with a Veteran via telephone. RVSR work credit is weighted 
based on the complexity of the case and number of issues rated. For 
example, an RVSR on the special operations team that rates a highly 
complex claim with nine medical contentions will receive a higher 
weighted credit than a RVSR on the express team that rates a claim with 
two medical contentions.

    Question 165.  What measurements does the VA currently use for the 
VBA claims processors' work credit system?
    Response. VBA holds employees at all levels of the organization 
accountable for performance. Objective measures and performance 
standards are used to determine if our managers and employees are 
meeting or exceeding their job requirements. Performance of VSRs, 
RVSRs, and DROs is tracked in a national work credit system that is 
aligned with individual performance standards (attachments 1-3 follow). 
Employees are evaluated based on quality of work, production, customer 
service, workload management, cooperation, and organizational support.

Attachment 1
                       NATIONAL PERFORMANCE PLAN
                 VETERANS SERVICE REPRESENTATIVE (VSR)
                      (Excludes PMC and PCT VSRs)

ELEMENT 1--QUALITY (Critical)

    The VSR must consistently and conscientiously exercise sound, 
equitable judgment in applying stated laws, regulations, policies and 
procedures to ensure accurate information is disseminated to Veterans 
and accurate decisions are provided on all benefit claims administered 
by the Department of Veterans Affairs.

Standard

    Quality of Work
Successful Level

 
    GS-7:                          The accuracy rate during the
                                    evaluation period equals or exceeds
                                    80% (cumulative)
    GS-9:                          The accuracy rate during the
                                    evaluation period equals or exceeds
                                    85% (cumulative)
    GS-10:                         The accuracy rate during the
                                    evaluation period equals or exceeds
                                    92% (cumulative)
    GS-11:                         The accuracy rate for work produced
                                    during the evaluation period equals
                                    or exceeds 93% (cumulative)
 

Indicators
    A random selection will be made of an average of 5 actions per 
month regardless of number of contentions claimed. Quality of action 
taken on each contention will be evaluated. The selection of actions, 
while random, must reflect an appropriate mix of work performed by the 
employee throughout the month (i.e. not from a single day or single 
week).
    If a routine review of a VSR's work demonstrates the need for 
quality improvement, an expanded sample of an average of 10 actions per 
month will be reviewed for quality purposes.
    The ASPEN checklist to be used will mirror the STAR worksheet and 
will include a component on systems compliance, which will be 
considered a substantive error.

ELEMENT 2--TIMELINESS/WORKLOAD MANAGEMENT (Critical)

    Timely processing of Veterans claims is of paramount importance, as 
it is highly correlated with customer satisfaction. The VSR will 
operate in an efficient manner to accurately finalize claims using all 
appropriate workload management tools and processes.
    VSRs are responsible for the cycles/type of work respective to 
their assigned duties. If multiple timeliness sub-elements apply to a 
VSR (e.g. average days awaiting award, non-rating, and corrective 
actions) they must meet the Fully Successful level for all applicable 
sub-elements to be successful for the element.
    Extenuating circumstances and notification to the employee's 
supervisor will be considered. An incident will not be called until 
after the first notification of non-compliance of the above standard.
Timeliness

Timeliness of Rating End Products (including EP 930 series)

Fully Successful
    All grade levels must meet locally established timeliness 
requirements, which are to be derived from end of year station targets.
    The percentage of claims in each cycle pending over the locally 
established cycle goal must align with station goals for percentage of 
claims greater than 125 days. Management for each station sets goals.
Cycle Times

        a. Average Days Awaiting Development
        b. Average Days Awaiting Evidence
        c. Average Days Awaiting Award
        d. Average Days Awaiting Authorization

Timeliness of Non-Rating & Control End Products (i.e. EPs 600, 
                    writeouts, 800 series)

Fully Successful
    All grade levels must meet locally established timeliness 
requirements, which should be derived from station targets.

Timeliness of Direct Services (i.e. IRIS, Congressional Inquiries, 
                    etc.)

Fully Successful
    All grade levels must meet locally established timeliness 
requirements, which should be derived from station targets. There will 
be no more than 5 instances where the VSR fails to meet established 
timeliness, or failure of employee to notify their supervisor when 
cases cannot be worked within established timeframes and reasons 
thereof.

Timeliness of Special Projects & Duties (i.e. Women Veterans 
                    Coordinators, AEW Project, etc.)

Fully Successful
    There will be no more than 3 instances of tasks not being worked 
within established timeframes, or failure of employee to notify their 
supervisor when cases cannot be worked within established timeframes 
and reasons thereof.

Timeliness of Corrective Actions

Fully Successful
    There will be no more than 3 instances of failure to complete a 
returned corrective action, or failure of employee to notify their 
supervisor when cases cannot be worked, within three days of the case 
being returned to them for correction.

Workload Management

Fully Successful
    All grade levels must manage their workload in accordance with 
locally established workload management plans. There will be no more 
than 2 instances where the VSR fails to show compliance with 
established workload management procedures.
    Local management will be responsible for creating and communicating 
a workload management plan that will identify the types of work to be 
completed.
Indicators
        <bullet> VETSNET Operations Reports
        <bullet> Local Tracking Reports
        <bullet> Supervisory Observation

ELEMENT 3--OUTPUT (Critical)

Fully Successful
    VSRs process a minimum cumulative average number of outputs per 
day. Outputs will be counted as follows:

        <bullet>  Development (Initial Development, Subsequent 
        Development, and Ready for Decision including rating Eps, EP 
        930s, administrative decisions, appeals, non-rating Eps, and EP 
        600s)--.7
        <bullet>  1-2 contention claim development (Initial 
        Development, Subsequent Development, and Ready for Decision 
        including rating Eps, EP 930s, administrative decisions, 
        appeals, non-rating Eps, and EP 600s)--.5
        <bullet>  Telephone development -.1
        <bullet>  Process award/decision (generate award, clear end 
        product)--.7
        <bullet>  Authorize award--.33

    Note 1: Subsequent development includes any actionable item, which 
moves the claim forward and is subject to quality review.
    Note 2: Telephone development requires contact with claimant, 
representative, or medical facility to further the development of the 
claim. Credit for telephone development may be taken in addition to 
development credit.
    Note 3: VSRs performing Post-Determination authorization duties 
will receive an additional .5 weighted action for more complex cases 
involving out of system payments or retroactive effective dates 
preceding 1982 (earliest generate line in VETSNET).
Successful Level
        GS-7: 4
        GS-9: 5
        GS-10: 5.5
        GS-11: 6
Indicators
        <bullet> VOR
        <bullet> ASPEN

    There will be no output element expectation for 90 days following 
the completion of challenge training regardless of entry grade.
    Duplicate credit will not be allowed for self-correction of a VSR's 
error.
    Leave, union time, and special projects or assignments pre-approved 
at the discretion of the supervisor are considered deductible time. 
Unmeasured time, such as informal training, was considered in 
developing the successful level and is not reportable deductible time.

ELEMENT 4--TRAINING (Critical)

    VSR will stay abreast of current laws and regulations, work 
processes, policies and procedures and computer applications in order 
to provide optimum service to our Veteran population.
    Employees are encouraged to actively participate in self-
developmental activities.
    Performance for this standard will be mitigated when the VSR's 
supervisor has not allotted sufficient time for VSR to complete 
training requirements or if the VSR is not provided a schedule of 
available training and the deadline they are to complete.
    It is the responsibility of supervisors to provide VSRs with a 
training schedule in advance so they can complete their training 
requirements.
Successful Level
    GS-7/9/10/11: Timely completion of nationally mandated training 
hours to include core requirements and mandated local training during 
evaluation period. Completes mandatory training within assigned 
deadlines with no more than 1 violation during evaluation period.
Indicators
        <bullet> TMS
        <bullet> Supervisory Observation

ELEMENT 5--Organizational Support (Non-critical)

    Functions as a team member to enhance resolution of claims and 
customer service contacts by work actions. Maintains professional, 
positive, and helpful relationships with customers by exercising tact, 
diplomacy, and cooperation.
    Performance demonstrates the ability to adjust to change or work 
pressures, to handle differences of opinion in a businesslike fashion, 
and to follow instructions conscientiously. As a team member, 
contributes to the group effort by supporting fellow teammates with 
technical expertise and open communications and by identifying problems 
and offering solutions. Performance also demonstrates the ability to 
effectively communicate in a courteous manner with customers during the 
personal or telephone interview process.
Successful Level

  GS-7/9/10/11:                 No more than 3 instances of valid
                                 complaints or incidents.*
 
* A valid complaint or incident is one where a review by the supervisor,
  after considering both sides of the issue, reveals that the complaint/
  incident should have been handled more prudently and was not unduly
  aggravated by the complainant. Disagreeing, per se, does not
  constitute ``discourtesy.'' Valid complaints or incidents will be
  determined by the supervisor and discussed with the employee.

Indicators
        <bullet> Verbal and/or written feedback from internal and/or 
        external customers
        <bullet> Observations by a supervisor with the complaint 
        documented
                                 ______
                                 
Attachment 2
                       NATIONAL PERFORMANCE PLAN
             RATING VETERANS SERVICE REPRESENTATIVE (RVSR)
                     (Excludes PMC and IDES RVSRs)

ELEMENT 1--QUALITY (Critical)

    The RVSR must consistently and conscientiously exercise sound, 
equitable judgment in applying stated laws, regulations, policies and 
procedures to ensure accurate information is disseminated to veterans 
and accurate decisions are provided on all benefit claims administered 
by the Department of Veterans Affairs.

Fully Successful (Issue Based)

    Experience level defined by time in position:

 
    6-12 months:                   The accuracy rate during the
                                    evaluation period equals or exceeds
                                    80% (cumulative)
    13-18 months:                  The accuracy rate during the
                                    evaluation period equals or exceeds
                                    85% (cumulative)
    19-24 months:                  The accuracy rate during the
                                    evaluation period equals or exceeds
                                    90% (cumulative)
    Over 24 months:                The accuracy rate during the
                                    evaluation period equals or exceeds
                                    92% (cumulative)
 

Indicator
    A random selection will be made of an average of 5 end products per 
month regardless of number of issues decided. This includes completed 
cases and partial ratings to determine the accuracy of the originator. 
The selection of actions, while random, must reflect an appropriate mix 
of work performed by the employee throughout the month (i.e. not from a 
single day or single week).
    If a routine review of a RVSR's work demonstrates the need for 
quality improvement, an expanded sample of 10 total end products per 
month will be reviewed for quality purposes.
    Once an error is found and recorded concerning a specific issue 
associated with the claim (ex: effective date), no additional errors 
related to that issue should be recorded (consistent with M21-4 under 
the Quality Review Structure for cascading effect).

ELEMENT 2--TIMELINESS (Critical)

    Timely processing of veterans claims is of paramount importance as 
it highly correlates with customer satisfaction. The RVSR will operate 
in an efficient manner to accurately finalize claims using all 
appropriate workload management tools and processes.
    RVSRs are responsible for the types of work respective to their 
assigned duties. Extenuating circumstances and notification to the 
employee's supervisor will be considered.

Timeliness of Workload Management (includes rating, non-rating and 
                    appeals)

Fully Successful
    RVSRs must manage their workload in accordance with locally 
established workload management plans.
    There will be no more than 3 instances of RVSR specific duties not 
being completed within locally established timeframes, or failure of 
employee to notify their supervisor when cases cannot be worked within 
established timeframes and reasons thereof during the evaluation 
period. An incident will not be called until after the first 
notification of non-compliance of the above standard.
Indicators

        1  VETSNET Operations Reports (VOR)
        2  Local Tracking Reports
        3  Supervisory Assignments and Observation
        4  Folder Aging Reports
        5  VACOLS Reports

ELEMENT 3--OUTPUT (Critical)

    Processes a minimum cumulative average number of weighted actions 
on rating related end products and the following: EP 930 series, 
statements of the case, supplemental statements of the case, claims 
certified to BVA, hearing decisions, EP 290, 600, 095, 070, 172, 165.
    Weighted action credit will be given based on number of issues 
completed per the following:

        1-2 issues completed:  .5 weighted action
        3-4 issues completed:  1 weighted action
        5-9 issues completed:  1.5 weighted actions

    Each additional 5 issues completed will be given .5 weight actions 
(i.e. 10-14 issues completed: 2 weighted actions; 15-19 issues 
completed: 2.5 weighted actions; 20-24 issues completed: 3 weighted 
actions; et cetera)
Fully Successful
    Experience level defined by time in position:

        6-12 months:  1.5 weighted actions
        13-18 months:  2 weighted actions
        19-24 months:  2.5 weighted actions
        Over 24 months:  3 weighted actions

    * RVSRs on the Special Operations team will have an additional .25 
weighted actions added to their output for each claim worked meeting 
special operations criteria to account for the complexity of these 
cases.
Indicators
    VOR
    ASPEN
    VACOLS Reports

    * Duplicate credit will not be allowed for self-correction of an 
RVSR's error.
    ** Leave, union time, and special projects or assignments pre-
approved at the discretion of the supervisor are considered deductible 
time. Unmeasured time, such as informal training, was considered in 
developing the successful level and is not reportable deductible time.

ELEMENT 4--TRAINING (Critical)

    RVSR will stay abreast of current laws and regulations, work 
processes, policies and procedures and computer applications in order 
to provide optimum service to our veteran population.
    RVSRs are encouraged to actively participate in developmental 
activities of self and others. For example, this may include 
volunteering to conduct needed training, mentoring and second signature 
reviews.
    The RVSR will complete mandatory Core Technical Training 
Requirements (CTTR) as outlined on a published training schedule and 
within specified deadlines.
    It is the responsibility of supervisors to provide RVSRs with a 
training schedule in advance so they can complete their training 
requirements. It is the responsibility of the RVSR to complete all 
required training within established guidelines.
    Performance under this element will be mitigated when the RVSR's 
supervisor has not allotted sufficient time for RVSR to complete 
training requirements or if the RVSR is not provided a schedule of 
available training and the deadline they are to complete.

Fully Successful

    Timely completion of nationally mandated training hours to include 
core requirements and mandated local training during evaluation period. 
Completes training within assigned deadlines with no more than 1 
violation during evaluation period.
Indicators
    TMS
    Supervisory Observation

ELEMENT 5--Organizational Support (Non-critical)

    Functions as a team member to enhance resolution of claims by work 
actions. Maintains professional, positive, and helpful relationships 
with internal and external customers (to include fellow employees and 
all stakeholders) by exercising tact, diplomacy, and cooperation.
    Performance demonstrates the ability to adjust to change or work 
pressures, to handle differences of opinion in a businesslike fashion, 
and to follow instructions conscientiously. As a team member, 
contributes to the group effort by supporting fellow teammates with 
technical expertise and open communications and by identifying problems 
and offering solutions. Performance also demonstrates the ability to 
effectively communicate in a courteous manner with internal and 
external customers (to include fellow employees and all stakeholders).
    The RVSR provides information to veterans and claimants that is 
accurate, concise, complete and written in a non-adversarial, 
respectful manner that demonstrates courtesy and compassion. This 
information may be in the form of rating decisions, written 
correspondence to claimants and other verbal communication with 
claimants such as personal hearings.
Fully Successful
    No more than 3 instances of valid complaints or incidents.*

    * A valid complaint or incident is one where a review by the 
supervisor, after considering both sides of the issue, reveals that the 
complaint/incident should have been handled more prudently and was not 
unduly aggravated by the complainant. Disagreeing, per se, does not 
constitute ``discourtesy.'' Valid complaints or incidents will be 
determined by the supervisor and discussed with the employee.
Indicator
    Verbal and/or written feedback from internal and/or external 
customers. Observations by a supervisor with the complaint documented.
                                 ______
                                 
Attachment 3
                          PERFORMANCE PLAN DRO

ELEMENT 1--QUALITY OF WORK

    The DRO must consistently and conscientiously exercise sound, 
equitable judgment in applying stated policies to ensure accurate and 
timely decisions on compensation and pension benefit claims 
administered by the Department of Veterans Affairs.

Successful Level: Accuracy rate during the evaluation period equals or 
                    exceeds 90%.

Indicators
    An unbiased selection will be made of an average of five cases per 
month per employee. The cases selected will be reviewed [prior to 
concurrence by a second signature, if applicable] to determine the 
accuracy of the originator of the decision. Only one error is counted 
per case reviewed. The errors will be called using the categories 
identified on Attachment A below.

ELEMENT 2--PRODUCTIVITY*
---------------------------------------------------------------------------

    * Leave, union time, special projects or assignments pre-approved 
at the discretion of the supervisor, and 2nd signature reviews (of 
trainees only) are considered deductible time.
---------------------------------------------------------------------------
    Processes a minimum cumulative average number of 3 weighted cases 
per day. Cases will be counted for production purposes as follows:

    <bullet> 1/2 case = deferred/supplemental development actions when 
no other action listed below is possible. This excludes sending/
preparing a DRO election letter. This credit is not limited to formal 
appeal cases and can include any case for which substantive review and 
deferred/development by a DRO is appropriate.
    <bullet> 1/2 case = Informal conference held; case certified to 
BVA; preparation time for a hearing; formal hearing held (the 1/2 case 
for preparing for a hearing should be reported separately from the 1/2 
case awarded for holding a formal hearing).
    <bullet> 1 case = SOC, SSOC or DRO decision (includes EPs 172/174/
070) with less than 8 issues decided.
    <bullet> 2 cases = SOC, SSOC or DRO Decision with 8-15 issues 
decided.
    <bullet> 3 cases = 16-23 issues rated; 4 cases = 24-31 issues 
decided, etc.

Note:

    1. Only one type of case credit can be taken at a time. For 
example, if a DRO does a separate SOC and a rating, only one credit 
would be taken. The credit with the greater weight should always be 
used. If separate decisions combine to eight or more issues, this can 
be combined and 2 case credits taken.
    2. The 1/2 case development credit may apply to cases where an NOD 
has not been filed. To be applicable, the cases must have already had a 
decision made on them, and brought to the DRO's attention because of 
some conflict with the facts or law as applied in the case. This would 
also apply to any cases assigned to the DRO by VSC management based on 
the complexity/sensitivity of the case. This credit does not apply to 
routine rating development cases and, again, can only be claimed 
exclusive of any other weighted action listed above.
    3. The case credit review for an SOC [EP 172 or 174] should be 
taken per the parameters in M21-4 Appendix C. Concerning formal 
hearings (EP 174), a full case credit is only available if the formal 
hearing is actually held; otherwise, the only credit available is the 
1/2 case for preparation time, if applicable.
    4. The term ``DRO decision'' is defined as any rating related to an 
appeal where the DRO has made a favorable decision requiring some type 
of award action. Separate DRO decision and rating decision documents 
for the same issue are not required.
    5. Weighted case credit for non-appeal cases is the same as the 
RVSR weights.

Successful Level: weighted cases per day (cumulative)

Indicators
    Production reports

ELEMENT 3--CUSTOMER SERVICE

    Functions as a team member to enhance resolution of claims and 
customer service contacts by work actions. Maintains professional, 
positive, and helpful relationships with internal/external customers by 
exercising tact, diplomacy, and cooperation.
    Performance demonstrates the ability to adjust to change or work 
pressures, to handle differences of opinion in a businesslike fashion, 
and to follow instructions conscientiously. As a team member, 
contributes to the group effort by supporting fellow teammates with 
technical expertise and open communications and by identifying problems 
and offering solutions. Successful achievement in this element reflects 
support of all scorecard goals.

Successful Level: No more than 3 instances of valid complaints or 
                    incidents.

Indicators
    Verbal and/or written feedback from internal and/or external 
customers. Observations by a manager with the complaint documented.
    A valid complaint or incident is one where a review by the 
supervisor, after considering both sides of the issue, reveals that the 
complaint/incident should have been handled more prudently and was not 
unduly aggravated by the complainant. Disagreeing, per se, does not 
constitute ``discourtesy.'' Valid complaints or incidents will be 
determined by the supervisor and discussed with the employee.

ELEMENT 4--TIMELINESS

    Works in a manner that supports and contributes to meeting 
established VBA timeliness requirements.
    At present the timeliness element is not officially measured. 
Methods are currently being discussed concerning accurate and equitable 
ways to measure appeals timeliness. At that time, this element will be 
revisited.
                              attachment a
Were all claimed issues addressed?
Were all inferred issues addressed?
Were all ancillary issues addressed?
Was effort to obtain all indicated evidence documented?
Was requested VA exam necessary & appropriate or was a necessary exam 
requested?
Was all evidence received prior to denying claim?
Was the grant or denial of all issues correct?
Were there percentage evaluations assigned correct?
Was the combined evaluation correct?
Were the effective dates correct?
Was all of the applicable evidence discussed?
Was the basis of each decision explained?

[end of attachments 1-3]
    VBA sets the standards for work to be completed based on the 
position and experience level of the employee. VBA performance 
standards are consistent for all claims processors across the Nation. 
Performance credit for VSRs is weighted based on the complexity of the 
action completed. For example, completing an initial letter in response 
to a Veteran's claim for benefits is weighted higher than a follow-up 
contact with a Veteran via telephone. RVSR work credit is weighted 
based on the complexity of the case and number of issues rated. For 
example, an RVSR on the special operations team that rates a highly 
complex claim with nine medical contentions will receive a higher 
weighted credit than a RVSR on the express team that rates a claim with 
two medical contentions.

    Question 166.  The fiscal year 2015 VA Budget Submission for Major 
Construction Projects for the Veterans Health Administration notes that 
there remained $13.8 million in unobligated funds for the Las Vegas VA 
Medical Center through September 30, 2013. What is the VA's plan for 
utilizing unobligated funds to improve any inadequacies at the Las 
Vegas VAMC?
    Response. As of March 31, 2014, $11.5 million remains unobligated. 
Currently, approximately $2.9 million is set aside to complete open 
contract issues on the original construction project, which includes 
the remaining contingency for active contracts. VA is examining 
potential enhancements to the Las Vegas VA Medical Center with the 
remaining $8.6 million.

    Question 167.  What progress has the VA made in establishing a 
National Veterans Burial Ground in a rural area of Nevada?
    Response. Department of Veterans Affairs (VA) is proposing to 
establish a national cemetery presence in highly rural areas where the 
Veteran population is less than 25,000 within a 75-mile service area. 
The proposal targets those states in which there is no national 
cemetery within the state open for first interments and areas within 
the state that are not currently served by a state Veterans cemetery or 
a national cemetery in another state. Elko, Nevada is one of the eight 
locations in which VA intends to establish a national cemetery presence 
as part of VA's Rural Initiative. This location will serve a population 
of over 4,000 Veterans currently unserved by a Veterans cemetery burial 
option. Funding is available for the site selection process.
    VA advertised for potential sites in September 2013, and then 
assembled a site evaluation team to visit Elko, Nevada, in 
December 2013 to review all responses. Because the results of that site 
evaluation tour yielded only marginally acceptable sites, VA is 
currently placing another advertisement seeking additional sites and 
will conduct further site selection visits after reviewing responses. 
VA is also collaborating with officials of the City and County of Elko 
and the U.S. Bureau of Land Management to seek available land that 
meets VA requirements. Once VA identifies preferred sites, it will 
proceed with due diligence studies on those sites to ensure that they 
are fully developable.

    Chairman Sanders. Thank you very much.
    Let me begin by picking up on a point that Members have 
raised and you just discussed yourself. For the last several 
years, there has been a loud concern about the backlog.
    General Shinseki, when you came into your position, you 
announced a very ambitious goal, and that goal was to process 
all claims in 125 days with 98 percent accuracy by 2015. Your 
goal was to go from a paper system to an electronic system.
    Can you or General Hickey give us some explicit information 
about where you are in that process?
    Secretary Shinseki. Certainly, Mr. Chairman. Let me just 
open, and then I will turn to Secretary Hickey for the 
specifics.
    First, I would say that no veteran should have to wait to 
have their claims adjudicated, and we are committed to doing 
that as quickly as we can. Hence, 5 years ago, we had no 
standard for what was a backlog, so we established one at 125 
days--every claim, not an average, but every claim handled in 
125 days or less--and all of our work done at 98 percent 
accuracy. That has not changed.
    What you have seen over the last 3 years was a commitment 
to do that by investing resources you provided to come up with 
an automation tool called VBMS, Veterans Benefits Management 
System. It has taken us time to design, develop, test, pilot, 
and make sure we had a good platform that we could hang 
capability on as we continued to improve it.
    You have seen all of that over the last 3 years. We 
completed fielding it in June 2013.
    Chairman Sanders. If I may, because I only have 5 minutes, 
I just want to--the bottom line is you believe you are on path 
to achieve the goal that you established?
    Secretary Shinseki. We are on path to do that.
    Chairman Sanders. General Hickey, do you want to add 
anything to that?
    General Hickey. Just to say that we have taken 237,000 out 
of inventory in a single year, and we have reduced the backlog 
by 40 percent in a single year. Our veterans are now waiting 
117 days less on average for a claim decision, and our quality 
in all those decisions is up over 90 percent.
    Chairman Sanders. OK. Let me ask Dr. Petzel a question if I 
might.
    Dr. Petzel, within the VA and throughout our country, there 
has been a concern that we overmedicate. The VA has done some 
cutting-edge work in terms of using complementary and 
alternative medicine to treat a variety of problems.
    My understanding is that you have launched what is called 
an Opioid Safety Initiative in Minnesota. Can you tell us a 
little bit about that and what you see in terms of the future 
regarding complementary and alternative medicine?
    Dr. Petzel. Yes, Mr. Chairman. Thank you for that question.
    We have actually launched this across the entire system. 
All of our medical centers are now participating in an opioid 
safety program, which entails five elements.
    It is an opioid dashboard which elucidates high prescribers 
and high users and then a process by which the users and the 
providers are met with and treatment is discussed.
    Two, every medical center has a pain clinic.
    Three, every medical center uses the Stepwise pain 
process--which the VA developed--a real revolutionary approach 
to using the least risky alternatives in managing pain.
    I think from your perspective, most importantly, we require 
right now that every pain program offer at least one 
alternative medicine-process and that they develop within this 
year another alternative medicine program. So, acupuncture for 
pain is probably the most common thing, and you will find that 
we have about 90 acupuncture programs around the country.
    Chairman Sanders. Are you finding veterans gravitating to 
those types of therapies?
    Dr. Petzel. Absolutely. People want to use the least risky 
way to manage their pain.
    I mean, this is something that they have come with in 
general out of their experiences in combat, and it can be a 
terrible burden for them. And, yes, they want to find ways 
without using opioids or narcotics to manage their pain.
    Chairman Sanders. All right. My last question is for 
whoever may want to answer it, and that is with the health care 
budget.
    As I understand it, Mr. Secretary, the VA anticipates 
seeing an increase of approximately 100,000 new patients in the 
coming year. We are delighted that more veterans are accessing 
VA health care, but I am concerned whether the 3 percent 
increase in medical care in this budget will be sufficient to 
care for these new users, existing users, expand available 
services, and keep pace with all of the issues that we have 
there.
    Is that enough money? It sounds to me like it is not.
    Secretary Shinseki. Mr. Chairman, I would tell you we have, 
for several years now, been working with DOD to understand how 
our patient load may change when they arrive at the point that 
they are going to make a decision about downsizing.
    I believe that decision has been made. We are working with 
them now to understand the plan. So, this budget request is 
prior to that plan being provided, but we continue to work 
that.
    We believe we have in this budget anticipated what our 
needs are going to be in 2015, but then, again, this will 
depend on what the downsizing plan entails.
    Chairman Sanders. OK. I am going to go vote and will be 
back as soon as I can.
    Senator Brown, will you take over, and do we have anybody 
who has voted yet?
    All right. We think Senator Isakson will be back soon. He 
will take over the Chair, and we will rotate back.
    Senator Johanns.
    Senator Johanns. I was just going to offer, Mr. Chairman. 
It looked like I had taken control. [Laughter.]
    Just joking. Just joking.
    Chairman Sanders. Do not be reckless.
    [Laughter.]
    Senator Johanns. Secretary, let me focus on capital 
improvements, if I could.
    The fiscal year 2015 budget request is for $561.8 million. 
As I understand the way that request is put together, it is 
actually for four ongoing projects that are in some state of 
construction.
    So, the first question I have on that is, does that 561.8 
represent a sufficient amount of money to get those projects to 
the finish line? Are they done at the end of that, or do we see 
this again next year?
    Secretary Shinseki. Senator, the four construction 
projects--and I will list them: Los Angeles, for seismic 
corrections; Long Beach Mental Health and Community Living 
Center; Canandaigua, New York, domiciliary outpatient facility, 
community living center; San Diego, spinal cord and seismic 
deficiency. These are all projects that are on the execution 
list under the major construction program for 2015.
    Senator Johanns. My question, though, is, does the $561.8 
million complete those projects this year?
    Secretary Shinseki. Yes, they do.*
---------------------------------------------------------------------------
    * Secretary Shinseki corrects this statement later in his 
testimony.
---------------------------------------------------------------------------
    Senator Johanns. It does.
    Secretary Shinseki. Yes.
    Senator Johanns. OK. The concern I have, I guess, is 
probably going to be obvious here. $561.8 million checks the 
box on those 4 projects. As you know, we have been working our 
way somewhere through the list in Nebraska, although I do not 
want to single out Nebraska. There are a whole bunch of other 
States out there, many of which are ahead of us.
    What I am looking at is all of these projects. There has 
been an estimate--it is probably a pretty rough estimate-that 
$23 billion is necessary to address what is on the waiting 
list; and if Omaha is that far down the list, I can only 
imagine the problems ahead of us.
    Tell me how we can best put a process in place to address 
what you are dealing with and what we are dealing with?
    It is a lot of money. It would be very hard to come up 
with.
    I do not think we would want some 20-some projects all 
going at once. That stretches everybody pretty thin.
    So, how do we move these projects in a more aggressive way?
    Secretary Shinseki. I would say, Senator, we have done our 
best to prioritize these projects so that at the very top are 
the safety and security issues that we have to address for 
safety of employees and veterans. And when we do that, of 
course, then you can see an ordering.
    Second, the priority would be to ensure that what we have 
today is kept at a good standard. And therefore, for minor 
construction, not just major but minor construction and 
nonrecurring maintenance, those funds, in addition to the $561 
million you talked about, we have $495 million for minor 
construction, another $460 million for nonrecurring 
maintenance. So, these other funds keep us at a safe standard 
in the facilities we have today.
    Our commitment is as we work toward getting to Omaha, for 
example, that what we have today in Omaha, the hospital there, 
will be kept at a safe, functioning standard that veterans will 
see as their hospital delivering high-quality care.
    Senator Johanns. Yes, I see the work. I was just out at the 
medical center recently, and I saw the work. They were talking 
to me about the minor construction that they are doing.
    I always receive it as a bit of a mixed blessing. Yes, I 
want that facility to be safe and do things for veterans; on 
the other hand, no one is going to argue that that facility 
should have a long-term future.
    So, all these millions we are putting into these facilities 
across the country--I just hope we are not chasing good money 
with bad money, if you know what I am saying.
    I am sure it is a dilemma for you.
    There is a point at which the buildings have just served 
their useful life.
    Secretary Shinseki. We do have facilities that are 
underutilized and are vacant, and with those, we do our very 
best to take them down so we can husband resources that would 
ordinarily go on to some level of maintenance there, husband 
those resources to put in new facilities where they are needed.
    I would also say, Senator, besides our major, minor and 
nonrecurring maintenance, these projects, we also have a 
leasing program that is important to us which primarily does 
not come out of the construction budget; it comes out of the 
medical care account.
    It is a powerful tool for us to be able to provide, in 
communities where community-based outpatient clinics may be 
needed, a lease arrangement. We stand it up very quickly, and 
it provides the services needed; and we are not going through a 
long-term development process.
    I would add a sixth component here and that would be our 
telehealth/telemedicine capability. We have invested heavily in 
that. So, not only do you see 151 medical centers and 820 
community-based outpatient clinics and 300 Vet Centers, they 
are all linked through telehealth/telemedicine, especially 
important in rural areas where travel and access are not what 
they need to be.
    But, if we can provide in those communities a clinic where 
veterans can find access, even if we do not have a kidney 
expert there, through our telehealth means, we can give them 
access to one.
    So, when we are talking about the construction program, I 
like to view it as access; that is, the walk-in access and how 
we link this through technology, to provide the best quality 
care and try to level the playing field here so that a veteran, 
no matter where they live, will be able to enjoy the quality 
care we can provide.
    Senator Johanns. We will continue this discussion. I am 
going to head to the floor so I can cast my vote before they 
close it.
    Thank you.
    Senator Isakson [presiding]. Well, the rest of the team 
will be back in a little bit. I just passed them while coming 
back, so, we will have the whole complement of Members pretty 
soon.
    Mr. Warren, did I understand it correctly that you are the 
information technology person?
    Mr. Warren. Yes, sir, I have that role.
    Senator Isakson. Well, I am about to demonstrate that I am 
not, but I have a question about that which I would like to get 
an answer to.
    I have been reading out the VBMS, the Veterans Benefits 
Management System, and I understand it is fully deployed now 
from the standpoint of being installed, yet it is not 
operational. Is that right?
    Secretary Shinseki. Senator, it is fully deployed, fielded, 
and was completed last June, 6 months ahead of schedule. It is 
being used, but it is not the only means of processing a claim 
today.
    This is probably the big crossover year for us. We still 
have claims in paper, and so the great workforce that we have 
is dribbling two basketballs at the same time. They have to be 
able to do paper today because that is the legacy system, but 
every day less paper, and sometime later this year it will be 
only digital, and they have to do digital at the same time 
today.
    So, it is functional, but we are not totally reliant on 
just VBMS today.
    Senator Isakson. From what I read, I think there is about 
$44.5 million in the budget for the continued installation of 
that. Is that correct?
    Secretary Shinseki. Let me turn to Mr. Warren on that.
    Mr. Warren. The number is actually $137 million----
    Senator Isakson. OK.
    Mr. Warren [continuing]. Being requested in the 2015 
budget, and we would appreciate your support for that, sir.
    Senator Isakson. And here comes my question that is going 
to illustrate my IT ignorance, probably. It is said in here 
that you are using an agile approach in terms of the 
installation and that you are deploying different patches and 
that this will take some time to complete. Would you tell me 
what kind of patches you are talking about or what they are 
referring to?
    Mr. Warren. Thank you for that question, sir.
    Agile is an approach where instead of putting all your 
requirements together and then many years down the road you 
bring capability online, as the Secretary mentioned, the system 
has been brought online, and every 90 days we add more 
capability, more function, in the hands of the employees in VBA 
so they can keep processing more.
    So, it is an iterative process. Every 90 days, major 
functionality gets deployed. In between the 90 days, if there 
are things we need to adjust or tweak, we add that capability 
in as well.
    So, high frequency, high cycle rate, making sure we are 
putting capability on the ground so that the folks in VBA can 
drive ourselves to that outcome.
    Secretary Shinseki. Senator, if I can try to--he is a techy 
person. I am not either, so let me try to put it in our terms.
    There are two ways to approach a large IT project, which do 
not apply to the smaller IT projects. They are a little more 
manageable.
    But, a large IT project--you can wait to design the entire 
elephant and then try to field that whole thing at once. And 
what sometimes happens is you will find something does not work 
in this large project, and then it is difficult to find it 
because everything is out there.
    The agile approach that Steph Warren is describing is we 
have an idea where we want to go, and we know where we want to 
start, so we start modestly. We put a segment in. We let it run 
for 90 days, and we see what hiccups and burps, and then we fix 
that because we can find it in that narrow slice. Then we 
realize we need to add some more capability, and we do that.
    Over time, it sounds like these incremental approaches 
would take longer, but they are actually faster, and that has 
been our experience.
    Senator Isakson. The thing I want to be sure of in leading 
up to what I am about to ask you, is I have had one experience 
with a statewide installation of a computer system into 179 
schools that I had to fix a bad problem that was related to 
patches where they had tried to custom-make the software to be 
site-specific rather than system-specific and the patches were 
used to correct that.
    I am taking it from what Mr. Warren has said that you are 
phasing in the installation of the software but that it is 
universal. You are not patching at each site. You are patching 
it for the universal system. Is that right?
    Mr. Warren. Yes, sir, that is the case. It is a national 
deployment. So, when we roll out capability, every regional 
office gets that capability and they are able to use it the 
next day once it comes online.
    Senator Isakson. And you are not correcting a problem. What 
you are doing is phasing in an activity. Is that right?
    Mr. Warren. Sir, we are adding more capability every time 
we bring new functions online for the benefits folks.
    Senator Isakson. Well, you are doing it the right way 
because I did it the wrong way in the State of Georgia and I 
paid a terrible price for it. So, that is why I ask that 
question--because you cannot patch site-specific stuff; you 
have got to do it universally in the system.
    Mr. Warren. Yes, sir.
    Senator Isakson. Dr. Petzel, I want to correct something 
that was in the record. It was reported that you inferred 
that--I do not think you probably did infer because I have 
talked to you about this before when you testified at our field 
hearing.
    But you had a hearing in February with the House Veterans' 
Affairs Committee, and you stated, `` * * *the IG report 
related to mismanagement of the [Atlanta] VAMC did not connect 
deaths to mismanagement.''
    But I believe you have stated before the hearing in 
Atlanta, as well as personally to me on a number of occasions, 
that there were mismanagement issues that contributed to the 
suicides in Atlanta. Is that correct?
    Dr. Petzel. You are absolutely right, Senator Isakson. I 
had misspoken in that I was referring to the review of the 
contract, not the review of the care on the facility.
    The contract review by the IG--they did not directly 
connect it, but they did very definitely connect the activities 
on that ward with a suicide death. You are absolutely right.
    Senator Isakson. Well, because of what you have done on 
this, I wanted the record to reflect accurately what you said 
in both cases.
    I want to publicly acknowledge the fact that you have come 
to Atlanta and met personally with survivors of some of the 
suicide victims in Atlanta where you provided a great service 
at a great sacrifice on your part to do so. It is very much 
appreciated.
    Secretary Shinseki, on this issue of suicides, one of the 
big questions that is being asked--and there is a lot of press 
looking into this in Atlanta, and I am sure something is going 
to be uncovered one of these days, so I want to be prepared to 
answer this question.
    Are there contractual limits or union limits, or what kind 
of limits do you have, to reprimand or correct or otherwise 
dismiss an employee for inappropriate activity, mismanagement, 
or contributing to the failure of the system to deliver what it 
is supposed to deliver?
    Explain to me what you have to do to discipline or 
reprimand or move or fire an employee.
    Secretary Shinseki. Senator, I would say that I believe we 
have the tools that we need. First of all, VA employees, by and 
large, 30 percent of us are veterans ourselves. So, we have 
familiarity with the issues veterans face, and there is a tie 
to them; and we are deeply committed to our mission. In these 
discussions, transparency and accountability count as we are 
trying to establish and maintain trust.
    I would say that in 2012 we dismissed--involuntarily 
removed--over 3,000 employees. In 2013, we did the same.
    Senator Isakson. Is that total VA or just the medical 
services?
    Secretary Shinseki. This is all of VA, but a very large 
part of us is the Veterans Health Administration. They account 
for 70 or 80 percent of our workforce, and at 3,000, we are 
talking about a percent of our workforce. Six senior executives 
were also dismissed over the past 2 years.
    I think what I would also like to add here is that many of 
these incidents were discovered by VA employees, raised by them 
for our attention. We then, as transparently as we could, did 
our investigation, shared the information so others could learn 
from it and then set about correcting and then preventing 
future occurrences.
    An important part of this is the courage and willingness of 
VA employees to stand up and report--in some cases on 
themselves if they made a mistake--which allows us to take the 
corrective actions we have been able to do.
    I, for one, value that. I never want to see us lose that. 
So, this is part of the environment of trust that we are trying 
to retain.
    It is unfortunate anytime a suicide happens. It is a 
terrible tragedy. Or, anytime we lose a patient under our care. 
The important thing is to never let it happen again or, at 
least, commit to never letting it happen again.
    To do that, we have to find out what happened and get about 
taking corrective action, then holding people responsible where 
their performance did not meet our standard. As I said, I think 
we have done that here in the past 2 years.
    Senator Isakson. I appreciate that answer.
    I have run over my time. I want to go to Senator Murray, 
but before I do, very briefly, 3,000 per year the last 2 years 
have been dismissed in terms of VA employment for various, 
different failures to perform services.
    Secretary Shinseki. That is correct.
    Senator Isakson. How long does it take from the time you 
initiate an action to dismiss an employee for cause until you 
actually dismiss them? How long does it take you to go through 
that process?
    Secretary Shinseki. A good question. I probably ought to do 
a little research and provide that to you for the record.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Isakson. Send me a memo. By the way, this is coming 
from a reporter out of Atlanta, so, I am trying to give you a 
heads-up, because I want to be able to have the right answer 
when they call me, too.
    Secretary Shinseki. OK. Well, let me provide you a good 
answer.
    Senator Isakson. Senator Murray.

                STATEMENT OF HON. PATTY MURRAY, 
                  U.S. SENATOR FROM WASHINGTON

    Senator Murray. Thank you very much, Senator.
    Secretary Shinseki, thank you for being here as well as all 
your team.
    Secretary Shinseki, several times you and I have discussed 
my concerns about getting medical centers the researchers they 
need to provide top quality care for our veterans.
    The Spokane Medical Center recently prepared a draft 
response to questions from the network about their budget. They 
talk about the significant challenges of declining budgets, of 
numerous staffing vacancies, and leading the network in new 
veterans patients.
    They also said, ``Overall, senior management is very aware 
of the budget shortfall and is taking actions to limit the 
deficit. However, most actions will significantly limit 
staffing levels and access to care. These actions will have, 
and have had, a significant negative impact on moral and will 
drive some dissatisfaction among patients.''
    Dr. Petzel, I asked you a similar question about a similar 
budget problem at Indianapolis, at our hearing back on the 2012 
budget, and you told me there was no evidence that any medical 
center would be unable to provide the care that we all expect. 
Unless your view has changed, Spokane's assessment seems to 
disagree, and I wanted to ask you what you and the network are 
going to do to get Spokane the resources that they do need.
    Secretary Shinseki. Let me turn to Dr. Petzel for details 
here.
    Dr. Petzel. Senator Murray, thank you.
    I am assuming that that is some employee's assessment of 
the situation; it is not the senior leadership's assessment of 
the circumstances in----
    Senator Murray. It is the senior leadership's assessment.
    Dr. Petzel. I am not aware of this.
    We do believe--and the budget was distributed back in 
October, and at that time, it was the consensus of the network 
directors and the facility directors that they had sufficient 
funds to----
    Senator Murray. The questions were asked to them of the 
VISN, and they responded back. So, it was the senior leadership 
at the Spokane VA center, saying very clearly, they do not have 
the dollars to be able to do the duties that they need.
    Dr. Petzel. Senator Murray, I will have to go back and talk 
with both the network and with Spokane. This is information 
that is new to me.
    Senator Murray. OK. Well, their draft response also calls 
for a discussion about the mission of their medical center. It 
asks if they are going to remain a full-service medical center 
and whether programs and services should be eliminated. This is 
deeply concerning to me.
    Are there plans to reduce services at the Spokane Medical 
Center?
    Dr. Petzel. We have no plans to do so.
    Senator Murray. OK. Well, I need you to follow up on that 
and let me know what is happening, why they are facing such a 
budget shortfall. It was very clear in the documents that we 
have seen that they are facing an extreme budget shortfall that 
is hampering their ability to care for the veterans in that 
region.
    Dr. Petzel. We will follow up.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Murray. OK. I also wanted to ask both of you about 
the Walla Walla State Veterans Home. As you know, I am very 
concerned about that, especially because the budget request 
proposes reducing funding for State veterans homes grants. 
These veterans have been waiting a very long time for this 
facility. We have more than 1,000 veterans who need care.
    So, I want to ask whether this system that we currently 
have is correctly prioritizing State home projects? Do we have 
enough flexibility, and how are we going to ensure that we have 
got the funds for State veterans homes like Walla Walla?
    Dr. Petzel. Senator Murray, you and I have discussed on 
numerous occasions the Walla Walla State Veterans Home, and I 
share your angst about that particular project.
    We are looking at whether there is a solution that will 
allow us to use the 2014 money in order to accomplish that 
construction, but we are not finished looking at what the 
alternatives are. Obviously, after we have done that and 
discussed it with the Secretary, we will get back to you.
    Senator Murray. OK. We need to know where that is going and 
overall, meaning not just that one, but all of them. How are we 
going to deal with these veterans homes with declining budgets?
    I think that as members of Congress we need to know what 
the need is, and then we need to figure out how to fund it 
rather than just being told everything is OK.
    So, I want to know specifically about Walla Walla--what we 
are going to do, and the funding of State veterans homes in 
general.
    Finally--and I know we have another vote--the War in 
Afghanistan is drawing to a close. We have more and more 
veterans coming home, who are going to seek care at the VA, and 
we are going to see this continue, I think, in the years ahead.
    I think we all have this thought that when the war is over 
we do not have to worry about spending care on veterans 
anymore, but the exact opposite is true. A lot of veterans are 
going to come to the VA for the very first time in the coming 
years, and sometimes the conditions that they have have 
dramatically worsened.
    So, I am very, very concerned about the budget request 
reduction for funding of TBI-specific health care and research. 
Why are you proposing to reduce spending on TBI care when we 
know that as these servicemembers come home and their 
conditions worsen they are going to be seeking care at the VA 
for the first time?
    Dr. Petzel. That is an excellent question, Senator Murray.
    If you look at the money spent in 2011, 2012 and 2013, 
there is a slight decline in that, which is projected to 
continue. The specific reason for that is that we have had an 
almost 70 percent decline in the number of severely injured 
Traumatic Brain Injury patients that are going into our 
polytrauma centers. The number of people with mild-to-moderate 
TBI has continued to increase.
    Senator Murray. That is right.
    Dr. Petzel. The cost of taking care of those people is 
much, much less than it is providing care for the patients that 
end up in our polytrauma program.
    So, while we are going to be taking care of more people, 
absolutely true, we are going to be doing it at less cost 
because we are not going to be dealing with the people that are 
so severely injured in the war.
    And the second thing is that the mild-to-moderate TBI 
patients, much of their care is absorbed into and seen in the 
mental health budget; we are talking about PTSD, depression, 
and other mental health conditions.
    There is no relaxation of our concern about TBI. This is 
a----
    Senator Murray. All right. I just want to make sure we stay 
focused on that, and if we do see the costs are not being met, 
that we are aware of that situation sooner, not later.
    Dr. Petzel. Yes.
    Senator Murray. OK. Senator Isakson, I know another vote 
has been called so you and I need to go to the floor.
    I appreciate this time here today. Thank you and thank you 
to our witnesses.
    Senator Isakson. Bernie and I are about the same age. I 
think he can make it, and I will keep the hearing going. If he 
runs out of gas, then we will adjourn the hearing real quick.
    I have another question if I can ask it while we are still 
going.
    And we apologize for the gymnastics with the vote.
    Mr. Secretary, in your implementation of several 
initiatives regarding the transformation process at VA, you 
have instituted mandatory overtimes, segmented lanes, the 
Veterans Benefits Management System, fully developed claims, e-
benefits, et cetera. Can you tell us which of those initiatives 
have proved successful and beneficial to VA?
    Secretary Shinseki. Certainly. I think I would just cap it 
all and say all of those have been successful, some more so 
than others, but in some cases their delivery came at an 
earlier point, and we have had more time to assess them.
    Let me turn to Secretary Hickey for some details here.
    General Hickey. Senator Isakson, I would couch it by saying 
the following: We have implemented them, as the Secretary has 
said, on sort of a staggered approach. I can tell you that many 
of them contributed to our record-breaking 1.17 million claims 
production at a high quality and accuracy level last year 
alone.
    I will tell you we are 26 percent ahead of where we were 
even last year at our record-breaking levels of production. In 
fact, by example, our hard-working VBA employees, who are 52 
percent veterans themselves, are, as you said, working overtime 
20 hours a month to produce, in the month of February alone, 
double the production than we have made in any February before.
    So, we are seeing all of these different efforts producing 
good value for our veterans in terms of timeliness and 
accuracy.
    I would call out one success in particular from our 
veterans service organizations, and that is our fully developed 
claims process, where since February of last year we have gone 
from 3 percent of our claims being fully developed to over 28 
percent of our claims being fully developed, and that will do 
nothing but add to the benefit to a veteran as we move forward.
    Senator Isakson. Thank you for the answer, and I will turn 
it back over to Chairman Sanders.
    Chairman Sanders [presiding]. Thank you very much, Senator 
Isakson.
    I apologize for not knowing what just proceeded, but let me 
go to an issue that I think is on the minds of many Americans 
and people in the veterans community, which I know the VSOs are 
concerned about, and that is the overall issue, Secretary 
Petzel, about mental health in general.
    The country, above and beyond the VA, faces a crisis in 
lack of quality, affordable access to mental health care. With 
several hundred thousand folks coming back from Iraq and 
Afghanistan, dealing with TBI or PTSD, it certainly is a 
problem within the VA.
    Can you give us an overview of how we are doing in dealing 
with these serious problems and then also deal with another 
issue that is of concern of us; that is the issue of suicide?
    Secretary Shinseki. Let me start and then I will ask 
Secretary Petzel to provide some detail. I will start on mental 
health first. I would say it is a discussion we have had with 
you, Mr. Chairman, and other Members of the Committee here.
    Frankly, we have been at war for over a decade, and we have 
small professional formations, smaller than when I served, who 
have carried this responsibility for carrying on these two 
operational missions now for this long. So, because of the size 
of the force, they are rotated a number of times, multiple 
times, which compound the issues, especially in mental health.
    Over these 5 years--six budgets now--we have worked and 
increased the mental health budget by over 60 percent because 
of the discussions we have had. We owe these youngsters the 
best we can provide.
    Budgeting is a little bit reactive. We look at whom showed 
up at our medical facilities, and we then ask for resources to 
take care of the next population if, in fact, there has been an 
increase.
    We are working with DOD to try to anticipate what our 
requirements are going to be just at large and trying to 
understand what the mental health piece of that is.
    With that, let me ask Dr. Petzel to address some of the 
details here.
    Dr. Petzel. I want to add, Senator, to what the Secretary 
has said.
    This is a very important consequence of what we have seen 
in this war--small force, repeated deployments, and a very 
recognizable number of people, perhaps 15 to 20 percent, 
returning from that conflict with depression, PTSD, anxiety 
disorders, chemical dependency, sleep disorders--things that 
very much have a bearing on their mental health. In 2015, we 
are expecting to treat about 1.7 million people with our 
specialty mental health services and spend about $7.1 billion 
on mental health services.
    Let me just go through a few of the things, Mr. Chairman, 
that have been done over the last several years.
    First of all, since March 2012, we have hired 2,400 
additional mental health clinical providers so that we now have 
onboard over 20,000 clinical professionals delivering mental 
health services. It has had an impact on a number of things.
    The access measures have improved. They are not perfect 
yet, and they are not where we want them to be----
    Chairman Sanders. We heard this morning, if I can 
interrupt, that there are still unacceptably long wait times in 
certain facilities around the country.
    Dr. Petzel. That is absolutely true, sir. There are places 
where we are having difficulty with wait times, primarily 
because we have difficulty recruiting people into the positions 
that we need. Individual psychotherapy, as an example, is 
something that in some parts of the country we have to wait 
long periods of time for.
    However, established patients across the country--95 
percent of them are being seen for an appointment with 14 days. 
The most important group, patients that are new to the VA and 
new to mental health, 90 percent of those patients are being 
seen within 14 days. Of course, if someone walks into urgent 
care or walks into the emergency room, they are seen 
immediately.
    Chairman Sanders. All right. I know, Senator Tester, you 
have to leave soon. Why don't you take over?
    Senator Tester. Well, thank you, Mr. Chairman.
    I want to echo and thank you all for being here today. I 
very much appreciate your service in the past and currently.
    General Shinseki, the backlog is always a big thing, and we 
will be talking about the backlog until we get it down to a 
point where we do not have to talk about it anymore. Can you 
give us an idea on what the shutdown did to your backlog 
numbers?
    Secretary Shinseki. Say that again please.
    Senator Tester. What did the government shutdown in October 
2013 do to your backlog numbers?
    Secretary Shinseki. Frankly, the impact was less than we 
were concerned about, primarily because our employees went into 
high gear and just worked overtime, anticipating that this 
thing would grow. So, they were able to hold it stable for the 
month of October, but since last year we have greatly reduced 
the backlog.
    A great concern at the end of October was if the shutdown 
continued we would put at risk all the benefits checks that 
were already decided and veterans receive every month, that we 
were not going be able to process, cut those checks and 
distribute them--a significant number of veterans and large 
monies.
    Senator Tester. Thank you.
    I want to talk a little bit about the paper versus 
electronic medical record. You are running both right now, 
correct--paper and electronic?
    Secretary Shinseki. Yes, we are.
    Senator Tester. How has the DOD been as far as have they 
made the transition to electronic medical records yet, or are 
they still lagging back?
    I know we had a meeting with the Chairman of 
Appropriations, I think about a year ago right now, as a matter 
of fact, with both of you and others.
    Secretary Shinseki. DOD has its own electronic health 
record just as we do.
    Senator Tester. Do they interface?
    Secretary Shinseki. They do not interface in the way that 
we think is the future, but we have created a joint viewer 
developed by our people that will reach into the DOD database, 
reach into ours and pull up a single screen where a clinician, 
either in DOD or VA, can care for patients, then those 
decisions reside in their respective databases.
    Right now, DOD is developing, or acquiring--they are on an 
acquisition track to see what the next electronic health record 
could be for them.
    We are tracking them. We have our electronic health record, 
and our plan is to, with the support of the Congress, release 
some dollars that are on hold----
    Senator Tester. OK.
    Secretary Shinseki [continuing]. To allow us to get up to 
level 4.
    Senator Tester. It would seem to me that part of the 
backlog has to do with two different medical records. Is that 
fair to say?
    Secretary Shinseki. It has been, and we have worked to try 
to mitigate some of that.
    Senator Tester. OK. Well, let us know what we can do to 
help. I know there are some on this Committee that serve on the 
Armed Services Committee, too, and I think we can push because 
you should be--I mean, it should be, quite frankly, seamless. I 
think that is the way it should be.
    Secretary Shinseki. Senator, after good work between both 
our staffs, in January, DOD began sending us service treatment 
records electronically. So, we are beginning to get those 
records electronically now.
    Senator Tester. OK, good.
    Stating some statistics that you guys already know: there 
are 3.1 million veterans enrolled in the VA health system that 
live in rural America; that is about 36 percent of those that 
are enrolled.
    Out of the total request for telehealth of $567 million--I 
am talking about telehealth--73 goes to rural telehealth. That 
is about 13 percent. It seems like it is about a third of what 
it should be.
    Could one of you tell me why the amount is where it is?
    Secretary Shinseki. Let me ask Dr. Petzel to provide some 
detail.
    Senator Tester. Sure.
    Secretary Shinseki. In addition to telehealth and the 
breakout that you describe, we also have a rural health care 
account that also provides money for rural areas.
    Senator Tester. OK.
    Dr. Petzel. Senator Tester, providing adequate and good 
health care and accessible health care to rural veterans is a 
high priority for us, as you know, because that is a large 
percentage of the people that live in this country, of our 
veterans.
    The telehealth program primarily serves rural America.
    Senator Tester. OK.
    Dr. Petzel. I would have to--I do not know where you got 
your figure, so I have to go back and see it.
    Senator Tester. I got my glasses now. So, it came from my 
staff.
    Dr. Petzel. If we put all the equipment that is in our 
tertiary care medical facilities as focused on providing 
consultation to more rural areas, I would imagine----
    Senator Tester. OK.
    Dr. Petzel. I would like to, if you do not mind----
    Senator Tester. We can flesh that.
    Dr. Petzel [continuing]. Go back and look at that.

    [Responses were not received within the Committee's 
timeframe for publication.]

    Senator Tester. Yes, I would appreciate that.
    So, I was down in Salt Lake City and saw the telehealth 
booth where the folks out there were delivering services--I 
believe to Bozeman, MT, when I saw it. It is very impressive, 
and I think it has got tremendous upsides.
    I say that as somebody who was opposed to telehealth for 
mental health conditions, though you have turned me around on 
it although I do think you have to look eye-to-eye once in a 
while, too.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Tester.
    Let me get back to the issue--I am sorry. Senator, Johanns, 
I apologize.
    Senator Johanns. Thank you, Mr. Chairman.
    Mr. Secretary, during the break here, we have had an 
opportunity to take a look at the funding on the four capital 
projects that you have mentioned.
    Secretary Shinseki. So, have I, Senator.
    Senator Johanns. Yes, do you want to correct the record?
    Secretary Shinseki. I was going to look for--correct the 
record.
    Senator Johanns. Yes. As I see it, the New York facility is 
requesting $150 million in the future.
    Secretary Shinseki. I believe that is correct.
    Senator Johanns. Long Beach, 161. San Diego, 21, 
thereabouts. And, West Los Angeles, about 300. So, for a total 
of $631 million, which is not that far north of what you are 
getting this year for capital improvements.
    So, I look out there another year, recognizing that those 
are probably just estimates--it could be higher. It could be 
lower, I guess, although my suspicion is they will be higher at 
the end of the day.
    We are probably not going to make any progress on the list 
next year either. We seem to be stalling here.
    Secretary Shinseki. Yes. I would not say that I am totally 
comfortable with where we are. I mean, this is something we 
have worked hard for 5 years.
    I would add to the numbers that you just described, 
Senator, that we do have this Opportunity, Growth and Security 
Initiative. It is in the investment fund, and we have another 
$400 million in there. So, if we were able to leverage that, it 
would provide us about a $1.9 billion construction capability 
this year.
    This year, 2014, it is 1.7. So, there is a slight increase.
    What I can tell you is that the facilities we have today 
will continue to be maintained to be safe and secure 
environments even as we wait on these long-term projects. I 
will continue to work to try to get more leverage into our 
major construction account. This year's major construction 
account is about a 60 percent increase over the 2014 
enterprise.
    I will seek your help and try to do better at getting some 
of these projects addressed, but it is a long-term program.
    Senator Johanns. Yes.
    Thank you, Mr. Chairman.
    Chairman Sanders. Thank you.
    Senator Blumenthal.

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you, General, and thank you to your team for being 
here today. Thank you for your service to our Nation over many 
years and for providing information to me at our last meeting.
    I think at that meeting your staff was going to provide 
some of the information relating to Connecticut on backlogs, 
and if they could do so, I would be very appreciative--
Connecticut-specific information and then any additional 
information that you feel will inform us on the trends in those 
backlogs nationwide.
    Secretary Shinseki. I regret we have not gotten those to 
you yet, Senator. We will have it to you today.
    Senator Blumenthal. Thank you.
    I want to ask about homelessness. You have made 
homelessness a priority. Ending homelessness by 2015 is one of 
your preeminent goals, and you have a number of strategies that 
have been proposed for ending veteran homelessness, including 
the use of VA/HUD vouchers, which keeps veterans in their 
communities.
    We have a facility in Rocky Hill, CT, that is essentially 
about half unused. There are more than 450 available dormitory-
style beds. I am going to write you a letter about it because 
only about 250 or so of those beds are used at the moment. It 
is a facility that includes dormitory-style living as well as 
individual housing.
    But I am very troubled by the lack of usage, which may well 
reflect the need to provide psychiatric care for residents or 
help counseling and medical care for people suffering from 
addiction. But whatever the cause, I am hopeful that the 
Federal VA, your agency, will help our State Department of 
Veterans Affairs in providing the services that are necessary 
to make sure that this facility is fully utilized. There are 
beds unused because of issues that really should be addressed.
    The partnership between our State and Federal VA 
facilities, I think, is tremendously important.
    I am not asking you the question now to seek your detailed 
responses to what the VA would do, but simply, number 1, to ask 
for your commitment that you will work with me and our State VA 
in seeking solutions; and, number 2, that you will inform the 
Committee more generally as to whether these kinds of issues 
are national in scope.
    Just in case I have not made clear what I view the issue as 
being, it is essentially that there are perhaps physical 
facilities available to provide homes to veterans who are 
suffering on our streets, in our alleys, under bridges, but 
cannot be used because of the need for services addressing 
addiction, psychiatric care, other kinds of issues that 
obviously are complex and challenging, as you and I have 
discussed on occasion.
    I know of your commitment to addressing those issues.
    So, really, it is a commitment to work with me and our VA 
officials and address the problem more broadly, if you see it 
as a national problem.
    Secretary Shinseki. Sure. Senator, I will make that 
commitment to work with you.
    I do not know the specifics here, but I would say in the 
past 2 years we have created a fund called the Supportive 
Services to Veteran Families, which is a fund that allows us to 
provide grants to a variety of non-profit, local as well as 
national, agencies who work with us in housing the homeless.
    For the last 2 years, we have distributed about $300 
million each year, and I believe we are looking at, if this 
budget is approved, increasing that to $500 million. I know we 
have--it is a competitive process, and there is not enough to 
satisfy all the bids that are in, but it is handled in a way 
that every State gets attention.
    We are more than happy to work with you on this.
    Senator Blumenthal. I very much appreciate that.
    I know you are also aware and attuned to the medical 
records interoperability issue. Senator Tester has asked you 
about it.
    I just want to say to you on the record here, as I have 
said privately in our meetings, if there is anything that I can 
do as a member of the Armed Services Committee to speed or 
expedite the Department of Defense's more positive approach on 
this issue, I would be more than happy to do so. I think our 
Committee is very interested in this issue, as you know.
    Secretary Shinseki. Thank you. Thank you, Senator.
    I would assure you that Secretary Hagel and I discussed 
this. We meet routinely, and this is a topic of discussion 
between us. And so, at our level, this has the priority you 
would expect.
    Senator Blumenthal. Thank you.
    My time is expired. I thank you, Mr. Chairman.
    Chairman Sanders. Let me get back to health care--two 
issues.
    I am a great believer in primary health care. I think one 
of the reasons as a nation we end up having the most expensive 
health care system in the world is we do not do enough primary 
care and we do too much specialty care.
    The VA has historically, or at least in recent years, done 
a good job. What do we have?--over 800 CBOCs around the 
country.
    We also have a whole lot of federally qualified community 
health centers, and I have worked very hard to expand those 
programs, and I believe in them.
    I know that we have a partnership now that has been 
piloted, I guess, with both the Indian Health Service and, I 
think, federally qualified health centers. In other words, 
where you have a veteran who may be a distance away from a 
medical center or a distance away from a CBOC, that person can 
now access an Indian Health Service clinic or an FQHC in some 
pilots.
    Can you talk about what is going on and what you would like 
to see, plus what is the potential there?
    Secretary Shinseki. Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Secretary.
    Chairman Sanders, we have two different programs. We have a 
program with the Indian Health service, which has been very 
valuable in serving an incredibly needy group of veterans, and 
that is that we pay the Indian Health Service to provide 
services for veterans in their----
    Chairman Sanders. So, a non-Indian can walk into an Indian 
Health Clinic?
    Dr. Petzel. No, this is VA paying for veterans to be cared 
for in Indian Health Service----
    Chairman Sanders. Right.
    Dr. Petzel [continuing]. Or tribal clinics, not non-
Indians, but Native Americans. So, we pay the bill, and they 
get treated in their own clinic.
    Chairman Sanders. Oh, I see. OK, if a CBOC is not nearby.
    Dr. Petzel. Right.
    Chairman Sanders. And this is limited to Native Americans.
    Dr. Petzel. That is correct. This is not a program that is 
involved in the federally qualified health care program.
    Chairman Sanders. Right.
    Dr. Petzel. We are piloting contracts with 24 of those 
around the country to see how it works in terms of the 
exchanges of money, et cetera. And I fully expect that we will 
expand that program as it proves successful.
    Chairman Sanders. All right, so let me understand. A Native 
American can now go into the Indian Health Service, and their 
service is paid for by the VA.
    Dr. Petzel. If they are a veteran.
    Chairman Sanders. Right.
    Dr. Petzel. An eligible veteran, correct.
    Chairman Sanders. Right. OK. And you have now a pilot with 
a number of FQHCs around the country.
    Dr. Petzel. Right, to care for veterans in those 
communities.
    Chairman Sanders. So, this is where an FQHC is near a 
veteran and a CBOC is not; is that the----
    Dr. Petzel. That is correct although in this case they have 
to be enrolled with us.
    Chairman Sanders. Right.
    Dr. Petzel. And we make the referral to the Federal clinic, 
but that is, in essence, yes.
    Chairman Sanders. And do you see the opportunity to expand 
that partnership?
    Dr. Petzel. We are going to be evaluating that pilot 
project. If it looks like it is a success, we will find other 
places where we can expand this, correct.
    Chairman Sanders. So, the bottom line there--a veteran 
lives near a community health center, not near a CBOC; the VA 
would pay for the care at a community health center.
    Dr. Petzel. If they were enrolled with us----
    Chairman Sanders. Right.
    Dr. Petzel [continuing]. And if we made the referral, 
correct.
    Chairman Sanders. OK. Let me ask you another question, 
General Shinseki or Dr. Petzel.
    We all understand the mental health needs that have arisen 
out of the wars, and we have heard from you that you have 
greatly expanded the number of mental health counselors and 
therapists and so forth.
    Say a word about--at the end of the day, I mean, obviously, 
we need that. We need to make sure that people have access to 
mental health services in a timely manner.
    But, how effective are the therapies now being offered in 
terms of dealing with the very difficult issues of Traumatic 
Brain Injury and Post Traumatic Stress Disorder? Are we making 
progress?
    Secretary Shinseki. Dr. Petzel.
    Dr. Petzel. Thank you, Mr. Chairman.
    We are making progress. Traumatic Brain Injury actually has 
been quite dramatic. The Secretary has frequently talked about 
the Emerging Consciousness Program, where people have been 
unconscious for periods of three to 4 months and now have 
emerged from consciousness and, if you were to casually talk 
with them, you would not know that they had ever had a 
significant brain injury.
    So, with the severely injured individuals, we are making 
progress.
    We are also making progress in treating PTSD. The evidence-
based therapies that the VA has developed have been shown in 
the literature to be successful in ameliorating the symptoms of 
PTSD.
    You have mentioned something that is very important to us, 
and we are dealing with this group of veterans who need our 
services so badly coming back from the war, and that is:

          How do we measure how well we are doing?
          How can we tell that the $7.1 billion that we are 
        requesting to provide care is actually improving the 
        health of these people?

    We have embarked now in mental health on a series of 
outcome measures, which we will be looking at over this year 
and be able to talk about at this time next year, that measure 
the influence of care on the symptoms of PTSD, that measure the 
influence of care on the Beck Depression Scale administered 
over time.
    We are going to be looking at outcomes in anxiety disorders 
and depression.
    We are going to be looking more carefully at people who are 
at risk for suicide and if we have actually improved their 
chances of not having another suicide attempt.
    Chairman Sanders. But, in general, you are telling us that 
you think the therapy----
    Dr. Petzel. We believe that we are having an impact on the 
mental health of the people that we are treating, correct.
    Chairman Sanders. OK.
    Secretary Shinseki. Mr. Chairman, let me just add to this.
    Chairman Sanders. Sure.
    Secretary Shinseki. This is a tough area for us, and we 
continue to apply. I think you will see that we are putting $7 
billion against mental health. We have a separate funding line 
for Traumatic Brain Injuries, and then we do research in this 
area.
    If you think of TBI, I would invite you to think about our 
polytrauma centers, the five polytrauma centers that ring the 
country--Tampa; Richmond; Milwaukee; Palo Alto, CA; San 
Antonio, TX. These are the five tier-1 polytrauma TBI centers 
of excellence which began many years ago.
    Chairman Sanders. In general, Mr. Secretary, these are for 
the more severe cases; is that correct?
    Secretary Shinseki. More severe cases.
    Once they are stabilized, then there is a tier 2, which I 
think there are about 82 tier-2 polytrauma locations.
    And then there is even a tier 3.
    The whole point of this system is as people improve they 
are moved closer to home, where, ultimately, they will be 
sustained.
    All of us had a chance to sit in the State of the Union 
address recently. In closing, the President introduced Sergeant 
Cory Remsburg. Sergeant Remsburg is a graduate of one of our 
Emerging Consciousness programs--a 70 percent success rate in 
bringing patients back from deep comas, comatose. Years before, 
people would have given up and said there is no hope.
    Chairman Sanders. So, these are people who were injured in 
an explosion, became unconscious, and remained unconscious for 
months.
    Secretary Shinseki. For months.
    Chairman Sanders. Now you are saying we are having a 70 
percent rate in bringing people back to normal?
    Secretary Shinseki. Bringing back to consciousness. And 
their return is--over time, we have some tremendously wonderful 
successes, where if you and I were having a discussion with one 
of our graduates we would have a hard time understanding that; 
but, then there are others who are not as far along. And there 
are various stages.
    Chairman Sanders. So, you see the VA making some 
significant breakthroughs in this?
    Secretary Shinseki. This is a great contribution here. It 
is part of the TBI research, although it is being done in one 
of our polytrauma centers. It is research that is giving us 
opportunities to see a win.
    Chairman Sanders. My time expired a long time ago.
    Senator Boozman.

                STATEMENT OF HON. JOHN BOOZMAN, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Boozman. Thank you. It is good to see you, 
Secretary Shinseki. We appreciate all of you all's hard work 
for our veterans.
    In following up with that, last Congress, we passed a law 
that would guarantee veterans with TBI that they would receive 
treatment aimed at maximizing quality-of-life rather than 
restoring function, though I do not think we have really seen 
the implementation language of that. Can you expound on that?
    And it is great to hear the stories that you are telling.
    One of our concerns with these things is that we do not 
want to have some arbitrary cutoff date when science tells us 
that you have gone as far as you can go, and yet, we are 
learning things. And then, too, we want to restore quality-of-
life issues rather than just function.
    Secretary Shinseki. Yes. I am going to call on Dr. Petzel 
for the specifics here.
    Senator Boozman. Sure.
    Secretary Shinseki. But I would say that the program I just 
described, the Emerging Consciousness, is proof of your point, 
that we know more today than we did 5 years and there should 
not be an arbitrary line drawn that says we cannot help this 
individual anymore.
    In fact, it is the folks down in Tampa who have tried 
anything and everything to try to get a response, and 70 
percent of the time they succeed, which is great for the rest 
of the country. It can benefit from the learning that has been 
created through this research effort on TBI, which this 
Committee has funded.
    Senator Boozman. And we are not--you know, we are talking 
about a finite number of individuals. I mean, this is not a 
tremendous amount of people. It is certainly a very significant 
amount.
    You may know that I am an optometrist by training. A year 
or so ago some of the residents were in that worked at the 
medical center and also were helping, rotating through the 
veterans' hospital there. But, just individuals that had things 
that you really could not actually quantify as to what was 
going on, but you knew from their histories that they were 
different now and having trouble with cognitive this and that.
    Can you elaborate, Dr. Petzel, on what we are doing to make 
sure, again, that we are dealing with quality-of-life issues 
versus some arbitrary function number?
    Dr. Petzel. Thank you, Senator Boozman.
    I want to echo the comments that the Secretary made and 
also add that I think one of the pieces of evidence about your 
concern about restoring people to the quality-of-life that they 
would have wanted, or as near to what they wanted had they not 
been injured, is over 75 percent of the people that go through 
our polytrauma centers actually return home, sometimes with 
great effort and tremendous amounts of support, but they are 
back in their homes, with their families, getting the support 
services that they need in order to be able to participate in 
their community.
    The people that I think you are referring to are those that 
are less severely injured, have injuries but are not confined 
to a bed, are not people that have spent a year and a half in a 
polytrauma center, and there is a tremendous----
    Senator Boozman. Well, really both, in the sense it is one 
thing to go home, with restored function as best we can do; it 
is another thing to go home and be somewhat integrated into 
society but not fully integrated or integrated to the--so 
really, a little bit of both.
    Dr. Petzel. And that is our aim with every single one of 
these patients, to provide them the capacity to do the maximum 
that they can and want to do in terms of integrating their life 
back into society.
    The example is it is not quite polytrauma, but it used to 
be that you were happy to get--somebody was happy to get an 
artificial leg if they lost their leg. That is not true 
anymore.
    If you live in Minnesota, that soldier wants to go out and 
play hockey. He wants to be able to function on the ice there. 
He wants to be able to play baseball.
    That is the kind of approach that we are taking with all of 
these injured soldiers, sailors, airmen, and Marines that are 
coming to us and really want to get back into society to do the 
things that they had always done.
    Senator Boozman. Very good.
    We have advanced funding in the health care aspect. Has 
that been a positive or a negative, or has it been something 
that has given you the ability to plan a little bit better? How 
has that gone along?
    Secretary Shinseki. Senator, we first received that advance 
appropriation capability in 2012. So, here we are several years 
later. We have had a little learning to go through. We are 
better at it today.
    Having a 1-year budget and planning and programming for a 
1-year cycle versus two--there is an adjustment you have to 
make. So, we are pretty much through that, still learning from 
it.
    For our health care account--medical care, medical 
services, medical facilities--that has been a great fit for 
what we do in health care administration. On October 1, without 
having to wait to see how the budget turns out, because of 
advance appropriations, they can write a contract for services 
for the entire year. Patients and employees are very well 
served, but primarily, our veteran patients are very well 
served by that.
    Senator Boozman. There are some of us that would like to 
give you that authority, you know, extend that authority to 
other accounts. From your experience that you have had with the 
health care aspect, would that be a positive or a negative?
    The trouble that we have, as you all know better than any--
we were celebrating not too long ago, only a few weeks ago, 
that we finally passed an appropriations bills and that was 3 
months into the year.
    So, it is not like you generally go year to year. It is 
more like you do not know what is going on for several months, 
and then finally you get some certainty.
    Can you comment on if you feel like that perhaps would be a 
positive thing?
    I mean, common sense to me dictates that it would.
    Secretary Shinseki. Senator, I would say anytime those of 
us who are trying to help our workforce provide services, 
anytime we can provide them predictability about what those 
services are going to be for the entire year it is helpful for 
them. So, in the health care account this makes pretty good 
sense. It would make sense in other accounts as well.
    But, I raise this issue as I did in testimony last October 
when there was this discussion. In the case of the Veterans 
Benefits Administration, we cannot process a claim within our 
own confines. To process a claim, we have to go to Social 
Security to validate other disabilities. We have to go to IRS 
to validate, by the law, threshold income requirements. We deal 
with DOD. We deal with Department of Education, the post-9/11 
GI Bill. We deal with the Department of Labor on employability 
issues.
    So, for me to say that we can do this without the 
investment from other Departments, I think I would not be 
giving you the full picture.
    As I said in October--and I do not mean to lecture anyone 
here--the best way for us to see meeting our full mission would 
be to have a budget for the Federal Government every year. That 
is what would make all of our work much easier.
    Senator Boozman. Thank you, Mr. Chair. I apologize for 
going over.
    Chairman Sanders. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman, and thank you 
for having a second round of questions.
    Thank you, Mr. Secretary, for being so forthright and 
helpful in your answers to my questions.
    Let me just begin again on a seemingly local issue. Our VA 
facility in West Haven has been found to be deficient in a 
number of serious respects by the inspector general of the VA. 
So, I would like your commitment that you will work with me in 
seeking remedies for those failings. They have been documented. 
The VA officials have been very forthcoming and responsive to 
my visits and inquiries.
    I would like to have the resources of the VA committed to 
providing the highest quality care in that West Haven facility.
    Secretary Shinseki. You and I have the same goal, Senator.
    Senator Blumenthal. Thank you.
    Secretary Shinseki. I commit to working with you.
    Senator Blumenthal. Next item, going to PTS, you may be 
aware of legal action that has been brought by the Yale 
Veterans Clinic. The good news is you are not a defendant.
    It was brought against the Secretary of the Army and a 
number of other officials. For me, it is a very serious legal 
action but also one that really embodies a moral imperative. It 
relates to veterans of the Vietnam War, who have suffered from 
PTS.
    The named plaintiff, Conley Monk, has suffered from PTS for 
40 years. He was wounded in combat, and then he was wounded a 
second time because he was denied VA medical treatment for Post 
Traumatic Stress. That condition was unrecognized at the time. 
It was undiagnosed and, therefore, not treated at all.
    As you and I have discussed, both in public and private, I 
know you have a deep understanding and concern on this issue 
and that changing his discharge from less than honorable to 
honorable is not within your power. It is the authority of the 
review board in the Department of Defense.
    You have mentioned that you have regular conversations and 
meetings with Secretary Hagel. I have asked about this subject 
in the course in the Armed Services hearings. I believe that 
you are sympathetic and supportive, as his he.
    And, again, I would just like your commitment that you will 
raise it privately and publicly with him because the urgency of 
this cause, I think, is no less, perhaps even more than it was 
when we last discussed it, and yet, there has been no general 
action to address this concern among the Vietnam veteran 
population generally, who may have suffered from PTS at the 
same rate as the Iraq and Afghanistan veterans have done.
    Secretary Shinseki. Certainly, Senator, I will commit to 
continuing to work this with you and work this as a priority as 
well.
    We approached DOD and had those discussions that I have 
described and looking for a review of the character of 
discharge.
    For one thing, as you point out, we did not do well by the 
Vietnam generation, and I happen to know many of them. So, part 
of our commitment here is never--not to repeat what happened 
there.
    So, if you go back 3 years, you will see a decision within 
the VA that if a combat veteran has medically verifiable PTSD, 
we will make the service connection and allow that individual 
to submit a claim for benefits as well as treatment and move 
beyond this discussion of putting the burden of proof on the 
veteran to demonstrate how and why PTSD was an issue.
    We have increased awareness about PTSD. We have increased 
our funding in this area. I do think we are doing better but 
still not enough with the current generation.
    Many of our mental health issues, PTSD issues, still go 
back to the Vietnam generation. We owe them better, and we are 
doing our best to make up for lost time here.
    We owe this generation, as well, the best care we can 
provide.
    Senator Blumenthal. I really appreciate your support on 
this issue. I know you have a deep understanding and concern, 
as I mentioned earlier.
    By the way, I refer to it as PTS rather than PTSD because I 
think that calling it a disorder gives it a kind of stigma that 
is completely unjustified. It is Post Traumatic Stress.
    I welcome your making this policy flexible so as to provide 
the medical benefits, but of course, those benefits cannot be 
supplemented by other benefits, whether relating to employment 
and homelessness and so forth that the VA has to offer, because 
of the less-than-honorable discharge, not to mention the stigma 
of that kind of discharge that they have suffered for 40 years 
or more.
    So, I agree with you that it is a moral imperative, an 
obligation of this country, not to mention the need to settle 
this lawsuit, which I fully support because I think legally it 
is well-justified.
    Secretary Shinseki. I would just offer to you, Senator, 
that the character discharge clearly still remains a DOD issue; 
and I can tell you that this is at the top of discussion. I 
know Secretary Hagel is looking at it.
    In the meantime, we have asked DOD to provide us a list by 
name of veterans who, in some cases, may have been discharged 
under rules that no longer exist--``don't ask, don't tell,'' 
for example, behavior issues that could be PTSD.
    We have about 73,000 names, and we are running those names 
against our registry of homeless veterans, and thus far, we 
have found about a 6,500 name match.
    So, we are pulling those individuals into our review to see 
whether or not we can provide benefits and care, and we are. In 
those 6,500 cases, we are.
    I think here shortly we have either written 73,000 letters 
to folks on that list or will complete doing that shortly.
    For those that we do not get a response from by this 
summer, we will turn around and try to follow up on that, 
again, trying to close this loop on folks who have been denied 
benefits and services that they earned.
    Senator Blumenthal. Let me make one last comment which is 
to thank you for, again, expanding the circle. I think it has 
been a mark of your leadership that you have sought to increase 
the circle of accessibility and eligibility, whether it is 
Agent Orange or other disability claims. Rather than kind of 
circling the wagons more closely, you have had the courage to 
try to increase availability and access.
    I really do appreciate the point that you just made and, 
finally, would say I am very concerned about discrimination 
against veterans, particularly in employment situations and 
most especially when it comes to PTS.
    My concern is embodied in legislation that I have offered 
that prohibits discrimination. Whether it will pass, I 
certainly cannot say. The odds are against any single piece of 
legislation.
    But the evidence I am seeing, again, indicates that among a 
small proportion--and I emphasize it is maybe a small minority, 
but it is there--of employers, there is this discrimination for 
whatever reason against veterans.
    A law is a blunt and cumbersome instrument to work against 
it, but I hope that perhaps I can work with you in documenting 
the discrimination if it exists, then doing something to 
counter it.
    Chairman Sanders. Let me--I am going to have to interrupt 
and go to Senator Moran now.
    Senator Moran.
    Senator Blumenthal. I apologize. I thought I was the last. 
So, I apologize, Mr. Chairman.
    Senator Moran. Now my feelings are hurt. I just thought you 
were windy. I did not realize you were----
    [Laughter.]
    Senator Blumenthal. Well, that, too, but----

                STATEMENT OF HON. JERRY MORAN, 
                    U.S. SENATOR FROM KANSAS

    Senator Moran. Mr. Chairman, thank you very much.
    Mr. Secretary and your colleagues, thank you for being 
here.
    I have three or four questions I would like to raise about 
specific programs particularly of interest to me as a Senator 
from Kansas.
    The first one is a program--a law that was passed in 2010. 
I was in the House of Representatives then and chaired the 
Health Care Subcommittee on Veterans, and we were successful in 
passing a bill called Access Received Closer to Home, ARCH. The 
crux of that effort was to recognize, in particularly a State 
like ours, like mine, that VA hospitals are a long way from 
many veterans.
    We initially addressed that with outpatient clinics, and 
that provided routine services closer to home, but still miles 
and hours away from many of the veterans in our State.
    With the support of many of my colleagues, including the 
Senator from Arkansas, we were successful in passing 
legislation that would require the VA to provide services, in a 
sense, in hometowns, where the veteran chose to have those 
services provided if they lived more than a certain number of 
miles from a CBOC or VA hospital.
    That was narrowed down before the bill was passed and 
became a pilot program. That pilot program has been in place 
now for 3 years. Reports, I assume, are either on your desk or 
soon to be on your desk.
    My initial question is, do you have thoughts about this 
program's success and what is the Department's plan for its 
continuance?
    Secretary Shinseki. The report has not yet arrived. So, I 
await that.
    I think we learned a lot from Project ARCH, and we have in 
the meantime put in place some other initiatives that are VA 
programs that address some of those lessons that we got out of 
ARCH.
    I do not know what the next step is going to be with ARCH, 
but let me call on Dr. Petzel to talk about some of the things 
that we have implemented, not the least of which is telehealth 
to help try to bridge even those remote and rural areas where 
veterans have no access to health.
    Dr. Petzel. Senator Moran, thank you.
    The pilot was done in five different networks, and as you 
know, Kansas was one of them. Pratt County was actually the 
place where we did that.
    Various things were done. In a couple of instances, primary 
care was provided, but in the bulk of places it was a specialty 
care kind of phenomenon where if the veteran needed and wanted 
specialty care in the community we were able to provide that.
    We made progress in other areas since then, as the 
Secretary alluded to. With telehealth, telehome health, we are 
in a much better position now to provide specialty care in 
remote areas that we might have been three or 4 years ago.
    In addition to that, in anticipation of the pilot for ARCH 
ending, we have developed a new program nationwide called PC3, 
which is a program by which we have developed networks around 
the country to provide specialty care on referrals. In other 
words, a referral network, where if somebody lives in a remote 
area and a decision is made they need to have specialty care 
and it is inconvenient and not appropriate for them to travel, 
we can go to that contract provider under the PC3 contract and 
provide that care in the community.
    The program started in January when the first network was 
set up. It is now fully operational around the country, and the 
business is booming, so to speak. We are seeing the contract 
and the network being used all over the country.
    In addition to that, we do have the capacity--we always 
have had--to provide for fee-basis care in the community and 
have used that extensively, particularly in places like Kansas, 
again, where it is just not appropriate for someone to travel 
200 miles to Topeka or to Wichita or into Kansas City.
    Senator Moran. I appreciate that answer.
    We want to continue to work with the VA to expand this 
program. Pratt County is one of them. It is important that we 
test this, I suppose, in a small county although when the 
legislation passed I expected it to be tested VISN-wide and the 
VA narrowed it to a county, which is a significant difference 
in the outcome.
    Let me highlight something that you said, which causes me 
to bring up two other questions. You talked about telemedicine, 
for example.
    One of the problems that we have discovered in CBOCs is the 
lack of physicians, of mid-levels. The Liberal CBOC on the 
Kansas/Oklahoma border has not had a physician for more than 2 
years. You have been recruiting for more than 2 years with no 
success.
    The Topeka VA recently closed its emergency room services, 
claiming they have a lack of physicians to man or person an 
emergency room. Now the VA in Topeka is telling veterans who 
show up at their hospital that we have no emergency services; 
you need to go to a commercial hospital.
    The Secretary and I have had this conversation at, I think, 
every occurrence in which he has appeared before this Committee 
or the Appropriations Committee in this admonition, this 
request.
    I understand the difficulty. I am a rural person. I know 
how difficult it is outside the VA to recruit physicians. But 
the VA has yet, in my view, to find the solution to the lack of 
physicians and other mid-level professionals within the system.
    So, this problem--if we delay going to the private sector, 
if we delay going to the community hospital and the local 
physician, we are exacerbating the problem where the CBOCs have 
no ability to provide the necessary level of care and 
treatment. And even at a hospital the size of Topeka--the VA 
hospital--we are told there are not enough doctors to staff an 
emergency room.
    One of the other aspects--and I do not want to be accused 
of Mr. Blumenthal's problem, of speaking beyond my time, so I 
am moving quickly to my other questions.
    Chiropractors. Again, a piece of legislation authored in 
the House of Representatives in my day requires the VA to place 
chiropractic care to meet the needs of veterans in every VISN. 
It seems to me that the VA has been very slow to implement that 
legislation. We have chiropractic are available, but there is 
no systemwide effort at providing chiropractic care.
    One, it can be a value. But, again, in a State like mine in 
the absence of other health care professionals, chiropractic 
care becomes critical.
    And before my 2 minutes past time goes any further, the 
final thing I would raise with you is we are confused by 
something that has happened in Wichita. The Dole VA Hospital 
and the McConnell Air Force Base has been working.
    And, again, the Secretary and I had the conversation I 
think the last time you were in front of this Committee, about 
how do we get the project that will combine those two 
facilities--a hospital that is already at McConnell and a VA 
hospital, the Dole Hospital. The plan by the VA has been to 
combine those two and build a new facility on McConnell Air 
Force Base property.
    Last year--and I need to look at my notes--it was included 
in the list, and I asked you, how do we move that up?
    Well, Mr. Secretary, not only has it not moved up, but it 
is no longer on the list. And, at least to our knowledge, no 
one at the Dole VA Center can explain why last year it was 
being considered. It was ranked.
    My question to you is, how do we get a higher ranking?
    And now it is gone entirely.
    Secretary Shinseki. Senator, I owe you a better answer than 
I am going to give you, which is that every year we re-look at 
priorities, and where we have a safety or security project that 
leaps up that we have to do something about in the ordering 
that will move a project forward.
    I will go back and research what the issue is with the 
Dole/McConnell project.
    My guess is it is still on our list of things to do. You do 
not see it in the budget because the available funding covered 
those projects that we could fund this year--$1.5 billion in 
the base account and then $400 million in the investment 
account.
    Senator Moran. Thank you, Mr. Secretary.
    The project was ranked No. 197 in fiscal year 2014; not on 
the list this time.
    Mr. Chairman, thank you.
    Chairman Sanders. If it is OK with the members----
    Senator Blumenthal. Mr. Chairman, could I just give General 
Shinseki an opportunity to respond to the question I asked.
    I did not know whether you had a response on the issue of 
discrimination. You may have been interrupted without having a 
response.
    Before my friend from Kansas leaves, I want to say that I 
apologize to him. Senator Moran, my apologies to you for 
keeping you longer.
    Senator Moran. Well, you set the precedent, and I followed 
your----
    Senator Blumenthal. You took advantage of it.
    Sorry, General, please.
    Secretary Shinseki. I would just say our approach has 
been--and it did not begin with my arrival--that VA is a 
welcoming place, and we have generously taken care of veterans 
for many generations now. I think if you look at the decisions 
that have been made in at least the last 5 years, our effort 
has been to provide veterans the care and benefits that they 
have earned without drawing any walls around that statement.
    Senator Blumenthal. And I am not talking about VA benefits 
right now. I am talking about private employers who may 
discriminate against veterans for whatever reason.
    Secretary Shinseki. This is what I put into the area of 
what I call ``the undiscussables,'' and it is a topic I discuss 
every opportunity I have with potential employers.
    I assure them that at VA our experience is when we diagnose 
and treat whatever the issue is, but even PTS or PTSD, that 
people improve and that they should not let that be a barrier 
to them making a hiring decision. They will not regret it. Our 
veterans are very capable youngsters. They come with tremendous 
experience, along with the kind of work ethic and discipline we 
all like seeing. They will not regret making that hiring 
decision.
    I am happy to work with you on how do we make that a more 
compelling argument.
    Senator Blumenthal. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Sanders. If it is OK, let me just ask one last 
question, picking up on a question that Senator Moran raised.
    I wear another hat. I am chairman of the Subcommittee on 
Primary Care. We know that as a Nation we have a real crisis in 
terms of whole areas, including in Kansas. I think it is a 
serious problem in areas of Kansas, above and beyond the VA, 
where people cannot access a primary care physician. We have 
some of that in parts of Vermont as well.
    We tripled a couple of years ago, in the Affordable Care 
Act, funding for the National Health Service Corps. The 
President's budget was very generous again for the National 
Health Service Corps, which provides debt forgiveness for those 
medical school graduates or dentists who are practicing in 
underserved areas.
    What kinds of programs does the VA have in terms of debt 
forgiveness or scholarships, or whatever it may be, to attract 
primary care physicians into the VA to handle the problems that 
Senator Moran raised?
    Dr. Petzel. Mr. Chairman, the VA has got a number of 
possibilities of attracting people into these remote areas. Let 
me just go through them quickly. Then I will talk specifically 
about debt forgiveness.
    We have retention bonuses. We have recruitment bonuses. We 
have home buyouts, where we can buy people's homes, allowing 
them to make the move. We have got quite a bit of flexibility 
in terms of salary. Our salary rates are competitive, and they 
are flexible.
    In terms of loan forgiveness, right now, I think the 
Secretary's limit on forgiving educational loans is $60,000. 
That could be higher; I will just be blunt.
    There are not many instances where you need to do that, and 
the cost of it is not particularly extensive, but it can be a 
great incentive for somebody that is carrying $200,000 worth of 
educational debt, coming out of college and medical school, to 
be able to have a goodly portion of that actually forgiven.
    Chairman Sanders. If my memory is correct, what the 
Department of Defense does is say we will send you to medical 
school and then get X number of years of your life after you 
graduate.
    Dr. Petzel. They do. And we have a program that is not 
unlike that.
    The difficulty is that you cannot predict where they are 
going to go. It would be wonderful if you could take somebody 
that is a senior in college----
    Chairman Sanders. Well, can't you write that into the 
contract? We will pay for your medical school. We will send 
you----
    Dr. Petzel. You do not get anybody to sign that contract.
    With DOD, it is you are going to serve in the military, but 
you have got a lot of flexibility in terms of what you do in 
the military.
    With us, if we wanted to direct these people into things 
like rural health, to go to Helena, MT, or Liberal, KS, you 
would have to write that into the contract, and we have not 
been able to accomplish that right now.
    Chairman Sanders. I think it is an important issue that is 
worth further discussion.
    Dr. Petzel. Could I mention just one more thing for rural? 
And that is the use of advanced practice nurses, who are very 
versatile and very flexible and actually have helped keep 
Liberal and its 278 patients going--that and we have a provider 
that visits that area.
    That is the only place in Kansas we are having trouble, 
interestingly. The rest of our clinics--I just checked--have 
got the full complement of providers.
    We will continue to work on it, Senator.
    Chairman Sanders. Because people are shocked about Liberal, 
KS. They cannot get that through their heads. [Laughter.]
    Senator Boozman, did you want----
    Senator Boozman. I would just--I did not realize that you 
were also involved in another committee.
    This really is a huge problem, and it is not just with VA. 
It is regardless of where anybody is at on the health care bill 
we are going to have more people into the system. OK?
    So, many of the providers are our age, and it is just 
something that we really need to look at.
    We can work hard and work hard on our making sure that the 
veterans have the benefits that were promised, but if you have 
this great deal and you cannot find anybody to provide the care 
it really is a big thing.
    Maybe that is something that at some point we could 
actually have a hearing on.
    Chairman Sanders. I think that is a good idea.
    Senator Boozman. Get them to get the data over--where we 
are at now, where they feel like we are going to be five----
    Chairman Sanders. And the point is, this is not just a VA 
problem.
    Senator Boozman. Exactly.
    Chairman Sanders. It is a national problem
    Senator Boozman. The trouble is, though, you cannot--this 
is something that if we are going to be short on physicians 5 
years from now you cannot decide 3 years from now that you are 
going to do something.
    Chairman Sanders. Absolutely right.
    All right, can we--Senator Moran, are you all right?
    [No response.]
    Chairman Sanders. OK, let me----
    Senator Moran. If I have a chance to follow up, I would be 
glad to.
    Chairman Sanders. A brief, brief follow-up.
    Senator Moran. First of all, I would ask Secretary Shinseki 
if he would give us an idea of when he is going to receive the 
report about ARCH and when we then could see the results.
    And for Secretary Petzel, I would just say that your 
response to the Chairman's question about all the array of 
things we have to offer physicians--it may be a long list, but 
it does not seem sufficient.
    I have asked this question at every hearing. What is it 
that we can do? What are you missing?
    I have never had an answer that says that we have now 
examined this; a solution to our problem that does not go away 
would be additional pay, additional loan forgiveness, all the 
things that are on that list but maybe more.
    So, for the answer to the Chairman's question to be this is 
all the things we have, I appreciate knowing that, but I just 
would remind you that it still does not seem to solve the 
problem.
    Chairman Sanders. Let me suggest this. I think Senator 
Boozman raised the issue. Let's do a hearing on this. Does that 
sound good?
    Senator Moran. Sounds good.
    Chairman Sanders. OK. And we will get you guys back to do 
some thinking about that.
    Senator Moran. And the answer to when we could receive a 
report?
    Secretary Shinseki. It is coming to me from Dr. Petzel. I 
just asked him that question, Senator, and he said, shortly. 
So, I assume I will have it before the sun sets today.
    Senator Moran. All right. [Laughter.]
    Thank you for holding his feet to the fire.
    Secretary Shinseki. That is the way we define shortly.
    Chairman Sanders. With that, I want to thank all of the 
panel for spending over 2 hours with us, for your thoughtful 
answers; and in these very difficult times, we are proud of the 
work that you are doing.
    With that, this hearing is adjourned.
    [Whereupon, at approximately 4:08 p.m., the Committee was 
adjourned.]
                            A P P E N D I X

                              ----------                              


                Prepared Statement of Diane M. Zumatto, 
                 National Legislative Director, AMVETS
    Chairman Sanders, Ranking Member Burr, and distinguished Members of 
the Committee: As an author of The Independent Budget (IB), I 
appreciate this opportunity to share with you the IB's recommendations 
in what we believe to be the most fiscally responsible way of ensuring 
the quality and integrity of the care and benefits earned by Americans 
veterans.
    The venerable and honorable history of our national cemeteries 
spans roughly 150 years when the earliest military graveyards were, not 
surprisingly, situated at battle sites, near field or general hospitals 
and at former prisoner-of-war sites. With the passage of the National 
Cemeteries Act of 1973 (PL 93-43), the Department of Veterans' Affairs 
(VA) became responsible for the majority of our national cemeteries. 
The single most important obligation of the National Cemetery 
Administration (NCA) is to honor the memory of America's brave men and 
women who have selflessly served in this Nation's Armed Forces. As of 
late 2010, there were more than 20,021 acres of cemetery landscape, 
funerary monuments, grave markers, as well as, other architectural 
features and memorial tributes, much of it historically significant, 
included within established installations in the NCA which are 
therefore representative of the very foundations of these United 
States.
    The signing of the Veterans Programs Enhancement Act of 1998 (PL 
105-368) officially re-designated the National Cemetery System (NCS) to 
the now familiar National Cemetery Administration (NCA). The NCA 
currently maintains stewardship of 133 of the Nation's 147 national 
cemeteries, as well as 33 soldiers' lots, including two new national 
cemeteries scheduled to open in 2015. Since 1862 when President Abraham 
Lincoln signed the first legislation establishing the national cemetery 
concept, more than 3.5 million burials have taken place in national 
cemeteries currently located in 39 states and Puerto Rico, with 
approximately 128,100 interments expected in 2015.
    There are an estimated 22.4 million veterans alive today and with 
the transition of an additional 1 million servicemembers into veteran 
status over the next 12 months, this number is expected to continue to 
rise until approximately 2017. On average, 14.4 percent of veterans 
choose a national or state veterans' cemetery as their final resting 
place. As new national and state cemeteries continue to open, and as 
our aging veterans' population continues to grow and we continue to be 
a nation at war, the demand for burial at a veterans' cemetery will 
continue to increase.
    The Independent Budget veterans service organizations (IBVSOs) 
would like to acknowledge the devotion and commitment demonstrated by 
the NCA leadership, especially Undersecretary Steve Muro, and his staff 
in their continued dedication to providing the highest quality of 
service to veterans and their families. It is in the opinion of the 
IBVSOs that the NCA continues to meet its goals and the goals set forth 
by others because of its true dedication and care for honoring the 
memories of the men and women who have so selflessly served our Nation. 
We applaud the NCA for recognizing that it must continue to be 
responsive to the preferences and expectations of the veterans' 
community by adapting or adopting new interment options and ensuring 
access to burial options in the national, state and tribal government-
operated cemeteries. We also believe it is important to recognize the 
NCA's efforts in employing both disabled and homeless veterans.
                              nca accounts
    While NCA's operating budget has remained fairly stagnant at around 
$250 million for 4 out of the last 5 years, their workload has been 
anything but static and this trend is expected to continue for the 
foreseeable future. The IBVSO's are appreciative of the roughly $8 
million increase in NCA's overall FY 2015 budget, however, that 
increase comes with a simultaneous $8.4 million reduction in the 
National Shrine account.
    Between FY 2014 and FY 2015, the number of gravesites needing 
maintenance will increase by approximately 2.4%, while interments will 
increase by roughly 1.9%.
    The NCA was also able to award 44 of its 48 minor construction 
projects and had four unobligated projects that will be moved to FY 
2012. Unfortunately, due to continuing resolutions and the current 
budget situation, the NCA was not able to award the remaining four 
projects.
    The IBVSOs support the operational standards and measures outlined 
in the National Shrine Commitment (PL 106-117, Sec. 613) which was 
enacted in 1999 to ensure that our national cemeteries are the finest 
in the world. While the NCA has worked diligently improving the 
appearance of our national cemeteries, they are still a long way from 
where they should be.
    The NCA has worked tirelessly to improve the appearance of our 
national cemeteries, investing an estimated $39 million into the 
National Shrine Initiative in FY 2011. According to NCA surveys, as of 
October 2011 the NCA has continued to make progress in reaching its 
performance measures. Since 2006, the NCA has improved headstone and 
marker height and alignment in national cemeteries from 67 percent to 
70 percent and has improved cleanliness of tombstones, markers and 
niches from 77 percent to 91 percent. Although the NCA is nearing its 
strategic goal of 90 percent and 95 percent, respectively, for height 
and alignment and cleanliness, more funding is needed to continue this 
delicate and labor-intensive work. Therefore, the IBVSOs recommend the 
NCA's Operations and Maintenance budget to be increased by $20 million 
per year until the operational standards and measures goals are 
reached.
    The IBVSOs recommend a minimum Operational and Maintenance budget 
of $260 million for the National Cemetery Administration for FY 2015, 
so it can meet the demands for interment, gravesite maintenance and 
related essential elements of cemetery operations. This request 
includes $34.5 million for the National Shrine Initiative to ensure 
that our national cemeteries meet or exceed the highest standards of 
appearance required by their status as national shrines.
    The national shrine funds would be used, among other things, to 
maintain:

    <bullet> occupied graves;
    <bullet> developed acreage;
    <bullet> historic structures; and
    <bullet> cemetery infrastructure

    The IBVSOs call on the Administration and Congress to provide the 
resources needed to meet the critical nature of the NCA's mission and 
to fulfill the Nation's commitment to all veterans who have served 
their country so honorably and faithfully.
                     state cemetery grant programs
    The State Cemetery Grants Program (SCGP) complements the National 
Cemetery Administration's mission to establish gravesites for veterans 
in areas where it cannot fully respond to the burial needs of veterans. 
Several incentives are in place to assist states in this effort. For 
example, the NCA can provide up to 100 percent of the development cost 
for an approved cemetery project, including establishing a new cemetery 
and expanding or improving an established state or tribal organization 
veterans' cemetery. New equipment, such as mowers and backhoes, can be 
provided for new cemeteries. In addition, the Department of Veterans' 
Affairs may also provide operating grants to help cemeteries achieve 
national shrine standards.
    In FY 2011 the SCGP operated on an estimated budget of $46 million, 
funding 16 state cemeteries. These 16 state cemeteries included the 
establishment or ground breaking of five new state cemeteries, three of 
which are located on tribal lands, expansions and improvements at seven 
state cemeteries, and four projects aimed at assisting state cemeteries 
to meet the NCA national shrine standards. Since 1978 the Department of 
Veterans' Affairs has more than doubled the available acreage and 
accommodated more than a 100 percent increase in burials through this 
program.
    With the enactment of the ``Veterans Benefits Improvement Act of 
1998,'' the NCA has been able to strengthen its partnership with states 
and increase burial services to veterans, especially those living in 
less densely populated areas without access to a nearby national 
cemetery. Through FY 2010, the state grant program has established 75 
state veteran's cemeteries in 40 states and U.S. territories. 
Furthermore, in FY 2011 VA awarded its first state cemetery grant to a 
tribal organization.
    The Independent Budget veteran's service organizations recommend 
that Congress fund the State Cemetery Grants Program at $48 million for 
FY 2015. The IBVSOs believe that this small increase in funding will 
help the National Cemetery Administration meet the needs of the State 
Cemetery Grant Program, as its expected demand will continue to rise 
through 2017. Furthermore, this funding level will allow the NCA to 
continue to expand in an effort of reaching its goal of serving 94 
percent of the Nation's veteran population by 2015.
                       veteran's burial benefits
    Since the original parcel of land was set aside for the sacred 
committal of Civil War Veterans by President Abraham Lincoln in 1862, 
more than 3 million burials have occurred in national cemeteries under 
the National Cemetery Administration.
    In 1973, the Department of Veterans' Affairs established a burial 
allowance that provided partial reimbursement for eligible funeral and 
burial costs. The current payment is $2,000 for burial expenses for 
service-connected deaths, $300 for non-service-connected deaths and a 
$700 plot allowance. At its inception, the payout covered 72 percent of 
the funeral costs for a service-connected death, 22 percent for a non-
service-connected death and 54 percent of the cost of a burial plot.
    Burial allowance was first introduced in 1917 to prevent veterans 
from being buried in potter's fields. In 1923 the allowance was 
modified. The benefit was determined by a means test until it was 
removed in 1936. In its early history the burial allowance was paid to 
all veterans, regardless of their service connectivity of death. In 
1973, the allowance was modified to reflect the status of service 
connection.
    The plot allowance was introduced in 1973 as an attempt to provide 
a plot benefit for veterans who did not have reasonable access to a 
national cemetery. Although neither the plot allowance nor the burial 
allowance was intended to cover the full cost of a civilian burial in a 
private cemetery, the recent increase in the benefit's value indicates 
the intent to provide a meaningful benefit. The Independent Budget 
veterans' service organizations are pleased that the 111th Congress 
acted quickly and passed an increase in the plot allowance for certain 
veterans from $300 to $700 effective October 1, 2011. However, we 
believe that there is still a serious deficit between the original 
value of the benefit and its current value.
    In order to bring the benefit back up to its original intended 
value, the payment for service-connected burial allowance should be 
increased to $6,160, the non-service-connected burial allowance should 
be increased to $1,918 and the plot allowance should be increased to 
$1,150. The IBVSOs believe Congress should divide the burial benefits 
into two categories: veterans within the accessibility model and 
veterans outside the accessibility model.
    Congress should increase the plot allowance from $700 to $1,150 for 
all eligible veterans and expand the eligibility for the plot allowance 
for all veterans who would be eligible for burial in a national 
cemetery, not just those who served during wartime. Congress should 
increase the service-connected burial benefits from $2,000 to $6,160 
for veterans outside the radius threshold and to $2,793 for veterans 
inside the radius threshold.
    Congress should increase the non-service-connected burial benefits 
from $300 to $1,918 for all veterans outside the radius threshold and 
to $854 for all veterans inside the radius threshold. The 
Administration and Congress should provide the resources required to 
meet the critical nature of the National Cemetery Administration's 
mission and to fulfill the Nation's commitment to all veterans who have 
served their country so honorably and faithfully.
                                 ______
                                 
 Prepared Statement of Paul R. Varela, Assistant National Legislative 
               Director, Disabled American Veterans (DAV)
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee: On behalf of the DAV and our 1.2 million members, all of 
whom are wartime disabled veterans, I am pleased to present 
recommendations of The Independent Budget (IB) for the fiscal year (FY) 
2015 budget related to veterans' benefits and the Veterans Benefits 
Administration (VBA). The IB is jointly produced each year by DAV, 
AMVETS, Paralyzed Veterans of America and Veterans of Foreign Wars of 
the United States. This year's IB contains numerous recommendations to 
improve veterans' benefit programs and the claims processing system; 
however, in today's testimony I will highlight just some of the most 
critical ones for this Committee to consider.
    Mr. Chairman, the timely delivery of earned benefits to the 
millions of men and women who have served in our Armed Forces is one of 
the most sacred obligations of the Federal Government. The award of a 
service-connected disability rating does more than provide compensation 
payments; it is the gateway to an array of benefits that support the 
recovery and transition of veterans, their families and survivors. 
However, when these benefits are delayed or unjustly denied, the 
consequences to veterans and their families can be devastating. For 
those wounded heroes who file claims for disability compensation, the 
wait to receive an accurate rating decision and award can take anywhere 
from a few months to several years; longer if they have to appeal 
incorrect decisions.
    In early 2010, Secretary Shinseki laid out an extremely ambitious 
goal for VBA to achieve by 2015: process 100 percent of claims in less 
than 125 days, and do so with 98 percent accuracy. Since that time, VBA 
has worked to completely transform their IT systems, business processes 
and corporate culture, while simultaneously continuing to process more 
than a million claims each year. VBA is actively rolling out new 
organizational models and practices, and continuing to develop and 
deploy new technologies almost daily.
    Today there are about 685,000 claims for compensation and pension 
awaiting decisions at VBA. At the beginning of 2013, there were more 
than 860,000 pending claims for disability compensation and pension. By 
the end of the year, that number had dropped by more than 20 percent, 
down to about 685,000 pending. The number of claims in the backlog--
greater than 125 days pending--dropped by about a third, from more than 
600,000 in January 2013 to just over 405,000 in January 2014. The VBA 
increased the number of claims completed each month from an average of 
about 89,000 during the first four months of the year to more than 
114,000 during the succeeding six months prior to the government 
shutdown. Claims production dropped significantly following the 
shutdown and during the subsequent holiday period.
    In the midst of this massive transformation, it can be hard to get 
the proper perspective to measure whether their final systems will be 
successful, but we believe there has been sufficient progress to merit 
continued support of the current transformation efforts. Now is not the 
time to stop or change direction.
    We urge this Committee and Congress to provide the support and 
resources necessary to complete this transformation as currently 
planned, while continuing to exercise strong oversight to ensure that 
VBA remains focused on the long-term goal of creating a new claims 
processing system that decides each claim right the first time. In 
particular, the proposed FY 2015 budget for VBA includes additional 
funding for scanning and conversion of existing paper claims files, 
absolutely critical for VBA to complete its transformation from an 
outdated, paper-based claims system to a modern, paperless, automated 
claims system.
    Mr. Chairman, one of the most important aspects needed to assure 
ongoing positive changes within the VBA is their willingness to remain 
open and partner with veterans service organizations. Our organizations 
possess significant knowledge and experience of the claims process and 
collectively we hold power of attorney (POA) for millions of veterans 
who are filing or have filed claims. VBA recognized that close 
collaboration with VSOs could not only reduce its workload, but also 
increase the quality of its work. We make VBA's job easier by helping 
veterans prepare and submit better claims, thereby requiring less time 
and resources for VBA to develop and adjudicate them.
    The IB veterans service organizations (IBVSOs) have been consulted 
about initiatives proposed or underway at VBA, including Fully 
Developed Claims (FDC), Disability Benefit Questionnaires (DBQs), the 
Veterans Benefit Management System (VBMS), the Stakeholder Enterprise 
Portal (SEP), and the update of the Department of Veterans Affairs (VA) 
Schedule for Rating Disabilities (VASRD). Both Secretary Shinseki and 
Under Secretary Hickey have reached out to consult and collaborate with 
VSOs and we are confident that VBA's success going forward will require 
a continued and enhanced partnership that will result in better service 
and outcomes for veterans.
    Since 2009, VBA has made some significant changes in how claims are 
processed. The most important amongst these is the development of the 
VBMS, its new IT system. VBMS has been rolled out to all 56 Regional 
Offices and VBA was able to complete implementation of the VBMS ahead 
of schedule in June; by the end of 2013, nearly all of VBA's pending 
claims were processed using electronic files. It is important to 
remember that VBMS is not yet a finished product; rather, it continues 
to be developed and perfected as it is deployed so it is still 
premature to judge whether it will ultimately deliver all of the 
functionality and efficiency required to meet VBA's future claims 
processing needs.
    Another very important milestone was VBA's decision and commitment 
to scan all paper claims files for every new or reopened claim 
requiring a rating-related action, and creating digital e-folders to 
serve as the cornerstone of the new VBMS system. E-folders facilitate 
instantaneous transmission and simultaneous reviewing of claims files. 
At present, there are an estimated 500,000 e-folders and that number 
will continue to grow as the remaining ROs convert to VBMS this year.
    In addition, the Appeals Management Center (AMC) is now working in 
VBMS and able to review e-folders. The Board of Veterans Appeals (BVA) 
will also begin receiving appeals in VBMS on a pilot basis.
    VBA also continues to strengthen its e-Benefits and SEP systems, 
which allow veterans and their representatives to file claims, upload 
supporting evidence and check on the status of pending claims. VBA has 
rolled out a new transformation organizational model (TOM) to every 
Regional Office that has reorganized workflow by segmenting claims into 
different processing lanes depending upon the complexity of the issues 
to be decided for each claim. Other key process improvements that we 
strongly support include the FDC program, which expedites ready-to-rate 
claims, and DBQs, which standardize and encourage the collection of 
private medical evidence to aid in rating decisions. To improve the 
accuracy of their work, VBA also fulfilled one of our long-standing 
recommendations by creating local Quality Review Teams (QRTs), whose 
primary function is to monitor claims processing in real time to catch 
and correct errors before rating decisions are finalized.
                   claims processing recommendations
    Over the next year, Congress must continue to perform aggressive 
oversight of VBA's ongoing claims transformation efforts, particularly 
new IT programs, while actively supporting the completion and full 
implementation of these vital initiatives. In order for VBA's current 
transformation plans to have any reasonable chance of success, VBA must 
be allowed to complete and fully implement them. Congress must continue 
to fully fund the completion of VBMS, including providing sufficient 
funding for digital scanning and conversion of legacy paper files, as 
well as the development of new automation components for VBMS. At the 
same time, the IBVSOs recommend that Congress encourage an independent, 
expert review of VBMS while there is still time to make course 
corrections.
    Congress must also encourage and support VBA's efforts to develop a 
new corporate culture based on quality, accuracy and accountability, as 
well as strengthen the transmission and adoption of these values and 
appropriate supportive policies throughout all VBA Regional Offices. 
The long-term success of all of VBA's transformation efforts will 
depend on the degree to which these changes are institutionalized and 
disseminated from the national level to the local level. In addition to 
strengthening training, testing and quality control, VBA must be 
encouraged to properly align measuring and reporting functions with 
desired goals and outcomes for both its leadership and employees.
    For example, as long as the most widely reported metric of VBA's 
success is the Monday Morning Workload Reports, particularly the weekly 
update on the size of the backlog, there will remain tremendous 
pressure throughout VBA to place production gains ahead of quality and 
accuracy. Similarly, if individual employee performance standards set 
unrealistic production goals, or fail to properly credit ancillary 
activity that contributes to quality but not production, those 
employees will be incentivized to focus on activities that maximize 
only production. VBA must develop more and better measures of work 
performance that focus on quality and accuracy, both for the agency as 
a whole and for individual employees.
    Furthermore, VBA must ensure that employee performance standards 
are based on accurate measures of the time it takes to properly perform 
their jobs.
    Congress must also ensure that VBA does not change its reporting or 
metrics for the sole purpose of achieving statistical gains, commonly 
referred to as ``gaming the system,'' in the absence of actual 
improvements to the system. For example, VBA recently announced that 
they will change how errors are scored for multi-issue claims.
    Previously, a claim would be considered to have an error if one 
mistake on at least one issue in the claim was detected during a STAR 
review. Under the new error policy, if there are 10 issues in the claim 
and a single error is found on one of the issues, that would now be 
scored as only 0.1 errors for that claim. While this may be a more 
valid way of measuring technical accuracy, it also has the effect of 
lowering the error rate without actually lowering the number of errors 
committed. For instance, if VBA measures errors by issue, then the 
backlog of claims would not be the reported 405,000, but a multiple of 
that based upon the total number of issues, which would be in the 
millions. Likewise, VBA's allowance rate must be adjusted with this 
type of change in reporting to accurately reflect the number of issues 
allowed out of the total number of issues claimed, which would be 
significantly lower than the current allowance rate per claim. In 
essence, VBA cannot simply change the metrics to suit their need to 
reflect gains or improvements; they must change all corresponding 
metrics such as claims versus issues, allowances versus denials and 
remands, or similar.
    Additionally, to make the system more efficient, Congress should 
enact and promote legislation and policies that maximize the use of 
private medical evidence to conserve VBA resources and enable quicker, 
more accurate rating decisions for veterans. The IBVSOs have long 
encouraged VBA to make greater use of private medical evidence when 
making claims decisions, which would save veterans time and VBA the 
cost of unnecessary examinations.
    DBQs, many of which were developed in consultation with IBVSO 
experts, are designed to allow private physicians to submit medical 
evidence on behalf of veterans they treat in a format that aids rating 
specialists. However, we continue to receive credible reports from 
across the country that many Veterans Service Representatives (VSRs) 
and Rating Veterans Service Representatives (RVSRs) do not accept the 
adequacy of DBQs submitted by private physicians, resulting in 
redundant VA medical examinations being ordered and valid evidence 
supporting veterans' claims being rejected.
    Although there are currently 81 approved DBQs, VBA has only 
released 71 of them to the public for use by private physicians. In 
particular, VBA should allow private treating physicians to complete 
DBQs for medical opinions about whether injuries and disabilities are 
service-connected, as well as DBQs for PTSD, which current VBA rules do 
not allow; only VA physicians can make PTSD diagnoses for compensation 
claims. Congress should work with VBA to make both of these DBQs 
available to private physicians.
    To further encourage the use of private medical evidence, Congress 
should amend title 38, United States Code, section 5103A(d)(1) to 
provide that, when a claimant submits private medical evidence, 
including a private medical opinion, that is competent, credible, 
probative, and otherwise adequate for rating purposes, the Secretary 
shall not request a VA medical examination. This legislative change 
would require VSRs and RVSRs to first document that private medical 
evidence was inadequate for rating purposes before ordering 
examinations, which are often unnecessary.
               vba staffing and resource recommendations
Compensation Service Staffing
    In recent years, VBA has seen a significant staffing increase 
because Congress recognized that rising workload, particularly claims 
for disability compensation, could not be addressed without additional 
personnel and thus provided additional resources each year to do so. 
More than 5,000 full-time employee equivalents (FTEE) were added to VBA 
over the past five years, a 33 percent increase, with most of that 
increase going to the Compensation Service. In FY 2013, VBA's budget 
supported an additional 450 FTEE above the FY 2012 authorized level, 
and the FY 2014 level added less than 100 new FTEE, and for FY 2015 the 
level of staffing remains unchanged.
    Since the early part of 2013, the VBA has clearly made positive 
strides toward increasing productivity, reducing the backlog of 
disability claims and, by the end of 2015, reaching the Secretary's 
goal of completing all claims in less than 125 days with 98 percent 
accuracy. Over the past year, the total number of claims pending 
dropped by about 20 percent, and the number in the backlog (over 125 
days) decreased by more than a third. The VBA has employed a variety of 
aggressive initiatives, such as processing all claims pending longer 
than two years and then, when completed, moving to process all claims 
pending longer than one year.
    We believe allowing the VBA to again hire employees for a two-year 
temporary term could supplement and/or alleviate the reliance on 
mandatory overtime and further reduce the backlog of disability claims 
to help reach the Secretary's goal by the end of 2015. Such an 
initiative would also provide an outstanding opportunity for VBA to 
have a generous pool of fully trained, qualified candidates to choose 
from as replacements for full-time VBA employees who will undoubtedly 
be lost over the next few years because of attrition.
    However, rather than hiring ``new'' employees who need training and 
time to become fully productive, VBA would have instantly productive 
replacements ready and would have the ability to hire only the best of 
these candidates. Therefore, we urge Congress to provide the funding 
and resources necessary for VBA to hire a minimum of 1,000 new 
employees for a temporary two-year term.
Board of Veterans' Appeals Staffing
    Based on historical trends, the number of new appeals to the Board 
averages approximately five percent of all claims received, so as the 
number of claims processed by the VBA is expected to rise 
significantly, so too will the Board's workload rise accordingly. Yet 
the budget provided to the Board has been declining, forcing it to 
reduce the number of employees. Although the Board had been authorized 
to have up to 544 FTEE in FY 2011, its appropriated budget could 
support only 532 FTEE that year. In FY 2012, that number was further 
reduced to 510. At present, due to cost-saving initiatives, the Board 
may be able to support as many as 518 FTEE with the FY 2013 budget; 
however, this does not correct the downward trend over the past several 
years, particularly as workload continues to rise.
    The FY 2014 budget actually proposed cuts to funding for the Board 
and further reduced staffing down to 492 FTEE, despite expected 
workload increases each year. Projecting for FY 2014, the IBVSOs 
recommended a modest increase in staffing to 544 FTEE.
    We are pleased Congress supported this recommendation and actually 
went beyond the suggested number by providing enough funding for BVA to 
increase staffing to approximately 640 FTEE to be in place by the end 
of FY 2014 and an FY 2015 budget request to increase the number of FTEE 
to 650.
                       vocational rehabilitation
Employment Service Staffing
    In FY 2012, VA's Vocational Rehabilitation and Employment (VR&E) 
program, also known as the VetSuccess program, had 121,000 participants 
in one or more of the five assistance tracks of VR&E's VetSuccess 
program, an increase of 12.3 percent above the FY 2011 participation 
level of 107,925 veterans. In FY 2012, VR&E had a total of 1,446 FTEE, 
and anticipates an increase of approximately 150 FTEE for FY 2013. 
Given the estimated 10 percent workload increases for both FY 2013 and 
FY 2014, the IB estimated VR&E would need an additional 230 counselors 
in FY 2014 in order to reduce their counselor-to-client ratio down to 
their stated goal of 1:125.
    An extension for the delivery of VR&E assistance at a key 
transition point for veterans is through the VetSuccess on Campus 
program. This program provides support to student veterans in 
completing college or university degrees. VetSuccess on Campus has 
developed into a program that places a full-time Vocational 
Rehabilitation Counselor and a part-time Vet Center Outreach 
Coordinator at an office on campus specifically for the student 
veterans attending that college. These VA officers are there to help 
the transition from military to civilian and student life. The 
VetSuccess on Campus program is designed to give needed support to all 
student veterans, whether or not they are entitled to one of VA's 
education benefit programs.
    In FY 2015, Congress must provide the Vocational Rehabilitation and 
Employment Service with sufficient funding to support an adequate 
number of FTEE to meet growing demand of the program and achieve its 
current caseload target of one counselor for every 125 veteran clients 
and equitably allocate resources among VAROs in a manner to achieve 
that target. This includes assuring that as other programs, such as the 
VetSuccess on Campus staffed with tenured VR&E counselors, the 
workforce gaps left behind at the ROs are backfilled to keep pace with 
local workload demands.
IT Enhancements
    In addition, the VBMS was ultimately intended to include all of 
VBA's business lines so that no matter where a veteran or survivor 
applied for benefits, the VBMS would seamlessly connect them to all 
benefits they may be entitled to receive. While some programs, such as 
Education Service, have developed adequate IT systems in recent years, 
others, especially the Vocational Rehabilitation and Employment (VR&E) 
service, are in dire need of a complete IT overhaul. VR&E's processing 
system, called the Corporate Winston-Salem, Indianapolis, Newark, 
Roanoke, Seattle (CWINRS) system, is incapable of managing the many 
needs of this program. Rather than invest in short-term upgrades and 
patches, the IBVSOs believe that VBMS development for VR&E should be 
accelerated.
    VBA must complete the full development and integration of the VBMS 
to the AMC, BVA, and Court of Appeals for Veterans Claims as well as to 
the other VBA business lines and in particular VR&E.
    The IBVSOs are pleased that the Administration's budget request for 
FY 2015 is approximately $200 million more than the FY 2014 IT funding, 
and we support that level of funding. More importantly, Congress must 
ensure that from the total IT funding made available to VBA, that VR&E 
receives the necessary resources and support to upgrade its antiquated 
IT systems.
            recommendations for improvements to va benefits
Annual Cost-of-Living Adjustment (COLA)
    Congress has annually authorized increases in compensation and 
dependency and indemnity compensation (DIC) by the same percent as 
Social Security is increased.
    Under current law, the government monitors inflation throughout the 
year and, if inflation occurs, automatically increases Social Security 
payments by the percent of increase for the following year, which the 
Congress then applies to veterans' programs.
    While Congress has always increased compensation and DIC based on 
inflation, there have been years when such increases were delayed, 
which puts unnecessary financial strain on veterans and their 
survivors.
    The IBVSOs urge Congress to enact legislation indexing compensation 
and DIC to Social Security COLA increases.
End Rounding Down of Veterans' and Survivors' Benefits Payments
    In 1990, Congress, in an omnibus reconciliation act, mandated that 
veterans' and survivors' benefit payments be rounded down to the next 
lower whole dollar. While this policy was initially limited to a few 
years, Congress has continued that policy.
    The cumulative effect of this provision of the law effectively 
levies a tax on totally disabled veterans and their survivors. Congress 
should repeal the current policy of rounding down veterans' and 
survivors' benefits payments.
    On November 21, 2013, with the President's signature, the Veterans' 
Compensation Cost-of-Living Adjustment Act became Public Law 113-52. 
The Act provided a 1.5% increase in veterans' disability compensation, 
DIC and other related veterans benefits, effective December 1, 2013. 
Unlike COLAs in the past, this COLA did not include the provision of 
rounding down increases to the nearest whole dollar amount.
    The IBVSOs urge Congress not to return to a policy of rounding down 
veterans' and survivors' benefits payments.
Reject Any Proposal to Use the ``Chained CPI''
    In the past year, there has been much discussion about replacing 
the current CPI formula used for calculating the annual Social Security 
COLA with the Bureau of Labor Statistics (BLS) new formula commonly 
termed the ``chained CPI.'' Such a change would be expected to 
significantly reduce the rates paid to Social Security recipients, and 
thereby help to lower the Federal deficit. Since the Social Security 
COLA is also applied annually to the rates for VA disability 
compensation, DIC, and pensions for wartime veterans and survivors with 
limited incomes, its application would mean systematic reductions for 
millions of veterans, their dependents and survivors who rely on VA 
benefit payments. The IBVSOs urge Congress to reject any and all 
proposals to use the ``chained CPI'' for determining Social Security 
COLA increases, which would have the effect of significantly reducing 
the level of vital benefits provided to millions of veterans and their 
survivors.
    The IBVSOs also note that the CPI index used for Social Security 
does not include increases in the cost of food or gasoline, both of 
which have risen significantly in recent years. While no inflation 
index is perfect, the IBVSOs believe that VA should examine whether 
there are other inflation indices that would more appropriately 
correlate with the increased cost of living experienced by disabled 
veterans and their survivors.
End Prohibition against Concurrent Receipt of VA Disability 
        Compensation and Military Longevity Retired Pay
    Many veterans retired from the Armed Forces based on longevity of 
service must forfeit a portion of their retired pay, earned through 
faithful performance of military service, before they receive VA 
compensation for service-connected disabilities. This is inequitable--
military retired pay is earned by virtue of a veteran's career of 
service on behalf of the Nation, careers of usually more than 20 years. 
Entitlement to compensation, on the other hand, is paid solely because 
of disability resulting from military service, regardless of the length 
of service. Most nondisabled military retirees pursue second careers 
after serving in order to supplement their income, thereby justly 
enjoying a full reward for completion of a military career with the 
added reward of full civilian employment income. In contrast, military 
retirees with service-connected disabilities do not enjoy the same full 
earning potential since their earning potential is reduced commensurate 
with the degree of service-connected disability.
    In order to place all disabled longevity military retirees on equal 
footing with nondisabled military retirees, there should be no offset 
between full military retired pay and VA disability compensation. To 
the extent that military retired pay and VA disability compensation 
offset each other, the disabled military retiree is treated less fairly 
than is a nondisabled military retiree by not accounting for the loss 
in earning capacity. Moreover, a disabled veteran who does not retire 
from military service but elects instead to pursue a civilian career 
after completing a service obligation can receive full VA disability 
compensation and full civilian retired pay--including retirement from 
any Federal civil service position.
    While Congress has made progress in recent years in correcting this 
injustice, current law still provides that service-connected veterans 
rated less than 50 percent disabled who retire from the Armed Forces on 
length of service may not receive disability compensation from VA in 
addition to full military retired pay. The IBVSOs believe the time has 
come to remove this prohibition completely. Congress should enact 
legislation to repeal the inequitable requirement that veterans' 
military longevity retired pay be offset by an amount equal to the 
disability compensation awarded to disabled veterans rated less than 50 
percent, the same as exists for those rated 50 percent or greater.
                           survivor benefits
Increase DIC for Surviving Spouses of Servicemembers
    The current rate of compensation paid to the survivors of certain 
deceased veterans rated permanently and totally disabled and deceased 
servicemembers is inadequate and inequitable. Under current law, the 
surviving spouse of a veteran who had a total disability rating is 
entitled to the basic rate of DIC. A supplemental payment is provided 
to those spouses who were married for at least eight years during which 
time the veteran was rated permanently and totally disabled.
    However, surviving spouses of veterans or military servicemembers 
who die before the eight-year eligibility period, or who die on active 
duty, respectively, only receive the basic rate of DIC.
    Insofar as DIC payments are intended to provide surviving spouses 
with the means to maintain some semblance of financial stability after 
losing their loved ones, the rate of payment for service-related deaths 
of any kind should not vastly differ. Surviving spouses, regardless of 
the status of their sponsors at the time of death, face the same 
financial hardships once deceased sponsors' incomes no longer exist. 
Congress should authorize DIC eligibility at increased rates to 
survivors of servicemembers who died either before the eight-year 
eligibility period passes or while on active duty at the same rate paid 
to the eligible survivors of totally disabled service-connected 
veterans who die after the eight-year eligibility period.
Repeal of the DIC-SBP Offset
    The current requirement that the amount of an annuity under the 
Survivor Benefit Plan (SBP) be reduced on account of, and by an amount 
equal to, DIC is inequitable. A veteran disabled in military service is 
compensated for the effects of service-connected disability. When a 
veteran dies of service-connected causes, or following a substantial 
period of total disability from service-connected causes, eligible 
survivors or dependents receive DIC from the VA. This benefit 
indemnifies survivors, in part, for the losses associated with the 
veteran's death from service-connected causes or after a period of time 
when the veteran was unable, because of total disability, to accumulate 
an estate for inheritance by survivors.
    Career members of the Armed Forces earn entitlement to retired pay 
after 20 or more years of service. Survivors of military retirees have 
no entitlement to any portion of the veteran's military retirement pay 
after his or her death, unlike many retirement plans in the private 
sector. Under the SBP, deductions are made from the veteran's military 
retirement pay to purchase a survivor's annuity. This is not a 
gratuitous benefit, but is purchased by a retiree.
    Upon the veteran's death, the annuity is paid monthly to eligible 
beneficiaries under the plan. If the veteran died from other than 
service-connected causes or was not totally disabled by service-
connected disability for the required time preceding death, 
beneficiaries receive full SBP payments. However, if the veteran's 
death was a result of military service or after the requisite period of 
total service-connected disability, the SBP annuity is reduced by an 
amount equal to the DIC payment. When the monthly DIC rate is equal to 
or greater than the monthly SBP annuity, beneficiaries lose the SBP 
annuity in its entirety.
    The IBVSOs believe this offset is inequitable because no 
duplication of benefits is involved. Payments under the SBP and DIC 
programs are made for different purposes. Under the SBP, coverage is 
purchased by a veteran and at the time of death, paid to his or her 
surviving beneficiary. On the other hand, DIC is a special indemnity 
compensation paid to the survivor of a servicemember who dies while 
serving in the military, or a veteran who dies from service-connected 
disabilities. In such cases, DIC should be added to the SBP, not 
substituted for it. Surviving spouses of Federal civilian retirees who 
are veterans are eligible for DIC without losing any of their purchased 
Federal civilian survivor benefits.
    The offset penalizes survivors of military retirees whose deaths 
are under circumstances warranting indemnification from the government 
separate from the annuity funded by premiums paid by the veteran from 
his or her retired pay.
    Congress should repeal the inequitable offset between DIC and the 
SBP because there is no duplication between these two distinct 
benefits.
Retention of Remarried Survivors' Benefits at Age 55
    Congress should lower the age required for remarriage for survivors 
of veterans who have died on active duty or from service-connected 
disabilities to be eligible for retention of DIC to conform with the 
requirements of other Federal programs.
    Current law allows retention of DIC on remarriage at age 57 or 
older for eligible survivors of veterans who die on active duty or of a 
service-connected injury or illness. Although the IBVSOs appreciate the 
action Congress took to allow restoration of this rightful benefit, the 
current age threshold of 57 years is arbitrary.
    Remarried survivors of retirees of the Civil Service Retirement 
System, for example, obtain a similar benefit at age 55. This would 
also bring DIC in line with SBP rules that allow retention with 
remarriage at the age of 55. Equity with beneficiaries of other Federal 
programs should govern Congressional action for this deserving group. 
Congress should enact legislation to enable survivors to retain DIC on 
remarriage at age 55 for all eligible surviving spouses.

    Mr. Chairman, that concludes my statement and I would be happy to 
answer any questions you or other Members of the Committee may have.
                                 ______
                                 
          Prepared Statement of Paralyzed Veterans of America
    Chairman Sanders, Ranking Member Burr, and Members of the 
Committee, as one of the four co-authors of The Independent Budget 
(IB), Paralyzed Veterans of America (PVA) is pleased to present the 
views of The Independent Budget regarding the funding requirements for 
the Department of Veterans Affairs (VA) for FY 2015.
    As Congress and the Administration continue to face immense 
pressure to reduce Federal spending, we cannot emphasize enough the 
importance of ensuring that sufficient, timely and predictable funding 
is provided to the Department of Veterans Affairs (VA). The co-authors 
of The Independent Budget--AMVETS, Disabled American Veterans, 
Paralyzed Veterans of America, and Veterans of Foreign Wars--recognize 
the pressure that the Administration and Congress face; however, we 
believe that the ever-growing demand for health care services certainly 
validates the continued need for sufficient funding. We also understand 
that the VA has fared better than most Federal agencies with regards to 
budget proposals and appropriations. However, we are concerned that 
discretionary funding for the VA is no longer keeping pace with medical 
care inflation or health care demand.
    That being said, we certainly appreciate the increases offered by 
the Administration's budget for FY 2015 and the FY 2016 advance 
appropriations, particularly with regards to health care and benefits 
services. Unfortunately, we have real concerns that the serious lack of 
commitment to infrastructure funding to support the system will 
undermine the VA's ability to deliver those services. Similarly, we 
remain concerned that the funding levels provided by the House and 
Senate Committees on Appropriations in the recently passed omnibus 
appropriations bill will be insufficient to address the continuously 
growing demand for VA health care services.
    Moreover, The Independent Budget co-authors oppose the steps VA has 
taken in recent years in order to generate resources to meet ever-
growing demand on the VA health-care system. The Administration 
continues to rely upon ``management improvements,'' a popular gimmick 
that was used by previous Administrations to generate savings and 
offset the growing costs to deliver care. Unfortunately, these savings 
are often never realized leaving VA short of necessary funding to 
address ever-growing demand on the health-care system.
    Of even greater concern is the fact that the VA continues to 
overproject and underperform with its medical care collections 
estimates. Overestimating collections estimates affords Congress the 
opportunity to appropriate fewer discretionary dollars for the health 
care system. However, when the VA fails to achieve those collections 
estimates, it is left with insufficient funding to meet the projected 
demand. As long as this scenario continues, the VA will find itself 
falling farther and farther behind in its ability to care for those men 
and women who have served and sacrificed for this Nation. In fact, we 
believe that is exactly what is happening now. For example, the VA 
originally projected collections of approximately $3.3 billion in FY 
2013 and FY 2014 and approximately $3.2 billion in FY 2015. Congress 
based its appropriations for the VA for those fiscal years on those 
projected collections. However, the VA subsequently revised its 
estimates anticipating collections of $2.8 billion in both FY 2013, 
$2.9 billion in FY 2014, and less than $3.1 billion for FY 2015. The 
flawed projections estimates and the dollars appropriated by Congress 
in each of those fiscal years suggest that the VA may have received 
$1.0 billion too little in resources during that period. And yet, this 
shortfall has never been addressed through supplemental appropriations.
    Too often in meetings with congressional offices, staff members 
have proclaimed the belief that VA has received too much money. We 
would ask the Committee how that logic passes when we have clearly 
identified a shortfall simply based on faulty collections estimates. 
Similarly, we would ask that the Committee proceed with caution in FY 
2016 as the VA has once again projected a collections estimate of $3.3 
billion despite the fact that its recent performance suggests that it 
will not achieve that level. The fact that the VA continues to 
experience problems with its medical care collections reflects an even 
greater need for Congress to properly analyze, and if necessary, revise 
the advance appropriations from previous years to ensure that the VA 
health care system is getting the resources it actually needs.
                          funding for fy 2015
    For FY 2015, The Independent Budget recommends approximately $61.1 
billion for total medical care, an increase of approximately $3.4 
billion over the FY 2014 operating budget. Meanwhile, the 
Administration recommended in its FY 2015 Budget Request a revised 
advance appropriation estimate for FY 2015 of approximately $56.0 
billion in discretionary funding for VA medical care. This revised 
estimate reflected a projected increase in discretionary funding of 
approximately $368 million over the recently approved advance 
appropriations level. When combined with the approximately $3.1 billion 
revised projection for medical care collections (decreased from $3.2 
billion in last year's estimate), the total available operating budget 
recommended for FY 2015 is approximately $59.1 billion. This reflects 
an increase of $1.7 billion over the previously approved FY 2014 
operating budget, an amount that we believe is inadequate to fully meet 
health care demand.
    The medical care appropriation includes three separate accounts--
Medical Services, Medical Support and Compliance, and Medical 
Facilities--that comprise the total VA health-care funding level. For 
FY 2015, The Independent Budget recommends approximately $49.3 billion 
for Medical Services. Our Medical Services recommendation includes the 
following recommendations:

Current Services Estimate............................... $47,616,189,000
Increase in Patient Workload............................   1,171,260,000
Additional Medical Care Program Costs...................     500,000,000
                    --------------------------------------------------------
                    ____________________________________________________
    Total FY 2014 Medical Services...................... $49,287,449,000
                    ========================================================
                    ____________________________________________________
    Our growth in patient workload is based on a projected increase of 
approximately 87,000 new unique patients--priority groups 1-8 veterans 
and covered nonveterans. We estimate the cost of these new unique 
patients to be approximately $853 million. The increase in patient 
workload also includes a projected increase of 83,350 new Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF), as well as 
Operation New Dawn (OND) veterans at a cost of approximately $318 
million. The increase in utilization among OEF/OIF/OND veterans is 
supported by the average annual increase in new users from FY 2002 
through the 3rd quarter of FY 2013.
    The Independent Budget also believes that there are additional 
projected funding needs for VA. Specifically, we believe there is real 
funding needed to address the array of long-term care issues facing the 
VA, including the shortfall in institutional capacity, and to provide 
additional centralized prosthetics funding (based on actual 
expenditures and projections from the VA's prosthetics service). The 
Independent Budget recommends $375 million directed toward VA long-term 
care programs. In order to support the rebalancing of VA long-term care 
in FY 2015, $125 million should be provided. Additionally, $95 million 
should be targeted at the VA's Veteran Directed-Home and Community 
Based Services (VD-HCBS) program. The remainder of the $375 million 
($155 million) should be dedicated to increasing the VA's long-term 
care average daily census (ADC) to the level mandated by Public Law 
106-117, the ``Veterans Millennium Health Care and Benefits Act.'' In 
order to meet the increase in demand for prosthetics, the IB recommends 
an additional $125 million. This increase in prosthetics funding 
reflects an increase in expenditures from FY 2013 to FY 2014 and the 
expected continued growth in expenditures for FY 2015.
    For Medical Support and Compliance, The Independent Budget 
recommends approximately $6.1 billion. Finally, for Medical Facilities, 
The Independent Budget recommends approximately $5.7 billion. Our 
Medical Facilities recommendation includes the addition of $650 million 
to the baseline for Non-Recurring Maintenance (NRM). The 
Administration's request over the last two cycles represents a wholly 
inadequate request for NRM funding, particularly in light of the actual 
expenditures that are outlined in the budget justification. In fact, 
the VA's FY 2015 and FY 2016 advance appropriations request for 
infrastructure is wholly insufficient (a topic that will be addressed 
by the VFW in its statement to the Committee), particularly with 
regards to Major and Minor Construction and Non-Recurring Maintenance 
(NRM). The VA continues to slash funding for NRM as evidenced by the 
rapidly decreasing estimates for Medical Facilities. And yet, the VA 
admits in its own documents that it spends between $1.3 billion and 
$1.4 billion per year on NRM. Similarly, we are extremely disappointed 
that the VA has requested such a laughable funding level for Major and 
Minor Construction, particularly considering the rapidly advancing age 
and condition of its infrastructure. It is time for Congress to take 
the necessary steps to reverse this course before the VA system 
collapses on itself.
    The Independent Budget co-authors have ongoing concerns about the 
lack of investment in Medical and Prosthetic Research. While we 
recognize that the Administration requested an increase in the research 
account for FY 2015, the $3 million increase does not even keep pace 
with inflation. If the VA is to remain a world leader in research, it 
is imperative that the Administration get serious about requesting real 
dollars and that Congress provide adequate resources to continue those 
efforts. With this point in mind, The Independent Budget recommends 
$611 million for Medical and Prosthetic Research funding for FY 2015. 
Similarly, we recommend at least $50 million in Major Construction and 
$175 million in Minor Construction and NRM to address the deteriorating 
state of VA research infrastructure. Failure to make these investments 
will undermine the VA's ability to continue to attract the best medical 
professionals into the research field and promote cutting edge 
advancements to benefit the men and women who have made great physical 
and mental sacrifices in defense of this Nation.
                   advance appropriations for fy 2016
    Just as we did for the first time last year, The Independent Budget 
once again offers baseline projections for funding through advance 
appropriations for the medical care accounts for FY 2016. While we have 
previously deferred to the Administration and Congress to provide 
sufficient funding through the advance appropriations process, we have 
growing concerns that this responsibility is not being taken seriously.
    For FY 2016, The Independent Budget recommends approximately $62.5 
billion for total medical care. The Administration's Budget Request 
includes approximately $62.0 billion for total medical care--$58.7 
billion in discretionary spending and approximately $3.3 billion in 
medical care collections. We appreciate the fact that the 
Administration has offered a substantial increase in health care 
funding from FY 2015 to FY 2016 (as a part of its advance 
appropriations request).
    For FY 2016, The Independent Budget recommends approximately $50.8 
billion for Medical Services. Our Medical Services recommendation 
includes the following recommendations:

Current Services Estimate............................... $49,193,067,000
Increase in Patient Workload............................   1,074,225,000
Additional Medical Care Program Costs...................     510,000,000
                    --------------------------------------------------------
                    ____________________________________________________
    Total FY 2015 Medical Services...................... $50,777,292,000
                    ========================================================
                    ____________________________________________________
    Our growth in patient workload is based on a projected increase of 
approximately 67,000 new unique patients--priority groups 1--8 veterans 
and covered nonveterans. We estimate the cost of these new unique 
patients to be approximately $746 million. The increase in patient 
workload also includes a projected increase of 83,350 new Operation 
Enduring Freedom and Operation Iraqi Freedom (OEF/OIF), as well as 
Operation New Dawn (OND) veterans at a cost of approximately $328 
million.
    Last, The Independent Budget believes that there are additional 
projected funding needs for VA. For FY 2016, we believe that an 
additional $375 million should be invested to address the spectrum of 
long-term care issues within the VA. Additionally, we believe that a 
continued increase in centralized prosthetics funding will be 
essential. In order to meet the continued increase in demand for 
prosthetics, the IB recommends an additional $135 million.
    For Medical Support and Compliance, The Independent Budget 
recommends approximately $6.0 billion. Finally, for Medical Facilities, 
The Independent Budget recommends approximately $5.7 billion. Our 
Medical Facilities recommendation includes the addition of $900 million 
to the baseline for Non-Recurring Maintenance (NRM). Last year, the 
Administration's recommendation for NRM reflected a projection that 
would place the long-term viability of the health care system in 
serious jeopardy.
               advance appropriations for all va accounts
    The Independent Budget co-authors are concerned that the broken 
appropriations process continues to have a negative impact on the 
operations of the VA. Once again this year Congress failed to fully 
complete the appropriations process in the regular order. In fact, many 
Federal operations were shuttered as part of a partial government 
shutdown in October 2013. This had a significant negative impact on 
many of the services provided by the VA. While VA health care was 
shielded from this political disaster, benefits services, research 
activities, and general operations for the rest of the VA were 
impacted. Additionally, many of the operations that support the health 
care system, particularly through the Information Technology system, 
were negatively impacted complicating the VA's ability to delivery 
timely, quality health care.
    We also have real concerns about the advance appropriations process 
as it currently functions. Our intent for this process was for the 
Administration to request an advance appropriation for a given fiscal 
year (two years ahead of the start of that fiscal year), and then 
revise that recommendation in its next budget request immediately prior 
to the start of the fiscal year in question. We appreciate the fact 
that the Administration's FY 2015 Budget Request does include a 
significant revision for Medical Services reflecting an increased need 
for funding of approximately $368 million. However, during past budget 
cycles, the Administration has offered very little revision in its 
advance appropriations requests essentially asking for the same funding 
level. Moreover, we believe that Congress has not done its due 
diligence to adequately analyze the advance appropriations 
recommendations and make any necessary changes through supplemental 
appropriations. In fact, once Congress has approved an advance 
appropriations level for VA, it has not revised its previous years' 
decision in any appreciable way. This undermines the principle benefit 
of advance appropriations--having additional time to ensure that 
sufficient funds are provided.
    With this in mind, we call on Congress to immediately approve 
legislation that would extend advance appropriations to all VA 
discretionary and mandatory appropriations accounts. Advance 
appropriations have shielded VA health care from most of the harmful 
effects of the partisan bickering and political gridlock that has 
paralyzed Washington in recent years. Now Congress must provide the 
same protections to all remaining discretionary programs, including 
Medical and Prosthetic Research, General Operating Expenditures, 
Information Technology, the National Cemetery Administration, Inspector 
General, Major Construction, Minor Construction, State Home 
Construction Grants, State Cemetery Grants and other discretionary 
accounts, and all mandatory funded programs, including disability 
compensation, pension, education benefits, and dependency and indemnity 
compensation.
    Chairman Sanders, the co-authors of The Independent Budget 
sincerely appreciate your commitment to this effort. Similarly, we 
applaud Senator Boozman and Senator Begich for leading this effort in 
the Senate by introducing S. 932, the ``Putting Veterans Funding First 
Act.'' We commit to you our steadfast support to see this legislation 
through to final passage and enactment. Enactment of S. 932 will 
generally free all VA services from the political gridlock that has 
crippled the appropriations process in Congress.
    In the end, it is easy to forget that the people who are ultimately 
affected by wrangling over the budget are the men and women who have 
served and sacrificed so much for this Nation. We hope that you will 
consider these men and women when you develop your budget views and 
estimates, and we ask that you join us in adopting the recommendations 
of The Independent Budget.

    This concludes our statement. We would be happy to answer any 
questions you may have.

      

                                  [all]
                                  
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
